<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2017 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-658, Part 7]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 114-658, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                     FEBRUARY 9, 23; APRIL 13, 2016
                     
                     
                     
                     
                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            

                     
                     


         Printed for the use of the Committee on Armed Services
         
         
         
         
         
         
         
         


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
  2017 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 7  STRATEGIC FORCES







                                                 S. Hrg. 114-658, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                     FEBRUARY 9, 23; APRIL 13, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-093 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001             
  
  
        



                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman         JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                BILL NELSON, Florida
JEFF SESSIONS, Alabama                   CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi             JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire              JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                    KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                     RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota                JOE DONNELLY, Indiana
JONI ERNST, Iowa                         MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina              TIM KAINE, Virginia
DAN SULLIVAN, Alaska                     ANGUS S. KING, JR., Maine
MIKE LEE, Utah                           MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                         
                                     
                                     
                    Christian D. Brose, Staff Director
                    Elizabeth L. King, Minority Staff Director
             
                               ____________

                   Subcommittee on Strategic Forces,

 JEFF SESSIONS, Alabama, Chairman      JOE DONNELLY, Indiana
JAMES M. INHOFE, Oklahoma              BILL NELSON, Florida
DEB FISCHER, Nebraska                  JOE MANCHIN III, West Virginia
MIKE LEE, Utah                         ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina         MARTIN HEINRICH, New Mexico
TED CRUZ, Texas                      
                                     
 
                                  (ii)


                         C O N T E N T S
                             _________
                             
                            February 9, 2016

                                                                   Page

Nuclear Acquisition Programs and the Nuclear Doctrine............     1
Scher, Honorable Robert M., Assistant Secretary of Defense for        3
  Strategy, Plans and Capabilities.
Hopkins, Arthur T., Ph.D., Acting Principal Deputy Assistant          8
  Secretary of Defense for Nuclear, Chemical and Biological 
  Defense Programs.
Rand, General Robin, USAF, Commander, Air Force Global Strike        13
  Command.
Benedict, Vice Admiral Terry J., USN, Director, Strategic Systems    22
  Programs.

                           February 23, 2016

Atomic Energy Defense Activities and Programs....................    45

Klotz, Honorable Frank G., Under Secretary for Nuclear Security,     47
  Department of Energy.
Regalbuto, Honorable Monica C., Assistant Secretary of Energy for    59
  Environmental Management, Department of Energy.
Trimble, David C. Director, U.S. and International Nuclear           66
  Security and Cleanup, Government Accountability Office.

Questions for the Record.........................................   116

                             April 13, 2016

Ballistic Missile Defense Policies and Programs..................   135

McKeon, Honorable Brian P., Principal Deputy Under Secretary of     138
  Defense for Policy, Department of Defense.
Gortney, Admiral William E., USN, Commander, U.S. Northern          144
  Command, and Commander, North American Aerospace Defense 
  Command.
Syring, Vice Admiral James D., USN, Director, Missile Defense       148
  Agency, Department of Defense.
Mann, Lieutenant General David L., USA, Commanding General, U.S.    163
  Army Space and Missile Defense Command/Army Forces Strategic 
  Command and Joint Functional Component Command for Integrated 
  Missile Defense.

Questions for the Record.........................................   196

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       TUESDAY, FEBRUARY 9, 2016

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

         NUCLEAR ACQUISITION PROGRAMS AND THE NUCLEAR DOCTRINE

    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Present: Senators Sessions, Fischer, Donnelly, and 
Heinrich.

           OPENING STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. The Strategic Forces Subcommittee 
convenes today to receive testimony on the Department of 
Defense nuclear acquisition programs and nuclear policy in 
review of the defense authorization request for fiscal year 
2017.
    We know from Secretary of Defense Carter that our nuclear 
deterrent is the foundation and the bedrock of our security. 
``No other capability we have is more important,'' said his 
predecessor, Chuck Hagel.
    We also recognize that a consistent lack of investment and 
support for our nuclear forces over many decades has left us 
with little margin to spare as we recapitalize the force. As 
Secretary Work told Congress just seven months ago in an 
important comment, ``The choice right now is modernizing or 
losing deterrent capability in the 2020s and 2030s. That is the 
stark choice that we face.''
    The case for nuclear modernization is made more urgent by 
recent developments in the strategic environment. In previewing 
the fiscal year 2017 budget request, Secretary Carter warned 
that we are witnessing a return to great power competition. 
That is a historic event that we have to recognize.
    According to the Secretary, Russian aggression in Europe 
and the rise of China in the Asia-Pacific region are two 
primary challenges now driving the focus of the Defense 
Department planning and budgeting, with North Korea and Iran 
following closely behind.
    These are four nuclear nations, all expanding their 
capabilities in nuclear programs.
    In addition to expanding their conventional military 
capabilities, both Russia and China are making significant 
investments in their strategic capabilities, expanding the role 
of nuclear weapons in their overall security strategy. Russia 
has gone so far as to make direct nuclear threats against the 
United States and its allies while President Putin warns, ``I'm 
surprising the West with our new developments in offensive 
nuclear weapons.''
    It is not just China and Russia. Admiral Haney, Commander 
of the Strategic Command, observed in January that, ``For the 
foreseeable future, other nations are placing high priority on 
developing, sustaining, and modernizing their nuclear forces.''
    Obviously, the vision that we had and many had that 
unilateral restraint and even reduction of our nuclear weapons 
stockpile and capabilities would encourage others to follow on 
that path has not proved effective.
    Congress has provided sustained support for the President's 
entire nuclear modernization program, and I expect us to 
continue despite obvious budget pressures. This country can and 
should be able to afford 5 percent to 6 percent of our national 
defense spending to maintain and recapitalize our nuclear 
forces over the next 10 years.
    We should acknowledge, however, that the DOD and the 
Department of Energy nuclear modernization programs over the 
next 10 to 20 years are fragile, in the words of Under 
Secretary of Defense Frank Kendall, and that ``any funding 
reductions at this point could pose unacceptable risk to the 
health of the nuclear enterprise.''
    I believe we have a bipartisan commitment not to make this 
mistake. I really do. I am optimistic about our ability to make 
the right choices. I think the President is proposing 
reasonable goals, and I think our Congress and Senate will 
support that.
    In recent press reports, if they are correct, Secretary 
Moniz, the Secretary of Energy, has warned that underfunding in 
the out-years will put the NNSA [National Nuclear Security 
Administration] budget in an untenable position by 2018.
    But make no mistake, the United States Government will do 
what is necessary to preserve a strong and effective nuclear 
deterrent that should be feared and respected by potential 
adversaries, and welcomed by U.S. allies who depend on the 
United States for their security.
    The venerable principle of peace through strength remains 
true. There must be no doubt that the greatest military in the 
world has the capacity and the will to defend itself against 
any attack, and will not cower or be intimidated.
    I will now turn to my able ranking member for any comments 
that he might have.
    Senator Donnelly?

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman.
    I would like to thank today's witnesses for appearing at 
this hearing.
    Assistant Secretary Scher and General Rand, I understand 
this is your first appearance. Welcome.
    Today's hearing occurs almost two years after the cheating 
incident at Malmstrom that resulted in Secretary Hagel's 
nuclear enterprise review. While there is much criticism of 
this event, it has, I believe, resulted in a positive effort 
for the DOD [Department of Defense] nuclear enterprise. It 
resulted in a deep discussion of our Nation's ability to 
maintain its deterrence posture by concentrating on our airmen 
and sailors first, and the means to support them.
    I hope today's hearing continues to understand the progress 
in this area.
    We had a hearing two weeks ago with a number of former 
deputy assistant secretaries, going back to 1992, who were 
responsible for the policy of our deterrence mission. I want to 
continue that discussion with those of you to understand your 
views on issues associated with our nuclear posture and with 
recent changes occurring in Europe and NATO.
    I am also looking forward to hearing input from our 
witnesses on how we can best manage costs to undertake the 
necessary modernization of our nuclear triad in the years to 
come. I am particularly interested in hearing your feedback 
today on how we can best leverage commonality across the 
services to reduce risk, enhance capabilities, and manage 
costs, starting with Air Force and Navy ballistic missiles.
    Senator Sessions, thank you for arranging this hearing. I 
look forward to today's discussion.
    Senator Sessions. Thank you, Senator Donnelly.
    This is the order that we will go in: Secretary Scher, Dr. 
Hopkins, General Rand, and Admiral Benedict. I will introduce 
Mr. Scher first.
    Mr. Robert Scher has been the Assistant Secretary of 
Defense for Strategy, Plans, and Capabilities since December 
2014. He is responsible for advising the Secretary of Defense 
and the Under Secretary of Defense for Policy on national 
security and defense strategy forces, contingency plans, and, 
most relevant for today, nuclear deterrence and missile defense 
policy.
    He is well-positioned to understand the relationship 
between nuclear weapons and U.S. defense strategy.
    Mr. Scher, Secretary, we are pleased to hear from you now.

STATEMENT OF HONORABLE ROBERT M. SCHER, ASSISTANT SECRETARY OF 
          DEFENSE FOR STRATEGY, PLANS AND CAPABILITIES

    Secretary Scher. Chairman Sessions, Ranking Member 
Donnelly, thank you for the opportunity to testify on U.S. 
nuclear policy and strategy, and to frame the budget's fiscal 
year 2017 budget request on these issues within the context of 
today's security environment. Your continuing support for 
nuclear sustainment and the modernization plan is essential to 
ensuring the effectiveness of our nuclear deterrent forces.
    As you said, last week, Secretary Carter, in previewing the 
budget, identified five evolving security challenges that have 
driven the focus of the Defense Department's planning and 
budgeting this year. Each, in fact, as you say, does have a 
nuclear dimension that our policy and strategy must address.
    Two of these challenges reflect a return to great power 
competition in these regions where we face nuclear-armed 
potential adversaries that can pose an existential threat to 
the United States and to our allies.
    Russia has undertaken aggressive actions in Crimea and 
elsewhere in Ukraine, adopted a pattern of reckless nuclear 
posturing and coercive threats, and remains in violation of the 
Intermediate Nuclear Forces Treaty.
    China continues its rise in the Asia-Pacific and is 
introducing qualitative advances into its nuclear capabilities.
    I also must also note that North Korea, a threat both to us 
and our allies, just conducted a space launch and, recently, 
its fourth nuclear test.
    While the President's ultimate goal is a world without 
nuclear weapons, he has been consistent and clear in his 
commitment to maintain a safe, secure, and effective nuclear 
arsenal for as long as nuclear weapons exist. Effective 
deterrence requires that our nuclear capabilities and posture 
provide the ability to implement U.S. defense strategy, 
preserve that strategy's credibility, and reinforce overall 
strategic stability.
    Our approach is to maintain a deterrent that is an 
inherently robust and stable rather than one that is simply 
reactive to every action of a potential adversary. This 
approach remains best served by sustaining a full nuclear triad 
and dual-capable aircraft with a diverse range of nuclear 
explosive yields and delivery methods.
    The triad and DCA [Defense Contracting Agency] provide the 
credibility, flexibility, and survivability to meet and adapt 
to the challenges of a dynamic 21st Century security 
environment without the need to mirror every potential 
adversary system for system or yield for yield.
    As the invite letter noted, deterring nuclear use in 
regional conflicts will be one of the challenges that we face 
for the foreseeable future. We must be able to deter not only 
large-scale nuclear attacks, the predominant focus during the 
Cold War, but also limited nuclear attack and deliberate 
nuclear escalation by an adversary that might arise out of a 
conventional regional conflict.
    Our strategy for deterrence of a large-scale nuclear attack 
is well-established, so here I would like to touch on four 
important elements of a regional deterrence strategy aimed at 
minimizing the likelihood an adversary will choose nuclear 
escalation.
    First, the United States extends nuclear deterrence to 
certain allies. These formal security arrangements are both a 
clear representation of our commitment to defend these allies 
and serve as a means to strengthen that commitment in the minds 
of both our allies and potential adversaries.
    Second, we are working to ensure an appropriate level of 
integration between nuclear and conventional planning and 
operations for regional conflicts. Now, this type of 
integration does not mean lowering the threshold for United 
States nuclear use. Rather, integration means conventional 
operations must be planned and executed with deliberate thought 
as to how they shape the risk that the adversary will choose 
nuclear escalation. Similarly, nuclear planning needs to 
account for the possibility of ongoing U.S. and allied 
conventional operations.
    The integration really means also that we must strengthen 
the resiliency of conventional operations to a nuclear attack 
along with being prepared to restore deterrence following any 
adversary nuclear use.
    Third, effective regional deterrence requires a balanced 
approach to escalation risk that deters escalation, but also 
prepares for the possibility that deterrence might fail. We 
accept that plans should not assume that we can control 
escalation.
    There is no doubt that Russia's purported doctrine of 
nuclear escalation to de-escalate a conventional conflict 
amounts to a reckless gamble for which the odds are 
incalculable and the outcome potentially catastrophic. Our 
plans are developed to try to avoid such an outcome, but we 
have to be prepared if Russia creates a conflict and drives it 
across that nuclear threshold.
    If deterrence fails and nuclear use occurs, we do not want 
to simply assume that once the nuclear threshold has been 
crossed, that escalation cannot be limited. Possessing options 
for responding to limited use with nuclear and/or conventional 
means, and making clear we have these options, makes credible 
our message that escalating to de-escalate will ultimately be 
unsuccessful.
    Finally, and as a result of the three previous points, we 
must sustain our diverse set of U.S. nuclear capabilities to be 
credible in ensuring we maintain regional deterrence and 
assurance, as well as the Cold War-era of deterrence.
    The administration's nuclear sustainment and modernization 
plan sustains this broad set of capabilities and is necessary 
for sustaining effective deterrence. Our plans are affordable, 
if prioritized appropriately by the department, the Congress, 
and the Nation, and we seek your help to continuing this.
    To be clear, as you noted from the Deputy Secretary, our 
choice is not between keeping our current forces or modernizing 
them. Rather, the choice is between modernizing these forces or 
watching a slow and unacceptable degradation in our 
capabilities, bringing on degradation in our ability to deter.
    We in the department look forward to your continuing 
support in our collective efforts to ensure the United States 
is able to meet the security challenges we face today and those 
ahead. Thank you again for the opportunity to testify, and I 
look forward to your questions.
    [The prepared statement of Secretary Robert Scher follows:]

              Prepared Statement by Secretary Robert Scher
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
Members of the Subcommittee, thank you for the opportunity to testify 
on U.S. nuclear policy and strategy, and to frame the President's 
fiscal year (FY) 2017 budget request within the context of today's 
dynamic security environment. Your support for the nuclear sustainment 
and modernization plan it funds is essential to ensuring the 
effectiveness of our nuclear deterrent forces.
                          security environment
    Last week Secretary Carter identified five evolving security 
challenges that have driven the focus of the Defense Department's 
planning and budgeting this year. Each has a nuclear dimension that our 
policy and strategy must address.
    Two of these challenges reflect a return to great power 
competition, in regions where we face nuclear-armed potential 
adversaries that can pose an existential threat to the United States 
and our allies. Russia has undertaken aggressive actions in Crimea and 
elsewhere in Ukraine, and adopted a pattern of reckless nuclear 
posturing and coercive threats. Russia remains in violation of the 
Intermediate Nuclear Forces (INF) Treaty and remains unwilling to join 
us in discussing further reductions in strategic nuclear weapons below 
the limits of the New START Treaty.
    China continues its rise in the Asia-Pacific, where we continue our 
rebalance to maintain regional stability. China continues to introduce 
qualitative advances into its nuclear capabilities. North Korea--a 
threat to both us and our allies--just conducted its fourth nuclear 
test and conducted a space launch. As we work to counter Iran's malign 
influence against our friends and allies in the Middle East, we must 
also prevent Iran from reversing course on its commitments under the 
nuclear deal. Finally, denying terrorists access to nuclear weapons and 
weapon-usable materials is an absolute imperative in the ongoing fight 
to defeat terrorism.
                          effective deterrence
    While his ultimate goal is a world without nuclear weapons, the 
President has been consistent and clear in his commitment to maintain a 
safe, secure, and effective nuclear arsenal for as long as nuclear 
weapons exist. The Department of Defense and the National Nuclear 
Security Administration (NNSA) work closely together to maintain the 
safety and security of our nuclear forces at the lowest levels possible 
while still retaining a full set of options to respond to and address 
the potential threats we face. I will focus today on the third of these 
elements--ensuring the effectiveness of our nuclear deterrent.
    Effective deterrence means convincing any potential adversary that 
attacking the United States or its allies would bring risk that far 
outweighs any expected benefits of aggression. This requires that our 
nuclear capabilities and posture provide the ability to implement U.S. 
deterrence strategy, preserve the strategy's credibility, and reinforce 
strategic stability. Maintaining the ability to achieve the President's 
objectives if deterrence fails strengthens the credibility of our 
strategy.
    Our approach to meeting the range of challenges we now face or 
might face in the future is to maintain a deterrent that is robust and 
stable, rather than one that is necessarily reactive to every action of 
potential adversaries. This remains best served by sustaining a full 
nuclear Triad and Dual-Capable Aircraft (DCA) with a diverse range of 
nuclear explosive yields and delivery modes. The Triad and DCA provide 
the credibility, flexibility, and survivability to meet and adapt to 
the challenges of a dynamic 21st Century security environment, without 
the need to mirror every potential adversary, system-for-system and 
yield-for-yield. Further, we believe we can meet current military 
requirements without developing new nuclear warheads or new military 
capabilities and we continue to manage our nuclear modernization 
consistent with those policy directives.
              deterring nuclear use in regional conflicts
    Deterring nuclear use in regional conflicts will remain one of 
those challenges for the foreseeable future. We must be able to deter 
not only large-scale nuclear attack, but also limited nuclear attack 
and deliberate nuclear escalation arising out of conventional regional 
conflict. I would like to touch on four important elements of a 
regional deterrence strategy aimed at minimizing the likelihood that an 
adversary will choose nuclear escalation. Together, these elements help 
convey that we won't let an adversary escalate its way to victory, 
split our alliances, achieve a favorable military situation, or coerce 
us out of protecting our vital interests.
    First, we extend nuclear deterrence to certain allies. These formal 
security arrangements are both a representation of our commitment and, 
by explicitly putting U.S. credibility on the line, they are a means of 
strengthening that commitment in the minds of allies and potential 
adversaries.
    Second, we are working to ensure an appropriate level of 
integration between nuclear and conventional planning and operations. 
This type of integration does not mean lowering the threshold for U.S. 
nuclear use, turning to nuclear weapons to further a conventional 
campaign, or increasing our reliance on nuclear weapons. Rather, 
integration means conventional operations must be planned and executed 
with deliberate thought as to how they shape the risk that the 
adversary will choose nuclear escalation. Similarly, nuclear planning 
needs to account for the possibility of ongoing U.S. and allied 
conventional operations. Integration also means strengthening the 
resiliency of conventional operations to nuclear attack. Conventional 
resiliency preserves Presidential flexibility in the face of limited 
nuclear use by providing the option of continuing the conventional 
fight even after the adversary chooses to escalate. We should not be in 
the position of forcing the President to choose between a nuclear-only 
response and a conventional-only response, allowing the adversary, not 
us, to dictate the means of the conflict. Finally, integration means 
being prepared to restore deterrence following adversary nuclear use, 
so that failure to deter first use does not translate into failure to 
deter subsequent nuclear use.
    Third, effective regional deterrence requires a balanced approach 
to escalation risk that deters escalation but also prepares for the 
possibility that deterrence might fail. We accept and convey the 
reality that no one can count on controlling escalation. Russia's 
purported doctrine of nuclear escalation to deescalate a conventional 
conflict amounts to reckless gamble for which the odds are incalculable 
and the outcome could prove catastrophic. Any resort to nuclear weapons 
would be the ultimate form of escalation. However, we have to be 
prepared if Russia creates a conflict and drives it across the nuclear 
threshold; we do not want to simply assume that once the nuclear 
threshold has been crossed that escalation cannot be limited. We are 
tasked with providing the President with credible options for 
responding to nuclear threats and nuclear aggression, including 
responding to limited nuclear use as noted, with nuclear and/or 
conventional means. Both aspects of this balanced approach are mutually 
reinforcing. Possessing a range of options for responding to limited 
use makes credible our message that escalating to deescalate is 
dangerous and will ultimately be unsuccessful.
    Fourth, sustaining a diverse set of U.S. nuclear capabilities is 
essential for the role they play in regional deterrence and assurance. 
A strategy of relying on large-scale nuclear response is credible and 
effective for deterring large-scale nuclear attack, particularly 
against one's homeland, but it is far less credible in the context of 
limited adversary use, particularly against an ally or U.S. forces 
operating abroad. Retaining more diverse nuclear options gives us the 
ability to minimize collateral damage in the event the President 
determines that a nuclear response is required. This, however, does not 
mean a lower nuclear threshold or higher likelihood of U.S. nuclear 
use. Indeed, the United States has long maintained a high threshold for 
nuclear use together with a diverse range of nuclear forces and 
response options.
                 sustainment and modernization program
    The Administration's nuclear sustainment and modernization plan is 
necessary for sustaining effective deterrence, and it is affordable if 
prioritized appropriately by the Department, the Congress, and the 
Nation. It is essential that Congress support the President's fiscal 
year 2017 budget request and Future Years Defense Program (FYDP) for 
nuclear weapon-related activities. Further delays to the program would 
put the safety, security, and effectiveness of our nuclear forces at 
significant and unacceptable risk.
    To be clear, our choice is not between keeping or modernizing the 
current forces. Rather, the choice is between modernizing those forces 
or watching a slow and unacceptable degradation in our ability to 
deter.
    Our systems have already been in use decades past their intended 
service lives. Delaying modernization and warhead life-extension would 
diminish the size and degrade the capabilities of our nuclear forces 
until they age out of service entirely. National security decisions and 
arms control agreements, rather than a failure to sustain and 
modernize, should determine the size and shape of our deterrent 
capabilities.
    The fiscal year 2017 budget request funds warhead life extension 
and sustainment and recapitalization within the strategic submarine 
(SSBN) force, the intercontinental ballistic missile (ICBM) force, the 
strategic bomber force, and our DCA. This includes the B61-12 bomb 
Life-Extension Program (LEP), and development of a Long-Range Standoff 
missile (LRSO) to replace the aging Air-Launched Cruise Missile (ALCM). 
The B61-12 and LRSO are necessary to sustain existing military 
capabilities, not to provide new ones.
    The President's approach to nuclear sustainment and modernization 
is consistent with his nonproliferation and disarmament objectives. The 
fiscal year 2017 budget request and FYDP support a program that 
sustains a safe, secure, and effective nuclear deterrent; reduces the 
numbers and types of weapons; retains leverage for future arms control 
agreements; and assures allies they don't need their own nuclear 
arsenals. The current nuclear stockpile is a dramatic departure from 
the Cold War, in terms of both numbers and types of weapons. The B61-12 
LEP will go further by consolidating four existing bomb variants and 
allowing eventual retirement of the B83 strategic bomb, the last 
megaton-class weapon in the stockpile. We are retaining only those 
capabilities we need to sustain stable and effective deterrence.
    We look forward to your continuing support in our collective 
efforts to ensure the U.S. is able to meet the security challenges we 
face today, and those ahead. Thank you again for the opportunity to 
testify. I look forward to your questions.

    Senator Sessions. Thank you, Secretary Scher.
    Dr. Arthur Hopkins is the Principal Deputy Assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs. He advises Under Secretary of Defense for 
Acquisition, Technology and Logistics in all manners across the 
nuclear, chemical, and biological defense portfolio.
    He supports Under Secretary Kendall in his role as chairman 
of the Nuclear Weapons Council, which we hope continues to 
provide good leadership, and is, therefore, knowledgeable about 
the acquisition schedules for nuclear modernization programs in 
the Department of Defense.
    Dr. Hopkins, thank you.

STATEMENT OF ARTHUR T. HOPKINS, Ph.D., ACTING PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY OF DEFENSE FOR NUCLEAR, CHEMICAL AND 
                  BIOLOGICAL DEFENSE PROGRAMS

    Dr. Hopkins. Chairman Sessions, Ranking Member Donnelly, 
and distinguished members of the subcommittee, thank you for 
this opportunity to discuss the department's 2017 budget 
request for nuclear deterrence systems.
    In addition to serving as Principal Deputy Assistant for 
Nuclear, Chemical, and Biological Defense Programs, I am the 
acting staff director for the Nuclear Weapons Council. The 
council provides an overarching, coordinated vision and 
strategy for the nuclear enterprise, and it synchronizes the 
Departments of Defense and Energy efforts to ensure a safe, 
secure, reliable, and effective stockpile.
    The Nation's nuclear forces are the department's highest 
priority. The nuclear mission continues to be fundamental to 
our Nation's security strategy, and it ensures that we maintain 
our extended deterrence commitments to our allies.
    The council has developed a strategic plan to integrate all 
three components of the nuclear enterprise--warheads, 
platforms, and infrastructure. Portions of the plan are well 
underway, including production of the W76-1 refurbished warhead 
and the design engineering for the W88 warhead modernization--
both of those are for the Navy's submarine launched ballistic 
missiles--as well as the B61-12 bomb life-extension for 
strategic missions and extended deterrence.
    In fiscal year 2017, the National Nuclear Security 
Administration, NNSA, will continue to deliver W76-1 warheads 
for the Navy's Trident D5 missiles and will complete production 
in fiscal year 2019.
    The W88 warhead alteration effort, also for the D5 missile, 
is on schedule to deliver the first production unit in December 
2019.
    The B61 bomb life-extension program is also on schedule to 
deliver a first production unit in March 2020. The B61-12 will 
enable a reduction in the total number and types of nuclear 
weapons in the stockpile.
    Modernizing our nuclear delivery platforms is also 
essential to nuclear deterrence. In fiscal year 2017, the 
Defense Department plans to continue funding for several 
delivery systems: first, the Ohio-class submarine replacement 
and its Trident D5 life-extended missile; second, sustainment 
of the Minuteman III intercontinental ballistic missile and its 
follow-on capabilities, the ground-based strategic deterrent; 
third, upgrades to the B-2 and B-52H heavy bombers; fourth, the 
development of a long-range strike bomber; and finally, the 
development of a long-range standoff cruise missile to replace 
the aging air-launched cruise missile.
    The department will ensure alignment of cruise missile 
development with the associated nuclear warhead life-extension 
program, the W80-4, that is being executed by the Department of 
Energy.
    With respect to the Nation's nuclear enterprise, the 
reviews conducted in 2014 identified a number of longstanding 
systemic issues that continue to be addressed. The department's 
fiscal year 2017 budget request includes significant resources 
for enterprise improvements.
    The strategy also requires investment in the Department of 
Energy nuclear infrastructure. The department supports National 
Nuclear Security Administration efforts to achieve a responsive 
infrastructure for the future stockpile.
    Our fiscal year 2017 budget request is critically important 
for sustaining and revitalizing the Nation's nuclear deterrent. 
We ask that you support both the Departments of Defense and 
Energy budget requests in this area.
    My written testimony has more detail, and I ask that it be 
included in the record of this meeting. Thank you.
    [The prepared statement of Dr. Hopkins follows:]

              Prepared Statement by Dr. Arthur T. Hopkins
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
members of the Subcommittee, thank you for the opportunity to testify 
before you today on the fiscal year (FY) 2017 budget request for 
nuclear forces. I am pleased to join Assistant Secretary Scher, Vice 
Admiral Benedict, and General Rand to discuss the Department of 
Defense's (DOD) number one mission: maintaining a safe, secure, and 
effective nuclear deterrent for as long as nuclear weapons exist.
    As the Principal Deputy Assistant Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs and the Nuclear Weapons 
Council (NWC) Staff Director, I work directly for the Under Secretary 
of Defense for Acquisition, Technology and Logistics (AT&L), and advise 
the Department's senior leadership on nuclear matters. The Under 
Secretary has a dual role in overseeing systems acquisition in the 
nuclear enterprise: leading the Department's efforts to acquire the 
strategic nuclear weapons delivery and command and control systems 
required to meet the operational needs of our Armed Forces, and leading 
the NWC to address life extension programs (LEPs) related to nuclear 
warhead sustainment and the aging nuclear infrastructure required for 
component and material production. The NWC is a joint DOD and 
Department of Energy (DOE)/National Nuclear Security Administration 
(NNSA) council established to facilitate cooperation and coordination, 
reach consensus, and institute priorities between the two departments 
as they fulfill their responsibilities for U.S. nuclear weapons 
stockpile management.
    To ensure the continued credibility and reliability of our nuclear 
deterrent in an increasingly complicated and challenging world, it is 
essential that Congress support the President's fiscal year 2017 budget 
request for nuclear weapons-related activities. This budget request 
demonstrates the Department's commitment to strengthening and 
modernizing the nuclear Triad. Today, I will summarize the DOD and NWC 
perspectives on, and priorities for, warhead life extension, nuclear 
weapon delivery systems modernization and replacement, nuclear 
enterprise infrastructure modernization, stockpile sustainment, and the 
challenges we face today and tomorrow to ensure a safe, secure, 
effective, and reliable nuclear stockpile.
                     nuclear enterprise challenges
    The NWC convenes to ensure synchronization of the Departments' 
vision, strategies, and schedules of the nuclear enterprise programs. 
Specifically, the Council focuses its attention on nuclear enterprise 
challenges in four vital areas. First, we must maintain and strengthen 
our ability to extend the lives of aging warheads, as the majority of 
today's nuclear weapons and delivery systems have surpassed their 
initial design life. This is accomplished through comprehensive 
component reuse, refurbishment, and replacement, while we ensure 
alignment with existing and future delivery systems (Table 1 summarizes 
the current and future nuclear weapons stockpile). Second, we must 
safeguard our ability to provide the rigorous science and engineering 
expertise required to assess the aging nuclear weapons stockpile, and 
certify the safety and effectiveness of that stockpile without 
underground nuclear testing. Third, we must remain steadfast in our 
commitment to sustain and modernize our aging infrastructure that 
provides materials, components, and testing facilities essential to our 
nuclear deterrent enterprise. Fourth, the DOD must address the 
challenges of sustaining and modernizing all parts of our nuclear force 
structure, and we must ensure that the Nation's nuclear weapons 
sustainment programs and delivery system modernization programs are 
funded and aligned.

                               Table 1.--The Current and Future Triad Composition
----------------------------------------------------------------------------------------------------------------
                                                ICBM                      SLBM                   Air-Leg
----------------------------------------------------------------------------------------------------------------
                                                                        Current
                                     ---------------------------------------------------------------------------
Weapon System.......................  W87 Warhead               W76 Warhead              B61 Bomb
                                      W78 Warhead               W88 Warhead              B83 Bomb
                                                                                         W80-1 Warhead
----------------------------------------------------------------------------------------------------------------
Delivery System.....................  Minuteman III             Trident II D5            B-2A
                                                                                         B-52H
                                                                                         F15/F16
                                                                                         ALCM \1\
                                     ---------------------------------------------------------------------------
                                                                        Future
                                     ---------------------------------------------------------------------------
Weapon System.......................  IW-1\2\                   IW-1                     B61-12 Bomb
                                      IW-2                      IW-2                     W80-4 Warhead
                                      IW-3                      IW-3
----------------------------------------------------------------------------------------------------------------
Delivery System.....................  GBSD\3\                   D5 Follow-on             B-2A
                                                                                         B-52H
                                                                                         F-35
                                                                                         LRSB\4\
                                                                                         LRSO\5\
----------------------------------------------------------------------------------------------------------------
\1\ Air-Launched Cruise Missile
\2\ Interoperable Warhead
\3\ Ground-Based Strategic Deterrent
\4\ Long Range Strike Bomber
\5\ Long Range Standoff

                       dod stockpile requirements
    The Administration envisions a future stockpile that is flexible 
and adaptable to technical and geopolitical changes, and to achieve 
this end has endorsed the 3+2 stockpile strategy. This strategy 
includes three interoperable nuclear explosive packages for ballistic 
missiles and two air-delivered warheads. Interoperability will reduce 
the number of different nuclear weapons systems that must be maintained 
and serviced, while providing sufficient diversity among deployed 
systems to guard against potential technical issues in the stockpile. 
The 3+2 strategy simultaneously addresses stockpile obsolescence and 
meets policy objectives of sustaining deterrence through a smaller 
stockpile with fewer weapon types, and a modernized, responsive nuclear 
infrastructure capable of addressing technological and geopolitical 
surprise.
    To support the 3+2 strategy and revitalize the enterprise, in 2012 
the NWC baselined a 25-year integrated schedule for the nuclear weapons 
stockpile--known as the NWC Strategic Plan. It aligns warhead life 
extension plans and infrastructure needs with delivery system 
modernization and replacement efforts. The NWC Strategic Plan 
integrates NNSA nuclear security enterprise requirements and plans with 
military requirements.
    Budget realities have forced changes to the Strategic Plan since 
2012. Specifically, the NWC endorsed deferrals to key warhead LEPs and 
infrastructure modernization milestones, delaying overall 
implementation of the 3+2 strategy. The Council delayed the 
Interoperable Warhead 1 (IW1) and initially the Long Range Standoff 
(LRSO) warhead schedules. For the B83-1 bomb, it adjusted the 
deployment requirement. For the B61-12 bomb LEP, the NWC accepted a 
schedule delay due to the sequestration-related cuts in the fiscal year 
2014 budget.
    Plutonium pit production schedules and supporting plutonium 
infrastructure investments experienced significant delays due to 
shortfalls in the fiscal year 2013 and fiscal year 2015 congressional 
appropriations. The current Strategic Plan includes these and other 
adjustments. Changes include adding high explosive material replacement 
in the W88 submarine-launched ballistic missile (SLBM) warhead 
Alteration (ALT) 370; aligning the W80-4 LRSO missile warhead 
development schedule with the requirement for a fiscal year 2025 First 
Production Unit (FPU); and adding tritium production capability to the 
NWC Strategic Plan. The Council remains fully committed to ensuring the 
viability of each of the three legs of the nuclear Triad and 
revitalizing the nuclear enterprise.
    DOD and NNSA are moving forward with several weapon systems LEPs to 
support the Nation's long-term deterrent capabilities. The SLBM-based 
W76-1 warhead and the B61-12 bomb for the air-delivery systems are the 
most urgent warhead life-extension needs in our stockpile, and the 
fiscal year 2017 President's budget request fully funds these LEPs. The 
W76-1 LEP is beyond the halfway mark and is on-schedule to complete 
production in fiscal year 2019. The B61-12 LEP, which includes the Air 
Force-provided Tailkit Assembly, is undergoing development engineering 
and remains on schedule and within budget to meet its March 2020 FPU. 
The Air Force has funded the tailkit development and production to 
synchronize with NNSA bomb assembly work. The B61-12 LEP consolidates 
four variants of the B61 bomb and improves the safety and security of 
the oldest nuclear weapon system in the U.S. arsenal. The B61-12 LEP 
will: 1) result in a nearly 50 percent reduction in the number of 
nuclear gravity bombs in the stockpile, 2) facilitate the removal from 
the stockpile of the last megaton-class weapon--the B83-1, 3) achieve 
an 80 percent reduction in the amount of special nuclear material in 
these bombs, and 4) implement the first step of the 3+2 strategy. These 
missions support both our deterrent and nonproliferation objectives as 
outlined in the 2010 Nuclear Posture Review.
    The fiscal year 2017 budget also funds expanded work on sustaining 
our SLBM-based W88 warhead, which is undergoing development engineering 
to replace the aging arming, fuzing, and firing system, and refresh the 
conventional high explosive. That program is on schedule to achieve a 
December 2019 FPU. The IW1 will be the first of three ballistic missile 
warheads under the 3+2 strategy. A full feasibility study is planned 
for completion in the early 2020s.
    The NWC also evaluated and selected the existing W80-1 warhead as 
the basis for the follow-on warhead for the Air-Launched Cruise Missile 
(ALCM) replacement, the LRSO cruise missile. The warhead LEP, 
designated as the W80-4, is now in the feasibility study and design 
options development phase. To synchronize the warhead and delivery 
system schedules, the W80-4 LEP and LRSO cruise missile acquisition 
communities continue to collaborate and align their concurrent 
development efforts. To that end, the W80-4 FPU is planned for 2025 
with the first LRSO cruise missile to be delivered in 2026.
    The greatest challenge for the NWC is to achieve and maintain the 
necessary resources for three critical areas. To allow continued 
certification and ensure our nuclear weapons remain safe, secure, and 
effective, we must be vigilant in sustaining and life-extending our 
stockpile and delivery systems; sustaining and modernizing our aging 
nuclear enterprise infrastructure; and preserving stockpile science and 
engineering. It is imperative that Congress support the full nuclear-
related budget requests to ensure national security requirements 
continue to be met.
                revitalizing the nuclear infrastructure
    The 2010 Nuclear Posture Review stressed the importance of an NNSA 
infrastructure that can respond to technical challenges or geopolitical 
surprises and enable the consideration of stockpile reductions. The NWC 
focuses specifically on the plutonium, uranium, and tritium 
capabilities needed to support the current and future nuclear weapons 
stockpile as documented in the NWC's Strategic Plan. Our nuclear 
enterprise infrastructure challenges are two-fold: addressing aged, 
end-of-life facilities maintenance, recapitalization, and replacement, 
and working to achieve a more responsive infrastructure. The Department 
reinforces NNSA's need to develop responsive and productive plutonium 
and uranium capabilities, as well as the ability to produce tritium to 
meet planned stockpile needs.
                         stockpile stewardship
    Science is paramount to the ability to sustain a safe, secure, 
reliable, and effective deterrent. The Stockpile Stewardship Program 
has ensured confidence in the reliability and effectiveness of the 
nuclear stockpile without nuclear weapons testing. NNSA's Stockpile 
Stewardship Program, composed of research, development, testing, and 
evaluation (RDT&E) facilities and personnel, enables the surveillance 
and assessment of the stockpile condition by identifying anomalies, 
evaluating impacts of anomalies on warhead performance, and 
implementing solutions to anomalies. In general, RDT&E supports broader 
national security objectives by providing capabilities to avoid 
technological surprise and to have confidence in system performance. 
The NWC Strategic Plan relies on continued investments in research, 
development, design, and production capabilities.
                    dod delivery system requirements
    In accordance with the Nuclear Posture Review's guidance to 
maintain a Triad within the central limits of the New START Treaty with 
the Russian Federation, DOD has a robust plan for recapitalizing the 
ballistic missile submarines, intercontinental ballistic missiles 
(ICBMs), SLBMs, air-launched cruise missiles, and nuclear-capable heavy 
bombers that comprise our strategic nuclear deterrent. Our budget 
request is consistent with our plans to ensure that current nuclear 
delivery systems will be sustained, and that the modernization and 
replacement programs are executable and on schedule to avoid capability 
gaps. The fiscal year 2017 Request continues to fund: the Ohio-class 
replacement submarine and Trident II (D5) missile life extension; a 
follow-on capability to the Minuteman III ICBM--the Ground-Based 
Strategic Deterrent (GBSD); upgrades to the B-2A and B-52H heavy 
bombers as well as development of a new long range, penetrating bomber; 
and development of an LRSO cruise missile to replace the current ALCM.
    The Ohio Replacement Program requires adequate resources and a 
stable, predictable funding profile to ensure on-time construction 
starts in fiscal year 2021 in order to meet the patrol need date of 
fiscal year 2031. There is no margin left in the Ohio replacement 
schedule. Delays would put at risk the most survivable leg of the 
Nation's nuclear Triad. The Ohio Replacement Program submarines will 
have a service life that enables patrols into the 2080s.
    The Air Force has completed a GBSD Analysis of Alternatives to 
study the full range of options to recapitalize the land-based leg of 
the Triad beyond the extended service life of the Minuteman III ICBM. 
The fiscal year 2017 budget funds initial development work for the 
GBSD. The Air Force's fiscal year 2017 budget request also includes 
funding to continue the development of an affordable, long range, 
penetrating aircraft that incorporates proven technologies--the Long 
Range Strike Bomber. Additionally, the fiscal year 2017 budget contains 
funding for Block 4 of the F-35 program, which provides funds for 
follow-on capabilities for the F-35, including integration of a nuclear 
delivery capability for the F-35A. The F-35A Dual Capable Aircraft 
(DCA) will maintain a critical capability that is needed for non-
strategic nuclear missions in support of the Nation's extended 
deterrence and assurance commitments.
    The Department's budget request is consistent with plans to ensure 
that current nuclear delivery systems can be sustained and that the 
modernization and replacement programs are executable and on schedule 
to avoid capability gaps. The modernization and replacement programs 
will require increased investment over current levels for much of the 
next 15 years. The Department is taking steps to control the costs of 
these efforts. However, even with success in this regard, we face 
budget decisions entering the 2020s to fund the necessary Ohio-class 
replacement and the Air Force strategic deterrent recapitalization 
programs. The fiscal year 2014 Secretary of Defense-directed Nuclear 
Enterprise and Strategic Portfolio Reviews and the Department's fiscal 
year 2017 budget formulation focused significant attention on 
recapitalization, sustainment, and modernization of our nuclear 
deterrent systems and infrastructure. The nuclear enterprise remains 
the Defense Department's highest priority, and the President's budget 
request for fiscal year 2017 reflects the Administration's emphasis on 
the nuclear enterprise.
    In the near-term, we are making focused and sustained investments 
in modernization and manning across the nuclear enterprise. These 
investments are critical to ensure the continued safety, security, and 
effectiveness of our nuclear deterrent, as well as the long-term health 
of the force that supports our nuclear Triad. To help fund improvements 
across the nuclear enterprise, the DOD has requested an increase of 
approximately $200 million in fiscal year 2017 from fiscal year 2016 
and approximately $10 billion more in the fiscal year 2017 Future Years 
Defense Program (FYDP) relative to the President's Budget in 2016 to 
ensure the continued health of this essential enterprise.
                               conclusion
    Budget constraints have forced the DOD to annually adjust its 
stockpile maintenance and infrastructure plans to fit within 
appropriated resources, and have caused the NWC to reevaluate 
priorities. These adjustments cause delays, reduce work scope, and 
extend development and production periods. We have reached a point 
where we have removed all flexibility from the nuclear weapons life 
extension and delivery system modernization programs. We must continue 
to field a strong nuclear deterrent that is supported by an agile and 
responsive infrastructure and valued workforce. The President's fiscal 
year 2017 budget request supports our nuclear posture strategy. It 
includes funding for sustaining and modernizing our nuclear forces to 
ensure a safe, secure, and effective deterrent for as long as nuclear 
weapons exist. The Department of Defense remains committed to 
maintaining its close and vital partnership with DOE and Congress in 
meeting the Nation's most fundamental security needs. In closing, I 
respectfully ask that you support the President's fiscal year 2017 
nuclear forces' budget request.

    Senator Sessions. Thank you, Dr. Hopkins.
    Next, we have General Robin Rand. He is the Commander of 
the Air Force Global Strike Command. He is responsible for 
organizing, training, and equipping two legs of the triad, the 
intercontinental ballistic missile and strategic bomber forces.
    General Rand, thank you.

  STATEMENT OF GENERAL ROBIN RAND, USAF, COMMANDER, AIR FORCE 
                     GLOBAL STRIKE COMMAND

    General Rand. Chairman Sessions, Ranking Member Donnelly, 
and distinguished members of the committee, thank you for 
allowing me to appear before you today to represent the men and 
women of Air Force Global Strike Command.
    As you know, Air Force Global Strike Command was created to 
provide a focus on the stewardship and operations of two legs 
of our Nation's nuclear triad, while also accomplishing the 
conventional global strike mission.
    I will tell you freely that our airmen are doing a 
fantastic job providing effective nuclear and conventional 
global strike forces for combatant commanders around the globe. 
The key to our continued success will be our ability to 
modernize, sustain, and recapitalize our forces.
    Our mission set is always evolving and growing in order to 
ensure we continue to provide effective forces for these 
combatant commanders. Part of accomplishing this goal is to 
make sure we are right-sized with manpower and resources, and 
balancing those efforts with ongoing modernization and 
recapitalization programs.
    Our airmen in the missile fields are accomplishing a 
critical mission for this Nation. They are operating, 
maintaining, and securing the most responsive leg of the 
nuclear triad.
    However, we must continue efforts to modernize the 
Minuteman III weapons systems, where appropriate, until we can 
bring the ground-based strategic deterrent online. This is an 
absolutely critical national interest that will provide 
strategic deterrence and, if needed, global strike for years to 
come.
    Our diverse bomber forces made up of the B-1, the B-2, and 
the B-52, deter our potential adversaries and ensure our allies 
across the globe. But when that is not enough, they execute a 
variety of missions, ranging from long-range global strike to 
close-air support in-country.
    As you are aware, the B-1s have been departing the Central 
Command area of responsibility to help facilitate needed 
upgrades. These airmen have done an amazing job for many years, 
and I am proud of each and every one of them.
    Air Force Global Strike Command stands ready to support any 
combatant commander with our capable platforms to ensure there 
is no gap in requirements coverage. Therefore, I have directed 
our B-52 wings to be prepared to backfill the B-1s later this 
spring, should they be asked to do so.
    I am aware that one of the big reasons I am here today is 
to answer any questions on the command's progress in addressing 
the nuclear enterprise review findings. We have closed over 300 
action items that complement the ongoing nuclear enterprise 
review efforts. We have reinvigorated the ICBM operations and 
are effecting positive cultural change throughout the 
community. We have also overhauled the bomber program, the B-52 
training, and streamlined other aircrew programs.
    Additionally, Air Force Global Strike Command has been 
declared the lead command for Nuclear Command and Control 
Communications, or NC3, systems throughout the Air Force. To 
recognize the absolute criticality of these systems, NC3 has 
been declared a weapons system, which means it is tracked, 
sustained, and modernized just like the rest of our weapons 
systems in the Air Force.
    But let me be clear, we are not done. Cultural change is 
not something that you can just flip a switch on. We must 
continue to foster a culture where we are not afraid to 
question how things are done.
    Innovative airmen should have a way to push their ideas to 
the top, and I will not lose sight of how far we have come, but 
also that we can never stop working to be better.
    Mr. Chairman, I want to thank you again for the opportunity 
to appear before the committee to highlight the great airmen of 
Air Force Global Strike Command. I look forward to your 
questions, and with your permission, I would like to have my 
written testimony entered into the record.
    [The prepared statement of General Rand follows:]

          Prepared Statement by General Robin Rand, Commander
                              introduction
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
Members of the Committee; thank you for allowing me to represent the 
over 31,000 Air Force Global Strike Command (AFGSC) Airmen. This is my 
first opportunity to appear before this committee and I look forward to 
updating you on what the Command has accomplished and where we are 
going.
                air force global strike command mission
    As you know, the Command was created to provide a focus on the 
stewardship and operation of two legs of our Nation's nuclear triad 
while also accomplishing the conventional global strike mission. We 
live in a world that continues to rapidly change and until we have the 
peace and security of a world without nuclear weapons we must never 
forget the stabilizing influence the triad has on our allies, partners, 
and adversaries. The nuclear mission remains our top priority, however 
we must not discount the important work our airmen do conventionally. 
In fact, this past year AFGSC assumed command of the B-1B mission, 
bringing all Air Force bombers under one command. In order for us to be 
effective across the spectrum of conflict from day-to-day deterrence 
and assurance operations to nuclear engagement, our airmen must be 
ready and equipped with the right tools to do the job. Continuing in 
the proud heritage of Strategic Air Command, yet tailored for today's 
evolving world, AFGSC's mission is: ``Airmen providing strategic 
deterrence, global strike and combat support . . . anytime, anywhere!''
    The Command's top priority is to ensure our nuclear arsenal is 
safe, secure, and effective. This priority underlies every nuclear-
related activity in AFGSC whether it is the maintainer turning wrenches 
or our planners working on future weapon systems. We must never fail in 
the special trust and confidence the American people have bestowed on 
our nuclear warriors. It means that leaders must continue to support 
and advocate for the sustainment and modernization of these weapon 
systems.
    Our conventional bomber forces defend our national interests by 
deterring or, should deterrence fail, defeating an adversary; they also 
assure our allies and partners around the globe. Two capabilities are 
fundamental to the success of our bomber forces: our ability to hold 
heavily defended targets at risk and our ability to apply persistent 
combat power across the spectrum of conflict anywhere on the globe at 
any time. The United States' fleet of heavy bombers provides the Nation 
a visible global warfighting capability that is essential to the 
credibility of America's national security strategy. These bombers 
carry our latest high-tech munitions in quantities to ensure the Air 
Force can meet our Nation's global responsibilities, and therefore are 
in high-demand by the regional combatant commanders.
                 air force global strike command forces
Intercontinental Ballistic Missile Forces
    Twentieth Air Force (20 AF), one of two Numbered Air Forces in 
AFGSC, is responsible for the Minuteman III (MM III) Intercontinental 
Ballistic Missile (ICBM) and UH-1N helicopter forces. The 450 dispersed 
and hardened missile silos maintain strategic stability by presenting 
potential adversaries a near insurmountable obstacle should they 
consider a disarming attack on the United States. Currently, no 
potential adversary can hope to destroy this force without depleting 
its own arsenal. Every day airmen deploy to our three missile fields, 
executing strategic deterrence and assurance operations, while standing 
ready to execute if called upon. They accomplish this mission in a 
challenging environment and on a massive scale; our missile crews, 
maintenance teams, security forces personnel, and others who support 
this mission traveled over 17.9 million miles last year alone. This is 
a unique and critical mission area that deserves our attention. As part 
of the Air Force's efforts to improve the nuclear enterprise, 20 AF 
assumed stewardship of the 377th Air Base Wing at Kirtland AFB. As part 
of that transfer, the Kirtland Underground Munitions Maintenance and 
Storage Complex now falls under 20 AF and AFGSC thereby bringing a 
critical mission set under a nuclear focused command.
Minuteman III
    We continue to sustain and modernize the Minuteman III ICBM. This 
includes upgrading the command, control, and communications systems and 
support equipment. We continue moving forward on the Transporter 
Erector (TE) Replacement Program (TERP) and the Payload Transporter 
(PT) Replacement (PTR) to modernize our existing fleet of large 
maintenance vehicles utilized to transport missile components to and 
from the field. We currently expect TERP to reach initial operational 
capability (IOC) in fiscal year 2018 and PTR to begin production in 
fiscal year 2017.
    We are also equipping ICBM launch control centers (LCC) with 
modernized communications systems that will upgrade or replace aging 
and obsolete systems. The LCC Block Upgrade, expected to begin 
deployment in 2020, is an overall modification effort that replaces 
multiple LCC components to include a modern data storage replacement 
for floppy disks and new Voice Control Panels to provide higher 
fidelity voice communications. We continue to push forward on improving 
Remote Visual Assessment at our remote LFs, a significant security 
upgrade, to improve situational awareness and security. We expect this 
program to be IOC in fiscal year 2019. Another very important program, 
ICBM Cryptographic Upgrade II, is scheduled to begin production in 
fiscal year 2017 and will improve our cryptographic security while 
dramatically streamlining code change operations.
    We conducted four successful MM III flight tests in fiscal year 
2015 that, along with one Simulated Electronic Launch Minuteman test in 
the operational environment, demonstrate the operational credibility of 
the nuclear deterrent force and the AF's commitment to sustaining that 
capability. Operational flight testing is currently funded and planned 
for four operational test launches in fiscal year 2016 to satisfy 
requirements outlined by United States Strategic Command (USSTRATCOM) 
and the National Nuclear Security Administration (NNSA). In fact, we 
have already launched one of those and expect to launch the next two 
this month.
Ground Based Strategic Deterrent
    The Minuteman flight system, currently on its third model, has been 
on continuous alert since the early 1960s and has proven its value in 
deterring our adversaries and assuring our allies well beyond the 
platform's initial 10-year lifespan. ICBM capability gaps were 
identified and validated by the Joint Requirements Oversight Council, 
and subsequently approved in August 2012 by the Air Force Chief of 
Staff, resulting in an Analysis of Alternatives (AoA). The AoA was 
completed in 2014 and concluded that an integrated replacement to the 
MM III weapon system was the most cost-effective approach to filling 
capability gaps. Office of the Secretary of Defense (OSD) Cost 
Assessment and Program Evaluation (CAPE) reviewed the AoA report and 
validated it as ``sufficient to support a Milestone A decision and 
initiate a program of record.'' SAF/AQ approved the Ground Based 
Strategic Deterrent (GBSD) Acquisition Strategy in December of last 
year and directed the program to proceed to the Milestone A Defense 
Acquisition Board. Additionally, we are engaged with our Navy partners 
to further investigate areas for intelligent commonality between 
potential GBSD systems and future Navy weapons. We hope to find areas 
of overlap with the objective of reducing design, development, 
manufacturing, logistics support, production, and testing costs for the 
Nation's strategic systems while still acknowledging that the different 
weapon systems will have some requirements that necessitate unique 
solutions due to their differing missions. We are also collaborating 
with the NNSA to develop a life extension program for our aging W78 
nuclear warhead, which will operate on both MMIII and GBSD.
    Due to system age-out, the first priority is to replace the missile 
itself. However, command and control (C2) and infrastructure 
recapitalization is necessary to continue safe, secure, and effective 
operations. It is no small task to upgrade the command and control 
systems along with the underlying infrastructure that supports the 
weapon system. For example, at our largest missile field operated by 
the 341st Missile Wing, we must connect and support hardened systems 
across almost 14,000 square miles, an area the size of Maryland. This 
vital nuclear command and control is currently serviced by buried 
copper wire and equipment installed in the 1960s. AFGSC is defining 
approaches to upgrade C2 and modernize necessary facilities. GBSD 
cannot be viewed as just another life extension to our existing MMIII; 
it is time to field a replacement ground-based capability that will 
continue to assure our allies and deter potential adversaries well into 
the future. Thank you for your continued support of GBSD ensuring it 
will lead to a viable replacement for the MM III ICBM.
UH-1N
    AFGSC is the lead command for the Air Force's fleet of 62 UH-1N 
helicopters. The majority of these aircraft support two critical 
national missions: nuclear security in support of the ICBM force and 
the Continuity of Operations and transport missions in the National 
Capital Region. They also actively participate in the Defense Support 
of Civil Authorities program often being called to help with search and 
rescue activities.
    The UH-1N does not meet the missile field needs for range, speed, 
and capacity as outlined by DOD and USSTRATCOM requirements. We will 
continue to work to mitigate some of these requirement gaps through 
various measures such as arming the UH-1N and providing re-fueling 
stations throughout the missile complex. However, there are certain 
requirements we are unable to mitigate and I am happy to discuss that 
further in a classified environment.
UH-1N Follow On
    While we can, to some extent, mitigate the UH-1N's deficiencies in 
range, speed, and payload, no amount of modification to this 1960s 
platform will close these critical capability gaps entirely. 
Recognizing that we cannot modify our UH-1Ns to resolve the capability 
gaps, we are dedicated to replacing the aircraft with a medium lift 
helicopter capable of meeting mission requirements. The UH-1N 
Replacement Program was funded in fiscal year 2016 and we are now 
moving out to deliver this capability and closing this critical gap. 
This past January, the Air Force conducted a High Power Team which 
confirmed our most critical capability requirements. Our counterparts 
in SAF/AQ and Air Force Materiel Command (AFMC) are evaluating 
acquisition approaches that focus on expediting the fielding of 
replacement helicopters for the nuclear convoy escort and missile field 
support missions. While we work to deliver the aircraft, we must also 
work through support challenges such as infrastructure, maintenance, 
and aircrew training. I can assure you that Secretary James, our Chief, 
General Welsh and I are completely dedicated to delivering the 
replacement helicopters as soon as possible.
Bomber Forces
    Eighth Air Force is responsible for the B-52H Stratofortress (B-
52), the B-2A Spirit (B-2), and most recently the B-1B Lancer (B-1) 
bombers. This includes maintaining the operational readiness of the 
dual-capable bombers' nuclear and conventional missions. The B-52 is an 
extremely versatile weapon system providing precision, large payload, 
and timely global strike capabilities both conventional and nuclear. 
Complementing the B-52, the B-2 can penetrate an adversary's most 
advanced Integrated Air Defenses Systems to strike heavily defended and 
hardened targets. Our flexible dual-capable bomber fleet is the most 
visible leg of the nuclear triad. They provide decision makers the 
ability to demonstrate resolve through generation, dispersal, or 
deployment. Our ability to rapidly place bomber sorties on alert 
ensures their continued survival in support of the President and to 
meet combatant command requirements. The B-1 is an incredibly potent 
weapon system that has been in high demand by combatant commanders due 
to its wartime capabilities and mission flexibility as steadily 
demonstrated in conflicts since 2001.
Global Assurance and Deterrence
    Continuous Bomber Presence (CBP), initiated in 2003, increases 
regional stability and assures our allies and partners in the United 
States Pacific Command (USPACOM) area of responsibility (AOR). We have 
taken steps to increase continuity of operations and maintenance by 
establishing a detachment at Andersen Air Force Base, Guam. While CBP 
is seen as a strong signal to our allies of our commitment to the 
region, it impacts AFGSC personnel and resources. Sustaining a long-
term presence in USPACOM introduces stress in other areas as our bomber 
force is requested by other combatant commanders. Complementary to CBP, 
our bombers exercise with every combatant command and every joint 
partner annually through the Bomber Assurance and Deterrence program. 
These visible exercises take place all over the globe are a continuous 
reminder to allies and potential adversaries of our Nation's global 
reach.
B-1
    The B-1 is a highly versatile, multi-mission weapon system that 
carries the largest payload of both guided and unguided weapons in the 
Air Force inventory. It can rapidly deliver large quantities of 
precision and non-precision weapons in support of combatant commanders 
around the globe.
    The B-1's synthetic aperture radar is capable of finding, tracking, 
and targeting moving vehicles as well as having terrain-following modes 
and air-to-air situational awareness. The SNIPER-SE pod provides 
additional capability to engage fixed or moving targets. In addition, 
an extremely accurate Global Positioning System-aided Inertial 
Navigation System enables aircrews to navigate without the aid of 
ground-based navigation aids as well as strike targets with a high 
level of precision. The Digital Communications Initiative (DCI) 
modification to the radios provides a secure beyond line of sight 
satellite connection into the Line of Sight Link-16 network. In a time 
sensitive targeting environment, the aircrew can use targeting data 
over DCI, then strike emerging targets rapidly and efficiently. This 
capability was effectively demonstrated during operations Enduring 
Freedom, Iraqi Freedom, and Inherent Resolve.
    The B-1 will be in demand for many more years and avionics and 
weapon upgrades are critical for it to remain a viable combatant 
commander tool. The Integrated Battle Station (IBS)/Software Block-16 
(SB-16) upgrade, the largest ever B-1 modification, includes an 
upgraded Central Integrated Test System (CITS), Fully Integrated Data 
Link (FIDL), Vertical Situation Display Upgrade (VSDU), and a simulator 
upgrade. This marks a fantastic capability upgrade and the associated 
cockpit upgrades providing the crew with a much more flexible, 
integrated cockpit. In fact, the first 15 IBS-modified aircraft have 
been delivered, fully equipping an entire bomb squadron with these 
upgraded capabilities.
    Our B-1 aircrews have been heavily engaged in combat operations; 
since September 11, 2001, they have flown well over 14,000 combat 
missions. As you may have heard already, the B-1s have begun departing 
the United States Central Command (USCENTCOM) AOR to help facilitate 
needed upgrades. This is a much needed respite to ensure the aircrews 
and aircraft are ready to support combatant commanders. However, AFGSC 
stands ready to support any combatant commander with our other capable 
platforms to ensure no gap in combatant command requirements. For 
instance, the B-52 can very capably step back into a role it has filled 
in the past in the USCENTCOM AOR; its large payload of precision 
weapons will meet combatant commander needs in theater, and our crews 
constantly train to ensure they are combat ready should they get the 
call. In the event of a bomber-capable ``Request for Forces'' by 
USCENTCOM, I've directed our two B-52 wings to be ready and prepared to 
backfill the B-1s later this spring.
B-52
    The B-52 may be the most universally recognized symbol of American 
airpower . . . its contributions to our national security through the 
Cold War, Vietnam, Desert Storm, Allied Force, Iraqi Freedom and 
Enduring Freedom are well documented. Our airmen have worked tirelessly 
to keep the venerable B-52 mission capable. The B-52 is able to deliver 
the widest variety of nuclear and conventional weapons. This past year, 
we maintained complete coverage of our Nuclear Deterrence Operations 
requirements while supporting our overseas CBP for Pacific Command.
    I anticipate the B-52 will remain a key element of our bomber force 
beyond 2040; it is paramount that we invest resources into this 
aircraft now to keep it viable in both conventional and nuclear mission 
areas for the next 30 years. Our B-52s are still using 1960s radar 
technology with the last major radar upgrade done in the early 1980s. 
Currently, the mean time between failure rate on the B-52 radar is 46 
hours. The current radar on the B-52 will be even less effective in the 
future threat environment, and without an improved radar system on the 
B-52, there will be increased degradation in mission effectiveness. In 
order to remedy this, the B-52 Radar Modernization Program is 
approaching the conclusion of a Cost Capability Analysis Study and will 
be working toward an AoA sufficiency review in early Spring this year. 
Additionally, we are always looking at cost-effective ways to improve 
efficiency and performance of this important bomber.
    Finally, I want to point out that we are still in work to convert 
30 operational B-52 aircraft and 12 in storage to conventional-only 
configurations. We are on track to meet our New START Treaty 
requirements.
B-2
    For over 25 years, our 20 B-2s have provided the Nation with an 
assured penetrating bomber capability. In each of our Nation's last 
four conflicts, the B-2 has led the way. This is a direct result of the 
outstanding airmen who work to operate, maintain, and secure the 
aircraft. The B-2 is able to penetrate enemy defenses and deliver a 
wide variety of nuclear and conventional weapons due to its long-range 
and stealth capability.
    We will preserve and improve the B-2's capability to penetrate 
hostile airspace and hold any target at risk without subjecting the 
crew and aircraft to threats. We are striving to maintain the proper 
balance of fleet sustainment efforts, testing, aircrew training, and 
combat readiness. The dynamics of a small fleet continue to challenge 
our sustainment efforts primarily due to vanishing vendors and 
diminishing sources of supply. AFMC is working to ensure timely parts 
availability; however, many manufacturers do not see a strong business 
case in supplying parts for a small aircraft fleet. Problems with a 
single part can have a significant readiness impact on a small fleet 
that lacks the flexibility of a large force to absorb parts shortages 
and logistics delays.
Long Range Strike Bomber
    The combat edge of our B-2 is being challenged by next generation 
air defenses and the proliferation of these advanced systems. The Long 
Range Strike Bomber (LRS-B) program will extend American air dominance 
against next generation capabilities and advanced air defense 
environments. We continue to work closely with partners throughout the 
Air Force to develop the LRS-B and field a fleet of new dual-capable 
bombers; scheduled to become operational in the mid-2020s. Make no 
mistake--the LRS-B will be a nuclear bomber. However, the platform will 
not be delayed for use in a conventional capacity while it undergoes 
final nuclear certification. The LRS-B is being designed with an open 
architecture which will allow us to integrate new technology and 
respond to future threats for many years into the future. Thank you for 
your continued support for this critical program as it moves forward.
Air Launched Cruise Missile
    The AGM-86B Air Launched Cruise Missile (ALCM) is an air-to-ground, 
winged, subsonic nuclear missile delivered by the B-52. It was fielded 
in the 1980s and is well beyond its originally designed 10-year service 
life. To ensure the USAF maintains its credible stand-off nuclear 
capability, the ALCM requires Service Life Extension Programs (SLEP). 
These SLEPs require ongoing support and attention to ensure the ALCM 
will remain viable through 2030. Despite its age, last year we 
successfully conducted eight flight test evaluations and have 7 planned 
during fiscal year 2016. Additionally, AFGSC continues to maintain the 
conventional variant (CALCM) to ensure it continues to provide 
conventional stand-off strike capability.
Long Range Stand-Off Missile
    The LRSO is the replacement for the aging ALCM. The ALCM has 
significant capability gaps that will only worsen through the next 
decade. The LRSO will be a reliable, flexible, long-ranging, and 
survivable weapon system to complement the nuclear Triad. The LRSO 
missile will ensure the bomber force (B-52, B-2 and LRS-B) can continue 
to hold high value targets at risk in an evolving threat environment, 
to include targets within an area denial environment. I cannot 
overemphasize this point: LRS-B without LRSO greatly reduces our 
ability to hold adversaries at risk and to execute the mission. The 
LRSO will be compatible with the B-52, B-2, and the LRS-B platforms and 
we currently expect it to reach Milestone A this fiscal year. 
Additionally, we are synchronizing our efforts with NNSA to develop the 
W80-4 warhead to be fully integrated with LRSO.
B61
    The B61-12 Life Extension Program (LEP) will result in a smaller 
stockpile, reduced special nuclear material in the inventory, and 
improved B61 surety. AFGSC is the lead command for the B61-12 Tail Kit 
Assembly program, which is needed to meet USSTRATCOM requirements on 
the B-2. The B61-12 Tail Kit Assembly program is in the Engineering and 
Manufacturing Development Phase 1 and is synchronized with NNSA 
efforts. The design and production processes are on schedule and within 
budget to meet the planned fiscal year 2020 First Production Unit date 
for the B61-12 Tail Kit Assembly, and support the lead time required 
for the March 2020 B61-12 all-up round. This joint Department of 
Defense and Department of Energy endeavor allows for continued 
attainment of our strategic requirements and regional commitments.
GBU-57
    AFGSC assumed responsibility as the lead MAJCOM for the GBU-57 
Massive Ordnance Penetrator (MOP) in the Summer of 2015. The MOP is a 
30,000-pound guided conventional bomb designed to defeat hardened and 
deeply buried targets and is exclusively employed from the B-2. The MOP 
was initially designed as a Quick Reaction Capability following a 
USCENTCOM Urgent Operational Need. Since then it has received several 
upgrades and enhancements based on warfighter requirements. AFGSC, 
USCENTCOM, and AFLCMC (MOP Program Office) are currently conducting two 
more enhancements to increase weapon effectiveness.
                                security
    Nuclear security is a key function of the Command's mission. A 
major AFGSC initiative to ensure security continues to be the new 
Weapon Storage Facilities (WSF) which will consolidate nuclear 
maintenance, inspection, and storage. We have put forward a $1.3 
billion program ($521 million across the FYDP) to replace all deficient 
buildings across our aging 1960's-era Weapon Storage Areas with a 
single modern and secure facility at each of our bases. This initiative 
eliminates security, design, and safety deficiencies and improves our 
maintenance processes. We included $95 million in funding for the WSF 
at F. E. Warren AFB, WY, in the last year's budget and the MILCON for 
the remaining facilities in future years. These facilities are needed 
to meet requirements for a safe, secure, and effective nuclear arsenal.
              nuclear command, control, and communications
    The ability to receive Presidential orders and convert those orders 
into action for the required weapon system is both critical to 
performing the nuclear mission and foundational to an effective 
credible strategic deterrent. The Air Force took an important step this 
year by declaring Nuclear Command, Control, and Communications (NC3) a 
weapon system which recognizes the absolute importance of these systems 
that ensure proper nuclear command and control. Declaring NC3 a weapon 
system is no small matter; it begins a process to manage this new 
weapon system's training, resources, and sustainment just like all 
other weapons systems in the AF. AFGSC is the lead command for National 
Leadership Command Control (NLCC)/NC3 which establishes one focal point 
for the weapon system. Since these systems are spread across the 
Government, there are multiple working groups at all levels to ensure 
open communications. In fact, I chair the Air Force NLCC/NC3 Council 
where we bring together MAJCOM commanders to prioritize resources and 
resolve any outstanding issues. I think it is also important to 
highlight the hard work Air Force Nuclear Weapons Center (AFNWC) and 
AFMC have put into this effort to support not only the systems but 
AFGSC as a whole. As I will discuss later, we are codifying these 
relationships to establish clear lines of authority and responsibility 
which will only improve NC3 sustainment and modernization.
    AFGSC has made tremendous gains in efforts to modernize our 
communications and cyberspace infrastructure by leveraging technology 
to make our forces more capable and effective. In our ICBM missile 
fields, the copper cabling that transport voice and data between the 
main base and the Missile Alert Facilities (MAFs) in some cases dates 
back to 1960s technology and equipment. We have undertaken a major 
modernization initiative to replace old cabling with modern technology 
that will realize over a 15-fold increase in data capability and 
improve missile field command and control with unclassified and 
classified networking, wireless networking, and secure digital voice to 
the MAFs. These are important upgrades but they still do not replace 
the buried copper nuclear command and control lines. We are also 
addressing mission assurance for our main bases and have begun to look 
at issues of bandwidth allocation and the routing of long-haul 
telecommunications circuits into our installations to best guarantee 
continuity of service.
    Ultimately, we have taken seriously our charge with sustaining and 
modernizing the NC3 weapon system. In fact, through the Nuclear 
Enterprise Review process we identified multiple areas that have 
atrophied through decades of low prioritization. To remedy that, we 
have advocated for funds such as $16 million to improve long-haul 
communications, $8 million in telephony upgrades, and $2 million in 
radio upgrades. These are just examples of the things we have been able 
to accomplish with the support of those inside and outside the DOD. 
Thank you very much for your continued interest and support in NC3; we 
are in agreement on what needs to be done in the future and I look 
forward to continuing our efforts.
                       nuclear enterprise review
    As this committee is well aware, the Air Force and this command 
have undertaken momentous shifts to support our number one priority. 
Our airmen are beginning to see resourcing balanced against mission 
requirements. They see mid-career leaders mentoring those below them, 
educating them on the importance of their missions. They see their most 
senior leaders in the Administration, in the Department, and here in 
Congress acting on their behalf.
    I will lay out a number of accomplishments that have been possible 
thanks to the support of leadership in all branches of government, the 
DOD, and the Air Force. But first I would like to recognize the hard 
work and leadership of my predecessor, Lieutenant General Stephen 
Wilson; he embraced the challenge and AFGSC is better for it. I sit 
before you today as the first 4-star commander of AFGSC and the AF now 
has a 3-star as the Deputy Chief of Staff for Strategic Deterrence and 
Nuclear Integration. This recognizes the importance of the nuclear 
enterprise within the Air Force and elevates our advocacy. 
Additionally, as part of the Nuclear Enterprise Review (NER) we found 
we needed to link all the disparate nuclear activities within the AF 
into a more synchronized and focused structure to provide direction and 
support for our nuclear forces. The Secretary of the Air Force and 
Chief of Staff directed the AFGSC Commander be the single face for the 
AF for ``all things nuclear''. We are currently in the process of 
implementing that guidance which will culminate with AFGSC as the lead 
command for the nuclear deterrent operations mission and the AFNWC 
restructuring to provide ``direct support'' to AFGSC for all material 
elements of the nuclear enterprise.
    We are shifting our security forces members from PRP to the Arming 
and Use of Force (AUoF) standards. This maintains the high standards 
required in our business while reducing the administrative workload 
driven by maintaining two overlapping reliability programs. This 
ensures our security forces members across the Air Force are held to 
the same standard and improves mobility between bases. Additionally, we 
have improved the equipment and uniforms of our missile field defenders 
through our Model Defender program.
    Across the maintenance, operations, and security forces career 
fields we have implemented the Assignment Incentive Pay (AIP) which 
reflects the incredible responsibility placed on our nuclear airmen's 
shoulders. For our enlisted members in critical career fields we have 
implemented the Special Duty Assignment Pay (SDAP). AIP and SDAP are 
but a small way we recognize the hard work our airmen accomplish in 
this demanding and ever-important field.
    For our ICBM operations, we have implemented a number of changes. 
Among them is re-imagining the crew construct altogether. We have 
revamped training to remove the blurring of lines between training and 
evaluating; implementing reforms to increase the proficiency of our 
missile crews. We have also changed how the crew tour works. 
Previously, most crew members would spend four years at their missile 
base, progress through the different leadership positions, and then 
move on to another assignment. Instead we are moving to a ``3+3'' 
concept where a crewmember will spend the first three years as a deputy 
and commander becoming an expert on the weapon system. Most of the crew 
force will then move to another ICBM base where they will fill 
instructor, evaluator, and flight commander roles; for those who do not 
move, they will fill those same roles at their current duty station.
    We have been implementing changes for our bomber forces, as well. 
For instance, we have completely overhauled B-52 initial and mission 
qualification training and are advancing B-52 simulator upgrade 
timelines to better support nuclear mission training. Additionally, we 
have developed up our Striker Vista program to advance integration 
between bomber platforms through the transfer of personnel between 
wings. This is not a new concept to the AF but it is something new to 
our bomber forces.
    These are just some of the fundamental changes we have implemented 
in conjunction with the Nuclear Enterprise Review findings. I could 
list literally hundreds of individual initiatives, most of which have 
been completed, that cut across the nuclear mission from standing up an 
independent helicopter group, to significant manpower plus-ups, to new 
vehicles and equipment, to organizational changes to address long-
standing needs. However, more importantly you should know that we are 
not done. I truly believe we can never return to the previous way of 
doing things; instead we must always look to the future and always have 
open minds. Since the NER reports, we have accomplished bottom-up 
reviews of our bomber forces, airborne launch operations, and the 
headquarters itself. Most recently, I tasked a team to conduct a review 
of our convoy operations to ensure we are accomplishing this absolutely 
critical mission area the best way possible. We are building a culture 
that embraces innovation and change.
                            2016 priorities
    In fiscal year 2015, AFGSC took a deliberate approach with planning 
and executing its mission. Through the successful execution of new 
initiatives, AFGSC was able to earn an additional $214 million from 
initial distribution used to fund NC3, manpower, readiness 
requirements, and Nuclear Force Improvement Program initiatives. But we 
have more work to do and we will move forward in the context of my 
priorities.
    My priorities are relatively simple and they inform every decision 
I make. They are mission, airmen, families all built on heritage and 
core values. We exist to serve the Nation by providing strategic 
deterrence and global strike. However, without our great airmen we 
could never hope to be as successful as we are. In my visits to our 
units, I am always humbled by the dedication of your Global Strike 
warriors and their unfailing drive to do their best. I truly believe 
that while we may recruit airmen, we retain families. To me that means 
we cannot forget the loved ones who stay behind while our airmen deploy 
whether it is overseas or to a missile field. It means supporting the 
families who back up our airmen who work long hours ensuring our bases 
are secure. It means recognizing that no matter the job an airman is 
doing, we must never lose sight of the family who makes it all 
possible.
    I mentioned that Heritage and Core Values are the foundation of the 
priorities I just listed. I think we learn from our history but we are 
inspired by our Heritage. AFGSC and the Air Force as a whole have a 
proud heritage. Eighth Air Force has a proud history dating back to the 
European theater in World War II while Twentieth Air Force did great 
things in the Pacific theater. Our airmen should understand and embrace 
this heritage. Lastly, our Core Values of ``Integrity First, Service 
Before Self, and Excellence in All We Do'' should underpin every 
decision we make each and every day. Without these values we sacrifice 
who we are and then nothing else matters.
                               conclusion
    Thank you for your continued support of Air Force Global Strike 
Command and our strategic deterrent and global strike missions. The 
President's 2015 National Security Strategy is clear: ``As long as 
nuclear weapons exist, the United States must invest the resources 
necessary to maintain--without testing--a safe, secure, and effective 
nuclear deterrent that preserves strategic stability.'' Fiscal 
constraints, while posing planning challenges, do not alter the 
national security landscape or the intent of competitors and 
adversaries, nor do they diminish the enduring value of long range, 
strategic forces to our Nation.
    Although we account for less than one percent of the DOD budget, 
AFGSC forces represent two-thirds of the Nation's nuclear triad and 
play a critical role in ensuring U.S. national security, while also 
providing joint commanders rapid global combat airpower. AFGSC will 
continue to seek innovative, cost-saving measures to ensure our weapon 
systems are operating as efficiently as possible. Modernization, 
however, is mandatory. AFGSC is operating B-52s built in the 1960s with 
equipment designed in the 1950s; operating ICBMs with 1960s 
infrastructure; and utilizing 1960s era weapon storage areas. We cannot 
afford to delay modernization initiatives across the two legs of the 
Nation's nuclear triad and the NC3 systems which connect our 
capabilities to the President.
    I would like to take this opportunity to thank the Congress for 
your ongoing support of the nuclear enterprise. Your support does not 
go unnoticed and is absolutely critical to ensuring AFGSC provides the 
nuclear and conventional capabilities this Nation deserves. It is my 
privilege to lead this elite team empowered with special trust and 
responsibility. It is truly an honor to be a Wingman to the outstanding 
airmen who make up Air Force Global Strike Command.

    Senator Sessions. It will be made a part of the record, and 
thank you.
    Vice Admiral Terry Benedict has been the director of the 
Navy's Strategic Systems Program since 2010. I think that is a 
good tenure already.
    We appreciate your service, and I do think, in these kinds 
of programs, it is beneficial if you can have a longer tenure.
    Would you agree?
    Admiral Benedict. Yes, sir.
    Senator Sessions. These are complex systems, and I think a 
little longer tenure is probably helpful.
    In this capacity, you have been responsible for the 
development, acquisition, and training of the nuclear weapons 
systems carried aboard our strategic ballistic missile 
submarines, the underwater leg of our nuclear triad, and 
perhaps the most secure leg of our triad.
    Admiral Benedict, we would be pleased to hear from you.

  STATEMENT OF VICE ADMIRAL TERRY J. BENEDICT, USN, DIRECTOR, 
                   STRATEGIC SYSTEMS PROGRAMS

    Admiral Benedict. Chairman Sessions, Ranking Member 
Donnelly, distinguished members of the committee, thank you for 
the opportunity to testify before the Subcommittee on Strategic 
Forces.
    Today, I represent the men and women of your Navy's 
Strategic Systems Programs, or SSP. Your continued support of 
our deterrence mission is appreciated, and all of us thank you.
    My mission as the director of SSP is to design, develop, 
produce, support, and ensure the safety and security of our 
Navy's sea-based strategic deterrent capability, the Trident II 
D5 strategic weapons system.
    My written statement, which I respectfully request be 
submitted for the record, addresses my top priorities. Due to 
time constraints, I would like to briefly address three 
priorities today, nuclear weapons safety and security, the 
Trident II D5 life-extension efforts, and collaboration with 
the Air Force on weapon system commonality.
    First, my top priority is the safety and the security of 
the Navy's nuclear weapons. Custody and accountability of the 
nuclear assets entrusted to the Navy are the cornerstone of 
this program. Our approach to the nuclear weapons mission is to 
maintain a culture of excellence and self-assessment, one that 
produces the highest standards of performance and integrity.
    Second, the Navy is proactively taking steps to address 
aging and technology obsolescence. SSP is extending the life of 
the Trident II D5 strategic weapons system to match the Ohio-
class submarine service life and to serve as the initial 
baseline mission payload for the Ohio replacement submarine 
platform. This is being accomplished through a life-extension 
program for all of the Trident II D5 strategic weapon systems 
subsystems to include launcher, navigation, fire control, 
guidance missile, and reentry.
    In November 2015, the USS Kentucky conducted her 
demonstration and shakedown operation, launching two D5 life-
extension missiles marking 157 out of 159 successful launches. 
This milestone continues to ensure a sustainable sea-based 
strategic deterrence capability.
    Finally, I fully support strategic collaboration between 
our services. The Navy and the Air Force are both addressing 
challenges in sustaining aging strategic weapons systems. As a 
result, I remain committed and I believe commonality between 
the ground-based strategic deterrent at the Trident II D5 
systems will improve affordability while reducing risks to 
ensure a safe, secure, effective, and credible strategic 
deterrent.
    Leadership commitment and focus are required to accomplish 
this parallel undertaking.
    Thank you for the opportunity to testify today, and I am 
pleased to answer your questions, Mr. Chairman.
    [The prepared statement of Admiral Benedict follows:]

         Prepared Statement by Vice Admiral Terry Benedict, USN
                              introduction
    Chairman Sessions, Ranking Member Donnelly, distinguished Members 
of the subcommittee, thank you for this opportunity to discuss the 
Navy's strategic programs. It is an honor to testify before you this 
afternoon representing the Navy's Strategic Systems Programs (SSP).
    SSP's mission is to design, develop, produce, support, and ensure 
the safety of our Navy's sea-based strategic deterrent, the Trident II 
(D5) Strategic Weapons System (SWS). The men and women of SSP and our 
industry partners remain dedicated to supporting the mission of our 
sailors on strategic deterrent patrol and our marines, sailors, and 
coast guardsmen who stand watch, ensuring the security of the weapons 
we are entrusted with by this Nation.
    The Navy provides the most survivable leg of the U.S. nuclear triad 
with our ballistic missile submarines (SSBNs) and the Trident II (D5) 
SWS. The 2010 Nuclear Posture Review reinforced the importance of SSBNs 
and the Submarine Launched Ballistic Missiles (SLBMs). Critically, 
SLBMs will comprise a significant majority of the Nation's 
operationally deployed nuclear warheads. The Chief of Naval Operations 
(CNO) and Vice Chief of Naval Operations continue to reiterate the 
Navy's number one priority is to maintain a credible, modern, and 
survivable sea-based strategic deterrent. Maintaining our Nation's 
capability in this key mission area includes the proper funding of the 
Ohio Replacement Program--along with the propulsion and the SWS--as the 
``The Navy's #1 acquisitions programs.''
    Ensuring sustainment of the sea-based strategic deterrent 
capability is a vital national requirement today and into the 
foreseeable future. Our PB-17 budget request provides required funding 
to support the program of record in fiscal year (FY) 2017 for the 
Trident II (D5) SWS. To sustain this capability, I am focusing on my 
top priorities: Nuclear Weapons Safety and Security; the Trident II 
(D5) SWS Life Extension Program; the Ohio Replacement Program; the 
Solid Rocket Motor (SRM) Industrial Base; the implementation of the 
Nuclear Enterprise Review recommendations; the newly codified Navy 
Nuclear Weapons Regulatory responsibility; and collaboration with the 
Air Force.
                  nuclear weapons safety and security
    The first priority, and the most important, is the safety and 
security of the Navy's nuclear weapons. Accordingly, Navy leadership 
delegated and defined SSP's role as the program manager and technical 
authority for the Navy's nuclear weapons and nuclear weapons security.
    At its most basic level, this priority is the physical security of 
one of our Nation's most valuable assets. Our Marines and Navy Masters 
at Arms provide an effective and integrated elite security force at our 
two Strategic Weapons Facilities and Waterfront Restricted Areas in 
Kings Bay, Georgia and Bangor, Washington. U.S. Coast Guard Maritime 
Force Protection Units have been commissioned at both facilities to 
protect our submarines as they transit to and from their dive points. 
These Coast Guardsmen and the vessels they man provide a security 
umbrella for our Ohio-class submarines. Together, the Navy, Marine 
Corps, and Coast Guard team form the foundation of our Nuclear Weapons 
Security Program while headquarters staff ensures that nuclear weapons 
capable activities continuously meet or exceed security, safety, and 
compliance standards.
    SSP's efforts to sustain the safety and improve the security of 
national assets continue at all levels of the organization. The Navy's 
nuclear weapons enterprise maintains a culture of self-assessment in 
order to sustain safety and security. This is accomplished through 
biannual assessments by SSP headquarters staff, periodic technical 
evaluations, formal inspections, and continuous on-site monitoring and 
reporting at the Strategic Weapons Facilities. Technical evaluations, 
formal inspections, and on-site monitoring at the Strategic Weapons 
Facilities provide periodic and day-to-day assessment and oversight. 
Biannual assessments evaluate the ability of the organization to self-
assess the execution of the assigned strategic weapons mission and 
compliance requirements. The results of these biannual assessments are 
critically and independently reviewed through the Navy Nuclear Weapons 
Assessment and provided to the Secretary of the Navy and the CNO.
    We also strive to maintain a culture of excellence to achieve the 
highest standards of performance and integrity for personnel supporting 
the strategic deterrent mission. We continue to focus on the custody 
and accountability of the nuclear assets entrusted to the Navy. SSP's 
number one priority is to maintain a safe, secure, and effective 
strategic deterrent.
                       d5 life extension program
    The next priority is SSP's life extension effort to ensure the 
Trident II (D5) SWS remains an effective and reliable sea-based 
deterrent. The Trident II (D5) SWS continues to demonstrate itself as a 
credible deterrent and exceeds operational system requirements 
established over 30 years ago. The submarine leg of the U.S. strategic 
deterrent is ready, credible, and effective, thereby assuring our 
allies and partners and deterring potential adversaries. However, we 
must remain vigilant about age-related issues to ensure a continued 
high level of reliability.
    The Trident II (D5) SWS has been deployed on our Ohio-class 
ballistic missile submarines for 25 years and is planned for a service 
life of 50 years. This is well beyond its original design life of 25 
years and more than double the historical service life of any previous 
sea-based strategic deterrent system. As a result, effort will be 
required to sustain a credible SWS from now until the end of the 
current Ohio-class SSBN in the 2040s; as well as the end of the service 
life of the Ohio Replacement SSBN in the 2080s.
    The Navy is proactively taking steps to address aging and 
technology obsolescence. SSP is extending the life of the Trident II 
(D5) SWS to match the Ohio-class submarine service life and to serve as 
the initial baseline mission payload for the Ohio replacement submarine 
platform. This is being accomplished through an update to all the 
Trident II (D5) SWS subsystems: launcher, navigation, fire control, 
guidance, missile, and reentry. Our flight hardware--missile and 
guidance--life extension efforts are designed to meet the same form, 
fit, and function of the original system to keep the deployed system as 
one homogeneous population, control costs, and sustain the demonstrated 
performance of the system. We will remain in continuous production of 
large energetic components such as solid rocket motors and Post Boost 
Control System Gas Generators, while continuing an age management 
replacement effort for missile small ordnance and control components. 
We also started initial planning for when a follow-on missile to 
Trident II (D5) will be needed. These efforts will provide the Navy 
with the missiles and guidance systems we need to meet operational 
requirements through the introduction and deployment of the Ohio 
replacement SSBNs through the 2080s.
    While budgetary pressures and impacts of sequestration resulted in 
some deferred or delayed efforts, strategic deterrence remains the 
Navy's highest priority. As such, the Navy is committed to minimizing, 
to the maximum extent possible, impacts to this program in order to 
meet strategic requirements.
    One impacted effort is the change to our flight test program in 
fiscal year 2016. In accordance with Strategic Command (STRATCOM) 
requirements, the Navy is required to flight test a minimum of four 
Trident II (D5) missiles per year in a tactically-representative 
environment. The purpose of flight testing is to detect any change in 
reliability or accuracy. The enacted fiscal year 2016 budget reflects a 
reduction of one planned flight test for affordability. The Navy 
coordinated with STRATCOM to determine that this temporary reduction is 
manageable in the short-term, contingent upon our plan to ramp back up 
to four flight tests per year later in the Future Years Defense Program 
(FYDP). A prolonged reduction beyond what is planned in fiscal year 
2016 would impact our ability to detect changes in reliability and 
accuracy of an aging system with the required degree of statistical 
confidence to meet STRATCOM requirements. The fiscal year 2017 budget 
request reflects the return to four flight tests per year.
    Despite budgetary pressures, the Navy's D5 life extension program 
remains on track. In November 2015, the USS Kentucky (SSBN 737) 
successfully conducted her Demonstration and Shakedown Operation (DASO 
26) by launching two missiles. These missiles successfully integrated 
the D5 Life Extension (D5 LE) Flight Controls Electronics Assembly and 
Interlocks Suite with the D5 LE Guidance System. The D5 LE missiles 
will be available for initial fleet introduction in fiscal year 2017.
    Another major step to ensure the continued sustainment of our SWS 
is the SSP Shipboard Integration (SSI) Programs, which address 
obsolescence management and modernization of SWS shipboard systems 
through the use of open architecture design and commercial off-the-
shelf hardware and software. The first increment of this update was 
installed on the final U.S. SSBN in April 2014. This completed 
installation on all fourteen U.S. SSBNs, all four UK SSBNs and all 
United States and UK land-based facilities. Installation of subsequent 
increments began last summer, with four installations completed to 
date. The SSI Program includes refreshes of shipboard electronics 
hardware and software upgrades, which will extend service life, enable 
more efficient and affordable future maintenance of the SWS and ensure 
we continue to provide the highest level of nuclear weapons safety and 
security for our deployed SSBNs while meeting STRATCOM requirements.
    To sustain the Trident II (D5) SWS, SSP is extending the life of 
the W76 reentry system through a refurbishment program known as the 
W76-1. The W76-1 refurbishment maintains the military capability of the 
original W76 for an additional 30 years. This program, which is being 
executed in partnership with the Department of Energy, National Nuclear 
Security Administration (NNSA), has completed over 60 percent of the 
planned warhead production. The Navy will continue to work with NNSA to 
closely monitor production and deliveries to ensure there are no 
operational impacts.
    In addition, the Navy continues the design work to refurbish the 
aging electronics in the W88 reentry system. The Navy is collaborating 
with the Air Force to reduce costs through shared subsystems suitable 
for the W88/Mk5 and the W87/Mk21. Additionally, the Nuclear Weapons 
Council (NWC) directed the replacement of the conventional high 
explosive, which will support deployment of the W88/Mk5 for an 
additional 25 years. As directed by the NWC, we have submitted funding 
requests to support the initial feasibility and cost studies (Phase 
6.2/6.2A) for an Interoperable Warhead (IW) to begin in 2020. The Navy 
believes that the NWC continues to effectively balance near-term 
nuclear weapons sustainment and refurbishment priorities and the long-
term stockpile strategy.

                        ohio replacement program
    The Navy's highest priority acquisition program is the Ohio 
Replacement Program, which replaces the existing Ohio-class submarines. 
The continued assurance of our sea-based strategic deterrent requires a 
credible SWS, as well as the development of the next class of ballistic 
missile submarines. The Navy is taking the necessary steps to ensure 
the Ohio replacement SSBN is designed, built, delivered, and tested on 
time with the right capabilities at an affordable cost.
    To lower development costs and leverage the proven reliability of 
the Trident II (D5) SWS, the Ohio Replacement SSBN will enter service 
with the Trident II (D5) SWS and D5 LE missiles onboard. These D5 LE 
missiles will be shared with the Ohio-class submarines until their 
retirement. Maintaining one SWS during the transition to the Ohio-class 
replacement is beneficial from a cost, performance, and risk reduction 
standpoint. A program to support long-term SWS requirements is planned 
for the future to support the Ohio-class replacement SSBN through its 
entire service life.
    The Navy continues to leverage the Virginia-class program to 
implement lessons-learned and ensure the Ohio Replacement Program 
pursues affordability initiatives across design, construction, and life 
cycle operations and support. The SSBN design team recently achieved 
several critical decisions and milestones. In December 2015, the Navy 
released the Request for Proposals for the final detailed design 
contract. Maintaining the pace of design and submarine industrial 
capability is critical to the continued success of our sea-based 
strategic deterrent now and well into the 2080s.
    A critical component of the Ohio Replacement Program is the 
development of a Common Missile Compartment (CMC) that will support 
Trident II (D5) deployment on both the Ohio-class replacement and the 
successor to the UK Vanguard-class. In 2015 the Program began 
construction of missile tubes to support building the U.S. prototype 
Quad-pack module, the Strategic Weapons System--Ashore (SWS Ashore) 
test site, and the UK's first SSBN. The joint CMC effort is shifting 
from design to construction, supporting production in both United 
States and UK build yards. Any delay to the common missile compartment 
effort has the potential to impact the UK's ability to maintain a 
continuous at sea deterrent posture.
    To manage and mitigate technical risk to both the United States and 
UK programs, SSP is leading the development of SWS Ashore integration 
test site at Cape Canaveral, Florida. This is a joint effort with the 
Navy and the state of Florida investing in the re-development of a 
POLARIS site to conduct integration testing and verification for Ohio 
replacement and UK Successor programs. Refurbishment of the POLARIS 
site and construction of the infrastructure is proceeding at a rapid 
pace, including installation of test bay 1 missile tubes and 
superstructure and several major support systems. Trident II (D5), 
Ohio-class, and Ohio replacement new design hardware will be co-located 
and integrated to prove the successful re-host and redeployment of the 
Trident II (D5) SWS on the new submarines. To mitigate the risk in the 
restart of launch system production, SSP constructed a surface launch 
facility at the Naval Air Station, China Lake, California. This 
facility will prove that the launcher industrial base can replicate the 
performance of the Ohio-class Trident II (D5) launch system. We will be 
launching the refurbished Trident II (D5) test shapes used in the 1980s 
starting in fiscal year 2017. Launch performance is a critical factor 
we must understand at the systems level to ensure we maintain high 
reliability as we transition the weapon system to the next class of 
SSBNs.
    The United States and the UK have maintained a shared commitment to 
nuclear deterrence through the Polaris Sales Agreement since April 
1963. As the Director of SSP, I am the U.S. Project Officer for the 
Polaris Sales Agreement. Our programs are tightly coupled both 
programmatically and technically to ensure we are providing the most 
cost effective, technically capable nuclear strategic deterrent for 
both Nations. Last year marked the 52nd anniversary of this agreement, 
and I am pleased to report that our longstanding partnership with the 
UK remains strong. The United States will continue to maintain its 
strong strategic relationship with the UK as we execute our Trident II 
(D5) LE Program and develop the common missile compartment. Our 
continued stewardship of the Trident II (D5) SWS is necessary to ensure 
a credible and reliable SWS is deployed today on our Ohio-class 
submarines, the UK Vanguard-class, as well as in the future on 
respective follow-on platforms. This is of particular importance given 
the proportion of our nuclear forces that will be deployed on the sea-
based leg of the Triad under the New START Treaty. The Ohio replacement 
will be a strategic, national asset whose endurance and stealth will 
enable the Navy to provide continuous, uninterrupted strategic 
deterrence well into the 2080s.
                solid rocket motor (srm) industrial base
    The defense and aerospace industrial base--in particular the solid 
rocket motor industry--is another important priority. I remain 
concerned with the decline in demand for solid rocket motors. While the 
Navy is maintaining a continuous production capability at a minimum 
sustaining rate of twelve rocket motor sets per year, the demand from 
both NASA and Air Force has precipitously declined. Not only did this 
decline result in higher costs for the Navy, as practically a sole 
customer, it also put an entire specialized industry at risk of 
extinction. To allow this puts our national security at risk. The Navy 
cannot afford to singularly carry this cost, nor can our Nation afford 
to lose this capability. While the efforts of our industry partners and 
others have created short-term cost relief, the long-term support of 
the solid rocket motor industry and maintenance of critical skills 
remains an issue that must be addressed at the National level. At SSP, 
we will continue to work with our industry partners, DOD, senior NASA 
leadership, Air Force, and Congress to do everything we can to ensure 
this vital national security industry asset is preserved.
                       nuclear enterprise review
    The Navy remains committed to addressing and implementing 
recommendations of the 2014 Nuclear Enterprise Review (NER). The 
Program and Budget Review for the fiscal year 2017 budget formulation 
preserves all current enhancements to the Nuclear Enterprise, focusing 
significantly on the recapitalization, sustainment, and modernization 
of our nuclear deterrence systems and infrastructure. The NER provided 
the Navy a thorough and unbiased look at our nuclear forces. Overall, 
the report found that the nuclear enterprise is safe, secure, and 
effective today but it also found evidence of systemic problems that, 
if not addressed, could undermine the safety, security, and 
effectiveness of elements of the force in the future. Fortunately, the 
Navy's internal Nuclear Weapons Assessment and the SSP Comprehensive 
Self-Assessment identified most of the issues underscored during the 
NER. In fact, the report validated numerous efforts already underway.
    The Navy continues to address the more than 68 recommendations with 
Navy equity contained in the report. Significant action has been taken 
to implement each recommendation, focusing on the following areas: 
oversight, investment, and personnel and training improvements. With 
respect to oversight, the Navy is clarifying the nuclear deterrent 
enterprise leadership structure and reducing administrative burdens 
imposed on the forces. The Nuclear Deterrent Enterprise Review Group 
(NDERG), formed and led by the Secretary of Defense will continue to 
provide regular oversight of the nuclear enterprise. The Navy Nuclear 
Deterrent Mission Oversight Council is the Navy's mechanism to ensure 
the NDERG recommendations and guidance are properly implemented and 
that investments achieve the intended effect.
    Regarding training and personnel, the Navy is planning a 
significant investment to build a margin in the deterrence force and 
clear the SSBN maintenance backlog. The Navy is matching the right 
responsibilities with the right leaders in order to address the 
recommendations involving long-term cultural and organizational 
challenges. There will be an emphasis on the importance of the 
deterrence mission through updated vision statements, revised campaign 
plans, and methods to eliminate obstacles to enhance moral conduct and 
relieve the pressures on sailors, training, and work-life balance.
    The Navy is developing a 20 year investment plan to ensure the 
continued reliability of critical infrastructure at these facilities to 
support nuclear weapons movement and operations. While the Navy makes 
significant progress through actions taken to date, we recognize much 
work remains to be accomplished. The Navy is confident we have the 
right emphasis, oversight and processes in place to maintain a 
credible, modern, and safe sea-based deterrent.
             navy nuclear weapons regulatory responsibility
    As a result of the Nuclear Enterprise Review, the Navy implemented 
a centralized regulatory authority for nuclear force readiness. As the 
Director of Strategic Systems Programs (DIRSSP), I have accountability, 
responsibility and authority to serve as the single Flag Officer to 
monitor performance and conduct end-to-end assessment of the Navy 
Nuclear Deterrence Mission (NNDM) elements. These responsibilities are 
defined in SECNAVINST 8120.1B and OPNAVINSTs 8120.1 and 8120.2. Nine 
Echelon 2 level commands directly contribute to the NNDM: U.S. Fleet 
Forces Command (USFLTFORCOM), U.S. Pacific Fleet (PACFLT), Fleet Cyber 
Command (USFLTCYBERCOM), Navy Supply Systems Command (NAVSUPSYSCOM), 
Naval Sea Systems Command (NAVSEASYSCOM), Chief of Naval Personnel 
(CNP), Bureau of Medicine and Surgery (BUMED), commander, Navy 
Installations Command (CNIC), and SSP.
    In my role as DIRSSP, I am the the Navy Nuclear Deterrence Mission 
(NNDM) regulatory authority responsible for assessing and reporting 
issues to the Navy Nuclear Deterrence Mission Council and the CNO. SSP 
is tasked with developing, coordinating, and implementing policies 
approved by the CNO; conducting end-to-end assessments of the Navy's 
nuclear weapons and nuclear weapons systems and personnel, including 
Nuclear Command, Control, and Communications (NC3), for safe, reliable, 
and effective execution of the NNDM.
    SSP is engaged with the Echelon 2 commands defined above to 
understand current reporting and assessment processes and to define the 
NNDM regulatory assessment policy. The next in-progress review with 
CNO, in February 2016, will provide an update on the significant 
progress made to date by the participating commands, to include: 
reporting and engagement strategies with the NNDM component commands, 
development of archival and analytical tools to assist in performing 
end-to-end assessments, and presenting the initial component self-
assessments and an independent assessment of the Echelon 2 reporting. 
Further, the upcoming 2016 Biennial Navy Nuclear Weapons Assessment 
will review the implementation and execution of the NNDM Regulator 
processes to date to ensure we are providing the necessary rigor and 
discipline to this endeavor.
                    collaboration with the air force
    The final priority is strategic collaboration between the Services. 
The Navy and the Air Force are both addressing the challenges of 
sustaining aging strategic weapon systems and are collaboratively 
working to ensure these capabilities are retained in the long-term to 
meet mission requirements. In accordance with a July 2015 tasking 
letter from the Air Force and Navy Service Acquisition Executives 
(SAEs), and the commander, U.S. Strategic Command, the Navy and Air 
Force conducted an assessment of the options for commonality for the 
two ballistic missile legs of the Triad. The direction to SSP and PEO/
SS was to determine whether increasing the commonality between the 
Ground Based Strategic Deterrent (GBSD) and Trident II life extension 
(D5LE) could improve affordability while ensuring a safe, secure, 
effective, and credible nuclear deterrent. The assessment is 
considering commonality across a wide spectrum, from full system level 
commonality to technology sharing for independent programs.
    Although initial results of the assessment ruled out the possible 
use of a standard common weapons system by both the Air Force and Navy, 
a number of common components and technologies remain. The use of these 
candidates offer significant potential benefits in terms of reducing 
costs and technical and schedule risks to the GBSD and SLBM programs. 
Commonality will provide the Navy and Air Force opportunities to 
eliminate redundant efforts, leverage economies of scale, and sustain 
shared critical skills and capabilities needed by securing the 
industrial base.
    Each leg of the Triad provides unique attributes. Furthermore, a 
sustained and ready Triad provides an effective hedge, allowing the 
Nation to shift to another leg, if necessary, due to unforeseen 
technical problems or vulnerabilities. For this reason, the Department 
is focused on cooperative efforts that maintain affordability and 
reduces risk to both services while retaining essential diversity where 
needed to ensure a credible and reliable deterrent. Many of the 
industries and required engineering skills sets are unique to strategic 
systems. Key to SSP's historical success has been our technical 
applications programs, which in the past provided a research and 
development foundation. We will need to resume these critical efforts 
as we evaluate maintaining this strategic capability until the 2080s to 
match the full service life of the Ohio replacement submarine.
                               conclusion
    SSP continues to maintain a safe, secure, and effective strategic 
deterrent and focus on the custody and accountability of the nuclear 
assets entrusted to the Navy. Our PB-17 budget request ensures that we 
will sustain this capability in fiscal year 2017. However, we must 
remain vigilant about unforeseen age-related issues to ensure the high 
reliability required of our SWS. SSP must maintain the engineering 
support and critical skills of our industry and government team to 
address any future challenges with the current system as well as 
prepare for the future of the program. Our Nation's sea-based deterrent 
has been a critical component of our national security since the 1950s 
and must continue to assure our allies and deter potential adversaries 
well into the future. I am privileged to represent this unique 
organization as we work to serve the best interests of our great 
Nation.

    Senator Sessions. Thank you.
    Thank you, all. Those are important opening statements, and 
our subcommittee has some important work to do. I feel that we 
are not coming in to an entirely new situation, but that we 
have been observing developments for some time. We know where 
the danger areas are, and we know we have to avoid those danger 
areas and make the right decisions.
    Dr. Hopkins, last year, you testified before the House 
that, ``We have reached a point where we have removed all 
flexibility for nuclear weapons life-extension programs, and we 
are losing flexibility in our platform modernization 
programs.''
    I assume by that you mean that, financially, we do not have 
any room for error at this point. Would you comment on that 
comment you made previously?
    Dr. Hopkins. Yes, thank you, Senator.
    It is a matter both of financially as well as schedule. The 
modernization schedule is really tied closely to our estimated 
timeout of the systems that are existing today. After several 
years of delaying the modernization--I am sure partially for 
financial reasons, partially for other programmatic reasons--we 
have reached a point where virtually every leg of the triad is 
nearing the end of its anticipated service life. We have 
extended as many as we possibly can, as long as we can.
    What we are seeing now is the requirement for the 
department to modernize the delivery systems and to extend the 
lives of the various nuclear weapon components.
    Senator Sessions. Do you have confidence or can you 
guarantee that at the funding level we are talking about now, 
if we maintain it, we will be able to replace our current 
platforms before they reach the end of their service life?
    Dr. Hopkins. Well, I would say that our budget request is 
designed to support the program to replace the triad, as 
described. I do not think I could guarantee too much at this 
point, just because we are so relatively early in the programs. 
As you know, things tend to change over time.
    However, we are giving careful thought to the timing and to 
the cost estimation, the estimation of the costs of these 
various legs.
    Senator Sessions. Now, is it the view of the Nuclear 
Weapons Council, which you are the staff director for, that our 
out-year funding for the life-extension programs for nuclear 
warheads and bombs, and the new facilities, is inadequate, as 
suggested by Secretary Moniz?
    Dr. Hopkins. I think that the funding for the warhead 
modernization is adequate, but I believe Secretary Moniz was 
referring to infrastructure.
    Senator Sessions. That means?
    Dr. Hopkins. Plutonium, uranium, high-performance 
computing, that sort of thing.
    Senator Sessions. Okay.
    Dr. Hopkins. Those will need additional resources in the 
out-years, in order to keep pace and provide the support that 
is needed.
    Senator Sessions. Well, we did challenge some of the 
structures, building of new structures. I think there was a 
good response to that, and I think it saved us some money.
    Admiral Benedict, one of the things that is talked about, 
sometimes openly, sometimes just around the table, is that we 
are going to reach a crisis with regard to the Ohio-class 
replacement financially, because it is going to pop the Navy's 
budget, and we have to have a plan in place so we can proceed 
at the right pace with that replacement of that critical part 
of the triad.
    Do you have concerns there? Are we reaching a point that 
could be a crisis? What, if anything, do we need to do to deal 
with it?
    Admiral Benedict. Yes, sir. Thank you.
    We have worked closely within the Navy. As we discussed 
yesterday, there are three major components to deliver the Ohio 
replacement platform. One is, certainly, the propulsion 
reactor, which is under the auspices of Admiral Caldwell in 
naval reactors. The other one is the platform itself, which is 
the responsibility of PEO submarines, Admiral Jabaley. Then the 
third piece is the mission package, which I, as the director of 
SSP, am responsible to deliver.
    As we have looked at that Ohio replacement program under 
the direction of Mr. Stackley, who is our acquisition executive 
in the Navy, I think we have presented a platform that delivers 
the requirements necessary to meet our leg of the triad at the 
most cost-efficient price point that we can come up with.
    You are well-aware that we took a two-year slip at the 
beginning of the program, which basically removed our float. We 
have done a number of things within the Navy, trying to ensure 
that is the most cost-effective solution that we are presenting 
to the Congress. Our design maturity is higher than any other 
platform that has ever or ever will enter production. We will 
make some requests of other opportunities to reduce the costs--
economic order quantities, advanced construction authorities, 
things like those, which I am certain that Mr. Stackley will 
address when he comes up here and testifies.
    If we are to replace the Ohio without reducing the number 
of platforms necessary to support Admiral Haney's requirements 
at STRATCOM [Strategic Command], then we must stay the current 
program of record for the Ohio replacement.
    Yes, sir.
    Senator Sessions. You agree with that, Secretary Scher?
    Secretary Scher. Absolutely.
    Senator Sessions. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thanks to all the witnesses.
    Admiral Benedict, thanks again for having me aboard on the 
tests on the USS Kentucky. It was a privilege.
    Is the Navy committed to commonality as a means to 
modernize and maintain the triad? If so, what elements do you 
see as most applicable for commonality with ICBM modernization 
program?
    Admiral Benedict. Yes, sir. The Navy is absolutely 
committed to commonality. I think we have worked very closely 
with our sister service, the Air Force.
    At the direction of Mr. Stackley and Mr. LaPlante, both the 
acquisition executives for the Navy and the Air Force, as well 
as Admiral Haney, we have been working since this summer to 
identify opportunities for commonality with the Air Force.
    We have five teams that we have stood up. They have done 
detailed analysis of opportunities in areas where we could 
focus with commonality. That report is completed, and we will 
shortly brief out the secretaries, as well as Admiral Haney.
    But commonality is simply a tool. It is a tool to identify 
risks. When you are doing a program as complicated as the Air 
Force is right now with the GBSD [Ground Based Strategic 
Deterrent], or we will do--and we have just come through with 
the life-extension programs--I believe that, in today's 
environment, and the fragile industrial bases that we face in 
some of our niche areas that only we do, the Navy and Air 
Force, that it is a means to address schedule, cost, technical, 
and the industrial base appropriately. It is a risk-reduction 
tool.
    We have been meeting now with Mr. Kendall, the OSD 
acquisition executive, on how we will implement the 
opportunities that these five teams that have been working 
under the direction of the service secretaries, how we will 
implement those opportunities.
    Yes, sir, we are fully committed.
    Senator Donnelly. General Rand?
    General Rand. Sir, I will just echo what Admiral Benedict 
said. We are committed to pursuing commonality in the GBSD and 
the SLBM [submarine launched-ballistic missile].
    I think we are going to brief. Again, I will not be part of 
that briefing, but I think Secretary Kendall will give a brief 
later in March.
    Senator Donnelly. Where are we with commonality on guidance 
systems?
    General Rand. I am going to defer a little bit to the 
Admiral on that question.
    Senator Donnelly. Admiral?
    Admiral Benedict. Yes, sir. Thank you.
    As part of the Trident II D5 life extension, we completely 
rebuilt our guidance system. We modernized it in terms of 
instruments, our accelerometers, our gyros, our radiation-
hardened memory, our radiation-hardened processors, our 
architecture. As we have gone through that effort over the last 
10 years as part of life extension, significant investments 
have been made.
    We have shared that information with the Air Force. The Air 
Force is working with Mr. Kendall on how they would incorporate 
that into their acquisition strategy. Certainly, competition is 
a major player as they move forward in GBSD.
    I think we are collaboratively working with the Secretary 
to find a way to both achieve competition and yet ensure that 
we take advantage of the investments that the Navy has made as 
part of commonality. That is a trade-off right now. As the 
General said, we have had three meetings with Mr. Kendall, and 
there are more to happen.
    Senator Donnelly. Dr. Hopkins, how are you working to 
ensure commonality with the SLBM fleet as you modernize the 
ICBM fleet by 2030?
    Dr. Hopkins. Thank you, Senator.
    As already mentioned, on the acquisitions side, the Under 
Secretary for Acquisition is leading the charge for 
commonality. I think a lot of that is driven by the perceived 
benefit, the anticipated benefit, that commonality will support 
affordability.
    In addition, as the chairman of the Nuclear Weapons 
Council, the Under Secretary will also help to integrate the 
opinions and the guidance and the oversight of all the senior 
leadership within the enterprise.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    General Rand, there has been really a number of calls 
recently for the abandonment of the LRSO [Long Range Standoff]. 
We have heard that it is redundant; it is unnecessary; it is a 
destabilizing weapon. That runs directly counter to the efforts 
of this committee and also of the department. We have been 
focused on trying to move that up.
    I realize we are not in a classified forum here, but could 
you comment on the need for the LRSO, and whether there is any 
basis in fact that it is unnecessary?
    General Rand. Certainly, Senator. I am glad to talk on 
that.
    I think it is absolutely critical to our bomber fleet. With 
the advent of the LRSB [Long Range Strike Bomber], that will be 
a primary weapon. The B-52s ALCM needs to be replaced, and it 
needs to go on the B-52 and we need to put on the B-2. Three of 
the bombers need LRSO.
    A major reason why is because the ALCM has outlived its 
usefulness. It was intended to be a 10-year missile. It has now 
been in existence for almost 36 years.
    Unfortunately, the enemy gets a vote, and I think that it 
will not have the capabilities as we get into 2025, 2030, to do 
exactly what it is intended to do.
    In this increasingly contested environment that we will be 
operating in, we need LRSO. The Air Force is committed to this. 
It is in our 2017 budget, and it is funded fairly strongly for 
the FYDP [Future Years Defense Program]. We hope to be able to 
start production in 2026 with an IOC [initial operating 
capability] in 2030.
    Senator Fischer. Thank you.
    Mr. Secretary, would you like to comment on that?
    Secretary Scher. Yes, thank you, Senator.
    I second all the points of General Rand. I think the 
arguments that it is a destabilizing weapon I think are ones 
that--I am glad we have this robust discussion in the United 
States, but I think the LRSO is a continuation of an existing 
weapon. I would argue that it is not inherently destabilizing, 
as it is a weapon that already has existed.
    I also think that it is important to recognize that 
having----
    [Audio Disruption.]
    Secretary Scher. It is something that will be important 
today and into the future.
    Senator Fischer. You believe the flexibility of the LRSO is 
very important?
    Secretary Scher. Absolutely. The goal is to make sure that 
we have, as I said, this full range of capabilities, yields, 
and the flexibility to employ them in multiple ranges and 
options to give the most choices to the President. That gives 
the most credibility deterrent, and, frankly, I think then is 
the most stabilizing.
    Senator Fischer. I would agree.
    Dr. Hopkins, do you have any comments on that?
    Dr. Hopkins. Yes. Thank you.
    I would just reinforce the comment about strategic 
stability, and that is that the United States has had nuclear 
cruise missiles since 1982, so I think it is a difficult 
argument to make that a cruise missile is destabilizing.
    Senator Fischer. Thank you.
    General, you mentioned the funding that is proposed in the 
budget of 2017. Do you think that is on target, online? Will 
the Air Force make that a priority?
    General Rand. Yes, ma'am, I do.
    Senator Fischer. Thank you.
    Gentlemen, I would ask if you all agree with the statement 
that further reductions in our nuclear forces should only be 
made as a result of a negotiated bilateral agreement and also 
one that is verifiable. Would you all agree with that?
    Admiral Benedict. Yes, ma'am.
    Senator Fischer. All are nodding yes.
    Mr. Secretary, has Russia taken any steps to come back into 
compliance with the INF [Intermediate-Range Nuclear Forces 
Treaty] treaty?
    Secretary Scher. We have seen no steps that Russia has 
taken to come back into compliance. In fact, we still hear the 
discussions that Russia has not yet said that they believe they 
are out of compliance.
    Senator Fischer. I assume that you are aware of the report 
requirement in section 1243 of the most recent NDAA, and it 
requires the department to provide this committee a plan to 
develop the counterforce capabilities, the strike capabilities, 
active defenses, in response to Russia's violations of that 
treaty?
    Secretary Scher. Yes.
    Senator Fischer. That report, is it on track to be 
submitted by March?
    Secretary Scher. My understanding is that it is, but I can 
assure you that I will go back and make sure that that 
continues to be the case.
    Senator Fischer. I would hope so. As we continue to look at 
the past actions of Russia, dating back to 2008, and their 
current belligerence, I think this report is very valuable, and 
this committee needs to see it. I would encourage you to make 
sure that we receive that.
    The President himself said rules must be binding.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Well, we know that Russia is modernizing, as is really 
every other nuclear power in the world, working on new systems. 
We understand that there are threats to NATO [North Atlantic 
Treaty Organization] from this new Russian nuclear strategy.
    Secretary Scher, what is the administration's assessment 
about the threat posed to NATO by Russia's nuclear strategy and 
new nuclear capabilities, some of which are in violation of 
existing arms-control treaties?
    Secretary Scher. Senator, obviously, the IMF violation is a 
very serious violation to begin with, a treaty that the Soviet 
Union and the United States came to realize, and both countries 
realized that they were better off with this treaty in place. 
The fact that that has broken down and that Russia no longer 
believes that is the case is a serious challenge to the 
environment of arms control and a serious threat to Europe.
    We are, however, looking at it not just as a standalone 
issue but really as part of a broad range of aggressive and 
assertive actions that Russia is taking in Europe and 
elsewhere. We believe that our response needs to be one that 
looks at this holistically as well.
    Clearly, we want to make sure that Russia does not obtain a 
military advantage because of the violation that they have 
pursued in violation of the treaty. But we also want to make 
sure that we look broadly.
    We are looking at operations in conjunction with our 
allies, very closely in conjunction with our allies, on how we 
can strengthen deterrence in Europe; how we can ensure that we 
can protect our forces and our allies in Europe, no matter what 
capabilities Russia brings to bear; and that we can ensure that 
we have the ability both through conventional means, primarily, 
but also nuclear means, if necessary, to address the 
capabilities that Russia has that threaten us, our allies, and 
our friends in the region.
    Senator Sessions. Our committee last week hosted experts 
and thinkers on this subject and went through all the 
difficulties of anticipating what Russia might do, what we 
might do in response.
    Do you feel like those possible responses to Russia's 
actions, some of its niche-type weapons, are adequate now? Or 
do we have much more to do to think through what our response 
would be?
    Secretary Scher. I believe both of those are true. I 
believe they are adequate now, but I do not want to stop and 
rest on that. I want to make sure that we continue to look at 
all the capabilities, understanding Russian doctrine even more, 
and continuing to play out the responses that we could have.
    I do feel comfortable with our responses now. I feel 
confident in the work that has been ongoing in EUCOM [European 
Command] over in Stuttgart, as well as in STRATCOM [Strategic 
Command], to deal with the full range of Russian aggression and 
potential actions they could take.
    I am also comfortable with what we have looked at within 
the Department of Defense and within the administration, in 
terms of games and responses and tabletop exercises to kind of 
understand this issue.
    But I assure you, we are not stopping now. That is 
something that we need to continue to look at as the security 
situation evolves, and as we work closer with our friends and 
allies to see what they can bring to the table on this.
    Senator Sessions. There are a lot of reasons to not sit 
idly by. One of them is, if we are apparently unable to respond 
to these kinds of new challenges, I think our allies and our 
adversaries may get the wrong impression about the willingness 
and capability of the United States to respond.
    Right now, we are not on a path to say we are going to 
develop a new weapon. But I think if it becomes clear that that 
is needed, I hope that you will ask for it. If we do it in the 
right way, perhaps we can have congressional support for that.
    One more point, the President is requesting $3.4 billion in 
fiscal year 2017 for the European Reassurance Initiative to 
reinforce our defense posture in Europe. Is there a nuclear 
component to this initiative? If not, why not?
    Secretary Scher. There is not a specific nuclear component 
to the European Reassurance Initiative. What I would say is 
that there are things ongoing and in the budget as part of the 
nuclear mission for what we are doing in Europe, specifically 
one of the most important ones to point to is the B61 life-
extension program that is directly related to our nuclear DCA 
mission in Europe that we share with the NATO allies.
    ERI, for lack of a better--we have used to focus on both 
pre-positioning infrastructure and keeping forces rotating 
through, and increasing exercises with our allies. But by no 
means should the budget line for ERI be seen as the full 
spectrum of what we are doing to address Russian activities and 
to ensure the deterrence of Russia or the reassurance and 
assurance of our NATO allies.
    Senator Sessions. I will just wrap up, but I would say a 
couple things.
    First, we need to keep the pressure on Europe to do more 
financially. We are now at 75 percent paying the costs of NATO.
    I mentioned that to a German delegation of parliamentarians 
here six months or so ago, and the leader said it is 
unacceptable that the United States has to pay 75 percent of 
the cost. He did not offer to put up any money.
    [Laughter.]
    Senator Sessions. But it is an acknowledgment of what 
Secretary Gates said in his last remarks about leaving the 
Defense Department.
    I am at a point where they have to step up. Every time the 
Russian bear growls, we provide more to reassure Europe. They 
must not be so afraid if they are not willing to put up any of 
their money for this.
    I feel pretty strongly about that, and we will be looking 
at it further. As we go through this initiative, I think some 
of it ought to be contingent on more work from our allies, 
including such things as them deploying some brigade toward the 
east, not just us.
    Secretary Donnelly--Senator Donnelly?
    Senator Donnelly. I already have one job. I do not need 
another.
    [Laughter.]
    Senator Donnelly. Secretary Scher, we have seen North Korea 
take a number of actions in recent weeks. There have been 
discussions as to what is the best way to have a deterrent 
effect against North Korea. I would like to hear your opinions 
on what you think are the best deterrent steps in regards to 
North Korea.
    Secretary Scher. This is a problem that has faced multiple 
administrations for a long time, but I do think that, first of 
all, we are not willing to accept that North Korea is a nuclear 
weapons state. That does not mean that we do not believe that 
they have nuclear weapons. But the goal here is for a complete 
and verifiable denuclearization of North Korea, and we believe 
that the international community, in general, supports that 
principle.
    The first effort is really to make sure that we can pull 
everyone together to really put pressure on North Korea to 
denuclearize.
    Separately, we have and will maintain capabilities and 
plans to address the nuclear threat that exists in North Korea, 
so that we have options for the President, should he so choose 
to use them.
    We also want to focus on defense and defense of our allies, 
especially the Republic of Korea and Japan, and making sure 
that we can effectively defend them from North Korea, both 
conventionally and nuclear, if it comes to that.
    It is going to be a long, hard process that we really need 
the international community behind. I know that my colleagues 
in the Department of State are working very hard to try to 
bring everyone together to bring the kind of pressure on North 
Korea that will make it clear to them that they are worse off 
having nuclear weapons than they are now.
    Senator Donnelly. I guess the question I am asking you is, 
what do you think that pressure is that sends that message?
    Secretary Scher. I think, certainly, building up 
capabilities on the peninsula and in Japan are part of it. 
Certainly, we have to bring economic pressure and continue to 
bring it. It has to be from the entire international community.
    I think you have seen a lot of talk about the entire 
international community decrying the latest tests. I think we 
need to see that put into action. I know they are working on 
that at the U.N. [United Nations] and elsewhere, and hopefully 
revival of the six-party talks will get us closer. But clearly, 
that has, up to this point, not worked.
    Senator Donnelly. Without categorizing it specifically this 
way, but it seems that China seems to pull their punches in 
regard to North Korea. Why do you think that is? What do you 
think an active Chinese role to help start moving North Korea 
back to denuclearization would be?
    Secretary Scher. Honestly, sir, I do not know the 
intricacies of our approach to them. I, certainly, do not want 
to characterize what China is thinking.
    But I do believe that a more prominent role and effective 
role from China to live up to the commitments that they have 
made and that the international community has made will put 
pressure on North Korea.
    If you want to pursue this, I am happy to do it in closed 
session, along with some other colleagues from the Asia side.
    But I think there are ways that we can pursue this, but we 
are not there yet.
    Senator Donnelly. We asked this question last week in 
regard to Putin and the Russian leadership, when they talk 
about offensive use of nuclear weapons. Do you think they 
believe that NATO and/or the United States would let that occur 
without response?
    Secretary Scher. Senator, I do not think so, but I also 
know that we need to continue to make that clear, both in our 
declaratory policy and in the credibility of the capabilities 
that we bring to bear on that.
    I cannot imagine that Russia does not fully understand the 
implications of the article 5 commitments of the NATO treaty. 
But again, that is something that we need to both make sure is 
credible from both a policy perspective and a capabilities 
perspective, and that is really our role here.
    Senator Donnelly. What you are saying is that we have to, 
when those things are said, just make it extraordinarily clear 
that nothing will be let to stand without a response and a 
strong and active response in return?
    Secretary Scher. I would never want to prejudge responses, 
but I do think it is fair that, as we see increasing nuclear 
saber-rattling from Russia, we make it clear that we will 
maintain our commitments to the NATO alliance, and that we will 
respond effectively, and that, most importantly, and sort of 
the fundamental piece of deterrence is that the risks to Russia 
from them taking action will be far outweighed because of our 
response. They cannot believe that any advantage will accrue to 
them. They need to understand that we will impose costs that 
will far outweigh anything they might even think that they will 
gain by taking that action. That is the core of deterrence, and 
that is something we must maintain the credibility of.
    Senator Donnelly. One more question. Vice Admiral Benedict, 
you have recently assumed expanded responsibility as the 
regulator for the Navy's nuclear deterrence mission as well. 
How do you see that mission?
    Admiral Benedict. Thank you, sir.
    I see that mission as it is really beginning to pay 
dividends. I have the opportunity to brief the CNO [Chief of 
Naval Operations] on a quarterly basis. Of course, the 
regulator role is one in which I oversee the other Echelon II 
commands within the Navy who have a purpose of ensuring that an 
SSBN can go to sea and basically support Admiral Haney's 
requirements. Fleet Forces Command, Pacific Fleet, the 
submarine force, BUMED who does the personal reliability 
program, our shipyards, all of those entities that have a piece 
in deploying a submarine now all report to me.
    They report four times a year. Two reports are readiness 
reports. Two reports are sustainment reports. We have access to 
all the information that is flowing around the community as it 
relates to the ability to execute.
    I think it is coming together nicely. We have never done 
this before. It is maturing rapidly. I have a meeting with the 
CNO in two weeks to give him the next update. I think it will 
be a very positive report.
    I believe that we are finding niche pieces of the community 
where things could potentially drop between the cracks of nine 
different commands, and we are pointing those out and 
addressing those proactively. I am very pleased with where we 
are.
    Senator Donnelly. Thank you, Admiral.
    Thank you, Chairman.
    Senator Sessions. I want to follow up on that, Admiral. If 
you find a defect or a problem, what would be your role?
    Admiral Benedict. First and foremost, my role is to ensure 
that the individual commanders within those nine commands see 
the same problem that I have identified, as the regulator. 
First and foremost, in the areas of----
    Senator Sessions. ``Regulator'' is an unusual word.
    Admiral Benedict. Yes, sir.
    Senator Sessions. What does it mean?
    Admiral Benedict. I guess in the broad terms, I look for 
problems in the seams. Every command has authority, 
accountability, responsibility. As Admiral Greenert, when he 
was CNO, was pretty clear with me, identified my job as not to 
go in and fix problems. My job is simply to identify the 
problems, most importantly in the interfaces between the 
various commands.
    To your point, to your question, what would I do, and what 
I have done, is, when I see those, I identify those to the 
commander. I have never had one yet that they have not readily 
identified and gone off and fixed.
    If we had a disagreement that it was an issue, then there 
is an escalation plan within the regulator role where we would 
both go address that with the CNO. Obviously, the CNO would 
have the final authority of what would be fixed and how. But I 
do not ever foresee that happening. It is really a constructive 
tension backup regulator role, in which we are trying to ensure 
that we provide to this Nation the most credible sea-based 
deterrent.
    Senator Sessions. The history of all government agencies 
and even the Defense Department, which, in general, does better 
than most government agencies, is that sometimes it has to be 
kicked upstairs. You be sure to do it, if it is necessary.
    Secretary Scher, Center for Strategic and International 
Studies, a good group, says, as the nuclear shadow has grown 
over the Asia-Pacific region, the credibility of the United 
States security assurances has come under strain for both Japan 
and South Korea. It goes on to say, ``Today, the United States 
lacks a sufficient range of response options to signal, compel, 
and defeat nuclear adversaries facing our allies and, by 
extension, to inspire confidence in the U.S. nuclear 
guarantees.''
    Does the administration share that concern? What, if 
anything, would we do or are we doing to fix it?
    Secretary Scher. As you say, CSIS is an excellent 
organization. I am not sure I would agree quite with that 
entire characterization. I think we are in a good place now. I 
think we bring a full range of conventional and nuclear assets 
that are in the region, or can be deployed to the region, or 
can be operated in the region.
    I also know that we keep very close discussions with the 
Republic of Korea and Japan specifically on deterrence policy 
and on these issue areas.
    Senator Sessions. Would you agree that additional response 
options are needed?
    Secretary Scher. I think we actually have a full range of 
response options now, but I accept that, as our potential 
adversaries develop more, we need to constantly review that. We 
may need to take a look and have additional options.
    But I do believe that the variety of systems, weapons, 
yields that we have in the arsenal now should cover, and I 
believe our allies believe they do cover where we need to 
today.
    Senator Sessions. Well, that is a January 2016 report, this 
year's report. I think it is something you should examine and 
look at.
    Briefly, I think, Secretary Scher, maybe you should be the 
one to answer, but if any of the others would like to answer, 
the United States and certain NATO allies have operating dual-
capable aircraft. According to unclassified NATO information, 
these aircraft are available for nuclear roles at various 
levels of readiness. The highest level of readiness is measured 
in weeks.
    Is this alert level adequate, given that we now see Russia 
has new nuclear capabilities and is flexing its muscles?
    Secretary Scher. I think, right now, honestly, we are 
looking at that as an alliance. That is one of the key issues 
we are examining together. Dr. Hopkins and I are the chair and 
vice chair of a high-level group in NATO that is charged with 
examining this. We, as an alliance, are trying to determine if 
those readiness levels are what they should be.
    It does place a large premium on indications and warning. 
We do not assume that things will happen out of the blue, so 
there is some ability and time to get to that level of 
readiness, so that these DCA can operate.
    But as I said, I think this is something that the alliance 
is looking at now, and we may have some indications of where 
the alliance wants to go, certainly by the June ministerial.
    Senator Sessions. Well, the alliance is not overly 
impressing me about how it operates. The United States has 
always had to push, and I think maybe more so now in recent 
years than in the past, push to make sure that we do the things 
necessary for real defense capability. For the Russians to 
assume they have weeks before they have a threat, then I think 
that sends a bad signal in itself.
    Secretary Scher. Senator, I am sorry. I apologize. I agree 
with you, Senator. One of the ways that we address that as well 
is that there independent nuclear capabilities of the United 
States, the U.K. [United Kingdom], and France, that can be 
brought to bear immediately. All are ready today, currently. 
The full extent of our nuclear deterrent capability of the 
alliance does not rest solely on DCA. There are other elements 
that back that up as well.
    General Rand. Senator, if I may?
    Senator Sessions. Yes, General Rand?
    General Rand. I cannot resist the opportunity, being one of 
the last people in the Air Force to ever serve alert on a dual-
capable aircraft, when I did that in the 1980s in the F-16 at 
Incirlik.
    I would agree with Secretary Scher's comment about our 
ability to respond to Russia in many forms, particularly our B-
2 and our B-52. If I may, in the last two years, we have 
increased the number of what we call BAAD, bomber assurance and 
deterrence missions, that we provided General Breedlove and 
General Gorenc in the region.
    In fact, three B-52s will be going to Moron, Spain, later 
this month for a two-week exercise. The beauty is we can have 
planes take off from Barksdale or Minot or Whiteman and be over 
and spend considerable time on station and even return where 
they do not even need to land in Europe.
    But the effect that that has is it is easy to judge the 
assurance value. The intel community is always scratching their 
head of the deterrent value it has, but we believe it does have 
a deterrent value or we would not do it.
    If I may, when you talked about China and Korea, for the 
last 10 years, we have not taken a single airplane off the 
Republic of Korea. We have put continuously six B-52s operating 
out of Guam, doing a continuous bomber presence.
    Are we doing more today than when I left the Republic of 
Korea in 2004. We have increased our presence in what we are 
doing. I think that has a very calming effect both on the 
Republic of Korea and Japan.
    Senator Sessions. Thank you.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Heinrich, do you want to go now? It is up to you.
    Senator Heinrich. Have you had a chance?
    Senator Donnelly. I have.
    Senator Heinrich. Secretary Scher and General Rand, thanks 
for being here today.
    The CBO [Congressional Budget Office] noted that DOD will 
spend about $15.4 billion on nuclear weapons modernization in 
2015, which is about three percent of DOD's entire budget. When 
you look at that together with NNSA's investment, which was 
about $19 billion last year in total, that is around $35 
million, or roughly about 6 percent of the base defense budget.
    In other words, we spend about six cents out of every 
defense dollar on our nuclear deterrent, which, in my view, has 
effectively prevented another world war for over 70 years now.
    What is your current assessment of other nations' efforts 
to modernize their nuclear infrastructure? Do we have a good 
sense of what kinds of investments they are specifically 
making?
    Secretary Scher. Certainly, the full details of this we 
could provide to you in a closed session or an intel briefing. 
But as I mentioned a little bit, certainly, we see 
modernization across Russia and China. To some extent, the 
Russian modernization, they reached a point earlier than we 
did, where they were aging out of their systems and needed to 
modernize. That is not to say that these are not modern and 
fully up equipment. They are. They have modernized across the 
full range, I think we seen.
    China, we have seen that they have made qualitative 
investments in their nuclear forces.
    Those are the main ones we track. Obviously, we talked a 
lot about North Korea and see that they are continuing to test 
both their nuclear weapons as well as potential delivery 
systems.
    Senator Heinrich. How important is the B61 LEP to DOD's 
nuclear policy and the deterrence strategy that you talked 
about?
    Secretary Scher. The B61 as the remaining gravity bomb for 
the nuclear forces is very important to us, from a strategic 
perspective. We want to make sure that we have a full range of 
options, a range of yields and delivery systems. As a result, 
that is a critical piece of the air leg of the triad.
    In terms of the technical advantages of consolidating a 
life-extension program, Dr. Hopkins would know more about that. 
But from a strategy perspective, it is very important.
    Senator Heinrich. Doctor?
    Dr. Hopkins. One of the most significant advantages of the 
B61 modernization, which is going to produce the B61-12, is it 
is going to enable the Nation to eliminate the need for--it 
will take the place of four different variants of the existing 
B61. There is a certain degree of efficiency and a certain 
degree of safety associated with reducing the numbers and types 
of weapons in the inventory.
    Senator Heinrich. Is that largely related to your ability 
to address yield?
    Dr. Hopkins. Yes, it is. In fact, the expected damage from 
a bomb, the utility of a bomb, is primarily a function of its 
yield and its accuracy. They are inversely related, so the more 
accurate a system is, the lower the yield that can be used to 
achieve the desired effect.
    Senator Heinrich. General Rand, do you want to add anything 
to that observation?
    General Rand. No, sir. I think that summarizes it well. I 
think the pragmatics of it is that it is going to be very 
helpful for us. I was at Whiteman earlier in January, and they 
had the different B61s. That just becomes much more difficult 
to manage and to secure.
    This will be viewed, from that very pragmatic point of 
view, as a helpful thing.
    Senator Heinrich. One last question, and then I will turn 
it back over.
    What are the steps that the services are taking broadly to 
improve the morale of the nuclear mission force? How is each 
measuring the effectiveness of those actions?
    Secretary Scher. Obviously, the services will comment on 
this, but I do want to note, first of all, the great job that I 
know each of the services are doing and the fact that we in OSD 
[Office of the Secretary of Defense] are not forgetting that we 
also have a requirement to track this and to make sure that 
that happens. Now, each of the services is doing it, and we can 
track that as well. But it has to be a system- and enterprise-
wide focus on this, as well as a service-specific one.
    Admiral Benedict. As Secretary Scher said, leadership 
starts from the top on this issue. Certainly, the Secretary of 
Defense and Secretary Work, as a Deputy Secretary of Defense, 
have been leading this effort.
    Within the Navy, we have focused primarily on our 
shipyards, our manning of the shipyards, to ensure that we can 
do the throughput, as well as our strategic weapons facilities, 
which is where we support the SSBNs.
    We are, as I stated in my opening statement, about 79 
percent complete with the tasks that we were assigned and 
accepted under the Secretary of Defense reviews. All the 
remaining ones are really long-term perspectives, which we will 
not be able to complete physically this year.
    It is the number-one priority of the CNO. He tracks it 
personally. We are very committed to stay on course with what 
the cape reports to the Secretary.
    Senator Heinrich. General?
    General Rand. Yes, sir. I can spend the entire session on 
this topic, as you well realize. Senator Donnelly had brought 
it up, of how we were doing to implement the changes that were 
very much needed.
    But if I may, briefly, as we took all the reviews that were 
done in our force improvement program, came up with over 300 
recommendations. We put those into six buckets.
    Those buckets are leadership and organization as number 
one; culture is two; resources and materiel is three; surety is 
the fourth one; and the fifth and sixth are personnel and 
training. We are just mowing through it, sir. We are going 
through each one of these. We are tracking them. Some of these 
we will never be able to say we are done with, because they 
will be just repeating.
    That is how we are doing it. It is, certainly, my number-
one focus. I would tell you that Secretary James and the Chief 
of Staff of the Air Force, General Welsh, have given me very 
strong guidance on their expectations of the emphasis. We have 
a superb proponent in our chief and secretary.
    Senator Heinrich. Thank you, all.
    Senator Sessions. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Secretary Scher, when you look at North Korea, how 
important of a role do think missile defense systems in South 
Korea can play?
    Secretary Scher. I think when you look at the range of 
capabilities that North Korea has, I think there is no question 
that we need to figure out how we can deploy, and we do deploy, 
missile defense to the peninsula. As you saw after the 
potential test of ballistic missile components, but the 
satellite launch, the alliance together decided that it was 
time to look at placing THAAD [Terminal High Altitude Area 
Defense] on the peninsula. I think that is an important step 
for the alliance, and one that I hope we can look to figure out 
how we can conclude quickly.
    Missile defense, of course, is never going to be the system 
that protects every place from every kind of missile ever 
coming in. But it needs to be able to be in place to protect 
key assets, to protect critical infrastructure, and to sow 
doubt in the mind of an adversary that they will be successful 
in a quick launch and a decapitation or a strike of getting out 
capabilities.
    We have to balance missile defense with the capabilities to 
ensure that we continue effective deterrence, and continue to 
make the case that, in this case, North Korea will not achieve 
its objectives, that it will not be able to see any benefit 
from taking aggressive action against our ally, the Republic of 
Korea. I believe strongly that we have in place forces now to 
do that, missile defense and offensive forces, but we are going 
to continue to do this as the situation changes.
    Senator Donnelly. Do you think the Chinese pass on the 
message to Kim Jong-un and he just does not listen? What I mean 
by that is, the message of, look, whatever you do will be met 
with significantly more coming back into you. That message has 
been given to the Chinese.
    Does Kim Jong-un not even listen to this? Is this all 
internally related more than externally related?
    Secretary Scher. I think I can give you the----
    Senator Donnelly. We are trying to gain your wisdom here.
    Secretary Scher. I understand. To be very honest, Senator, 
I used to spend a lot of time trying to figure out the ins and 
outs of people's motivation. Right now, I spend a lot of time 
trying to figure out--I do not care. I am looking at their 
capabilities, and I am going to make sure that we can address 
the threats posed by their capabilities and make sure that we 
have effective systems to ensure deterrence.
    I have never made a lot of money being a good predictor of 
what people are actually thinking or doing.
    Senator Donnelly. Is your regular rule basically just, when 
you show them significantly more firepower, significantly more 
deterrence, at some point, all you can do is show them the very 
best that you have, that you would overwhelm them in return?
    Secretary Scher. I personally believe that Kim Jong-un does 
does have a rational side and does think about regime and his 
own survival. Hence, us demonstrating exactly what you said 
goes a long way to ensuring the deterrence on the peninsula and 
overall stability. We still need to do more, as does everybody 
in the international community.
    Senator Donnelly. Let me just close with this, and this is 
like a lightning round, almost. Do the very best you can.
    What keeps you up the most at night in your present 
responsibility? This would be to everyone on the panel.
    Secretary Scher. Miscalculation. The broad answer is 
miscalculation. But it is either miscalculation from North 
Korea, from Russia, from Pakistan and India, the number of 
countries that have at their disposal some of the most 
destructive weapons known to mankind. That keeps me up at 
night, miscalculations about that.
    There are a lot of other problems and a lot of my 
colleagues and I spend a lot of time on those, but none of them 
pose that same existential danger, I think, to the United 
States, to the Western system, to our allies and friends, as 
miscalculation amongst the nuclear powers.
    Senator Donnelly. Dr. Hopkins?
    Dr. Hopkins. In addition to miscalculation, what I would be 
most concerned about is making sure that we have thought of 
everything with respect to potential threats against our 
system. We have an active program to try to stay ahead of 
threats, and we want to make sure that we are staying ahead of 
both terrorist and state threats.
    Senator Donnelly. General Rand?
    General Rand. Yes, Senator, I agree with those concerns 
expressed, but the practicality for me is that we are doing 
operations every day. The movement of nuclear weapons, B-1s and 
B-52s flying combat, those are the reality of doing the 
mission, and the risks associated with that would be what keep 
me up at night.
    Senator Donnelly. Admiral Benedict?
    Admiral Benedict. Sir, I would say it is people. We just 
celebrated our 60th anniversary as a program with an 
outstanding record, and I love to make that statement. Then I 
follow it up with, but we are not halfway done. We have 68 more 
years to go, because we are building a class of submarines that 
will be in the water through 2084.
    We develop hardware, software, I can do all that, and I 
think we have demonstrated that we can do that. It is 
maintaining, training, and putting that fundamental 
philosophical discipline that got us here in those folks for 
the next 68 years. That is what keeps me up.
    Senator Donnelly. Thank you.
    Senator Sessions. Thank you.
    I think North Korea needs to know that we may not be the 
best of all times in creating a new government, but we are 
pretty good at taking one down. They need to know that there 
are things we will not accept, and their existence is at stake.
    Sometimes I think, in our desire to try to have a 
rapprochement and work with our adversaries, they may get the 
wrong message. Ultimately, we have to use these powerful 
weapons--hopefully not these--but powerful military force to 
defend the interests of the United States and the world.
    Anything else that you would like to add to the discussion?
    Well, we thank you very much. Our subcommittee will be 
working on this. We have a very good subcommittee that has made 
itself very knowledgeable about the challenges that we face. We 
will try to treat respectfully your requests for funding and 
authority, and do our best to respond as a good Congress 
should. We are adjourned.
    [Whereupon, at 3:57 p.m., the hearing was adjourned.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2016

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

             ATOMIC ENERGY DEFENSE ACTIVITIES AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:33 a.m. in 
Room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Sessions, Fischer, 
Graham, Donnelly, King, and Heinrich.

           OPENING STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Our meeting will come to order.
    We expect Senator Donnelly to arrive any moment, but I 
would go on and share a few opening remarks.
    This Strategic Forces Subcommittee convenes to hear 
testimony on the Department of Energy Atomic Defense Activities 
and Programs in Review for the Defense Authorization Request 
for Fiscal Year 2017 and the Future Years Defense Program.
    Leading the panel of witnesses is retired General Frank 
Klotz, Under Secretary of Energy and Administrator for the 
National Nuclear Security Administration.
    We thank you, General Klotz. We admire your leadership.
    He is joined by Brigadier General Stephen Davis, Acting 
Deputy Administrator for Defense Programs; Ms. Anne Harrington, 
Deputy Administrator for Defense Nuclear Nonproliferation; and 
Admiral James Caldwell, the Deputy Administrator for Naval 
Reactors. They are joined by Mrs. Monica Regalbuto, Assistant 
Secretary of Energy for Environmental Management; and Mr. David 
Trimble, Director of United States/International Nuclear 
Security and Cleanup in the Government Accountability Office, 
GAO.
    We are pleased to learn that the budget request for NNSA 
[the National Nuclear Security Administration] Weapons 
Activities in fiscal year 2017, some 9.2 billion, is consistent 
with the President's commitment made in 2010 to secure support 
for the New START Treaty. We will examine carefully the 
particulars of this request, but I would agree with our 
colleague, Senator Jim--Congressman Jim Cooper, the ranking 
Democrat on the House Armed Services Committee, who observed, 
when you were before his subcommittee two weeks ago, these 
programs are the Department's top priority and are going to be 
fully funded on a bipartisan basis.
    Nevertheless, there is reason for some concern. According 
to the January 12th, 2016, report in the Wall Street Journal, 
Secretary of Energy, Secretary Moniz, expressed concern to the 
Office of Management and Budget that, quote, ``Without an 
additional 5.2 billion for out years 2018 through 2021, the 
budget will,'' quote, ``lack credibility with Congress and 
stakeholders.'' That's us. Secretary says this budget isn't--
may not have credibility with us--and that, quote, ``Failure to 
address these requirements in the near term ``now--'' will put 
NNSA budget in an untenable position by fiscal year 2018,'' 
which isn't far away--2018. The subcommittee will want to 
examine this and see where we stand.
    Constrained national defense budgets will like--will be 
likely toward the future. There will be a lot of tough choices 
having to be made. But, we must ensure that the critical 
warhead life extensions remain on schedule and within cost, 
that facility construction is reasonable and can be justified, 
and that these programs benefit from stable, sufficient funding 
over the years--we don't want to be up and down, causing you 
more cost than you need; you need to be able to know what 
you've got--which is why Congress needs to look carefully at 
the Administration's recent decision to pursue development of a 
repository for high-level defense waste, separate of the 
development of a repository for civil commercial spent fuel. By 
altering the longstanding policy of maintaining a common 
nuclear waste repository, we are concerned that billions of 
dollars could be added to the defense cost, potentially 
squeezing out modernization and new weapon systems. Some have--
I've heard the figure $15 to $40 billion is possible for this. 
That's a stunning number.
    With that, I'd like to turn to my able Ranking Member, 
Senator Donnelly, for his opening comments.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank our witnesses for appearing today.
    I understand Assistant Secretary Regalbuto and Brigadier 
General Davis are new before our subcommittee. I welcome you.
    This hearing touches on some of the most complex problems 
in our government. We will hear testimony from Administrator 
Klotz on rebuilding our nuclear weapon stockpile to ensure we 
can deter existential threats to our Nation. Meanwhile, 
Assistant Secretary Regalbuto will describe how we will treat 
and dispose of some 55 million gallons of radioactive waste 
that borders the Columbia River in Washington, with a similar 
amount at the Savannah River site in South Carolina. I want to 
understand whether you're meeting the milestones and cost 
estimates that you have outlined to us in prior hearings and 
budgets. The Department has, for a number of years, been on the 
GAO's Major Program High-Risk List, and it is imperative that 
progress be made in getting off of this list. It won't happen 
overnight, but I hope that hearings such as these maintain the 
proper focus on the ability to do so.
    As always, let me thank Senator Sessions and his staff for 
holding this hearing. They've been great partners, and we look 
forward to today's discussion.
    Senator Sessions. Thank you.
    I will just introduce you all here at once:
    Lieutenant General Klotz has been the Department of 
Energy's Under Secretary of Nuclear Security and NNSA 
Administrator since April of 2014. He's responsible for the 
management and operation of NNSA, as well as policy matters 
across the Department of Energy and NNSA enterprise in support 
of the President's nuclear security agenda.
    Dr. Regalbuto has been Assistant Secretary for 
Environmental Management at the Department of Energy since 
August of 2015. She provides the leadership necessary to 
continue the safe cleanup of the environmental legacy brought 
about from five decades of nuclear weapons development and 
government-sponsored nuclear energy research. That's a big 
deal, and it's expensive, and we need to see where we stand.
    Mr. Trimble is the Director of U.S. and International 
Nuclear Security and Cleanup at the GAO, and provides oversight 
and leadership on international nuclear security and cleanup 
issues.
    Admiral Caldwell is the Director of Naval Nuclear 
Propulsion Program, dual-hatted with the Department of Energy 
and the Department of Navy. Have you melted down over having--
--
    [Laughter.]
    Senator Donnelly. If so, let us know, so we can----
    [Laughter.]
    Senator Sessions. It doesn't look like it. You look fine.
    He's responsible for the command and safe, reliable 
operation of the Navy's Nuclear Propulsion Program and for all 
the current U.S. naval reactors deployed for usage, as well as 
all facilities needed to ensure safe operations.
    Ms. Harrington has been the Deputy Administrator for 
Defense Nuclear Nonproliferation since October 2010.
    We welcome you back.
    She manages NNSA's billion-dollar Nuclear Nonproliferation 
Program to secure vulnerable nuclear material around the world, 
stop nuclear smuggling, and prevent the proliferation of 
weapons of mass destruction, which I'm--we're all nervous 
about.
    Brigadier General Davis is Acting Deputy Administrator for 
Defense Programs at the NNSA. He's also Principal Assistant 
Deputy Administrator for Military Applications for the NNSA, 
ensuring the Nation sustains safe, secure, and effective 
nuclear weapons.
    General Klotz, you want to lead off?

  STATEMENT OF HONORABLE FRANK G. KLOTZ, UNDER SECRETARY FOR 
             NUCLEAR SECURITY, DEPARTMENT OF ENERGY

    General Klotz. Yes, sir, I'd be delighted to.
    Chairman Sessions, Ranking Member Donnelly, Senator 
Fischer, Senator Heinrich, thank you for the opportunity to 
present the President's fiscal year 2017 budget request for the 
Department of Energy's National Nuclear Security 
Administration.
    We provided the subcommittee a written statement, and 
respectfully request it be submitted for the record.
    Senator Sessions. We will make it part of the record.
    General Klotz. We value this committee's leadership in 
national security as well as its robust and abiding support for 
the missions and the people of NNSA.
    Our budget request, which comprises more than 40 percent of 
the Department of Energy's total budget, is $12.9 billion, an 
increase of nearly 357 million, or 2.9 percent, over the fiscal 
year 2016 enacted level. The budget request continues the 
Administration's unwavering commitment to NNSA's important and 
enduring missions. These missions are defined in the NNSA 
Strategic Vision, which we released just last year. These 
include to maintain a safe, secure, and effective nuclear 
weapon stockpile; to prevent, counter, and respond to the 
threat of nuclear proliferation and nuclear terrorism; and to 
support the capability of our nuclear-powered Navy to project 
power and to protect American and allied interests around the 
world.
    To succeed, NNSA must maintain crosscutting capabilities 
that enable each of these core missions, again, as defined in 
our Strategic Vision. These crosscuts focus on advancing 
science, technology, and engineering, supporting our people and 
modernizing our infrastructure, and developing a management 
culture focused on safety, security, and efficiency, adopting 
the best practices and use across the Government and in the 
commercial world.
    If you'd like, I'd be pleased to offer a copy of this 
document, the Strategic Vision document, for the record, as 
well.
    Senator Sessions. Thank you. We will make that a part of 
the record.
    General Klotz. The budget materials and briefings we have 
provided describe NNSA's major accomplishments last year, 2015, 
as well as the underlying rationale for our budget proposal for 
fiscal year 2017. Let me briefly highlight just a few of the 
points.
    First and foremost, the United States has maintained a 
safe, secure, and effective nuclear weapon stockpile without 
nuclear explosive testing for over 20 years. NNSA's fiscal year 
2017 budget request continues the steady increase of the 
Weapons Activities appropriation. In fact, this account has 
increased more than 40 percent since the fiscal year 2010 
budget request. As a result of the funding provided by this 
Congress and supported by this subcommittee and the significant 
improvements NNSA has made over the last couple of years in 
program management, all of our life extension programs are on 
schedule and within budget.
    NNSA's science and technology base continues to yield 
critical modeling and simulation data and deploy increasingly 
capable high-performance computing in support of the stockpile. 
Last year, for example, the National Ignition Facility [NIF] at 
Lawrence Livermore National Laboratory increased its shot 
rate--that is, the number of experiments it does--from 191 in 
2014 to 356 in 2015, almost doubling, including the first-ever 
experiments at NIF using plutonium.
    Our budget request also supports recapitalization of NNSA's 
aging research and production infrastructure, most notably the 
facilities where we perform our major uranium, plutonium, 
tritium, and other commodity operations. Of significance, NNSA 
completed the first subproject of the Uranium Processing 
Facility, called Site Readiness, on time and $20 million under 
budget.
    This year's request for the Defense Nuclear 
Nonproliferation account, Anne's account, is 6.8 percent lower 
than the fiscal 2016 enacted level, for two reasons. First, 
prior-year carryover balances are available to execute several 
programs in this mission space. Second, we propose terminating 
the Mixed Oxide Fuel Fabrication Facility Project [MOX] and 
pursuing a dilute-and-dispose approach as the fastest, less 
expensive path to meeting our National commitment and 
international agreement to dispose of 34 metric tons of excess 
weapons-grade plutonium.
    The request for our third appropriations, the Naval 
Reactors Program, keeps pace with mission needs and continues 
NNSA's commitment to the three major initiatives: the Ohio-
class reactor plant system development, the land-based S8G 
prototype refueling overhaul in upstate New York, and the Spent 
Fuel Handling Recapitalization Project in Idaho. For each of 
these missions, NNSA is driving improvements in management and 
governance.
    For all of our programs, we have instituted rigorous 
analysis of alternatives, defined clear lines of authority and 
accountability, and ensured that Federal project directors and 
contracting officers have the appropriate skill mix and 
professional certifications to effectively manage NNSA's work.
    Our budget request for Federal salaries and expenses 
reflects an increasing emphasis on improving program and 
project management across all of our mission pillars.
    In closing, Mr. Chairman, the nuclear security enterprise 
continues to make significant progress. Through discipline, 
careful planning, and your continued and strong support, we 
believe we can make smart investments to build on that progress 
and meet new challenges in the future.
    Again, sir, thank you for the opportunity to appear before 
this subcommittee.
    [The prepared statement of General Klotz follows:]

       Prepared statement by Lt. Gen. Frank G. Klotz, USAF (Ret)
    Chairman Sessions, Ranking Member Donnelly, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year (FY) 2017 budget request for the Department of Energy's 
(DOE) National Nuclear Security Administration (NNSA). It is a pleasure 
to be here this afternoon. We value this Committee's strong support for 
the nuclear security mission, and for the people and institutions that 
are responsible for executing it.
    The President's fiscal year 2017 budget request for NNSA is $12.9 
billion, this is an increase of $357.5 million or 2.9 percent over the 
fiscal year 2016 enacted level. The request is approximately 43 percent 
of the DOE's total budget, and 67 percent of DOE's total 050 budget.
    The NNSA has a unique and special responsibility to maintain a 
safe, secure, and effective nuclear weapons stockpile for as long as 
nuclear weapons exist; to prevent, counter, and respond to evolving and 
emerging nuclear proliferation and terrorism threats; to provide 
nuclear propulsion to our Navy as it protects American and Allied 
interests around the world; and to support our outstanding NNSA federal 
workforce. By supporting overall growth, this budget request represents 
a strong endorsement of NNSA's vital and enduring missions, and is 
indicative of the Administration's unwavering commitment to a strong 
national defense.
    NNSA's missions are accomplished through the hard work and 
innovative spirit of a highly talented federal and Management and 
Operating (M&O) workforce committed to public service. To provide this 
team the tools they need to carry out their complex and challenging 
task, both now and in the future, we must continue to modernize our 
scientific, technical, and engineering capabilities and infrastructure. 
In doing so, we are mindful of our obligation to continually improve 
our business practices, and to be responsible stewards of the resources 
that Congress and the American people have entrusted to us.
    The fiscal year 2017 budget request also reflects the close working 
partnership between NNSA and the Department of Defense (DOD). NNSA 
works closely with DOD to meet military requirements, support our 
Nation's nuclear deterrence capabilities and modernize the nuclear 
security enterprise. I would also note, that as in previous years, DOD 
is carrying in its fiscal year 2017 budget request separate funding in 
fiscal year 2018 and beyond that will be reallocated annually to NNSA's 
Weapons Activities and Naval Reactors.
    I want to thank the committee for its support of the fiscal year 
2016 budget request and look forward to your continuing support in 
fiscal year 2017. We have made some tough decisions and tradeoffs to 
meet both military commitments and nuclear security priorities. Without 
congressional support, modernization of our nuclear enterprise, 
implementation of our long-term stockpile sustainment strategy, and 
sustainment of our nonproliferation and prevention and response 
capabilities could be at risk. The program we have proposed is highly 
integrated and interdependent across the four accounts.
    Details of the fiscal year 2017 budget request for the NNSA follow:
                    weapons activities appropriation
    For the Weapons Activities account, the fiscal year 2017 budget 
request is $9.2 billion, an increase of $396.2 million, or 4.5 percent 
above the fiscal year 2016 enacted levels. This account provides funds 
for the Defense Programs portfolio, which is responsible for all 
aspects of the stockpile stewardship, management, and responsiveness 
programs; the enterprise-wide infrastructure sustainment activities 
managed by our Office of Safety, Infrastructure, and Operations; NNSA's 
physical and cybersecurity activities; and the secure transportation of 
nuclear materials.
Maintaining the Stockpile
    Last year, the work of the science-based Stockpile Stewardship 
Program (SSP) allowed the Secretaries of Energy and Defense to certify 
to the President for the 20th time that the American nuclear weapons 
stockpile remains safe, secure, and reliable, without the need for 
underground explosive nuclear testing. This achievement is made 
possible each year by essential investments in state-of-the-art 
diagnostic tools, high performance computing platforms, and modern 
facilities, which are staffed by NNSA's world-class scientists, 
engineers, and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2017 budget 
request is $3.3 billion, a decrease of $57.3 million, or 1.7 percent 
below the fiscal year 2016 enacted levels. These reductions will not 
restrict NNSA's ability to annually assess system performance and 
reliability or maintain the schedule for Life Extension Programs (LEP).
    The major LEPs are a fundamental part of this account. The $222.9 
million requested for the W76-1 warhead LEP directly supports the Navy 
and will keep the LEP on schedule and on budget to complete production 
in fiscal year 2019. We continue to make good progress on the B61-12 
LEP, which will consolidate four variants of the B61 gravity bomb and 
will improve the safety and security of the oldest weapon system in the 
U.S. nuclear arsenal. With the $616.1 million requested, we will remain 
on schedule to deliver the First Production Unit (FPU) in fiscal year 
2020. NNSA is responsible for the refurbishment of the nuclear 
explosives package and new bomb electronics, while the Air Force will 
provide the tail kit assembly under a separate acquisition program. 
When fielded, the B61-12 bomb will support both Air Force strategic 
long-range nuclear-capable bombers and dual-capable fighter aircraft, 
providing extended deterrence to our allies and partners, and allow 
retirement of the last megaton class weapon in the inventory, the B83 
gravity bomb.
    In July 2015, we began Phase 6.2 (Feasibility Study and Design 
Options) for the W80-4 cruise missile warhead LEP. The fiscal year 2016 
budget request included $195 million to accelerate the FPU by two years 
to fiscal year 2025, a decision made by the Nuclear Weapons Council 
(NWC) in late 2014. The fiscal year 2015 budget request included $10 
million to start the program. We had initially planned a ramp-up of 
Phase 6.2 study activities beginning in fiscal year 2016 to support the 
NWC FPU decision. However, as a result of the fiscal year 2016 
continuing resolution, we were unable to begin the planned ramp-up 
activities until just recently. Furthermore, because of the delay in 
receiving fiscal year 2016 funding, the program cannot execute the full 
fiscal year 2016 enacted amount this year. As a result, a significant 
amount of the program's fiscal year 2016 funding will carry over into 
fiscal year 2017. Consequently, the fiscal year 2017 budget request is 
$25.3 million over the fiscal year 2016 budget request, rather than 
$117 million over the fiscal year 2016 budget request, as previously 
projected. While this delayed start will affect planned technology 
maturation activities in Phase 6.2A (Design Definition and Cost Study), 
we still fully expect to meet the planned FPU date in fiscal year 2025 
to support the Air Force Long Range Stand Off (LRSO) program.
    In fiscal year 2015, the NWC approved additional scope for the W88 
Alteration (ALT) 370 to meet an emerging requirement. NNSA is now 
accelerating the new Conventional High Explosive (CHE) refresh work to 
match the original ALT schedule. As a result, we are synchronizing the 
full program to transition seamlessly to the Production Engineering 
phase in February 2017. In preparation for that phase transition, NNSA 
will publish a baseline cost report by the end of this fiscal year. 
This budget request reflects these efforts and includes $281.1 million 
in fiscal year 2017 to support the FPU in fiscal year 2020.
    Also within DSW, the fiscal year 2017 budget request includes $1.3 
billion for Stockpile Systems and Stockpile Services. These programs 
sustain the stockpile pursuant to the direction given in the 
President's Nuclear Weapon Stockpile Plan (NWSP). In doing so, the 
programs deploy unique skills, equipment, testers, and logistics to 
enable the daily operations of the nation's nuclear deterrent. 
Specifically, these programs produce and replace limited life 
components (LLCs) such as neutron generators and gas transfer systems, 
conduct maintenance, surveillance, and evaluations to assess weapons 
reliability, detect and anticipate potential weapons issues such as the 
recent CHE refresh issue mentioned above, and compile and analyze 
information during the Annual Assessment process.
    The pursuit and application of technological advancements to 
enhance safety and security while reducing life cycle costs of the 
stockpile runs through all of these activities. The development of 
Integrated Surety Architectures enhancing transportation safety and 
security is an example of these efforts.
    Within DSW, the fiscal year 2017 budget request also includes 
$577.8 million for the Strategic Materials account to maintain NNSA's 
ability to produce the nuclear and other materials needed to support 
the enduring stockpile. This program includes Uranium Sustainment, 
Plutonium Sustainment, Tritium Sustainment, Domestic Uranium Enrichment 
(DUE), lithium and other strategic materials. Funding for Uranium 
Sustainment will enable enriched uranium operations in Building 9212, a 
Manhattan Project-era production facility at the Y-12 National Security 
Complex in Oak Ridge, Tennessee, to end in fiscal year 2025, and allow 
the bulk of this obsolete building to shut down. The sustainment and 
modernization of enriched uranium capabilities and the acceleration of 
Area 5 de-inventory will reduce safety and mission risks in the near 
term.
    Plutonium Sustainment funds replacement and refurbishment of 
equipment and the critical skills needed to meet the pit production 
requirements as outlined in the National Defense Authorization Act 
(NDAA) for fiscal year 2015.
    Tritium Sustainment ensures the Nation's capability and capacity to 
provide the tritium necessary to meet national security requirements, 
either through production at Tennessee Valley Authority nuclear power 
plants or by recovering and recycling tritium from returned gas 
transfer systems.
    The DUE program continues its efforts to ensure that we have the 
necessary supplies of enriched uranium for a variety of national 
security needs.
    The fiscal year 2017 budget request also includes $69 million for 
Weapons Dismantlement and Disposition, an increase of $16.9 million, 
32.7 percent above the fiscal year 2016 enacted level, which includes 
funds to support the President's goal to accelerate the dismantlement 
rate of previously retired weapons by 20 percent. This will enable NNSA 
to dismantle the weapons retired prior to fiscal year 2009 by 2021, 
rather than the original goal of 2022. It will also result in increased 
Management and Operating staff at both the Pantex Plant in Amarillo, 
Texas and the Y-12 National Security Complex.
    For Research, Development, Test, and Evaluation (RDT&E), the fiscal 
year 2017 budget request is $1.9 billion, an increase of $36.2 million, 
two percent above the fiscal year 2016 enacted level. This includes 
$663.2 million for the Advanced Simulation and Computing (ASC) Program, 
an increase of $31 million for the Advanced Technology Development and 
Mitigation (ATDM) subprogram that supports high performance computing 
on the path to exascale, and $87.1 million for Advanced Manufacturing 
Development (AMD), a decrease of $43 million. The decrease reflects a 
realignment from technology development investments to address higher 
NNSA priorities. The budget request focuses on continued investment in 
advanced manufacturing opportunities and improving the manufacturing 
processes for components that support multiple weapons to maximize the 
benefits of these investments. Advanced Manufacturing invests in 
technologies that will reduce the time and cost of current 
manufacturing methods, replaces obsolete processes, and supports 
manufacturing developments for future weapon upgrades. Additive 
Manufacturing, also known as 3-D printing, aids in developing and 
manufacturing components for stockpile and weapon technology 
applications. The overall RDT&E request reflects small increases for 
the Science Program ($442.0 million, an increase of $18.9 million) to 
achieve two subcritical experiments per year before the end of the 
FYNSP, and begin alterations to U1a tunnel complex at Nevada to prepare 
for these experiments: Inertial Confinement Fusion Ignition and High 
Yield Program ($523.9 million, an increase of $11.9 million) and the 
Engineering Program ($139.5 million, an increase of $8.1 million).
    The Inertial Confinement Fusion Ignition and High Yield program has 
spearheaded ongoing improvements in management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at Lawrence Livermore 
National Laboratory (LLNL) in California and the OMEGA facility at the 
University of Rochester in New York. In fiscal year 2015, NIF markedly 
improved its shot-rate efficiency with over 350 key experiments 
performed (compared to 191 in fiscal year 2014) in support of the SSP. 
This level of effort represents an 85 percent increase over the 
previous year and an 18 percent increase over its goal for 2015.
    NNSA has taken major steps in high performance computing to deliver 
on its missions and play a leading role to support the President's 
Executive Order on the National Strategic Computing Initiative (NSCI). 
In 2015, Los Alamos National Laboratory (LANL) and Sandia National 
Laboratories (SNL) received the first hardware delivery for NNSA's next 
generation high performance computer, Trinity. This computer will 
initially have eight times more applications performance than the Cielo 
machine it is replacing. NNSA also continued its CORAL collaboration 
with LLNL, the DOE Office of Science national laboratories at Oak Ridge 
and Argonne, IBM, and other vendors. CORAL will help develop next 
generation computing platforms to dramatically improve our ability to 
run increasingly complex codes and will be a significant step on the 
path to exascale computing.
    NNSA collaborates with the DOE Office of Science while making these 
much needed investments in exascale computing. The fiscal year 2017 
budget request includes $95 million from NNSA for the development of 
capable exascale systems.
    Defense Programs also maintains the vitality of the broader 
National Security Enterprise. An important aspect of this effort is 
investing in Laboratory-, Site- and Plant-Directed Research and 
Development (LDRD/PDRD). Independent reviews have consistently affirmed 
the importance of the program to the long-term vitality of the labs. 
LDRD/PDRD provides basic research funding to foster innovation and to 
attract and retain young scientific and technical talent and is 
critical to the long-term sustainment of our national laboratories. 
Congressional support is essential to ensuring that we have both the 
workforce and the new developments necessary to support the nation's 
security into the future.
Improving Safety, Operations and Infrastructure
    NNSA's ability to achieve its mission is dependent upon safe and 
reliable infrastructure. The age and condition of NNSA's infrastructure 
will, if not addressed, put the mission, the safety of our workers, the 
public, and the environment at risk. More than half of NNSA's 
facilities are over 40 years old while 30 percent of them date back to 
the Manhattan Project era. The fiscal year 2017 budget request for 
Infrastructure and Operations is $2.7 billion, an increase of $442.8 
million, 19.4 percent above the fiscal year 2016 enacted level. This 
funding will help NNSA modernize and upgrade aging infrastructure and 
address safety and programmatic risks through strategic investments in 
both general purpose infrastructure and program-specific capabilities 
that directly support our nuclear weapons and nonproliferation 
programs.
    To support critical programmatic activities, we are making 
important strides in recapitalizing our aging infrastructure and 
capabilities. In fiscal year 2015, NNSA funded new and continuing 
projects to enhance or replace programmatic capabilities and address 
the risks posed by the aging infrastructure. NNSA's investment in these 
projects is vital to the revitalization of the NNSA enterprise. The 
fiscal year 2017 budget request provides funding for more than 70 
recapitalization projects. The request will also support general 
purpose infrastructure and program-specific capabilities through Line 
Item Construction projects. These projects include, for example, the 
Uranium Processing Facility (UPF), the Chemistry and Metallurgy 
Research Replacement (CMRR) project, the U1a Complex Enhancements 
Project (UCEP) in support of the Enhanced Capabilities for Subcritical 
Experiments (ECSE) portfolio, the Albuquerque Complex Project to 
replace the current inadequate facilities, and a project to expand the 
electrical distribution system at LLNL.
    One of the most worrisome of the NNSA infrastructure challenges is 
the excess facilities that pose risks to our workers, the environment, 
and the mission. While many of these facilities will ultimately be 
transferred to the DOE Office of Environmental Management for 
disposition, NNSA is focusing on reducing the risk where it can. In 
fiscal year 2015, NNSA successfully demolished our second non-process 
contaminated building at Y-12 within the past two calendar years. The 
fiscal year 2017 budget request supports a number of activities to 
continue to address excess facilities. These activities include the 
transition of the Kansas City Bannister Federal Complex to the private 
sector for environmental remediation and redevelopment, risk reduction 
activities at Alpha-5 and Beta-4 at Y-12--both of which are highly 
process-contaminated--and disposition of more uncontaminated facilities 
across the NNSA enterprise.
    Our Secure Transportation Asset (STA) program provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DOD, and other customer requirements. 
The fiscal year 2017 budget request of $282.7 million includes an 
increase of $45.6 million, 19.2 percent above the fiscal year 2016 
enacted levels, to continue asset modernization and workforce 
capability initiatives. These initiatives include: (1) restoration of 
federal agent strength levels to meet the goal of 370; (2) the 
Safeguards Transporter (SGT) Risk Reduction Initiatives to manage the 
SGT beyond its design life; (3) development and testing of the selected 
alternative for the SGT replacement, the Mobile Guardian Transporter 
(MGT); and (4) replacement of vehicles and tractors.
    The Office of Defense Nuclear Security (DNS) develops and 
implements sound security programs to protect Special Nuclear Material 
(SNM), people, information, and facilities throughout the nuclear 
security enterprise. The fiscal year 2017 budget request is $670.1 
million, a decrease of $12.8 million, or 1.9 percent below the fiscal 
year 2016 the enacted level of $682.9 million due to one-time dedicated 
increases in fiscal year 2016. After adjusting for an fiscal year 2016 
one-time $30 million designated plus up and $13 million dedicated line 
item construction amounts for each year, the remaining fiscal year 2017 
operating request of $657.1 million is an increase of $17.2 million, or 
2.7 percent above the fiscal year 2016 enacted operating level of 
$639.9 million. The request manages risk among important competing 
demands as NNSA continues to face the challenges associated with an 
aging physical security infrastructure that must be effectively 
addressed in the coming years. To this end, DNS is conducting a Site 
Condition Review (SCR) of the physical security systems at all 
locations to facilitate the development of an enterprise-wide security 
systems upgrade and refresh strategy. This effort will identify and 
manage current and future security improvements and upgrades on a 10-
year planning cycle and includes determining the condition of critical 
security equipment and infrastructure. A final report of this effort 
will provide DOE/NNSA leadership and Congressional stakeholders with 
consolidated and up-to-date information to enable informed decisions 
for fiscal planning and programming.
    The SCR is being conducted within the context of important 
organizational improvements and management strategies published in the 
June 2015 Security Roadmap. The document establishes a clear vision and 
path forward to correcting identified security issues and promoting 
sustained performance within the NNSA security program. The Security 
Roadmap is a multi-year effort that implements key recommendations for 
improvement identified in past assessments; it includes a total of 57 
strategic initiatives covering culture, process, infrastructure, and 
workforce challenges. As of the end of 2015, DNS has completed six of 
the initiatives and is currently working on another 20 initiatives. The 
remaining 31 initiatives are pending formal initiation.
    For Information Technology and Cybersecurity, the fiscal year 2017 
budget request is $176.6 million, an increase of $19 million, or 12.1 
percent above fiscal year 2016 enacted levels. This increase will fund 
much needed improvement to the Information Technology and Cybersecurity 
program, including Continuous Diagnostic and Mitigation (CDM), 
Telecommunications Security, infrastructure upgrades for the Enterprise 
Secure Computing Network (ESN), Public Key Infrastructure (PKI), Energy 
Sciences Network (ESnet) program, and an increased Information 
Technology budget. This cybersecurity program continuously monitors 
enterprise wireless and security technologies (e.g., identity, 
credential, and access management) to meet a wide range of security 
challenges. In fiscal year 2017, NNSA plans to continue the 
recapitalization of the Enterprise Secure Network, modernize the 
cybersecurity infrastructure, implement the Identity Control and Access 
Management project at NNSA Headquarters and site elements, and 
implement all Committee on National Security Systems and PKI 
capabilities.
             defense nuclear nonproliferation appropriation
    The Defense Nuclear Nonproliferation (DNN), fiscal year 2017 budget 
request is $1.8 billion, a decrease of $132.4 million, 6.8 percent 
below the fiscal year 2016 enacted levels. This appropriation covers 
NNSA's nuclear threat reduction mission. DNN addresses the entire 
nuclear threat spectrum by helping to prevent the acquisition of 
nuclear weapons or weapon-usable materials, technologies, and 
expertise, countering efforts to acquire such weapons, materials, and 
technologies, and responding to nuclear and radiological incidents. The 
fiscal year 2017 budget request funds two mission areas under the DNN 
appropriation: the Defense Nuclear Nonproliferation Program and the 
Nuclear Counterterrorism and Incident Response (NCTIR) Program.
Nonproliferation Efforts
    NNSA made significant progress in nuclear threat reduction in 2015. 
Working with foreign partners, the Office of Defense Nuclear 
Nonproliferation removed approximately 170 kilograms of highly enriched 
uranium (HEU) and plutonium from several civilian sites; successfully 
down-blended additional HEU to achieve a cumulative total of 150 metric 
tons of U.S. excess, weapons-usable HEU (approximately 6,000 nuclear 
weapons worth of material); recovered more than 100,000 curies of 
disused or orphaned radioactive material; ensured the United States 
remains on track to fulfill the commitments made at the 2014 Nuclear 
Security Summit; and supported the Secretary of Energy's efforts to 
develop the Joint Comprehensive Plan of Action (JCPOA) by providing 
scientific expertise and technical options to the United States 
negotiating team.
    The Material Management and Minimization (M/3/) program provides an 
integrated approach to addressing the threat posed by nuclear materials 
through a full cycle of materials management and minimization. The 
primary objective of the program is to achieve permanent threat 
reduction by minimizing and, when possible, eliminating weapons-usable 
nuclear material around the world. The fiscal year 2017 budget request 
is $341.1 million, an increase of $24.5 million, 7.7 percent above the 
fiscal year 2016 enacted levels. This funding increase will accelerate 
reactor conversions in Kazakhstan and in the United States, as well as 
initiate the critical decision process to support the dilute-and-
dispose program for domestic plutonium disposition.
    The Global Material Security (GMS) program works with partner 
nations to increase the security of vulnerable nuclear and radiological 
materials and improve their ability to detect, interdict, and 
investigate illicit trafficking of these materials. The fiscal year 
2017 budget request for this program is $337.1 million, a decrease of 
$89.6 million, 21 percent below the fiscal year 2016 enacted level. 
This decrease is possible because GMS is completing its work to protect 
the remaining International Atomic Energy Agency (IAEA) Category I 
radiological sources in the United States to meet our 2014 Nuclear 
Security Summit commitment, and because GMS is committed to reducing 
its prior year carryover balances.
    The Nonproliferation and Arms Control (NPAC) program supports the 
nonproliferation and arms control regimes by developing and 
implementing programs to strengthen international nuclear safeguards; 
control the spread of nuclear and dual-use material, equipment, 
technology and expertise; verify nuclear reductions and compliance with 
nonproliferation and arms control treaties and agreements; and address 
other nonproliferation and arms control challenges. The fiscal year 
2017 budget request will fund safeguards and export control activities, 
including efforts specifically in support of JCPOA implementation. This 
funding also supports statutorily mandated activities such as technical 
reviews of export licenses and interdiction cases, technical support 
for the negotiation and implementation of civil nuclear cooperation 
agreements (123 Agreements), and upgrades to the 10 CFR 810 
authorization process. The fiscal year 2017 budget request for this 
program is $124.7 million, a decrease of $5.5 million, 4.2 percent 
below the fiscal year 2016 enacted level. This decrease primarily 
reflects a return to baseline funding following the one-time increase 
of $3.5 million by Congress in the fiscal year 2016 budget for 
improvements in the export control process, as well as cost-savings in 
export licensing activities achieved through operational efficiencies.
    The DNN Research and Development (DNN R&D) program supports 
innovative unilateral and multi-lateral technical capabilities to 
detect, identify, and characterize (1) foreign nuclear weapons 
programs, (2) illicit diversion of special nuclear materials, and (3) 
nuclear detonations. To meet national and Departmental nuclear security 
requirements, DNN R&D leverages the unique facilities and scientific 
skills of DOE, academia, and industry to perform research, including 
counterterrorism-related R&D. The fiscal year 2017 budget request for 
this program is $393.9 million, a $25.4 million or 6.1 percent decrease 
below fiscal year 2016 enacted levels. The decrease in funding reflects 
projected savings resulting from a reduction in planned activities for 
arms control-related R&D and a return to the baseline Nuclear 
Detonation Detection (NDD) program after development of an initial 
mitigation path for supply chain interruptions.
    Nonproliferation Construction consolidates construction costs for 
DNN projects. Currently, the MOX Fuel Fabrication Facility (MFFF) is 
the only project in this program; however, the fiscal year 2017 budget 
request terminates the MOX project. The Department will complete pre-
conceptual design for the dilute-and-dispose approach to establish 
Critical Decision-0 (CD-0), Approve Mission Need, and begin conceptual 
design in late fiscal year 2017. The fiscal year 2017 budget request of 
$270 million will be used to bring an orderly and safe closure of the 
MFFF. The scope and costs will be refined in subsequent budget 
submissions when the termination plan for the MFFF project is approved.
Nuclear Counterterrorism and Emergency Operations
    DOE has adopted an enterprise-wide approach to strengthen overall 
preparedness to respond to a broad spectrum of potential emergencies. 
These emergencies include natural phenomena, such as adverse weather 
events or earthquakes, and man-made events, such as accidents or acts 
of terrorism. To better accomplish this mission, in November 2015, NNSA 
reorganized the Office of Emergency Operations and the Office of 
Counterterrorism and Counterproliferation.
    Both of these organizations are supported under the Nuclear 
Counterterrorism and Incident Response (NCTIR) Program. In fiscal year 
2016, the NCTIR program transitioned to the DNN account in order to 
align all NNSA funding to prevent, counter, and respond to nuclear 
proliferation and terrorism. The fiscal year 2017 budget request 
includes $271.9 million to support the NCTIR program, an increase of 
$37.5 million, 16 percent above the fiscal year 2016 enacted level. 
Within NCTIR, NNSA continues to work domestically and around the world 
to prepare for and improve our ability to respond to radiological or 
nuclear incidents.
    Our counterterrorism and counterproliferation programs are part of 
broader U.S. Government efforts assessing the threat of nuclear 
terrorism and to develop technical countermeasures. The scientific 
knowledge generated under this program ensures that NNSA's technical 
expertise on nuclear threat devices, including improvised nuclear 
devices (INDs), supports and informs broader U.S. Government nuclear 
security policy and guides nuclear counterterrorism and 
counterproliferation efforts, including interagency nuclear forensics 
and DOD contingency planning.
    NNSA's emergency response teams must deploy and respond with the 
most up to date equipment. The current equipment is aging, increasing 
maintenance expenses, and has started to impact NNSA's ability to 
perform its emergency response mission. The Radiological Assistance 
Program (RAP) remains the nation's premier first-response resource to 
assess a radiological incident and advise decision-makers on necessary 
steps to minimize hazards, but its effectiveness is beginning to be 
compromised by obsolete equipment. To ensure that NNSA is able to 
execute its radiological emergency response mission, RAP's equipment 
must be recapitalized regularly. Additionally, NNSA is acquiring state-
of-the-art, secure, deployable communications systems that are 
interoperable with our Federal Bureau of Investigation and DOD mission 
partners, ensuring decision makers receive real-time technical 
recommendations to mitigate nuclear terrorist threats.
    The Office of Emergency Operations is now aligned to focus on its 
core Department-wide all-hazards and complex-wide emergency management 
mission. The fiscal year 2017 budget request for this office is $34.7 
million, an increase of $9.6 million, or 38 percent above the fiscal 
year 2016 enacted level. This will improve the emergency management 
system through an enterprise-wide approach that effectively increases 
the Department's all-hazards emergency preparedness and response 
capability during complex, cascading, or enduring incidents, and more 
effectively calls upon and leverages the assets, resources, and skills 
across the DOE complex. The Emergency Operations Center (EOC) will 
continue to be the 24/7/365 single-point-of-contact for Departmental 
and interagency notifications regarding situations requiring 
centralized management such as, national emergencies, heightened 
international tension, Departmental emergencies, natural disasters, or 
acts of terrorism. The program also manages the Emergency 
Communications Network, and Continuity Programs for all of DOE, 
including NNSA. The Office of Emergency Operations will continue to 
work within the DOE to develop plans to replace the existing EOC and to 
improve the Department's capabilities to respond to emergencies.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    NNSA supports the U.S. Navy's ability to protect and defend 
American interests across the globe. The Naval Reactors Program remains 
at the forefront of technological developments in naval nuclear 
propulsion and ensures a commanding edge in war.ghting capabilities by 
advancing new technologies and improvements in naval reactor 
performance and reliability.
    In 2015, Naval Reactors enabled U.S. nuclear powered warships to 
operate for another year safely and effectively, steaming more than two 
million miles in support of national security missions. Initial reactor 
start-up was achieved in the lead reactor plant of pre-commissioning 
unit (PCU) Gerald R. Ford (CVN 78), the first new design aircraft 
carrier propulsion plant in 40 years. This historic milestone 
represents the culmination of almost 20 years of dedicated and 
sustained effort by Naval Reactors and its field activities, our 
Department of Energy laboratories, nuclear industrial base suppliers, 
the Navy design team and the nuclear shipbuilders. This is the first 
step in fully testing the integrated operations of the propulsion 
plant, culminating in sea trials this spring. Finally, we continued our 
reactor plant design and reactor core manufacturing development efforts 
in support of the new design Ohio-class replacement reactor plant, 
including the life-of-ship core.
    The Naval Reactors fiscal year 2017 budget request is $1.42 
billion, an increase of $45 million, 3.2 percent above the fiscal year 
2016 enacted level. In addition to supporting today's operational 
fleet, the requested funding will enable Naval Reactors to deliver 
tomorrow's fleet by funding three national priority projects, and 
recruiting and retaining a highly skilled work force committed to the 
Navy and the nation. The projects include (1) continuing design of the 
new reactor plant for the replacement of the Ohio-class SSBN, which 
will feature a life-of-ship core and electric drive; (2) refueling a 
Research and Training Reactor in New York to facilitate Ohio-class 
replacement reactor development efforts and provide 20 more years of 
live reactor based training for fleet operators; and (3) building a new 
spent fuel handling facility in Idaho that will facilitate long term, 
reliable processing and packaging of spent nuclear fuel from aircraft 
carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2017 to support 
these projects, and to fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at our four Program sites--the Bettis Atomic 
Power Laboratory in Pittsburgh, the Knolls Atomic Power Laboratory and 
Kesselring Site in greater Albany, and our spent nuclear fuel 
facilities in Idaho--we can perform the research and development, 
analysis, engineering and testing needed to support today's fleet at 
sea and develop future nuclear-powered warships. Importantly, our labs 
perform the technical evaluations that enable Naval Reactors to 
thoroughly assess emergent issues and deliver timely responses that 
ensure nuclear safety and maximize operational flexibility. This 
technical base supports more than 15,000 nuclear-trained Navy sailors, 
who safely maintain and operate the 98 nuclear propulsion plants in the 
fleet 24 hours per day, 365 days per year around the globe. It will 
also facilitate delivery, as directed by Congress, of our conceptual 
plan for potential naval application of low enriched uranium.
            nnsa federal salaries and expenses appropriation
    The NNSA Federal Salaries and Expenses (FSE) fiscal year 2017 
budget request is $412.8 million, an increase of $49.1 million, 13.5 
percent above the fiscal year 2016 enacted level. The fiscal year 2017 
budget request provides funding for 1,715 full-time equivalents (FTE) 
and support expenses needed to meet mission requirements. We are 
actively engaged in hiring to that number in a thoughtful and strategic 
manner. The fiscal year 2017 budget request will support 1,715 FTEs, an 
increase of 60 FTEs (25 above the authorized 1,690) above the 
anticipated number of FTEs in fiscal year 2016, and request an 
additional 25 for a total of 1,740 FTEs in fiscal year 2018 and the 
outyears. The exact number of FTEs will be determined following a 
detailed staffing review. It also provides for a 1.3 percent cost of 
living increase and a 5.5 percent increase for benefit escalation. In 
addition, the request provides funding for additional Federal 
Background Investigations for security clearances and provides 
additional funding to the Department's Working Capital Fund, primarily 
for Office of Personnel Management (OPM) credit monitoring and the 
Department's accounting systems (iMANAGE).
    In fiscal year 2017, NNSA will continue its efforts to meet current 
and future workforce needs by analyzing how evolving missions are 
affecting job requirements. Reshaping of the workforce over the next 
several years will be essential, including identifying the right 
staffing size and skill sets and implementing professional development 
plans now and in the future. NNSA will also continue to streamline its 
operations, particularly in travel and support services, to provide a 
lean and efficient organization.
                        management & performance
    To enhance our ability to carry out our mission and execute this 
budget request, we will continue to focus on improving our project 
management and cost estimating capabilities. In keeping with the 
Secretary of Energy's increased focus on Management and Performance, 
NNSA is committed to managing its operations, contracts and costs in an 
effective and efficient manner. The NNSA's Office of Acquisition and 
Project Management (APM) is driving continued improvement in contract 
and project management practices. APM is leading NNSA's effort to 
institute rigorous analyses of alternatives, provide clear lines of 
authority and accountability for federal and contractor program and 
project management, improve cost and schedule performance, and ensure 
Federal Project Directors and Contracting Officers with the appropriate 
skill mix and professional certifications are managing NNSA's work. 
NNSA participates in the Secretary of Energy's Project Management Risk 
Committee as a means to institutionalize and share best practices 
across the Department. NNSA established the Office of Project 
Assessments, reporting directly to the Principal Deputy Administrator, 
ensuring senior leadership visibility and accountability throughout the 
Enterprise for project performance. This office generated $33 million 
in cost avoidances as a result of their independent project peer 
reviews.
    Since 2011, NNSA has delivered approximately $1.4 billion in 
projects, a portion of NNSAs total project portfolio, $70 million (or 5 
percent) under original budget. Significant examples in the last year 
include the Uranium Processing Facility (UPF) Site Readiness 
Subproject, which delivered $20 million under budget; Y-12's Nuclear 
Facility Risk Reduction Project, which delivered $6 million under 
budget and 11 months ahead of schedule; and LANL's Transuranic Waste 
Facility Project, which is on track to complete $3 million under 
budget. Using the Department's best practices, the UPF and Chemistry 
and Metallurgy Research Replacement Facility Projects were restructured 
into smaller more manageable subprojects, significantly reducing 
project delivery risk.
    NNSA is committed to encouraging competition and increasing the 
universe of qualified contractors, by streamlining its major 
acquisition processes. The most significant example was the competitive 
award of the Kansas City National Security Campus M&O contract, awarded 
without protest, saving taxpayers $150 million and increasing the use 
of small businesses. As an affirmation of the quality of NNSA's 
acquisition management team, only four out of 103 competitive 
procurements were protested, with NNSA winning all protests. Finally, 
NNSA exceeded its small business goal by over 20 percent, awarding $233 
million to small business in fiscal year 2015.
    NNSA will continue to focus on delivering timely, best-value 
acquisition solutions for all of our programs and projects. NNSA will 
use a tailored approach to contract structures and incentives that is 
appropriate for the unique missions and risks at each site. Our M&O 
contractors are responsible for disparate activities, ranging from 
research and development to industrial production. Accordingly, we will 
work to develop the right incentives for each circumstance and for each 
of our contracts.
                 cost estimating and program evaluation
    The Office of Cost Estimating and Program Evaluation (CEPE) 
continues to develop its capabilities to provide trusted independent 
cost and resource analysis of NNSA's programs and projects. As detailed 
in its implementation plan, the number of CEPE federal staff will grow 
from a target of 15 in fiscal year 2016 to 18 in fiscal year 2017. CEPE 
will conduct independent cost estimates on the B61-12 LEP and W88 Alt 
370 in fiscal year 2016 and the W80-4 LEP in fiscal year 2017. CEPE is 
also institutionalizing best practices for analysis of alternatives and 
leads the corporate process to build the NNSA budget.
                               conclusion
    The NNSA performs vital activities at home and throughout the world 
in support of the nuclear security mission. Its success in addressing 
21st Century challenges hinges upon the technology, capabilities, and 
infrastructure entrusted to the organization.
    Again, thank you for the opportunity to appear before you today.

    [The prepared statement of Admiral James F. Caldwell 
follows:]

            Prepared statement by Admiral James F. Caldwell
    A strong Navy is crucial to the security of the United States. Navy 
warships are deployed around the world every hour of every day to 
provide a credible ``forward presence.'' With over 45 percent of the 
Navy's major combatants being nuclear powered, including 10 aircraft 
carriers, 14 ballistic missile submarines, 55 attack submarines, and 4 
guided missile submarines--it is vital that these ships are ready when 
and where our Nation needs them. In addition to supporting these 
nuclear powered combatants, Naval Reactors has also safely maintained 
and operated two nuclear powered land-based prototypes--both over 38 
years old--to conduct research and development and two Moored Training 
Ships--both over 51 years old--the oldest operating pressurized water 
reactors (PWRs) in the world. These land-based prototypes, Moored 
Training Ships, and Naval Nuclear Power Training Command train over 
3000 sailors per year to operate our naval nuclear propulsion plants.
    Our ballistic missile submarine force remains on patrol, marking 
over 60 years of peacekeeping capability through strategic deterrence. 
The Navy had 34 submarine deployments and 26 strategic deterrent 
patrols during 2015. In addition, at any given time, there were always 
at least 56 of 71 submarines deployed or on stand-by to deploy within a 
few days. Our carriers, USS Carl Vinson (CVN 70) and USS Theodore 
Roosevelt (CVN 71) completed successful deployments to the Central 
Command area of responsibility, and the USS Ronald Reagan (CVN 76) 
turned over with the USS George Washington (CVN 73) to serve as the 
forward-deployed carrier in Japan.
    This past year, we also saw the christening of the attack submarine 
PCU Illinois (SSN 786) and keel laying for the PCU Colorado (SSN 788) 
and PCU Indiana (SSN 789), our fifteenth and sixteenth Virginia-class 
submarines. We've also added another attack submarine to our force by 
commissioning USS John Warner (SSN 785), and began a program that 
delivers two Virginia-class submarines annually. In 2015, we laid the 
keel for the second FORD-class CVN, PCU John F. Kennedy (CVN 79). We 
currently have 12 submarines and one next generation aircraft carrier 
in various phases of construction at our shipyards. Initial reactor 
start-up was achieved in the lead reactor plant of PCU Gerald R. Ford 
(CVN 78), the first new design aircraft carrier propulsion plant in 40 
years. This historic milestone represents the culmination of almost 20 
years of dedicated and sustained effort by Naval Reactors and its field 
activities, our Department of Energy laboratories, nuclear industrial 
base suppliers, the Navy design team and the nuclear shipbuilders. This 
is the first step in fully testing the integrated operations of the 
propulsion plant, culminating in sea trials this spring. Finally, we 
continued our reactor plant design and reactor core manufacturing 
development efforts to support of the new design Ohio-class replacement 
reactor plant, including the life-of-ship core.
    The firm support of this subcommittee last year enabled safe 
operation of the fleet, Naval Reactors mandatory oversight, and 
continued progress on key projects. Naval Reactors' budget request for 
fiscal year (FY) 2017 will continue this work. The funding request is 
for $1.420 billion, an increase of $45 million (3 percent) over the 
fiscal year 2016 enacted funding level. In addition to supporting 
today's operational fleet, the requested funding will enable Naval 
Reactors to deliver tomorrow's fleet by funding three national priority 
projects and recruiting and retaining a highly skilled work force 
committed to the Navy and the nation. The projects are:
    <bullet>  Continuing to design the new reactor plant for the 
replacement of the Ohio-class ballistic missile submarine, which will 
feature a life-of-ship core and electric drive;
    <bullet>  Refueling a Research and Training Reactor in New York, to 
facilitate Ohio-class replacement reactor development efforts and 
provide 20 more years of live reactor based training for the fleet 
operators; and
    <bullet>  Building a new spent fuel handling facility in Idaho that 
will facilitate long term, reliable processing and packaging of spent 
nuclear fuel from aircraft carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2017 to support 
these projects, and to fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at our four Program sites--the Bettis Atomic 
Power Laboratory in Pittsburgh, the Knolls Atomic Power Laboratory and 
Kesselring Site in greater Albany, and our spent nuclear fuel 
facilities in Idaho--we can perform the research and development, 
analysis, engineering and testing needed to support today's fleet at 
sea and develop future nuclear-powered warships. Importantly, our labs 
perform the technical evaluations that enable Naval Reactors to 
thoroughly assess emergent issues and deliver timely responses that 
ensure nuclear safety and maximize operational flexibility. This 
technical base supports more than 15,000 nuclear-trained Navy sailors, 
who safely maintain and operate the 97 nuclear propulsion plants in the 
fleet 24 hours per day, 365 days per year around the globe. It will 
also facilitate delivery, as directed by Congress, of our conceptual 
plan for potential naval application of low enriched uranium.
    The requested increase in funding is also required to support the 
planned ramp up of design efforts for the new reactor plant for the 
Ohio-class SSBN replacement--the Navy's number one acquisition 
priority. Providing unparalleled stealth, endurance, and mobility, our 
ballistic missile submarine force has delivered more than 60 years of 
continuous at-sea deterrence, and continues to be the most survivable 
leg of the nuclear triad. Ohio-class Replacement SSBN activity this 
year includes reactor plant design and component development to support 
procurement of long lead components starting in fiscal year 2019. 
Progress in these areas in fiscal year 2017 maintains schedule 
alignment with the Navy as the program moves forward to construction 
start in fiscal year 2021 while retiring technical risk and targeting 
cost reduction.
    Related to Ohio-class replacement and the Program's training needs, 
the fiscal year 2017 budget request will support the land-based 
prototype refueling overhaul at the Kesselring Site in upstate New 
York. In fiscal year 2017, Naval Reactors will continue the core 
manufacturing work needed for the refueling overhaul, which will also 
enable timely construction of the life-of-ship core for Ohio-class 
replacement. Further, plant service-life engineering design will be 
completed in fiscal year 2017 to ensure that the land-based prototype 
overhaul, performed concurrently with refueling, supports 20 additional 
years of research, development and training.
    The Naval Reactors fiscal year 2017 budget request also contains 
funds to continue the Spent Fuel Handling Recapitalization Project. 
After many years of funding reductions, Naval Reactors greatly 
appreciates Congressional support for this much needed project in 
fiscal year 2016, where we received the full request of $86M. 
Congressional support in 2016 enabled progress, design, and planning 
for site preparations and long lead material procurements in fiscal 
year 2017. We will use the $100M requested in fiscal year 2017 to 
finalize key facility and equipment requirements and advance facility 
design to support establishing the Performance Baseline in fiscal year 
2018 and the start of construction in fiscal year 2019. Continued 
Congressional support will help ensure that the facility in Idaho is 
ready to receive spent nuclear fuel from the fleet in fiscal year 2025. 
Because the new facility's capabilities are required to support 
aircraft carrier refuelings and defuelings, any delay to the project 
schedule would require procurement of additional shipping containers to 
temporarily store naval spent nuclear fuel at a cost of approximately 
$150M for each year the project is delayed.
    At the requested funding level, Naval Reactors can safely maintain 
and oversee the nuclear-powered fleet. Naval Reactors can also continue 
to advance the Ohio-class replacement and Land-based Prototype 
Refueling Overhaul, continue progress on the Spent Fuel Handling 
Recapitalization Project, and meet our environmental responsibilities.
    Naval Reactors is committed to executing our projects on time and 
on budget, and continuing the search for the safest and most cost 
effective way to support the nuclear fleet. I respectfully urge your 
support for aligning funding allocations with the fiscal year 2017 
budget request.

    Senator Sessions. Thank you.
    I believe next we'll go to Dr. Regalbuto--Secretary 
Regalbuto.

STATEMENT OF HONORABLE MONICA C. REGALBUTO, ASSISTANT SECRETARY 
  OF ENERGY FOR ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Dr. Regalbuto. Thank you.
    Good afternoon, Chairman Sessions, Ranking Member Donnelly, 
and members of the subcommittee. I am pleased to be here today 
to represent the Department of Energy's Office of Environmental 
Management and to discuss the work that we have already 
successfully accomplished and what we plan to accomplish under 
the President's fiscal year 2017 budget request.
    The total budget request for the EM [Environmental 
Management] program is 6.1 billion, which includes 673 million 
of proposed mandatory funding and 5.3 billion for defense 
environmental cleanup activities. The request will allow EM to 
maintain a safe and secure posture across the complex while 
maximizing our work on compliance activities.
    I would like to take this opportunity to highlight a number 
of EM's recent accomplishments:
    At the Savannah River site, the 4,000-canister radioactive 
glass was recently poured. Achieving these milestones enables 
the closure of the seventh high-level waste tank.
    At the Moab site, half of the estimated 16 million tons of 
uranium milling tailings have been removed and shipped to an 
engineering disposal cell.
    At Hanford, we have completed cleanup of the bulk of the 
river corridor, including more than 500 facilities and 1,000 
remediation sites.
    The fiscal year 2017 budget request will allow us to 
continue to make progress in an ongoing cleanup priorities. 
Among EM top priority is the safe reopening of WIPP [Waste 
Isolation Pilot Plant]. EM continues to support recovery from 
the two incidents at the facility that interrupted the 
nationwide program for the disposition of transuranic waste. 
The request will support initiating waste emplacement 
operations by December of 2016.
    At Idaho, the request will support the integrated waste 
treatment unit. This facility is planned to treat approximately 
900,000 gallons of sodium-bearing waste.
    At the Savannah River site, we will complete construction 
and ramp up commissioning activities at the Salt Waste 
Processing Facility, which will significantly increase our 
ability to treat tank waste. In addition, we will also continue 
to receive, store, and process spent nuclear fuel.
    At the Hanford Office of River Protection, the request 
supports continued construction of the Low Activity Waste 
Facility, Balancing Plant, and outfitting of the Analytical 
Laboratory, which are the centerpiece of the Department's plan 
to begin the direct feed of low activity waste as soon as 2022.
    The request for Richland allow us to continue the important 
work in the central plateau and to complete the demolition of 
Hanford's Plutonium Finishing Plant, once one of the most 
dangerous buildings in the complex.
    At Oak Ridge, the request supports continued design of the 
Outfall 200 Mercury Treatment Facility at the Y-12 National 
Security Complex and complete the demolition of Building K-27, 
the last gaseous diffusions enrichment process building. It 
will mark the first time that a gaseous diffusion enrichment 
site has been completely decommissioned.
    With the most challenging cleanup remaining, we understand 
the importance of technology development in reducing the 
lifecycle costs and enhancing our effectiveness. To help 
address many of the technical challenges involved, the request 
reflects a total investment in technology development of $33 
million. The funding will allow us to continue to integrate 
robotics technologies into our efforts to help improve overall 
worker quality of life by easing the performance of physically 
demanding tasks.
    In closing, I am honored to be here representing the Office 
of Environmental Management. We are committed to achieving our 
mission and will continue to apply innovative strategies to 
complete our mission safely.
    Thank you. Be happy to answer any questions.
    [The prepared statement of Dr. Regalbuto follows:]

               Prepared Statement by Dr. Monica Regalbuto
    Good afternoon Chairman Sessions, Ranking Member Donnelly, and 
Members of the Subcommittee. I am pleased to be here today to represent 
the Department of Energy's (DOE) Office of Environmental Management 
(EM). I would like to provide you with an overview of the EM program, 
key accomplishments during the past year and what we plan to accomplish 
under the President's $6,119,099,000 fiscal year (FY) 2017 budget 
request, which includes $673,749,000 of proposed mandatory funding.
                       overview of the em mission
    EM supports the Department's Strategic Plan to position the DOE to 
meet the challenges of the 21st Century and the Nation's Manhattan 
Project and Cold War legacy responsibilities. The Department will 
leverage past experience, applying best practices and lessons learned; 
identify, develop, and deploy practical technological solutions derived 
from scientific research; and look for innovative and sustainable 
practices that make cleanup more efficient.
    The EM program was established in 1989 and is responsible for the 
cleanup of millions of gallons of liquid radioactive waste, thousands 
of tons of spent nuclear fuel and special nuclear material, disposition 
of large volumes of transuranic and mixed/low-level waste, huge 
quantities of contaminated soil and water, and deactivation and 
decommissioning of thousands of excess facilities. This environmental 
cleanup responsibility results from five decades of nuclear weapons 
development and production and Government-sponsored nuclear energy 
research and development. It involves some of the most dangerous 
materials known to mankind. EM has completed cleanup activities at 91 
sites in 30 states; EM is responsible for the remaining cleanup at 16 
sites in 11 states.
    Since 1989, the EM footprint has reduced significantly. For 
example, the Fernald site in Ohio and the Rocky Flats site in Colorado, 
both of which once housed large industrial complexes, are now wildlife 
refuges that are also available for recreational use. At the Idaho 
National Laboratory, we have decommissioned and demolished more than 
two million square feet of excess facilities, and removed all EM 
special nuclear material (e.g., highly enriched uranium) from the 
state.
    There is less than 300 square miles remaining to be cleaned up 
across the EM complex and progress continues. The remaining cleanup 
work presents some of the greatest challenges.
                  em cleanup objectives and priorities
    EM's first priority is worker safety and at our sites across the 
complex we continue to pursue cleanup objectives with that in mind. 
Taking many variables into account, such as risk reduction and 
compliance agreements, EM has generally prioritized its cleanup 
activities as follows:

    <bullet>  Ensuring that activities are performed safely while 
providing the necessary security framework;
    <bullet>  Radioactive tank waste stabilization, treatment, and 
disposal;
    <bullet>  Spent nuclear fuel storage, receipt, and disposition;
    <bullet>  Special nuclear material consolidation, stabilization, 
and disposition;
    <bullet>  Transuranic and mixed/low-level waste disposition;
    <bullet>  Soil and groundwater remediation; and
    <bullet>  Excess facilities deactivation and decommissioning.

    In particular, the fiscal year 2017 budget request will allow EM 
to:

    <bullet>  Complete activities necessary for resumption of waste 
emplacement operations at the Waste Isolation Pilot Plant;
    <bullet>  Commence startup testing and commissioning activities at 
the Salt Waste Processing Facility to support initiation of radioactive 
operations in 2018; and
    <bullet>  Continue construction on the Waste Treatment and 
Immobilization Plant to support direct feed of low activity waste by 
end of 2022.

    Most importantly, EM will continue to discharge its 
responsibilities by conducting cleanup within a ``Safe Performance of 
Work'' culture that integrates environmental, safety, and health 
requirements and controls into all work activities. This ensures 
protection for the workers, public, and the environment
                key recent and near-term accomplishments
    I would like to take this opportunity to highlight a number of EM's 
most recent accomplishments. Recently, the 4,000th canister of 
radioactive glass was poured at the Savannah River Site Defense Waste 
Processing Facility. Achieving this milestone, along with other 
processing activities, enabled the closure of the seventh high-level 
waste storage tank at Savannah River with closure of the eighth tank in 
progress. At the Moab Site, half of the estimated 16 million tons of 
uranium mill tailings has been removed and shipped to an engineered 
disposal cell. At Hanford, we have completed cleanup of the bulk of the 
River Corridor cleanup, including more than 500 facilities and 1,000 
remediation sites. At Oak Ridge, we are continuing design and critical 
decision reviews for the Outfall 200 Mercury Treatment Facility. The 
budget request enables EM to continue progress in completing buried 
waste exhumation at the Idaho site under the Accelerated Retrieval 
Project.
           highlights of the fiscal year 2017 budget request
    The fiscal year 2017 budget request for EM includes $5,382,050,000 
for defense environmental cleanup activities. The request will allow EM 
to maintain a safe and secure posture across the complex, while 
maximizing our work on compliance activities. The budget request 
supports the continued construction of two unique and complex tank 
waste processing plants at the Savannah River Site, South Carolina, and 
the Office of River Protection, Washington. We are working to ensure 
these facilities will operate safely and efficiently. These two 
facilities are projected to treat tens of millions of gallons of 
radioactive tank waste for disposal.
    Among EM's top priorities is the safe re-opening of the Waste 
Isolation Pilot Plant (WIPP) outside of Carlsbad, New Mexico. EM 
continues to support recovery from two 2014 incidents at the facility 
that interrupted the nationwide program for the disposition of 
transuranic waste resulting from atomic energy activities. Since 
opening WIPP, EM has sent more than 11,800 shipments of transuranic 
waste for permanent disposal, safely emplacing nearly 90,000 cubic 
meters of waste. The fiscal year 2017 budget request will continue 
corrective actions and safety activities to support WIPP, regulatory 
and environmental compliance actions, the Central Characterization 
Project and transportation activities, and the resumption of waste 
emplacement operations by December 2016.
    In fiscal year 2017, cleanup progress will continue to be made 
across the rest of the complex. At Idaho, the fiscal year 2017 request 
will support the Integrated Waste Treatment Unit. This facility is 
planned to treat approximately 900,000 gallons of sodium bearing tank 
waste. The request also continues exhumations at the Subsurface 
Disposal Area, treatment of legacy contact-handled and remote-handled 
transuranic and mixed low-level waste and safe, secure management of 
spent nuclear fuel.
    At the Savannah River Site, the fiscal year 2017 request supports 
continued production of canisters of vitrified high-level waste, and 
the construction of an additional on-site disposal unit for saltstone, 
the separated and treated low-activity fraction component of tank 
waste. Complete construction to support the planned commissioning and 
start-up of the Salt Waste Processing Facility in 2018. In addition, 
the request supports the safe and secure operation of the H Canyon/ HB-
Line for the purpose of processing aluminum-clad spent nuclear fuel and 
down-blending EM-owned plutonium, ensuring the availability of space in 
K- and L-Areas for the future receipt of materials returned under 
national security summit agreements.
    At the Office of River Protection, the fiscal year 2017 request 
supports continuing construction of the Low-Activity Waste (LAW) 
Facility, Balance of Facilities, and outfitting of the Analytical 
Laboratory of the Waste Treatment and Immobilization Plant (WTP), 
facilities which are the centerpiece of the Department's plan to begin 
the direct feed of low activity to the LAW facility (DFLAW) as soon as 
end of 2022. It will also simultaneously support ongoing efforts to 
resolve the technical issues associated with the WTP Pretreatment 
Facility and the WTP High-Level Waste Facility. The fiscal year 2017 
request is designed to achieve the immobilization of low activity waste 
as soon as practicable while resolution of technical issues continues. 
In support of DFLAW, the request includes funds for engineering scale 
testing and final design of the Low Activity Waste Pretreatment System, 
which will remove cesium and solids from the tank waste and provide 
feed directly to the Low Activity Waste Facility.
    Ongoing cleanup efforts continue at Richland. The fiscal year 2017 
request supports the completion of the Plutonium Finishing Plant 
Facility transition and certain disposition activities in order to 
achieve slab-on-grade and completion of a cap over the site. The fiscal 
year 2017 request also supports continued remediation of the 618-10 
Vertical Pipe Units and planning and technology maturation for the 
remediation of the 324 hot cell facility located over the 300-296 waste 
site.
    At Oak Ridge, the fiscal year 2017 request will maintain EM 
facilities in a safe, compliant, and secure manner; and support 
continuing design and critical decision reviews for the Outfall 200 
Mercury Treatment Facility at the Y-12 National Security Complex. The 
processing of contact-handled and remote-handled transuranic waste 
debris will continue at the Transuranic Waste Processing Center while 
technology maturation and planning continues for the Sludge Processing 
Facility Buildout project. Additionally, the budget request supports 
continued direct disposition of Consolidated Edison Uranium 
Solidification Project material from Building 3019.
    With the most challenging cleanup sites before EM, we understand 
the importance of technology development in reducing life cycle costs 
and enhancing our effectiveness. To help address many of the technical 
challenges involved with high-risk cleanup activities, the fiscal year 
2017 request reflects a total investment in technology development of 
$33,000,000. The fiscal year 2017 budget supports testing multiple 
technologies to solidify/stabilize mercury in soil and building 
materials to minimize the potential of mercury releases to the 
environment when decontamination and decommissioning of excess 
facilities begins at the Oak Ridge site. EM will also invest in 
characterization of and treatment options for Technetium-99, a key 
radioactive constituent in tank waste and in soils at sites across the 
complex; in robotics and semi-autonomous systems required for remote 
access to nuclear, chemical and other high-hazard facilities that are 
inaccessible or restricted to human entry; and in the development of 
test beds for the demonstration of treatment technologies, innovative 
tooling, and other technical solutions.
          budget authority and planned accomplishments by site


                 Office of River Protection, Washington
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Enacted                      FY 2017 Request
------------------------------------------------------------------------
                        $1,414,000                           $1,499,965
------------------------------------------------------------------------

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Maintain scheduled construction activities for the Low 
Activity Waste Facility, Analytical Laboratory, and Balance of 
Facilities to support the Direct Feed Low Activity Waste approach
    <bullet>  Initiate single-shell tank retrievals in AX Tank Farm
    <bullet>  Complete retrieval of AY-102 double-shell tank
    <bullet>  Complete Low Activity Waste Pretreatment System (LAWPS) 
preliminary design to a design maturity of 90 percent
    <bullet>  Continue resolution of technical issues of Criticality; 
Hydrogen Gas Vessels; and Erosion/Corrosion at the Pretreatment 
Facility


                   Savannah River Site, South Carolina
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Current                      FY 2017 Request
------------------------------------------------------------------------
                        $1,336,566                           $1,448,000
------------------------------------------------------------------------

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Package 100 to 110 canisters of vitrified high-level 
waste at the Defense Waste Processing Facility
    <bullet>  Operate Actinide Removal Process and Modular Caustic Side 
Solvent Extraction Unit to process 1.7 million gallons of salt waste
    <bullet>  Support planned construction, commissioning, and start-up 
activities for the Salt Waste Processing Facility
    <bullet>  Complete construction of Saltstone Disposal Unit #6
    <bullet>  Continue to receive foreign research and domestic 
research reactor spent nuclear fuel for safe storage and disposition
    <bullet>  Disposition spent nuclear fuel in H-Canyon by processing
    <bullet>  Activities to support implementation plan activities for 
the Defense Nuclear Facilities Safety Board Recommendation 2012-1 to 
mitigate and remedy safety issues at 235-F


                    Carlsbad Field Office, New Mexico
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Enacted                      FY 2017 Request
------------------------------------------------------------------------
                          $304,838                             $271,000
------------------------------------------------------------------------

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Complete activities necessary for resumption of waste 
emplacement operations at the Waste Isolation Pilot Plant by December 
2016
    <bullet>  Continue design and permitting actions for new 
ventilation shaft and on-site storage projects


               Los Alamos National Laboratory, New Mexico
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Enacted                      FY 2017 Request
------------------------------------------------------------------------
                          $185,000                             $189,000
------------------------------------------------------------------------

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Address the nitrate salt bearing transuranic wastes
    <bullet>  Remediation of town site (TA-43) cleanup of solid waste 
management units from the 1940s and 1950s production sites
    <bullet>  Complete the investigation of hexavalent chromium 
contamination of the groundwater beneath Mortandad and Sandia Canyons 
including field and bench-scale testing and plume control interim 
measures


                    Idaho National Laboratory, Idaho
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Enacted                      FY 2017 Request
------------------------------------------------------------------------
                          $396,000                         $362,088 \1\
------------------------------------------------------------------------
\1\ The amount reflects Defense Environmental Cleanup portion, the total
  Idaho fiscal year 2017 Request is $370,088,000.

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Continue treatment of sodium bearing waste in the 
Integrated Waste Treatment Unit
    <bullet>  Characterize, package, certify, and temporarily store 
exhumed waste on site pending the resumption of operations at and 
shipments to the Waste Isolation Pilot Plant
    <bullet>  Complete exhumation of targeted buried waste at the 
Accelerated Retrieval Project VIII facility
    <bullet>  Continue safe storage of spent (used) nuclear fuel


                        Oak Ridge Site, Tennessee
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Current                      FY 2017 Request
------------------------------------------------------------------------
                          $250,878                         $213,219 \2\
------------------------------------------------------------------------
\2\ The amount reflects Defense Environmental Cleanup portion, the total
  Oak Ridge fiscal year 2017 Request is $391,407,000.

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Continue planning design and preparation of regulatory 
documentation and Critical Decision reviews for the Outfall 200 Mercury 
Treatment Facility
    <bullet>  Continue processing transuranic waste debris at the 
Transuranic Waste Processing Center
    <bullet>  Continue offsite disposition of select Oak Ridge waste 
stream


                 Richland Operations Office, Washington
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Current                      FY 2017 Request
------------------------------------------------------------------------
                          $988,091                          $797,760\3\
------------------------------------------------------------------------
\3\ The amount reflects Defense Environmental Cleanup portion, the total
  Richland fiscal year 2017 Request is $800,000,000.

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Complete Plutonium Finishing Plant Facility transition 
and selected disposition activities pursuant to achieving slab-on-grade 
including completion of a cap over the site
    <bullet>  Begin project planning for dry storage options for the 
cesium and strontium capsules currently stored at the Waste Storage 
Encapsulation Facility
    <bullet>  Planning and technology maturity for the remediation of 
the highly radioactive waste site 300-296 located beneath the 324 
Building
    <bullet>  Continue remediation of the 618-10 Vertical Pipe Units


                  Nevada National Security Site, Nevada
                         (dollars in thousands)
------------------------------------------------------------------------
          FY 2016 Enacted                      FY 2017 Request
------------------------------------------------------------------------
                           $62,385                              $62,176
------------------------------------------------------------------------

      
Key Accomplishments Planned for Fiscal Year 2017

    <bullet>  Complete closure activities for 9 soil corrective action 
sites
    <bullet>  Support safe disposal of approximately 34,000 cubic 
meters of low-level and mixed low-level radioactive waste
                               conclusion
    Mr. Chairman, Ranking Member Donnelly, and Members of the 
Subcommittee, I am honored to be here today representing the over 
20,000 men and women that carry out our Office of Environmental 
Management mission. We are committed to achieving our mission and will 
continue to apply innovative environmental cleanup strategies to 
complete work safely, and efficiently, thereby demonstrating value to 
the American taxpayers. All of this work will, first and foremost, be 
done safely, within a framework of best business practices. I am 
pleased to answer any questions you may have.

    Senator Sessions. Thank you very much.
    Mr. Trimble, I believe I omitted to introduce you. You are 
the Director of U.S. International Nuclear Security and Cleanup 
at the Government Accountability Office, the GAO, and provide 
oversight and leadership and insight on the United States 
international nuclear security and cleanup issues to Congress 
and other institutions.
    Thank you.

STATEMENT OF DAVID C. TRIMBLE, DIRECTOR, U.S. AND INTERNATIONAL 
 NUCLEAR SECURITY AND CLEANUP, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. Thank you.
    Chairman Sessions, Ranking Member Donnelly, and members of 
the subcommittee, my testimony today is based on past and 
ongoing work and will address challenges facing DOE's [the 
Department of Energy's] efforts to modernize the nuclear 
security enterprise, the growing cost of DOE's environmental 
liabilities, and accomplishments and planning challenges in the 
nonproliferation program.
    Regarding modernization efforts, let me highlight three 
challenges facing DOE: management of the LEPs [Life Extension 
Programs], oversight of contracts and major projects, and 
budgetary issues.
    NNSA estimates that it needs more than $290 billion over 
the next 25 years to support its modernization plans. These----
    Senator Sessions. How much?
    Mr. Trimble. Two hundred ninety.
    These plans include executing seven LEPs and depend on the 
replacement of key plutonium and uranium infrastructure assets. 
To carry out this work, effective management of these LEPs will 
be essential.
    In our February report on the B61, we found that NNSA had 
adopted improved management approaches and has incorporated 
some of these into its defense programs. These are positive 
steps. But, some of these tools are yet to be proven, and the 
B61 program has faced shortages in program staff. These 
challenges must be navigated while the B61 program is operating 
on a constrained schedule with little, if any, margin left to 
deal with program risks.
    Modernization plans also depend on DOE's ability to 
effectively manage its contracts and major construction 
projects. In 2015, we found that NNSA does not have a 
comprehensive policy for overseeing its M&O contractors. 
Notably, its key policy document was incomplete, parts were not 
being followed, and NNSA did not know if it had the staff 
needed to carry out its oversight approach.
    DOE has taken actions to improve its project management, 
such as requiring Department offices to develop project cost 
and schedule estimates according to best practices. However, in 
our last high-risk report, we noted that DOE is currently on 
its third round of corrective action since 2008, and many of 
the same root causes continue to be identified.
    DOE also continues to face challenges with some of its 
major projects. DOE has proposed to terminate MOX after 
spending nearly $5 billion, and is proposing to downblend the 
34 tons of plutonium and potentially dispose of it at WIPP, 
which is currently closed. We have ongoing work to assess 
whether WIPP has the capacity for this volume of plutonium.
    At Hanford, WTP [Waste Treatment Plan] continues to face 
longstanding technical and management challenges, and DOE is 
pursuing two new capital asset projects that will likely cost 
more than $1 billion. DOE has proposed adding 17 years to WTP's 
completion date, but does not know what the final cost will be.
    Modernization plans are also complicated by questions about 
the alignment of NNSA's plans with future budgets and future 
competing demands for funding. In December, we found that 
NNSA's long-term budget estimates for modernization were $4.2 
billion more than what is in the administration's budget 
figures for fiscal years 2021 through 2025. In addition, we 
found that low-range estimates for four LEPs exceeded estimated 
budget amounts in some years, meaning that some LEPs could face 
budgetary shortfalls.
    In addition, funding for modernization activities will take 
place while its standing and new needs compete for resources. 
NNSA faces billions in deferred maintenance, and its current 
spending is below its own benchmarks to keep this problem from 
getting worse. In addition, DOE is pursuing a new strategy to 
build a separate repository just for defense waste. DOE's 
analysis indicates that this approach could cost billions more 
than using a single repository for commercial and defense 
waste. DOE's analysis cites some benefits to this approach, but 
officials have said these benefits cannot be quantified at this 
time.
    Regarding DOE's long-term environmental liabilities which 
future defense budgets will need to fund, DOE faces many 
challenges. Over the past two decades, GAO and others have 
pointed out the need for DOE to take a complex-wide, risk-based 
approach to its cleanup strategy, finding that such an approach 
could reduce costs while also maximizing risk reduction. 
Notably, from fiscal year 2011 to fiscal year 2015, EM spent a 
total of about $23 billion on cleanup activities. Over the same 
time period----
    Senator Sessions. How much?
    Mr. Trimble. Twenty-three billion from 2011 to 2015.
    Over the same time period, its estimates of its remaining 
environmental liability rose by 77 billion. In 2015, EM 
estimated that cleanup of former weapons production sites would 
take until 2075 and cost 240 billion. Our recent ongoing work 
indicates that this figure is likely understated.
    Lastly, in regards to nonproliferation, we have found that 
NNSA has made progress securing nuclear materials around the 
world and met its targets for removing HEU [Highly Enriched 
Uranium] and downblending LEU [Low Enriched Uranium]. While 
progress has been made, our work has found some methodological 
limitations in NNSA's over-the-horizon long-term planning 
effort to assess threats and trends over the next 5 to 10 
years. NNSA agreed with our recommendations in this area and is 
revising its process.
    Thank you. I'd be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Trimble follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
             
    Senator Sessions. Thank you all.
    Mr. Trimble, while you've given us some, I think, grim 
points, let's just briefly mention them without going into a 
lot of detail. You're saying we need an overall strategy to 
contain costs on environmental liabilities, and that, from 2011 
to 2015, we spent 23 billion, but now more accurate later 
estimates are that we expect to spend 77 more billion than we 
previously expected to complete the project?
    Mr. Trimble. Yeas. Over that time period while we've been 
spending billions, our overall liability has continued to grow. 
We're sort of not making up ground, if you will.
    Senator Sessions. Of course, you say, through the final 
completion, 2075, we're looking at 200-and-
    Mr. Trimble. Fourty billion.
    Senator Sessions.--fourty billion.
    Mr. Trimble. Our work indicates that that is--understates 
the actual liability.
    Senator Sessions. We're talking about $240 billion for one 
part of the defense budget. I guess it would be your 
recommendation that this would require the most intense 
evaluation to see if we can make it better.
    Mr. Trimble. Yeah. We have recommended in the past, and 
others have as well, to take a risk--overall risk-based 
approach across the complex to maximize the return on risk 
reduction and also cost efficiency.
    Senator Sessions. General Klotz, the Wall Street Journal 
reported that Secretary Moniz's letter warning us, that I 
quoted previously, that without additional billions in the 
years 2018 through 2021--5.2 billion, in fact--the budget will 
lack credibility with Congress and could put the NNSA budget 
in, quote, ``an untenable position by 2018.''
    Let's talk about that. That's 5.2 billion more than we 
included last year. We had--in our FYDP [Future Years Defense 
Program], we thought that we were on path to modernize our 
nuclear program and that we'd reached a bipartisan consensus 
that we would support, basically, the President's request to do 
that job. Do I understand Secretary Moniz to say now we are 
going to be 5 billion short, and that shortage is going to hit 
as early as 2018?
    General Klotz. Thank you for the question, Chairman.
    First of all, as I indicated in my opening statement, we 
were very satisfied with the budget request for fiscal year 
2017, for the next fiscal year. We think it meets all of the 
needs we have under our three essential and enduring missions. 
However, as we look out towards the budget projections for 2018 
to 2021, we note they still remain subject to the sequester cap 
set in the Budget Control Acts. Added onto that, one of the 
things that we have been working very hard on in the Department 
of Energy and in NNSA is looking across the enterprise and 
trying to identify those things which we are going to need to 
sustain, not just in the NNSA area, but in the science area and 
environmental management. We have a very old infrastructure, 
many buildings that go back to the early days of the Cold War, 
even back to the Manhattan Project, that are going to need to 
be either replaced or significant work done to reduce the 
deferred maintenance, which are associated with it. Right now, 
deferred maintenance for NNSA alone is $3.7 billion, just in 
the buildings that we have now.
    Senator Sessions. Well, you say that, General Klotz, but, 
you know, people get a little dubious about these things. I see 
one of your complaints are that tiles are falling in the 
ceiling. It reminds me of schools that say they don't have 
enough money to have toilet paper, when they're spending $100 
billion on the school--million dollars--and it's like, ``What 
kind of management do you have if you don't fix the tiles in 
your ceiling?'' I mean, we're at a tight budget time. Are you 
sure we need $3.7 billion just to refurbish buildings?
    General Klotz. That's--as we add up the work that needs to 
be done to prevent things like tiles falling or fix water 
systems that are rusting out or to bring electrical systems up 
to code, that's--across the enterprise, that's what it adds up 
to.
    Chairman, this is a perennial problem, not just for us, but 
for the DOD [Department of Defense], as well. In my nearly 39 
years of Active Duty, I observed, as most people do, that the 
first dollar always goes for mission and for people. In very 
tightly constrained budgets, typically what--the practice has 
been to defer those maintenance issues, move them to the right 
and accept risk. At some point, you know, you just have to stop 
accepting risk and get on with the business of repairing the 
facility that you have, because it does create these types of 
safety or security concerns that falling tiles or other 
deficiencies in the infrastructure create.
    Senator Sessions. Well, sometimes it has to be done, and it 
has to be spent, but--just briefly, again, so the 5.2 billion 
was not in the last year's FYDP. This is a new request from the 
Secretary, and he emphasizes infrastructure, which I assume 
means buildings and that kind of thing.
    General Klotz. Our emphasis has been on dealing with the--
what we see as a coming bow wave in expenses to make sure that 
the nuclear security enterprise is able to be responsive for 
the longer term. We've just--DOD has talked a lot about the bow 
wave that it faces. We have a similar bow wave, although, in 
absolute terms, it's much smaller than the DOD's. But, relative 
to our overall budget, it's fairly significant.
    That's--you know, I think the Secretary--I can't speak to 
what was in the Wall Street Journal editorial, and I can't 
speak to what was supposed to be a private letter between the 
Secretary and the OMB [Office of Management and Budget] 
Director, but I can say that----
    Senator Sessions. This was a private leak letter?
    General Klotz. It----
    Senator Sessions. You don't know.
    General Klotz. I don't know. I have to speak to the budget, 
as presented----
    Senator Sessions. Right.
    General Klotz.--to----
    Senator Sessions. I understand that.
    General Klotz.--by the President to----
    Senator Sessions. So----
    General Klotz.--to this committee.
    Senator Sessions. Well, I've expressed my concern. We'll 
just to look at it, because we're in a tight budget time.
    General Klotz. But, we certainly want to work with your 
subcommittee, your committee, and your staff as we--now that we 
have submitted the fiscal year 2017 budget, we are--these 
people are already hard at work on building the fiscal year 
2018 budget. I commit to work very closely with you and with 
your staff as we parse out these various requirements, as we 
see them, from fiscal year 2018 on.
    Senator Sessions. All right. Thank you.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Ms. Harrington, I noted in the budget a significant 
decrease in the funding for nonproliferation activities. When 
you look at that--you know, obviously it has to do with the 
Russians. Could you explain exactly what's driving that and how 
we got to that point?
    Ms. Harrington. The decrease of work with the Russians is 
certainly part of the decrease overall. But, since March of 
2014, when Russia illegally annexed Crimea, and the 
disturbances they have continued to cause in eastern Ukraine 
since then, violations of the INF [Intermediate-Range Nuclear 
Forces] Treaty,--and the list, unfortunately, goes on and on, 
in terms of Russia's recent behavior--part of that behavior has 
been to declare that they are no longer in need of cooperative 
work with us to secure their facilities. We continue to work, 
where we can, on prior-year money. But, as you know, in 2015 
and 2016, we have a prohibition, in our authorization, against 
using any appropriated funds for projects in Russia.
    Senator Donnelly. Do you think that this slowdown--these 
actions by the Russians--do you think it increases the risk 
portfolio that's out there as to us?
    Ms. Harrington. We believe, absolutely, that that is the 
case.
    Senator Donnelly. Okay.
    General Klotz, in regard to the plutonium facilities at Los 
Alamos, what is the status at the present time? Do we have the 
funding, over the next 5 years, we need for the modules 
necessary to achieve a sustainable range of 50 to 80 pits per 
year?
    General Klotz. The short answer is no, not yet. But, let me 
say that we are in the process of doing a significant amount of 
work at Los Alamos in order to get out of the old chemical and 
metallurgical building where we've been doing a lot of the 
analytical chemistry and material characterization associated 
with plutonium operations. There are two buildings there. One's 
called PF-4, the other one's called the Radiation Laboratory, 
which we are repurposing the space that's there, moving things 
around so that we can get out of that building by 2019.
    For the longer term, we are convinced that we will need an 
approach to have additional space and safety basis in the 
buildings to do--to meet the congressional requirement to do--
show a capacity of 50 to 80 pits by 2027. We--I have signed 
out, this past year, a--what we call a mission need, critical 
decision zero document, saying that we need to have an--the 
additional capacity. We are launching an analysis of 
alternatives, one of which might be the modules.
    For that reason, the money that you see in the out years 
under the plutonium lines within our budget basically show a 
wedge for what would be necessary to build the modules, of 12 
million a year. We will have to come back to OMB, to the 
Congress, after we have done this analysis of alternatives, and 
after we have done the independent cost reviews of what it 
would cost to do what alternative we feel is the best, before 
we can load in significant numbers that have some credibility.
    Senator Donnelly. Thank you.
    Admiral Caldwell, we are in the middle of working on the 
design and engineering of the reactor and the fuel for the 
Ohio-class replacement submarine, which will have a 40-year 
life of core fuel and electric drive. In regards to this 
program, how are we doing on the timeframe right now, on 
schedule, and when do you expect completion?
    Admiral Caldwell. Sir, thanks for the question. I would 
like--just like to say, this is my first opportunity to appear 
before this subcommittee.
    Senator Donnelly. Oh, we have a bunch of questions----
    [Laughter.]
    Admiral Caldwell. I'm so honored to be here.
    We have enjoyed great support from the subcommittee. That's 
enabled the success of the Naval Reactors Program. Your future 
support will be very important to us to continue that path of 
success. Additionally, we have a great relationship with 
members of the subcommittee and, as well, the staff. I endeavor 
to maintain those strong relationships.
    Now, with regards to your question of the Ohio-class 
replacement submarine. We are on track to support the Navy's 
requirements. Those requirements are to start construction in 
2021, to finish that construction in 2028, and to send that 
ship to sea in 2031. That's a tight timeline, especially when 
you consider the size and the scope of building a ship as big 
as Ohio-class replacement. It's two and a half times the size 
of a Virginia-class submarine, and we're going to build it in 
the same timeframe--as the initial Virginia-class--of 7 years. 
That's a tall order. It's a national priority to make sure that 
we do not gap our strategic deterrence coverage at sea.
    Now, Naval Reactors' responsibility is the design and 
eventual procurement of the components for the reactor plant 
and the engine room. To that end, we are progressing well. The 
first challenge is to build the life-of-ship core. We have done 
the design work and we're actually going to de-risk the 
manufacturing of that by installing a technology demonstration 
core in the prototype in New York in 2019. We're on a good path 
to lead us down to getting that life-of-the-ship core, which 
will last 42 years.
    Additionally, the design work that we've done to date is 
putting us on a good path to procure the heavy equipment in 
2019. The other big challenge is the design and eventual 
construction of the electric drive, which will power the 
submarine. We're on a path now with the design work, building 
on decades of experience and knowledge, to prototype the 
electric drive unit and start actual full-scale testing in 
fiscal year 2018. Those are significant milestones for us and 
we're on a good path to get there. In addition, the fiscal year 
2017 budget allows us to continue to progress along these 
timelines. Your support will be essential in our ability to 
meet the Navy's goal of starting construction in 2021.
    Senator Donnelly. Thank you, Admiral.
    Admiral Caldwell. Sir.
    Senator Sessions. Admiral, just briefly, the Ohio--current 
Ohio-class has to be refueled how often?
    Admiral Caldwell. The current Ohio-class has to be refueled 
once in its lifetime, and we're progressing through those 
steadily. We're going to take the life of those ships out to 42 
years. We've sharpened our pencils, done the study, and we're 
going to seek out as much life as we can from those ships.
    Now, for the Ohio-class replacement, not having to refuel 
that submarine will save the Nation approximately $40 billion 
and will restore the operational availability to keep those 
ships at sea where we need them to meet our National 
commitments in terms of strategic deterrence. It also allows us 
to meet our requirements with 12 instead of--with 12 submarines 
instead of the current 14. Again, your support from this 
committee has allowed us to have the technical base and do the 
design work that's enabling all of these things to happen.
    Senator Sessions. Thank you.
    Admiral Caldwell. Yes, sir.
    Senator Sessions. Well, we're glad that looks like to be a 
practical and good solution.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Let me start, General Klotz, by just saying thank you 
sincerely for coming out to Albuquerque for the interchange 
between SCMC and small businesses last week. We got a lot of 
very positive feedback on that.
    To Dr. Regalbuto, fair warning, I may be asking for 
something similar to happen in the future at WIPP. People think 
we're a small State, but we're very, very large. It's hard to 
cover those bases sometimes in a very territorially large state 
with two labs as well as the WIPP facility.
    I want to jump on something that the Chairman brought up 
with regard to this old infrastructure and deferred 
maintenance, just to put a very fine point on the reality of 
where some of these very talented folks at NNSA are working.
    General Klotz, you and I had a chance to look at the 
Albuquerque-area complex, someplace that approximately 1200 
NNSA employees work at, last week. It's a complex that was 
largely built as dormitories for the Air Force back in 1951. 
There is asbestos problems. We saw hundreds of broken windows. 
This is not a matter of just replacing a few tiles in the 
ceiling. Can you talk a little bit about what some of the 
factors were that drove your decision to seek authorization to 
deal with some of the deferred maintenance and look at a new 
building to replace the NNSA's Albuquerque Complex?
    General Klotz. Thank you very much, Senator, for the 
opportunity--yeah--thank you again for the opportunity to come 
out and interact with the small business leaders in the state 
of New Mexico. It was both productive and actually quite 
enjoyable to engage with them. Thank you also for coming over 
to visit the Albuquerque Complex.
    As you saw, and as you said, we have buildings that were 
essentially 1950s-era Air Force dormitories that we converted 
into office space, so there are multiple problems associated 
with asbestos, with the HVAC [Heating, Ventilation and Air 
Conditioning] systems that don't work. You saw the sprinklers 
that were kind of dropped down from the ceiling that are 
corroding. It's just not the kind of place that you expect a 
quality workforce to have to work in. We need quality work 
spaces for our quality workforce.
    We had considered, over the years, a number of potential 
options to get better working conditions for our people in 
Albuquerque. One of the things we had pursued for a while was 
the potential of a lease option. That's where I came into the 
picture. One of the things that the Secretary--as Mr. Trimble 
has pointed out--has insisted upon, in terms of our project 
management, a very structured, disciplined approach, in terms 
of how we decide to do projects and how we manage projects. One 
of those is to make sure we do an analysis of alternatives. I 
immediately called for an analysis of alternatives for 
Albuquerque Complex, and it worked out that actually buying--
the Government constructing a facility there made a lot of 
sense, because we can save money, because the land we'll use is 
land already owned by the Government. It is, as you know, 
adjacent to Kirtland Air Force Base, so once construction is 
finished, you can move the fence around, and you save on the 
cost of perimeter security. There are a lot of reasons to go 
forward and do that.
    I appreciate your support in getting some money recolored 
in the fiscal year 2016 omnibus bill, which allowed us to use 
$8 million to begin the initial design. We're requesting, in 
fiscal year 2017, an additional 15 million for completing that 
design. We have a wedge in there, in 2018, of about 50 million, 
but it's going to cost a lot more than that. But, we'll--again, 
that's part of----
    Senator Heinrich. Well----
    General Klotz.--coming to, you know, these independent cost 
estimates to make sure we've got the best value.
    Senator Heinrich. Exactly. I look forward to working with 
you on that. One of the things I learned, local government, in 
working with rating agencies and bond counsel, is that deferred 
maintenance is not fiscal responsibility, it is a growing 
blackmark on your balance sheet that you have to deal with.
    I want to switch gears real quick to the M&O [Management 
and Operating] contracts coming up at Sandia and Los Alamos. 
One of my concerns is just to ask you what your thoughts are on 
making sure that both of these labs are able to remain 
competitive in hiring and retaining the top scientists and 
engineers in key fields, particularly those fields, like 
cybersecurity and others, where the same talent is going to be 
sought by the private sector, and sending the right signals to 
be able to attract that talent in the midst of a new request 
for proposals for M&O contracts.
    General Klotz. Thank you, Senator. That's a very good 
question. I've had an opportunity to read the letter, which the 
three laboratory directors independently have sent to you, and 
they, all three of them, touch on this concern, whether it's at 
Sandia or Los Alamos or at Lawrence Livermore. As I think you 
will have read in there, you know, one of the key things is 
LDRD, Laboratory Directed Research and Development. You know, 
this is a program which allows the lab directors to have brand 
new graduates of our top physics, chemistry, engineering 
programs do work at the lab while they wait for their security 
clearances, while they get integrated into the work of the 
laboratory. There has been pressure over the past to reduce the 
amount of--the percentage of overhead which can be used for 
Laboratory Directed Research and Development. I would--thanks 
to your leadership, we've kind of staunched the problem there. 
But, again, this is something that we need to work at.
    There are other things in the contracts that we typically 
write with our laboratories. We give them flexibility to offer 
hiring bonuses, retention bonuses, incentives, and to engage in 
other activities, like teaching at the University of New 
Mexico, as some of our people do.
    Finally, on these two particular--if and when we get to 
competition on both of these laboratories, one of our new 
procedures in NNSA over the past couple of years is that we 
will send out a draft request for proposal before we send out 
the final request for proposal. That is the opportunity for all 
stakeholders, whether it is the local community, local academic 
institutions, Members of Congress and their staff, 
contractors--potential contractors--to comment on what we have 
put into the draft RFP before we send it out. We'll do that 
with any M&O contracts that we do from now on.
    Senator Heinrich. Great.
    Mr. Chair and Ranking Member Donnelly, I'm pleased that 
General Klotz brought up LDRD. One of the opportunities that we 
have is to fix the sort of double-dinging them for overhead on 
this LDRD, which is really key for attracting new scientists 
into the complex. I think we have a good work--working proposal 
for that, either through the energy bill, where I'm working on 
an amendment, or potentially through the NDAA. I look forward 
to working with you on that.
    Senator Sessions. Very good.
    Senator Heinrich. Thank you.
    Senator Sessions. I know you're on top of this issue.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    I thank the panel for being here today.
    General Klotz, it's good to see you again.
    In the fiscal year 2017 budget request, General, for the 
W80-4 Life Extension Program, we're looking at about 92 
million, or 30 percent, less than the amount that was projected 
in last year's FYNSP. The justification documents note that the 
program, quote, ``will ramp up at a slower place, and planned 
technology maturation activities will be reduced, but the 
slower ramp-up is not expected to impact planned FPU in 2025.''
    With respect to that statement about the technology 
maturation activities, we know, from previous lessons learned, 
that that early technology--those maturation activities, they 
do reduce the risk over the life of a program. I'm questioning 
when we are looking at cutting back on those--would you say 
that's cost avoidance or cost deference?
    General Klotz. If I could, Senator, let me offer a--an 
initial response to that, and then if I could ask General 
Davis, since we brought him all this way----
    [Laughter.]
    General Klotz.--and he is the expert on this.
    Senator Fischer. Okay.
    General Klotz. First of all, one of the reasons why the 
ramp is not as steep as it was--as we projected last year is, 
quite frankly, what programmers would call a fact of life. The 
amount of money we were authorized and appropriated in fiscal 
year 2015 was $10 million. We had asked for $195 million to 
begin the program in earnest in fiscal year 2016, but, as 
you'll recall, we were in a CR for, you know, a good three 
months of that. As a result, we could only spend--we were--
annually, 10 million, but what that worked out to was 2.5 
million for that three months, because it's allocated 
quarterly. Thankfully, and thanks to your support, the Congress 
passed the full appropriations we had requested of 195 million 
for 2016, but, since we're already three months into the fiscal 
year and we had only been able to spend 2.5, we know we're 
going to have a significant amount of carryover. Given the fact 
that we had to balance a lot of programs against--in our 
portfolio against a cap, we chose to use--cash flow that into 
fiscal year 2017, and so the ramp will pick up again in our 
submission for fiscal year 2018.
    That's--that was the thinking. It was just a business 
decision. We weren't sending any kind of signal. It's still an 
increase in the overall request for the W80-4, because we think 
both the W80-4 and the long-range standoff capability that the 
Air Force is pursuing are extraordinarily important programs 
for America's strategic deterrence.
    Senator Fischer. Before the General speaks--so, you're 
looking at, still, I think, a decrease in what's needed, 
though, correct?
    General Klotz. We still think----
    Senator Fischer. Doesn't that put the completion date out 
even further?
    General Klotz. There will be some increased risk, but we're 
still fairly confident. I noticed that one of the laboratory 
directors indicated that, as well, in her letter, that we're 
still confident we can meet the fiscal year 2025 first 
production unit.
    Senator Fischer. Okay.
    General.
    General Davis. Senator, I'd just add a couple of points to 
General Klotz's comments.
    First, we certainly agree that the value of putting money 
in tech maturation is very important. It reduces risk to 
programs across the portfolio. Had we had the money, we 
certainly would have liked to--applied it to technology 
maturation.
    In this particular case, the cut in fiscal year 2017 of $90 
million actually helps us to fund other technology maturations 
across the NNSA enterprise.
    Senator Fischer. Now, is that due to the carryover----
    General Davis. Well, that is due----
    Senator Fischer.--that was----
    General Davis.--to the carryover. The program couldn't 
spend it, so we basically harvested it from the W80-4, in the 
short term, to apply to technology maturation and surveillance 
activities in fiscal year 2017. I would also add that, in 
fiscal year 2020 and 2021, we will add money back into the 
program.
    Senator Fischer. You're basically hoping that the cost--the 
revenue will come out in the out years, then, for it.
    General Davis. Well, I mean----
    Senator Fischer. You're kind of banking on that in order to 
complete the project in the future by having more revenue----
    General Davis. Well, in this case, the impact to the 80-4 
is really based on the delay of funding and not based on the 
fiscal year 2017 cut. The fiscal year 2017 cut is really a fact 
of life. There's only so much money that we can spend on the 
program in fiscal year 2017.
    Senator Fischer. General----
    General Klotz. But----
    Senator Fischer.--you want to speak, I can see that.
    General Klotz. But, full and consistent funding is 
absolutely critical. If I can say it now, I've--we've said it 
up here before--long-running CRs [continuing resolutions] also 
can play havoc with schedule on any of these programs, because 
that's money that our laboratories cannot use to staff up to do 
the types of work--the procurement--long-lead procurements that 
they need to do.
    Senator Fischer. If I could, Mr. Chairman.
    When you speak about the impact of the CR and staffing up, 
could you--do you have any idea, just off the cuff here, on how 
many positions that you would be losing due to a CR and not 
being able to move ahead on programs?
    General Klotz. I'd--Senator, I think we would have to look 
at that by individual programs. I know, in the case of the W80-
4, a lot of that money in the 195 was for Lawrence Livermore to 
begin to staff up to do the work on the W80-4. They had to 
delay some of that until they had the money in the bank to do 
that. Then, oh, by the way, there's also an issue with a 
backlog of security clearances, as well. That's the fact of 
life that they have to deal with.
    Senator Fischer. Okay. Thank you.
    General Klotz. As you get further--as the program gets more 
mature, then it becomes an issue of, you know, procuring items 
that you need to actually do--to do the work.
    Senator Fischer. Thank you.
    Senator Sessions. Senator King.
    Senator King. Thank you, Mr. Chairman.
    I'm going to take it from the detail to much higher level.
    One of the common questions I get in Maine, people are all 
concerned about the deficit and the debt that we're leaving our 
children. It's scandalous, but that's another discussion. But, 
one of the questions I get is, ``Why are we modernizing nuclear 
weapons? Why are we building brand new submarines, new 
bombers?'' I think I know the answer to that, but, General 
Klotz, you want to take a pass at that? You're talking at a--
you know, to a group of my constituents in Topsham, Maine. Tell 
them why we need to be spending all this money, $12 billion 
just in your budget, and that doesn't count Ohio-class 
replacement, long-range strike bomber. You know, and they say, 
``Well, the Cold War was over a long time ago. Why are we doing 
this?''
    General Klotz. Well, Senator, it's true, the Cold War was 
over a long time ago, but we still live in a very dangerous, 
complex world, and nuclear weapons still exist in other 
countries besides the United States. As long as those nuclear 
weapons exist, we need to maintain a capability to deter their 
possible use against the United States or our friends and 
allies across the world. The way you deter the use of nuclear 
weapons that we've--we have--the path we have followed for 
several decades is to have the--a nuclear deterrent of our own 
to act as a repose to that. As long as you have nuclear 
weapons, you have to make sure that--as I've said earlier, they 
have to be safe, we have to have confidence that they will 
not--there will not be accidents resulting with them, that 
they'll be secure, that nobody can steal them, and they have to 
be effective, because a deterrent is only credible if it can 
be--if it's capable of being carried out.
    These weapons that we have now--I'll just talk about the 
warheads, but not the delivery systems--our stockpile, average 
age, is the oldest it's ever been since the beginning of the 
Atomic Age. Nuclear weapons, you know, are made up of an--you 
know, inert material, but it's still material that's subject to 
age and the various effects associated with age.
    Senator King. Of course, it's complicated by the fact that 
we can't test them.
    General Klotz. We can do a pretty good job now, by virtue 
of the Stockpile Stewardship Program, where we conduct 
diagnostic experiments on various components associated with 
the nuclear weapons. We put that data, along with the data from 
1,054 nuclear tests that we did conduct when we were still 
actively testing, up until 1992, and put them together, put 
them in algorithms that we run on high-performance computers, 
and we have a very good sense, based on that, on how these 
weapons age or, if we make a decision that we have to 
manufacture a particular subcomponent of a nuclear weapon 
because the original manufacturer is out of business or the 
material they use is no longer available, or there's a cheaper, 
faster way to make it, that we can certify that--using that 
component as we do a life extension program.
    Senator King. I appreciate your answer. That's essentially 
the answer I give. But, I think it's important for policymakers 
at a high level to have this discussion so the public does 
understand--the only thing worse than nuclear weapons is not 
having them and have other people have them and use them, and 
the deterrent--deterrence has worked for 80 years--70 years.
    Admiral Caldwell, let me turn to a different question. On 
questions of modernization, and particularly with the Ohio-
class submarine, it concerns me that these projects are now 
taking so long from conception to construction that they are 
obsolete the day they come off the line. To what extent are you 
all considering that fact and building--the term I use is 
modularization--I don't--there may be a better term--but, ways 
that we can upgrade easily without having to go back and say, 
``Well, we need a third generation of Ohio-class submarine''? 
Do you see what I'm saying? A platform that can be changed out 
and modernized without a new platform being conceived and 
built. Is this part of your design strategy?
    Admiral Caldwell. Well, sir, I can talk about the Naval 
Reactors portion of this.
    Senator King. Right.
    Admiral Caldwell. Then I can give you some thoughts on my 
experience as a submariner.
    I think the proof is in the history of what Naval Reactors 
has done. Our platforms, we are using them much longer today 
than we ever intended to. For example, I talked about the 
current Trident-class that was not designed to be around as 
long as it is today, but we designed it with toughness and high 
quality, and we're taking that out to 42 years of operation. I 
said 40 earlier. I meant--it's 42 years. That's longer than 
we've operated any class of submarines before. Likewise, with 
our Los Angeles-class submarines, we've been able to extend the 
life on those ships, as well. We have a few in the inventory 
now that are out at 36 years and still operating. These were 
ships that were built at the--during the Cold War, designed to 
run in the Cold War, and are now operating all around the 
world, answering the Nation's needs. I think--and then I'll 
give you one final point on that. The two prototype reactors we 
operate in Charleston, where we train students, those are 52 
years old. We are operating those plants much longer than we 
ever thought, in a way we never thought we were going to, to 
train students. They're the oldest pressurized water reactor 
plants in the world, and they're operating well. I've inspected 
them personally.
    Senator King.--would probably recognize them if he stumbled 
into the----
    Admiral Caldwell. Well, they're--no, I would dispute that. 
I think they are in great shape, and they're--they look 
terrific. I've inspected them myself. They're still turning out 
students. This is all because we built them toughly, we 
designed them the right way, and we're manning them and 
maintaining them the right way. The reactor plant, I can tell 
you, we build them to last, and we--and we're doing that with 
the Ohio-class replacement, as well. We're taking the lessons 
that we've learned, and we're making it better.
    On the forward end of the ship, we've done things like 
taking off-the-shelf technology--commercial off-the-shelf 
technology. Our sonar, fire control, and electronic support 
systems are all upgradable. We're taking an old submarine, like 
the one I served when I commanded Jacksonville--that ship has a 
modern fire control and sonar system that would rival any 
submarine in the world. I think we're on a good path, sir.
    Senator King. Good.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Let's talk MOX.
    [Laughter.]
    Senator Graham. Okay.
    General Klotz. I'm not surprised.
    Senator Graham. All right. Let's inform the committee----
    Senator Sessions. There was a gasp when you came in the 
room.
    [Laughter.]
    Senator Graham. Yeah. Yeah.
    General Klotz. We were doing so well.
    [Laughter.]
    Senator Donnelly. Actually, Senator Sessions said to me, 
``Here comes Justice Graham.''
    [Laughter.]
    Senator Graham. Yeah. General Sessions. I like that. You 
know, you used to be attorney general.
    [Laughter.]
    Senator Graham. The MOX program is designed to take 34 
metric tons of weapons-grade plutonium and turn it into 
commercial-grade fuel. Is that right?
    General Klotz. That's correct.
    Senator Graham. That 34 metric tons of weapons-grade 
plutonium could create thousands of warheads.
    General Klotz. Yes.
    Senator Graham. Is that right?
    General Klotz. Yes.
    Senator Graham. The Russians are going to take 34 metric 
tons of weapons-grade plutonium and do what with it?
    General Klotz. Under the Plutonium Management Disposition 
Agreement, which you are very familiar with, Senator, that we 
signed with the Russians around 2000, they will do the same.
    Senator Graham. They going to MOX it?
    General Klotz. They're going to----
    Senator Graham. Fast breeder reactor, right?
    General Klotz. Yeah, fast breeder reactor. Or----
    Senator Graham. Okay. They're going to dispose of it, but 
just a different way.
    General Klotz. Yeah, we--we're going to use light water--
pressurized water----
    Senator Graham. Right.
    General Klotz.--reactors to burn MOX fuel.
    Senator Graham. This is a good thing.
    General Klotz. Getting rid of 34 metric tons of----
    Senator Graham. Yeah.
    General Klotz.--plutonium is a good thing.
    Senator Graham. Yeah, it's a good thing for Russia to 
dispose of their excess weapons plutonium. It's a good thing 
for us to do that.
    General Klotz. Yes.
    Senator Graham. Probably one of the biggest 
nonproliferation success stories in modern times?
    General Klotz. It is--certainly ranks up there.
    Senator Graham. Okay. In 2010, we signed an agreement with 
the Russians, right?
    General Klotz. We modified an agreement----
    Senator Graham. Modified an agreement.
    General Klotz.--in 2010.
    Senator Graham. In 2010, they said they would use the fast 
breeder reactor system, and we said okay.
    General Klotz. Yes, Senator, that is correct.
    Senator Graham. We told them we were to MOX it. We're going 
to take the plutonium pits, we're going to send everything to 
South Carolina, create a MOX facility, lend the weapons-grade 
plutonium down to commercial-grade fuel, and that was our 
pathway forward, right?
    General Klotz. Yes, sir.
    Senator Graham. Okay. Now we come to find that the MOX 
program is, by some--in some people's estimation, cost-
prohibitive. Is that right?
    General Klotz. That is correct.
    Senator Graham. Who, in 2010, picked this program? Why did 
they not know it was cost-prohibitive in 2010? Has anybody been 
fired?
    General Klotz. That, I don't know. I was doing other 
things----
    Senator Graham. Okay.
    General Klotz.--in 2010.
    Senator Graham. Here's what I want the committee to 
understand. We had an agreement that's really good for the 
world. We picked a methodology, to dispose of the plutonium, 
that had been vetted for about a decade. MOX was chosen because 
it was an option that would work. The Russians were okay with 
the MOX program. Our government, in Republican and Democratic 
administrations, chose MOX over all other alternatives. Five 
years later, we're talking about canceling the program when 
it's 60 percent complete.
    Have we talked to the Russians at all about what would 
happen if we changed the disposition plan?
    General Klotz. We have had informal discussions with our 
counterparts in Rosatom.
    Senator Graham. Who makes the decision in Russia as to 
whether or not they would accept a change?
    General Klotz. I can only base that based on having served 
in Moscow for two years in our Embassy, and I would say, like 
in the United States, it would be an interagency process that 
would involve Rosatom----
    Senator Graham. We don't know who the final approval 
authority is.
    General Klotz. I would suspect it would be the Ministry of 
Foreign Affairs----
    Senator Graham. Okay, right.
    General Klotz.--because they're the ones who negotiated 
at--with the State Department.
    Senator Graham. Okay. The new disposition plan is what?
    General Klotz. The new--our preferred approach, because we 
think it's faster and cheaper, would be to dilute the excess 
plutonium in a----
    Senator Graham. Would that require the Russians to agree to 
that change?
    General Klotz. The Plutonium Management Disposition 
Agreement says that you will dispose of this by irradiation or 
other means, as agreed by the----
    Senator Graham. Does that require their approval?
    General Klotz. That's a fair reading of the----
    Senator Graham. We'd have to get the Russians to sign up. 
When you dilute it down, where do you send it?
    General Klotz. We would send it to either WIPP or a 
repository like WIPP. We already have----
    Senator Graham. Where is that at?
    General Klotz. The weapon--the Waste Isolation----
    Senator Graham. What State?
    General Klotz.--Pilot Plant----
    Senator Graham. What state is it in?
    General Klotz. In the great state of New Mexico.
    Senator Graham. Have you talked to anybody in New Mexico 
about would they accept this material?
    General Klotz. Yes.
    Senator Graham. What did they say?
    General Klotz. You will find the local communities are 
quite willing to----
    Senator Graham. Do the local communities decide?
    General Klotz. I can't speak to all of New Mexico's----
    Senator Graham. All I'm telling the committee is, you're 
talking about sending it to New Mexico, and people in Mexico 
are at least divided. Have you talked to the two Senators in 
New Mexico?
    General Klotz. I personally have not.
    Senator Graham. Don't you think it would be important to 
get their input?
    General Klotz. That's where we are now.
    Senator Graham. Okay. It's only cheaper if it works.
    General Klotz. Well, we--that is a fair point, but we--
we're quite confident this will work. There's already----
    Senator Graham. Well, are you quite confident that people 
in New Mexico will accept the product?
    General Klotz. There's already five million metric--five 
metric----
    Senator Graham. That's not the question.
    General Klotz.--five metric tons there.
    Senator Graham. Are you confident that the people in New 
Mexico will buy into what you're proposing?
    General Klotz. If you're asking Frank Klotz's personal 
opinion, the answer is yes.
    Senator Graham. Okay. Tell me what the two Senators said 
when you talked to them about it.
    General Klotz. No, I said I had not yet talked to them----
    Senator Graham. Well, how in the world can you say that 
Mexico--New Mexico's okay, when you haven't talked to the two 
Senators? Because I've talked to both of them, and they're not 
okay. We're going to go from one extreme to the other. What law 
has to be changed to make this happen?
    General Klotz. There would have to be--and, of course, 
Monica, since she has responsibility for WIPP, is probably 
better----
    Senator Graham. Would any laws have to be changed to make 
this accommodation?
    Dr. Regalbuto. It will require program modification and 
approval by the----
    Senator Graham. Okay. Have you told me what it would be? Do 
we have the votes for it? What does it look like?
    Dr. Regalbuto. There has been no record of decision to----
    Senator Graham. Okay.
    Dr. Regalbuto.--do any of this.
    Senator Graham. What we're doing is stopping a program that 
there's questions about the actual cost, we're coming up with 
an alternative that nobody has any idea if it'll work. The 
Russians are not on board. Nobody's really run this through the 
Russian system. New Mexico, which would be the new site for 
disposal, hasn't been consulted. There are legal changes that I 
don't know if we could accommodate, or not. We don't know if it 
works. Other than that, this is a good plan.
    General Klotz. We think it's an excellent plan, in----
    Senator Graham. I think it's a lousy plan.
    General Klotz.--in the sense that----
    Senator Graham. Let me just----
    General Klotz. Okay.
    Senator Graham. I think this is going--this is what's wrong 
with the Government. Somebody five years ago--please indulge 
me----
    General Klotz. Yes, sir.
    Senator Graham.--came up with a disposition plan that now 
they say costs way too much, and it's 60 percent complete. Who 
the hell decided that it would work, to begin with? Not one 
person's been fired. Sixty percent of it's done. Now we're 
going to change horses and come up with a plan I don't--have 
zero confidence in. Nobody's run this through the New Mexico 
traps, nobody's talked to the Russians. We don't even know if 
this is--has a remote chance of happening, and we're going to 
stop this program, with no alternative, in my view. This is 
exactly what's wrong with the Government.
    If you could prove to me there's a better, cheaper way to 
do this that meets our goals, I'm all for it. But, what you've 
done to the state of South Carolina is get us to sign up for a 
pig in a poke. I spent a lot of political capital convincing 
the people of South Carolina this is a good mission for us and 
the country, to take 34 metric tons of weapons-grade plutonium, 
which is not a popular thing to ask your state to do, with the 
understanding there was a pathway forward, that we would do a 
certain thing with this weapons-grade plutonium, be good for 
the site, be good for the Nation. We're 60 percent complete, 
and they're going to stop it, with no alternative. This is 
what's wrong with the Government.
    I don't know how we fix this, but somebody needs to be 
fired for putting this in motion. I have very little confidence 
that the Russians are going to agree without a heavy price to 
be paid. This is not the time to go to the Russians and ask for 
a favor. I've got almost zero confidence that New Mexico's on 
board, because nobody's really vetted this. When it comes to 
changing the program, I just don't know how it would work, 
legally. You're going to get sued by everybody when you start 
over.
    We're in a mess. It's not the General's fault, like you 
all. But, this is an example of the Government just completely 
out of touch with reality. Anybody in the private sector would 
be fired. If you had a company, and they made this proposal to 
the company board, and, halfway through, 60 percent through, 
you said, ``Well, it won't work,'' somebody would be fired.
    Somebody needs to be fired.
    Thank you, Mr. Chairman.
    Senator Sessions. Well, Senator Graham has been involved in 
these issues for a long time. He has worked with South Carolina 
to help us save a good deal of money in cleanup.
    Senator Graham. Sixteen billion dollars.
    Senator Sessions. Sixteen billion dollars. We're a long--
this is not a good deal. Maybe, Mr. Trimble, could GAO tell us 
who made the recommendation, when they made it, and would you 
report back to us to that effect? Or maybe you know already.
    Mr. Trimble. I can take that question back. We may have 
some of the earlier documentation on the Analysis of 
Alternatives that was done in the past. I have some 
recollection of seeing it, but I can't recall the answers to 
that.
    [The information referred to follows:]

    DOE's actions to change from the MOX approach to the dilute and 
dispose approach for the disposition of 34 metric tons of surplus 
weapons grade plutonium started with the President's fiscal year 2014 
budget, in which DOE stated that it would slow down MOX Fuel 
Fabrication construction, and culminated with the President's fiscal 
year 2017 budget request, in which DOE requested to terminate this 
project. DOE's major actions and timeframes for its decision are 
explained below:

    <bullet>  In the fiscal year 2014 budget request, DOE stated that 
it will slow down the construction of the MOX Fuel Fabrication Facility 
as it will assess the feasibility of alternative plutonium disposition 
strategies.
    <bullet>  In April 2014, the department completed an analysis of 
alternative disposition options in its 2014 Plutonium Disposition 
Working Group Report. This analysis found that the dilute and dispose 
alternative would be significantly less expensive than the MOX approach 
and would face fewer technical risks. The report, however, reached this 
conclusion based on a life-cycle cost estimate for the dilute and 
dispose approach that had a high level of uncertainty and a life-cycle 
cost estimate for the MOX approach that we found to be unreliable in a 
prior GAO report (GAO-14-231).
    <bullet>  In the President's fiscal year 2015 budget request, DOE 
asked to place the MOX facility construction in cold standby, while DOE 
determined an alternative approach. However, in its fiscal year 2015 
appropriations, Congress decided to continue to allocate $350 million a 
year for construction activities for the MOX facility.
    <bullet>  In response to a congressional request, DOE contracted 
with the Aerospace Corporation to assess the validity of the Plutonium 
Working Group's analysis and findings. In April 2015, Aerospace issued 
a report that also found that the dilute and dispose approach would be 
less costly than the MOX approach.
    <bullet>  The Secretary of Energy requested that an independent 
team at Oak Ridge National Laboratory determine what the preferred 
approach for the Plutonium Disposition Program should be. In August 
2015, the resulting report, known as the Red Team report, concluded 
that the dilute and dispose approach was the preferred approach due to 
lower technical risks and lower costs.
    <bullet>  In February 2016, DOE proposed in the President's fiscal 
year 2017 congressional budget request to terminate its MOX facility 
construction project. The request stated that its MOX fuel approach to 
dispose of 34 metric tons of weapon-grade plutonium will be 
significantly more expensive than anticipated. Instead, NNSA proposed 
to focus on the alternative approach of diluting the surplus plutonium 
and disposing of it in a geologic repository.

    General Klotz. But, may I say, this is the President's 
proposal. When I used to teach political science at the Air 
Force Academy, the saying was, you know, ``The executive branch 
proposes, the Congress disposes.'' This is the proposal that we 
have made. We've laid out our reasons, in terms of cost and 
risk associated with it. We've tried to make the best case. 
We've done the best we can do----
    Senator Graham. General, I'm not blaming you. I mean, you 
came on after all this happened.
    General Klotz. Yeah.
    Senator Graham. Somebody set in motion a system that they 
completely--either the people now saying it costs too much 
don't know what they're talking about or the person that said 
that it will work didn't know what they were talking about. 
Somebody's wrong. I want to get to the bottom of it, because we 
did save $16 billion, Mr. Chairman, under your leadership, by 
taking high-level waste and leaving part of it in the tanks. 
Instead of scraping it completely clean, we accepted some high-
level waste by putting concrete in the bottom. It didn't 
pollute our environment. I had to fight every environmentalist 
in the Southeast, but it saved $16 billion, and it was good for 
the Government, it didn't hurt my state. I'm very open-minded 
about being reasonable. I just feel like that we're not being 
treated fairly. That's all I'm saying.
    Senator Sessions. I understand.
    General Klotz--well, we just had, before you came, 
testimony that from 2011 to 2015 we've spent $23 billion in 
additional for cleanup, but now we've got a new estimate that 
said the total cost is going to be 77 billion more than we 
estimated. We didn't make any progress. We're still falling 
further behind.
    But, General Klotz, on--in terms of money expended, what is 
the percentage of the money, do you know, on the MOX facility 
in South Carolina?
    General Klotz. I do. If I could turn to that.
    First of all, the MOX project is more than just the 
facility which we've been discussing, which is the MOX Fuel 
Fabrication Facility. It also includes a number of other 
facilities, one of which has been completed at South Carolina, 
called the Waste Solidification Building. So far, we have spent 
$4.8 billion on the MOX Fuel Fabrication Facility itself. The 
estimates of what it will cost to complete that facility alone 
vary as to whether you're using the Army Corps of Engineers or 
MOX Services--that's the contractor--or a series of about three 
different reports which have been done over the last couple of 
years within DOE by a red team chaired by Dr. Tom Mason of Oak 
Ridge National Laboratory and by Aerospace Corporation. Some of 
those numbers vary, you know, as high as $21 billion for the 
total project cost for that.
    Now, we estimate costs complete by virtue of--percentage 
complete--strictly on cost. I know there's different ways of 
doing that. When we say it's a certain percentage, it is that 
4.8 divided by the total amount that is needed for the whole 
project.
    Senator Graham. Mr. Chairman, I don't mean to belabor this, 
but I'd invite everybody to spend--I can show you this. Seventy 
six--70 percent complete, according to the--I can show you the 
facility. It's a big, massive thing. I'll be glad to show it to 
you. If there's a better way of doing it, I want to know what 
that is. Will it actually work?
    Senator Donnelly. We talk about 23 billion spent, 77 
billion to go, and then we talk about 70 percent complete. How 
do the numbers match up?
    Mr. Trimble?
    Mr. Trimble. I would have to--to give you an intelligent 
answer, I'd do it for the record. There's been multiple--as has 
been said, there have been multiple estimates in recent years. 
You have a challenge of doing apples to apples in comparing 
those numbers, because they're at different times, and 
sometimes they're addressing different ranges.
    [The information refereed to follows:]

    EM does not manage the MOX project. DOE's Defense Nuclear 
Nonproliferation program is responsible for the MOX project and the 
Plutonium Disposition Program. The environmental liability for DOE's 
plutonium disposition plan is $29 billion, but this figure includes 
more than just the MOX construction costs. It also includes the 
lifecycle operations of MOX and other facilities needed to complete the 
plutonium disposition program. Overall, DOE's environmental liability 
increased in 2016 by about $32 billion compared to 2015, and potential 
cost increases to the MOX Fuel Fabrication Facility were part of this 
growth in the liability.

    Senator Donnelly. I understand that, and I understand about 
inflation, and this and that. But, if we're 70 percent 
complete, how come we still have 75 percent of the cost to go? 
And----
    Mr. Trimble. Yeah. Well, I think there's disagreement or 
difference of opinion whether it's 70 percent complete.
    Senator Sessions. Well, this is a matter we're going to 
need to wrestle with. But, what I was saying about the 77 
billion in estimated increase in cleanup cost, does that 
include, Dr. Regalbuto, the MOX facility cost?
    Dr. Regalbuto. No, it does not include the cost of the 
activity in that facility at the end of mission.
    Senator Sessions. All right. Well----
    Senator Graham. I share your----
    Senator Sessions. We've got to get a grasp on this. What I 
want you to know, Department of Energy, is that, for $1 
billion, we can maintain 10,000 soldiers. We're giving pink 
slips to people who want to stay in the military, because we 
don't have a billion dollars to keep them on duty. We just 
waltz in and now we go $77 billion more than we estimated, 240 
billion for cleanup by 2075, and we've got this problem in 
South Carolina that I think we need to find out how it 
happened.
    Senator Graham. Yeah.
    Senator Sessions. Who--maybe they've got a perfectly 
reasonable excuse, but I think we just can't blithely walk on 
and waltz into this committee and say, ``We've just changed our 
mind.'' I mean, I just really feel like that. General Klotz, 
I'll let you comment, and anyone else that wants to, but----
    General Klotz. Well----
    Senator Sessions.--we have to stop. But, Senator Graham is 
correctly challenging and asking some legitimate information. I 
know our committee will want to look at it. We may have to make 
a tough decision and say, Senator Graham, sorry. But----
    Senator Graham. I get that, Mr. Chairman.
    Senator Sessions.--he's entitled to have a clear answer.
    Senator Graham. Yeah. All I'm saying is, if there's better 
way of doing it, I want to know, Will it work? Stopping the 
program without an alternative is not saving money, it's just 
putting in jeopardy all the things we've accomplished. Nobody 
can tell you, or me, that there is a viable alternative, 
because they haven't run the traps. Nobody's talked to the 
people in New Mexico. Nobody knows what the Russians are going 
to do. At the end of the day, nobody knows what kind of legal 
changes you have to make, and are they possible. Other than 
that, we're in a good spot. We're stopping a program, whether 
it is--go look at it, I'll show you the facility--and saying 
we're going to start all over again. How can that happen, and 
nobody get fired?
    General Klotz. Well, we're concerned about the cost, as 
well. As we look out for the longer term, the reports we've 
done indicate that, you know, this whole thing--not just the 
construction of the facility, but to operate the whole MOX 
chain--could cost us anywhere from 800 to a billion dollars a 
year for many, many years to come.
    Senator Graham. Why didn't they know that in 2010?
    General Klotz. Again, I wasn't here, Senator, in 2010. I 
share your frustration.
    Senator Sessions. Ms. Harrington, you were here in 2010.
    General Klotz. But, the----
    [Laughter.]
    General Klotz. But, it's a----
    Senator Graham. I mean, who----
    General Klotz. But, it's----
    Senator Graham.--signed this deal?
    General Klotz. But, it's an opportunity cost. I mean, this 
comes out of, as you know, an NNSA budget that's only 12 to 13 
billion dollars. There's a lot of other needs in that, as well 
as in the larger defense 050 accounts.
    Senator Graham. But, you agree with me, if you don't have 
an alternative, it's not a good idea.
    General Klotz. Well, we think we do have an alternative. 
There we----
    Senator Graham. I've written----
    General Klotz.--disagree.
    Senator Graham.--a letter about the three questions. Will 
New Mexico take it? Do you need legal changes? Are they--can 
you accomplish it? Do the Russians agree? If they don't agree--
if they do agree, what price do we have to pay to get the 
Russians on board? We're changing an agreement with the 
Russians. This is a fundamental change in the agreement. I need 
the answer to those three things before I can go back to South 
Carolina and tell the people that I represent that we've been 
fairly treated.
    Senator Sessions. That it?
    Well, thank you all.
    Is there any other question the members of the committee 
have on any other subject?
    Senator King?
    Senator King. I'm--I apologize for being late. We had 
another Armed Services Subcommittee meeting at the same time, 
on personnel. Easy problem: healthcare. Nothing to that.
    Is there a timeline and a price tag on the overall nuclear 
modernization project? In other words, do we have--does there 
exist a, ``Here's what we have to do. Here's how long it's 
going to take. Here's how much it's going to cost''?
    General Klotz. Yes, sir, I believe it is. I assume you're 
including the whole--the DOD part of that, because that's the 
largest part of----
    Senator King. Sure.
    General Klotz.--of this. I don't have it with me, but I 
know, when we testified before this subcommittee last year, the 
DOD came over with a chart that showed their projections of the 
cost, and ours added into it. I will--I hasten to add that the 
NNSA portion of that is a very small percentage of the----
    Senator King. But, I think it would be helpful----
    General Klotz. Yeah.
    Senator King.--for us to see the----
    General Klotz. Yeah.
    Senator King.--the big----
    General Klotz. There is.
    Senator King.--the overall picture of what----
    General Klotz. Yeah.
    Senator King.--what it is that we're biting off, here.
    General Klotz. Right.
    [The information referred to follows:]

    Is there a timeline and a price tag on the overall nuclear 
modernization project? In other words, do we have--does there exist a, 
``Here's what we have to do. Here's how long it's going to take. Here's 
how much it's going to cost''?
    The graph below shows estimates of out-year budget requirements for 
NNSA Weapons Activities in future dollars.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The figure displays the relative makeup of the Weapons Activities 
program in terms of its major portfolios for the period fiscal year 
(FY) 2016 through fiscal year 2041 by using program Future Years 
Nuclear Security Program (FYNSP) values for fiscal year 2016 through 
fiscal year 2021 and estimated nominal program costs for fiscal year 
2022 through fiscal year 2041. This information shows the potential 
evolution in program makeup and does not represent the precise costs in 
the out years for any of the portfolios show.
    The potential future cost for the program in the years beyond the 
FYNSP should be interpreted as the range between the red ``high range'' 
total lines and the green ``low range'' total lines for Weapons 
Activities shown in the figure. The range of total cost is necessary 
because of the significant uncertainties in the individual components 
that make up the estimate, in particular, for the LEPs and construction 
costs.
    The dashed blank line represents the fiscal year 2017 President's 
budget for fiscal year 2017 through fiscal year 2026, with the fiscal 
year 2026 total escalated for fiscal year 2027 through fiscal year 2041 
at the same 2.25 percent rate used in all the budget requirements 
estimates for those years. This line is intended to reflect the level 
of funding the Weapons Activities program might expect to receive for 
these out years, but is subject to annual adjustment based on the 
results of the programming cycle and interactions with stakeholders.

    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Donnelly.
    Senator Donnelly. Admiral Caldwell, as you look at the 
design of these reactors, the 40-year reactors, and they're 
going to be coming out in the years ahead, they're still--do 
you still have anybody working on looking at it as you go as to 
potential improvements to make it even better? I mean, you have 
a design, but--you know, do you sit down and go, ``Okay, here's 
the design, but we've just discovered this, or we've just 
discovered that''?
    Admiral Caldwell. In answer to your question, sir, there 
are different aspects of the propulsion plant and the reactor 
plant, and there are different answers depending on what 
section you're looking at. For a ship like Ohio-class 
replacement, once we put the fuel in the core and lock it in 
there, that's going to be in there for the remainder of its 
life.
    Senator Donnelly. Right.
    Admiral Caldwell. We're not going to do anything with that. 
Of course, along the way, like we have done with the Trident-
class submarines, and the 688s, we have modernized the reactor 
instrumentation and made improvements along the way. This is 
all founded on a lot of decades worth of experience in the 
program, and looking at how we make improvements, in terms of 
maintenance operability, the ability to train folks. All of 
those things come together. The way that we do that, sir, is 
through what is--what I refer to as our technical base. This is 
the operations and infrastructure part of our budget, the 
developmental part of our budget, and the program direction. 
This technical base is the flywheel or the engine room for 
everything that we do. It allows us to do the design, the 
analysis, the lifetime support, all the way through disposal. 
That's always part of--that's a big part of our budget 
submission for fiscal year 2017, and it enables us to continue 
to advance the technology to do the research and development, 
and then to eventually apply this technology to the fleet.
    Senator Donnelly. When you look at the 40-year life of the 
submarine, obviously there'll be changes as we move forward 
during that life, changes in knowledge, changes in methods, 
changes in materials. This is not a--set in stone. But, is that 
40-year life something that, at the end, you look and you go, 
``You know, this boat might well be usable for X number of 
additional years''?
    Admiral Caldwell. We could, and we have done that with the 
Los Angeles-class and the Trident-class, where we got to the 
end, and we looked and did the math and did the calculations, 
looked at the usage on the whole, and looked at the core 
expenditure, and decided that we could get more out of it.
    The other part I would add is that we do ship alterations 
throughout the life of a ship. We might find a valve design 
that works better, or a component that needs to be replaced and 
upgraded. This is the way we do business in the Navy, and it's 
just part of our due process. As we find a system that works 
better, that might have been a maintenance challenge or maybe 
it didn't turn out to operate the way we expected, we'll go 
back to the drawing board and draw on all this experience, and 
we'll do a set of ship alterations to modernize the force. 
Those are going on every day throughout the Navy.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Well, weapon modernization is going on around the world. 
Our potential adversaries, let us say, seem to be fully 
convinced that modernizing and advancing their nuclear weapon 
capacity is good for them, both in terms of deterrence, both in 
terms of securing their national identity, and for a whole lot 
of reasons. We just have to understand that.
    We've done--we were--have been the only nation that hasn't 
been advancing our systems. We're beginning to. I just think we 
have to. We've gone this many years. We have got to get this 
done.
    We are facing a financial challenge in this country. We 
don't have a dollar to waste. If I were running the world, I'd 
say, ``I want to build bombs, and I don't want to build 
buildings.'' But, maybe we have to build buildings. We'll have 
to deal with that. But, we need to keep the--we need to be as 
limited as we can be on that.
    General Klotz, a modernized weapon would be more effective, 
more secure and safe, and be able to be protected from 
terrorists or errors better, too, isn't that true?
    General Klotz. That's right, Mr. Chairman. Every time we 
consider how we're going to go about a life extension program 
for one of our weapons, that's one of the first things we look 
at. What can we take advantage of, in terms of the latest 
developments in technology related to safety and related to 
security that can be injected into the weapon as we extend its 
life?
    Senator Sessions. You have no doubt we'll achieve that as 
we go through this modernization process.
    General Klotz. Yes, sir, that's one of our top priorities.
    Senator Sessions. General Davis, the--former Secretary of 
Defense Perry, who chaired the Nuclear Posture Review 
Commission with Secretary Schlesinger in a very important 
bipartisan commission on December 8th, said, quote, ``Russia is 
embarked on a major buildup of their nuclear arsenal. It seems 
likely that they are developing new bombs with new 
characteristics,'' close quote. I know this is not a classified 
hearing. Can you--what can you tell us about that in an 
unclassified level?
    General Davis. Thank you for the question, Senator. I'm 
certainly not an expert, in my current capacity, on--and I'm 
not up to speed on the current intelligence, but I can tell you 
that it's very clear that all of our adversaries are updating 
their nuclear weapons, along with our allies. I would put the 
Russians, the Chinese, the French, and the U.K. all in the 
batch of folks that are looking at how to update their nuclear 
weapons.
    Senator Sessions. To some degree, we've been behind their 
activities. Is that right? They've been doing this for quite a 
number of years, most of them.
    General Davis. Well, so certainly they've been updating 
their weapons. We are certainly, at this point, updating ours, 
as well, making them more safe, more secure, and more reliable. 
The thing that I'd point out--and you mentioned that that's the 
focus--we're in a very different world than we were when we 
originally designed these weapons. The security environment's 
completely different. We certainly have better technology. We 
need to take the opportunity to incorporate those improvements 
into these weapons.
    Senator Sessions. Well, we wish it were different. We 
absolutely do. We wish that things were continuing to go down, 
like we hoped and saw for quite a number of years. The efforts 
on proliferation, Ms. Harrington, seemed to be making a lot of 
progress. Now we've got more and more nations expanding what 
they have, and other nations moving forward to try to develop 
nuclear weapons. Unfortunately, it's just a fact of our life 
and necessary to defend America.
    Senator Donnelly, you have anything else?
    Thank you all. It was a very valuable hearing. We'll submit 
some written questions, I'm sure, and we would appreciate your 
assistance for the record.
    Thank you very much.
    We are adjourned.
    [Whereupon, at 4:01 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions
     interoperable warhead-1: the next big life extension challenge
    1. Senator Sessions. In our report accompanying the fiscal year 
2016 National Defense Authorization Act, the SASC expressed concern 
about maintaining readiness to meet the technical challenges associated 
with the first ever interoperable warhead, designed to replace the W78 
and W88 warheads. The 5 year delay of the IW-I program, from 2025 to 
2030, is regrettable, but affords an opportunity to address the 
important technical challenges associated with designing and producing 
a warhead that can be used on both an ICBM and SLBM. What specifically 
is NNSA doing to address the technical questions associated with the 
IW-I approach (for example, assuring the nuclear package can be used in 
both an ICBM and SLBM warhead)? Are you examining how new design and 
production capabilities could save costs?
    General Klotz. NNSA has undertaken a number of activities in order 
to maintain readiness and meet the technical challenges associated with 
the first ever interoperable warhead (IW). NNSA first conducted studies 
on IW concepts. Complex designs help to exercise a broader range of 
skills, and these studies provided a formidable design challenge for 
weapons designers. Additionally, programs such as the Joint Technology 
Demonstrator exercise the workforce throughout the design, develop, 
manufacture, and prototype lifecycle. This collaborative, United 
States-UK effort would exercise capabilities throughout the weapon 
development process. By looking at the entire development cycle, 
weapons designers are able to exercise a myriad of skills needed for 
the continued support of the nuclear deterrent, as well as isolate 
challenges moving through several stages of the design-and-build 
process. NNSA also began ``Certification Readiness Exercises'' to 
examine potential life extension program (LEP) options early to 
identify and reduce technical LEP risks and to enable LEP certification 
processes. These include hydrodynamic experiments to provide a 
technical assessment of proposed LEP options.
    NNSA used the time during the delay to identify key areas for 
continued technical advancement and technology maturation. Specific 
areas of advancement include fuze technology, nuclear explosive package 
pit production capabilities, new concepts for qualification, safety and 
security technology, and advanced manufacturing technologies. These 
areas will enhance NNSA's ability to design and produce warheads with a 
common nuclear explosive package for intercontinental ballistic missile 
(ICBM) and sea launched ballistic missile (SLBM) delivery platforms. 
Additionally, NNSA is leading the technical development work on the W88 
Alteration (Alt) 370 which the U.S. Air Force Mk21 Replacement Fuze 
leverages. The current technical progress being made on the W88 ALT 370 
and Mk21 Replacement Fuze programs demonstrate the common and adaptable 
design, qualification, and production of fuze components for both the 
ICBM and SLBM applications. Common development of these and other 
technologies for use in multiple programs helps further advance the 
feasibility of the IW-1 interoperability concept.
    NNSA continues to examine how new design and production 
capabilities could save costs, especially in the use of additive 
manufacturing. Implementation of this technology could reduce schedule 
risk, cost, and time to develop, assess, qualify, and certify critical 
deliverables for the stockpile. Continued research and development of 
additive manufacturing capabilities at the present time will offer us a 
path to design, produce, and qualify components more quickly and at a 
lower cost in the future.

    2. Senator Sessions. Do you have a specific list of technical 
challenges that you can provide this committee?
    General Klotz. The greatest challenge currently faced by the IW-1 
program is the need to reconstitute the entire team of technical 
personnel for program restart in fiscal year 2020, due to the 
operational gap resulting from the five-year delay.
                               __________
              Questions Submitted by Senator Joe Donnelly
                        life extension programs
    3. Senator Donnelly. The Stockpile Stewardship and Management 
Plans, from fiscal year 2014 through fiscal year 2016, have shown sharp 
increases beyond the Five Year National Security Program budget or 
FYNSP. Is NNSA continuously deferring budgets for modernization plans 
to out years beyond the FYNSP? What is the impact of these sharp 
increases on NNSA budgets in the out years?
    General Klotz and General Davis. Several factors can cause sharp 
increases in the budget requirement estimates outside the Future Years 
Nuclear Security Program (FYNSP), including the conduct of multiple 
life extension programs (LEPs) or major alterations to weapon systems 
and modernization of key capabilities and infrastructure. As LEP and 
alterations ramp up to peak funding (typically around the first 
production unit), these activities constitute a significant percentage 
of Weapons Activities (WA) budget requirements. In the current FYNSP 
(from fiscal year 2017-2021), LEPs constitute about 16 percent of the 
total WA budget. Over this same period, LEP funding increases by about 
$580 million (to about $1.9 billion), and constitutes 18 percent of the 
WA total in fiscal year 2021. Beyond the fiscal year 2017 FYNSP period, 
LEP funding holds relatively steady at about $1.8-2 billion for several 
years. NNSA has, with this FYNSP and some of the adjustments to LEP 
first production unit dates in previous FYNSPs, now climbed the LEP 
funding ramp and smoothed the out-year LEP costs.
    All program activities, including LEPs and related capabilities-
focused construction projects proposed during the programming period 
are subject to particular scrutiny, and resources are allocated based 
on priorities and a balancing of all requirements. Among the highest 
priorities are modernization of stockpile warheads through LEPs and 
modernization of key capabilities, such as for plutonium and uranium. 
NNSA must also sustain the stockpile, the supporting infrastructure, 
and the intellectual capabilities that make stockpile stewardship 
possible. If funding is insufficient to support all proposed high 
priority activities and projects, funding may be slated for the period 
beyond the FYNSP (rather than just assuming that the requirement goes 
away). Many of the construction projects on NNSA's Construction 
Resource Planning list are early in their planning and have not yet 
matured enough to be included in the FYNSP. Many, however, have proven 
sufficiently important to merit being slated for the period immediately 
outside the FYNSP. Resources for these projects are in addition to the 
significant funding already required for the Uranium Processing 
Facility and the Chemical Metallurgical Research Replacement Facility 
project in the out-years.

    4. Senator Donnelly. GAO recently reported that the B61-12 Life 
Extension Program faces ongoing risks that include the weapon's 
potentially being incompatible with the F-35 aircraft. When will it be 
known whether or not the B61-12 and the F-35 are compatible, and how 
does the Air Force plan to mitigate the risk of incompatibility?
    General Klotz and General Davis. NNSA is aggressively working with 
the United States Air Force (USAF) to ensure compatibility with the 
future Block 4.1 Dual Capability Aircraft (DCA) version of the F-35A. 
Representatives from NNSA's B61-12 Life Extension Program (LEP) and the 
USAF Joint Project Officer (JPO) jointly participate in B61-12 
technical interchange meetings and interface working groups to collect 
best available data on early Block 2 aircraft environments and 
interface requirements. This information is used by the National 
Laboratories in developing bomb design and qualification requirements. 
Representatives of the B61-12 LEP also are working with the F-35A JPO 
to test on early developmental and Block 2 production aircraft. To 
date, the program has conducted mechanical fit checks, environmental 
flight tests, and aircraft electrical interface testing to reduce the 
risk of incompatibility. The B61-12 LEP will continue to partner with 
the USAF F-35A JPO to provide updated B61-12 test hardware and bomb 
simulators to facilitate integration and development testing until the 
Block 4.1 DCA aircraft is available for integration and nuclear 
certification testing. This currently is scheduled after the March 2020 
B61-12 First Production Unit.
                        plutonium infrastructure
    5. Senator Donnelly. After cancelling the original Chemistry and 
Metallurgy Research Replacement Facility (CMRR) in 2014 after spending 
nearly $500 million on design activities, the President's fiscal year 
2017 budget is now proposing a new alternative for addressing aging 
plutonium infrastructure--referred to as the modular strategy and made 
up of parts of the CMRR project and proposed modular facilities--which 
together could cost as much as $6 billion, based on a GAO analysis.
    To what extent has DOE ensured the plutonium modular strategy has 
been or will be thoroughly analyzed against competing alternatives?
    General Klotz and General Davis. Since the cancellation of the 
Chemistry and Metallurgy Research Replacement (CMRR) Project Nuclear 
Facility (NF) in 2014, NNSA has adopted and implemented a plutonium 
infrastructure strategy that optimizes existing infrastructure to 
provide analytical chemistry and materials characterization 
capabilities.
    These efforts are being executed as subprojects under the CMRR 
Project.
    The Plutonium Modular Approach (PMA) was developed with the 
recognition that the Plutonium Facility (PF)-4 will be 50 years old in 
2028. Given PF-4's age and the need to produce pits at increased rates 
in the late 2020s, NNSA developed the PMA to address PF-4's lifetime 
and to provide infrastructure to support increased pit production 
requirements.
    NNSA has initiated an Analysis of Alternatives (AoA) for the PMA as 
part of pre-Critical Decision (CD)-1 activities, in accordance with DOE 
Order 413.3 billion and Departmental project management guidance. In 
addition, NNSA has implemented new business operating procedures for 
conducting AoAs, which establish a methodical and disciplined process 
that follow all GAO best practices for AoAs. It requires oversight of 
the AoA with participation from organizations outside of the program 
office and an independent review by the NNSA Office of Cost Estimating 
and Program Evaluation to ensure alternatives are thoroughly evaluated 
without bias. Through the AoA, the PMA will be thoroughly analyzed 
against competing alternatives modular alternatives. The AoA will not 
consider alternatives to the modular approach. The resulting preferred 
alternative for the PMA will be reviewed by the DOE Project Management 
Risk Committee and their evaluation of the alternative's risk and 
viability will be sent to the Deputy Secretary for her consideration.

    6. Senator Donnelly. NNSA has justified many of its ongoing and 
proposed plutonium infrastructure projects, including its plutonium 
modular strategy, on the need for additional space to support 
programmatic operations. Has NNSA conducted a comprehensive, complex-
wide assessment of programmatic plutonium needs and existing facilities 
to validate the need for new infrastructure projects? Does NNSA 
consider program needs NNSA-wide or are infrastructure needs 
assessments only conducted by contractors at the sites?
    General Klotz and General Davis. The NNSA performed a complex-wide 
analysis of plutonium manufacturing activities during Complex 
Transformation efforts and determined in the 2009 Record of Decision 
(ROD) for the Complex Transformation Supplemental Programmatic 
Environmental Impact Statement--Operations Involving Plutonium, 
Uranium, and the Assembly and Disassembly of Nuclear Weapons (73 FR 
77644) that ``Manufacturing and research and development (R&D) 
involving plutonium will remain at the Los Alamos National Laboratory 
(LANL) in New Mexico.'' This ROD continues to frame the analysis of 
plutonium infrastructure and capabilities.
    The Plutonium Modular Approach (PMA) proposal addresses two primary 
mission needs: Plutonium Facility-4's lifetime and the need to meet 
increased production demands in the future, which we believe requires 
an additional footprint. The decision to optimize existing 
infrastructure through new sub-projects in the Chemistry and Metallurgy 
Research Replacement project was based on an evaluation of capabilities 
across the enterprise. The PMA will undergo a rigorous NNSA led 
Analysis of Alternatives (AoA). This AoA will include DOD and other 
external participants. The AOA will evaluate the ability to use 
existing infrastructure to support current and future programmatic 
operation.

    7. Senator Donnelly. NNSA has committed to closing the Chemistry 
and Metallurgy Research building at Los Alamos in 2019. Will all 
plutonium research equipment needed to support pit production and other 
missions be established elsewhere in time to ensure that NNSA can keep 
this commitment without any loss of capability?
    General Klotz and General Davis. NNSA remains committed to ceasing 
programmatic operations in the Chemistry and Metallurgy Research (CMR) 
facility in 2019. Current activities under the Chemistry and Metallurgy 
Research Replacement Project optimize existing facilities to provide 
analytical chemistry (AC) and materials characterization (MC) 
capabilities. We expect the necessary AC and MC capabilities to be in 
place to support mission requirements and do not anticipate their 
availability impacting the cessation of programmatic operations in CMR 
in 2019.
                         uranium infrastructure
    8. Senator Donnelly. NNSA plans to cease operations in Y-12's aged 
9212 building by 2025. NNSA, through its Uranium Strategy, plans to 
replace the uranium processing capabilities of 9212 through a mix of 
new facilities, modifications to existing facilities, and the 
installation of new technologies and processes. Does NNSA currently 
have a total cost estimate for this effort program of activities 
(construction, modifications, and technologies)? If not, when will NNSA 
be able to provide the Committee with a total program cost estimate and 
what processes will NNSA use to manage this program of multiple/phased 
activities?
    General Klotz and General Davis. NNSA is committed to ending 
enriched uranium programmatic operations in Building 9212 and 
delivering the Uranium Processing Facility (UPF) by 2025 for no more 
than $6.5 billion. To accomplish this, a subset of Building 9212 
capabilities will be relocated to Buildings 9215 and 9204-2E to 
maximize the use of existing floor space. The remaining Building 9212 
capabilities will be provided by the new UPF no later than 2025.
    To further solidify planning, NNSA will ensure the project achieves 
90 percent design maturity for the nuclear facilities before 
establishing the critical decision cost and schedule baseline, 
scheduled for late 2017.

    9. Senator Donnelly. What is the level of risk that NNSA will not 
be able meet the milestone for ceasing operations in building 9212 by 
2025, and what, if any, are the consequences of delays in meeting this 
particular milestone?
    General Klotz and General Davis. In order to cease enriched uranium 
(EU) programmatic operations in Building 9212 no later than 2025, the 
Uranium Processing Facility (UPF) must be operational and three key 
processes must be relocated to enduring facilities--2 MeV radiography, 
chip cleaning and purified metal production. To support the transition 
of 9212 processes, key technologies including a calciner will be 
employed to further enhance uranium operations.
    NNSA will both construct new, separate buildings as part of the UPF 
project and make investments in enduring buildings. UPF will consist of 
a Main Process Building (MPB), Salvage and Accountability Building 
(SAB), Mechanical and Electrical Building (MEB), and other support 
facilities. Buildings 9215 (machining), 9204-2E (surveillance, 
assembly/disassembly) and 9995 (analytical plant lab) are designated as 
either transitional or enduring facilities with planned upgrades to 
electrical systems, HVAC and equipment controllers. Building 9995 
investments were completed in early fiscal year 2016 to temporarily 
extend its life while a long-term replacement strategy for the 
analytical chemistry services it provides can be studied. Through this 
multipronged approach, NNSA is reducing sources of mission and safety 
risk in the existing plant to ensure that long term EU operations 
continue safely. Continued programmatic operations in building 9212 
beyond 2025 significantly increase these safety and operational risks.
    If UPF is not operational by 2025 and we are unable to pre-produce 
the required mission deliverables, then select 9212 operations, such as 
casting and special oxide production would be required to operate until 
UPF is available.
                  aging facilities and infrastructure
    10. Senator Donnelly. DOE and its predecessor agencies have 
conducted research and production of nuclear weapons for over seventy 
years, and significant portions of the NNSA facilities and 
infrastructure are aging; 29 percent of NNSA's buildings are over 60 
years old. Facing $3.66 billion backlogs in deferred maintenance as of 
fiscal year 2015, of which $497 million is for excess facilities and 
$354 million is for facilities to be excess in 10 years, the Department 
has taken steps to stop the growth of this deferred maintenance 
backlog. What impact, if any, have increased efforts to address 
maintenance backlogs had on NNSA operations? Has NNSA made progress in 
accelerating the decommissioning of excess facilities to reduce 
maintenance costs?
    General Klotz and General Davis. NNSA has increased infrastructure 
Maintenance and Recapitalization investments aimed at reducing the 
greatest safety, security, environmental, and program risk. These 
increased investments during the last few years have allowed us to 
address reliability of our facilities and operations as well as improve 
conditions for safety, productivity, and retention of personnel. If 
funded, NNSA's fiscal year 2017 budget request for additional increases 
in Maintenance and Recapitalization resources would have a positive 
impact on NNSA operations by reducing facility/equipment downtime, 
accelerating recovery time, and increasing productivity by replacing 
obsolete technologies. Continuation of this investment strategy is 
required in order to arrest the declining state of NNSA's 
infrastructure.
    NNSA has made progress in accelerating the decommissioning of 
excess facilities to reduce maintenance costs. In fiscal year 2014 and 
fiscal year 2015, NNSA disposed of Buildings 9744 and 9808 at Y-12. In 
fiscal year 2016, NNSA is disposing of Casa 2 and Casa 3 at Los Alamos 
National Laboratory (LANL), 12 facilities at the Tonopah Test Range in 
Nevada, and several trailers at Lawrence Livermore National Laboratory 
(LLNL). The fiscal year 2017 budget request provides $247.3 million in 
fiscal year 2017 to address excess facilities by:
    <bullet>  Transferring the Kansas City Bannister Federal Complex to 
the private sector for redevelopment (this would eliminate 2.93 million 
square feet of excess facilities);
    <bullet>  Disposing of the TA-16-430 High Explosives Pressing 
Facility at LANL; and
    <bullet>  Disposing of buildings 9111 and 9112 at Y-12.
    In fiscal year 2015, NNSA completed critical roof repairs at three 
buildings (251, 292, and 175) at LLNL. In fiscal year 2016, NNSA is 
currently on track to fund additional roof repairs at Y-12's Building 
9201-5 (Alpha-5), Building 9204-4 (Beta-4) and Building 9206; fund the 
installation of a temporary power system at Y-12's Beta-4; and invest 
in the characterization of four buildings (280, 292, 251, and 175) at 
LLNL. The fiscal year 2017 request includes funding to conduct 
additional major risk reduction activities at Y-12's Alpha-5 and Beta-
4.

    11. Senator Donnelly. The fiscal year 2017 NNSA budget request for 
Defense Nuclear Security notes that NNSA now estimates it may need $2 
billion dollars over the next 15 years to address repairs and 
replacement of essential security infrastructure and for PIDAS 
upgrades. Please detail how NNSA developed this estimate? Please 
outline the major elements for repairs and replacement of security 
infrastructure for which this funding is intended.
    General Klotz and General Davis. The $2 billion figure is a rough 
estimate, based primarily upon budget inputs from both Pantex and Y-12, 
with pre-Critical Decision (CD) 0 projects that totaled approximately 
$1.3 billion. NNSA added to that figure a rough estimate of 
approximately $700 million to recapitalize the other six NNSA sites. 
The total cost to refresh all NNSA sites will depend in large part on 
whether that work is conducted through M&O contractors as it is today, 
or awarded to others. The money is to be used in ``refreshing and 
updating'' infrastructure and technology systems or components that in 
many cases are well past their reasonable service life. Work is ongoing 
to assess requirements and prioritize activity. A survey across the 
enterprise has been completed, capturing a detailed list of equipment 
and infrastructure in use at each of our sites, along with its 
condition. Additionally, NNSA has implemented quarterly reporting 
requirements for each site to identify the operational status of its 
equipment with data reflecting adequacy of functionality, such as false 
and nuisance alarm rates.
    All of this information is being assessed to develop a 10-year plan 
to identify replacement/upgrade requirements and to prioritize projects 
for funding and replacement scheduling. The initial focus will be on 
systems elements that are most critical to maintaining our security 
posture for protecting our highest priority assets. Initial costs are 
anticipated to be relatively steep as old systems are identified and 
replaced, with costs eventually leveling out to support a systematic 
refresh plan using life-cycle estimates to ensure high reliability/low 
failure. The 10-year plan to recapitalize the nuclear security 
enterprise's physical security systems is scheduled to be completed not 
later than December 31, 2016. Once the plan is complete, NNSA will 
develop mission need statements and start design activities. As noted 
in the question, major elements for repair and replacement will include 
PIDAS upgrades and associated intrusion detection systems at Pantex and 
Y-12, with other requirements to be based upon analysis of data for the 
10-Year Plan.
                    contract and project management
    12. Senator Donnelly. The Secretary of Energy issued a memo in June 
2015 that seeks to improve the department's less than stellar record in 
managing the design and construction of large nuclear facilities. The 
memo stated that, among other things, all departmental elements were to 
immediately begin using standard, commercial industry best practices 
when developing cost and schedule estimates for its projects. What 
steps are being taken by the department to ensure that the various 
program offices are implementing this requirement? Can you share any 
evidence of improvements in projects cost and schedule estimates?
    General Klotz and General Davis. In response to the Secretary's 
June 2015 policy memorandum, the Department and the National Nuclear 
Security Administration (NNSA) have made changes to various processes 
and policies. First, to address the Secretary's requirement for full 
funding of projects with a Total Project Cost (TPC) of $50 million or 
less, the 2017 budget adheres to this policy. To address the 
requirement of conducting Analysis of Alternatives (AoA) independently 
of the contractor benefiting from the outcome, NNSA has assigned 
responsibility of conducting all AoAs to the responsible Federal 
Program Office with oversight from NNSA's Office of Cost Estimating and 
Program Evaluation (CEPE). A new Business Operating Procedure was 
issued by the Administrator outlining the AoA process and deliverables 
for NNSA.
    NNSA participates in the Department's Project Management Risk 
Committee as a means to institutionalize and share best practices 
across the Department. NNSA also established the Office of Project 
Assessments, reporting directly to the Principal Deputy Administrator, 
ensuring senior leadership visibility and accountability throughout the 
enterprise for project performance. Large nuclear projects will always 
be challenging and NNSA acknowledges that it needs to continue to 
improve its performance in this area.
    NNSA, following the Government Accountability Office (GAO) Cost 
Estimating and Assessment Guide and NNSA's Independent Cost Estimate 
(ICE) Business Operating Procedure (BOP), conducted 8 ICEs during 
fiscal year 2015 and is scheduled to have completed 8 more by the end 
of fiscal year 2016. ICEs are considered an industry best practice. 
These reports provide NNSA senior leadership with assurance that 
estimated project costs are reliable and within the approved funding 
levels.
    Since 2011, NNSA has delivered its approximately $1.4 billion 
project portfolio approximately $73 million (or 5 percent) under 
original budget. The two most recent examples of completed projects 
with improved cost and schedule performance are the $76 million Nuclear 
Facility Risk Reduction Project, which was completed $5.7 million under 
budget and approximately 11 months ahead of schedule and the $65 
million UPF Site Readiness Subproject which was completed approximately 
$20 million under budget and on schedule. Another UPF Subproject, Site 
Infrastructure and Services, is currently on track to deliver under 
budget and ahead of schedule. Both UPF subprojects were acquired using 
Full and Open Competition under Firm Fixed Price Contracts which is 
considered an industry best practice when costs and risks can 
reasonably be estimated and accounted for.
    Independent Project Reviews are conducted at least annually on all 
NNSA projects to ensure they are performing within their cost and 
schedule estimates.

    13. Senator Donnelly. Are there new department requirements also to 
be applied to programs and not just projects?
    General Klotz and General Davis. NNSA has recently established a 
new business operating procedure for conducting an analysis of 
alternatives (AOA), applicable to programs and projects. The new 
procedure establishes a methodical and disciplined process that follows 
all GAO best practices for AoAs. It requires oversight of the AOA with 
participation from organizations outside of the program office and an 
independent review by the NNSA Office of Cost Estimating and Program 
Evaluation to ensure all viable alternatives are thoroughly evaluated.

    14. Senator Donnelly. What is the status of NNSA actions to address 
GAO findings related to NNSA's use of its Contractor Assurance System 
(CAS) to oversee management and operating (M&O) contractors?
    General Klotz and General Davis. NNSA will execute plans to improve 
its governance and oversight of field operations at its laboratories, 
sites, and plants. The new approach will clarify the oversight roles of 
headquarters and field office personnel, placing emphasis on new 
rigorous and dependable CASs. The new CASs more closely mirror the DOE 
Office of Science model, including using peer reviews, incorporating 
corporate parent involvement, and analyzing the strengths of the CASs.
                         international efforts
    15. Senator Donnelly. The Russian Federation and other former 
Soviet states are major partners for the Global Material Security 
program, but recent changes in Russian-United States relations have 
impacted a number of areas of cooperation. In December 2014, Russia 
reduced the scope of work in Russia and announced that an HEU 
downblending program would be discontinued. Over the last year, how 
have NNSA nuclear security efforts changed to mitigate the effects of 
generally reduced United States-Russian cooperation? What is the 
strategy for ensuring that Russia's large nuclear complex and 
stockpiles of nuclear material, particularly at a time when sanctions 
and falling oil prices are damaging the Russian economy? Has NNSA 
experienced other cooperation issues that could affect the success of 
its nonproliferation efforts?
    Ms. Harrington. NNSA continues to conduct activities under existing 
(2014 and prior-year funded) contracts with a limited number of Russian 
entities and to hold technical exchanges on topics of mutual nuclear 
security interest. With limited opportunities to work directly with 
Russian facilities, NNSA has increased efforts to detect nuclear 
smuggling in the regions surrounding Russia by providing law 
enforcement and security agency partners in Eastern Europe, Central 
Asia, and the Caucasus with detection systems and training to detect 
smuggled nuclear and radiological materials.
    NNSA continues to work with more than 100 international partners 
and organizations to meet evolving threats to nuclear security. These 
partnerships are not adversely affected by the current relationship 
with Russia.

    16. Senator Donnelly. GAO has identified a series of challenges 
facing DOE's efforts to secure nuclear materials, including that DOE 
has not completed an inventory of U.S. plutonium inventory overseas. 
Has DOE begun its effort to undertake an inventory of U.S.-obligated 
plutonium worldwide? When is this effort expected to be complete?
    Ms. Harrington. Yes, DOE has begun its effort to undertake an 
inventory of U.S.-obligated material worldwide and expects to have an 
initial inventory completed by September 30, 2016.

    17. Senator Donnelly. Every other year, since 2010, the United 
States has hosted or participated in Nuclear Security Summits, bringing 
together dozens of heads of state. The subcommittee understands that 
the final Summit will take place this year, with future high-level 
dialogue on these matters uncertain. What are the administration's 
plans for replacing the Summit process with a new means to ensure 
nuclear security matters continue to receive high level attention by 
world leaders?
    Ms. Harrington. The first Nuclear Security Summit was held in 
Washington, DC in 2010, and was followed by additional Summits in Seoul 
in 2012 and The Hague in 2014. These Summits have achieved tangible 
improvements in the security of nuclear materials and stronger 
international institutions that support nuclear security. Last year in 
Berlin, the President formally announced his plan to host a fourth and 
final Nuclear Security Summit in 2016. The Summit was held March 31-
April 1 in Washington, DC.
    The 2016 Nuclear Security Summit continued discussions on evolving 
threats and highlighted steps that can be taken together to minimize 
the use of highly-enriched uranium, secure vulnerable materials, 
counter nuclear smuggling and deter, detect, and disrupt attempts at 
nuclear terrorism. The United States seeks a strengthened global 
nuclear security architecture that is comprehensive, based on 
international standards, builds confidence in nations' nuclear security 
implementation, and results in declining global stocks of nuclear 
weapons-usable nuclear materials. To that end, the outcomes of the 
Summit included a high-level communique highlighting progress made and 
work still to be done to prevent nuclear terrorism. Leaders also 
endorsed ``Action Plans'' to strengthen the enduring international 
institutions and initiatives that sustain and build upon the work of 
the Summits. Participants are also seeking other ways to maintain and 
expand cooperation through continued high-level engagements, including 
the International Atomic Energy Agency's (IAEA's) International Nuclear 
Security Conference with its Ministerial-level component.
    NNSA and its predecessor organizations have been working to reduce 
the threat of nuclear proliferation and terrorism for well over half a 
century. The Nuclear Security Summit process energized the 
international community on this issue, enabling a significant 
acceleration in NNSA's work with its international partners on nuclear 
threat reduction. NNSA will continue to take actions to sustain 
progress and reduce current and emerging nuclear threats.

    18. Senator Donnelly. NNSA also provides support to the IAEA 
through training programs, technology development, and staff support. 
Has the enactment of the JCPOA affected NNSA nonproliferation 
activities?
    Ms. Harrington. The JCPOA reinforces NNSA's nonproliferation 
activities, including NNSA's longstanding and comprehensive support to 
ensure that the International Atomic Energy Agency (IAEA) has the tools 
and resources necessary to implement its safeguards monitoring 
requirements under the Treaty on the Non-proliferation of Nuclear 
Weapons, as well as those derived from the JCPOA. NNSA provides extra-
budgetary and in-kind technical and technology assistance, training, 
and staff support to the IAEA. While this assistance has strengthened 
the IAEA's ability to implement its JCPOA obligations, it is equally 
important that the United States continue to provide this comprehensive 
support across the IAEA Department of Safeguards to ensure the overall 
effectiveness of the IAEA as a technical organization providing 
credible assurances in the peaceful nature of nuclear programs in all 
IAEA Member States.
                civilian use of highly enriched uranium
    19. Senator Donnelly. While the use of highly enriched uranium 
(HEU) in civilian installations, such as research reactors and isotope 
production facilities, is considered a threat to national and 
international security, 74 civilian research reactors around the world 
use or plan to use HEU, including 8 reactors in the United States. A 
recent Congressionally-mandated report by the National Academies noted 
that conversion of the remaining research reactors has proven to be 
significantly more difficult than originally envisioned. What are 
NNSA's views on the recommendations contained in this National 
Academies report, particularly the recommendation of an interim 
solution involving downblending the 20 tons of HEU currently designated 
for civilian research reactor use?
    Ms. Harrington. NNSA welcomes the National Academy of Sciences' 
recommendations reaffirming the importance of the United States' 
continued development of a high-density low-enriched uranium (LEU) fuel 
for the conversion of U.S. high performance research reactors, and 
reaffirming the importance of our continued support for the European 
effort to develop a high-density LEU fuel for the conversion of 
European reactors. NNSA is reviewing all of the National Academy of 
Sciences' recommendations and exploring their potential political, 
legal, and technical impacts. NNSA supports the underlying premise that 
the goal is to eliminate highly enriched uranium (HEU) usage in 
civilian applications and that nothing should compromise that effort.
                      waste isolation plant (wipp)
    20. Senator Donnelly. In February 2014, WIPP suffered an 
underground vehicle fire resulting in a portion of WIPP being shut down 
and workers being evacuated. In an unrelated incident later that month, 
a radiation release was detected, caused by a chemical reaction in a 
waste drum. Since these events, WIPP has been shut down and has not 
been accepting any additional waste shipments. Partial waste 
emplacement is expected to resume in the first quarter of fiscal year 
2017. The President's fiscal year 2017 budget request states that WIPP 
recovery activities will be completed and waste operations restarted by 
December 2016, or 9 months later than DOE originally estimated in its 
Recovery Plan. What is the status of efforts to reopen WIPP, and has 
DOE worked with sites across the country to develop a plan for 
prioritizing waste shipments once WIPP reopens? What will be the 
initial rate of operations when limited waste operations resume?
    Dr. Regalbuto. The recovery of WIPP and the resumption of waste 
emplacement operations, when it is safe to do so, is among EM's highest 
priorities. The Carlsbad Field Office (CBFO) and the WIPP management 
and operating (M&O) contractor are working collaboratively with the New 
Mexico Environment Department on regulatory permit approvals needed for 
resumption of waste emplacement operations.
    To reopen WIPP, the interim ventilation system (IVS), a project 
which was initiated after the February 2014 incidents, is needed to 
increase filtered airflow in the underground to increase work 
activities in the underground. The IVS mechanical construction is 
nearly complete and is scheduled to be operational this spring. The 
remaining activities to reopen WIPP are related to safety improvements, 
including completing an update of the WIPP Documented Safety Analysis, 
and completing the readiness process.
    The Department of Energy (DOE) is in the process of working with 
transuranic (TRU) waste generator sites to develop a plan for 
prioritizing waste shipments to WIPP. Since the 2014 events, EM and 
CBFO have met with the waste generators several times to identify the 
sites' needs and to discuss the National TRU Program and corrective 
actions required for the resumption of TRU waste shipments to WIPP. The 
initial focus for resuming TRU waste operations at WIPP will be the 
emplacement of TRU wastes currently stored on-site.
    The rate of waste emplacement is currently planned to be up to five 
shipments per week. This rate will depend on a number of variables: 
ventilation airflow available; the ability to emplace waste in the 
radiologically contaminated underground facility; execution of the 
revised Safety Management Programs; and the need for mining to ensure 
mine stability for underground worker safety. Worker safety will 
continue to be paramount as waste emplacement resumes.

    21. Senator Donnelly. Given the discussion surrounding sending the 
plutonium at Savannah River to WIPP, has DOE looked at whether the 
current design for the new ventilation system and exhaust shaft to be 
built at WIPP would need changing to handle this new waste or whether 
an expansion to WIPP's underground is needed?
    Dr. Regalbuto. It is expected that the new permanent ventilation 
system and exhaust shaft will handle the DOE inventory of transuranic 
waste of defense origin, including the plutonium material from the 
Savannah River Site.

    22. Senator Donnelly. The accident investigations that followed the 
February 2014 fire and radiological release accidents at WIPP reported 
122 judgements of need to DOE to address deficiencies in safety 
practices that contributed to the accidents. To what extent have DOE 
and its WIPP management and operations contractor completed corrective 
actions to address the judgments and evaluated the effectiveness of 
those actions?
    Dr. Regalbuto. There were over 300 corrective actions assigned to 
DOE and to Nuclear Waste Partnership, LLC (NWP), the WIPP M&O 
contractor, resulting from judgments of need identified in the Accident 
Investigation Board Reports on the fire and radiological release events 
at WIPP in 2014. As of the end of January, over 70 percent of these 
corrective actions have been completed, and are in the process of being 
validated and evaluated for effectiveness.

    23. Senator Donnelly. DOE has emphasized that safety will not be 
compromised in completing the recovery activities at WIPP. However, in 
October 2015, DOE released an assessment of WIPP's recovery operations 
by its independent oversight office that reported concerns with poor 
safety performance at WIPP and ineffective oversight of recovery 
efforts during the period May 2014 through May 2015.The independent 
review attributed the driver of the poor safety performance to schedule 
pressure to achieve the original March 2016 deadline for restarting 
operations. To what extent has DOE taken steps to improve safety 
practices and ensure effective oversight of WIPP since then?
    Dr. Regalbuto. EM and the Carlsbad Field Office appreciated the 
assistance of DOE Office of Enterprise Assessments (EA) in evaluating 
the safety and work performance conditions at WIPP. The Department and 
the WIPP contractor, Nuclear Waste Partnership, LLC, (NWP) take their 
findings very seriously. EA assessments provide independent reviews and 
advice that are an important part of the recovery process at WIPP.
    The referenced October 2015 EA Report evaluated mine safety, 
stabilization, and underground habitability during the period following 
the events. During that time period, many of the issues identified by 
EA field representatives were self-reported by DOE and/or the 
contractor, and have been, or are being, corrected as part of the 
activities required for resumption of waste emplacement. Safety remains 
the highest priority of DOE. We have made significant progress in 
addressing overall safety issues at the facility, including the worker 
health and safety and nuclear safety management issues identified by 
the EA program.
    DOE and NWP recognized that schedule pressure towards meeting a 
perceived deadline for restart was creating stress. In response, CBFO 
continually encourage employees to raise issues and safety concerns. 
Policy and processes have been initiated to reward individuals and work 
teams for pausing work activities to take appropriate corrective 
measures prior to resuming work to ensure those activities are safe. 
While there are milestones for completing the project, operations will 
only resume when it is safe to do so.

    24. Senator Donnelly. DOE is exploring construction of an above-
ground storage facility for temporary onsite storage of transuranic 
waste at WIPP. To what extent has DOE discussed the above-ground 
storage concept with the New Mexico environmental regulators 
responsible for permitting the storage facility? To what extent has DOE 
identified the cost and schedule estimates for completing the storage 
facility?
    Dr. Regalbuto. DOE has introduced the above-ground storage concept 
in early discussions with the New Mexico Environment Department and is 
currently evaluating the considerations, and developing the 
requirements, functionality, and path forward and the permit 
modification request necessary to establish this capability.
    DOE has not at this time determined cost and schedule estimates for 
this storage capability. DOE plans to pursue the above-ground storage 
facility as a General Plant Project.

    25. Senator Donnelly. Has DOE sought to reclaim damages from the 
contractors for their actions that contributed to the accidents at 
WIPP? What is DOE's estimate of the costs of these accidents? What is 
the total fee that has been withheld and fines imposed on the 
contractors as a result of the accidents?
    Dr. Regalbuto. EM has held NWP, the WIPP M&O contractor, 
accountable for performance under its contract. NWP collected less than 
approximately 7 percent of the $8.2 million in fee that was available 
for fiscal year (FY) 2014. The CBFO Contracting Officer also submitted 
multiple Contractor Performance Assessment Reports (CPAR) in fiscal 
year 2014 to ensure that the lapses in contractor performance that were 
related to the fire and radiological release incidents were made part 
of the contractor's permanent past performance record in the central 
federal past performance rating system. DOE and the National Nuclear 
Security Administration (NNSA) strongly weighted the events that 
contributed to the radiological release at WIPP when determining the 
award fee for the Los Alamos National Laboratory M&O contractor, Los 
Alamos National Security LLC (LANS) for fiscal year 2014; of a possible 
award fee of $63.4 million, LANS received $6.2 million. The $6.2 
million was earned by LANS for work performed for non-DOE agencies. In 
addition to withholding fee, NNSA also withheld two years of award term 
off the contract in fiscal year 2014. The NNSA is planning to re-
compete the Management and Operating contract for LANL.
    DOE estimates the cost for recovery and resumption of waste 
emplacement operations at approximately $244 million. This includes 
activities such as facility enhancements, revision of the Documented 
Safety Analysis, underground habitability and operations, facility 
upgrades, etc. This does not include the capital asset items that 
currently has an estimated cost range of $270 to $398 million. This 
also does not include activities that occur under WIPP's base 
operations. Of the $244 million total, $22.7 million was reallocated 
from base to recovery operations in fiscal year 2014, and $42.1 million 
in fiscal year 2015.
    As a result of the findings from the Accident Investigation Board 
(AIB) Reports on the fire and radiological release events, EM has held 
the contractors accountable for performance under those contracts. NWP 
collected less than 7 percent of the $8.2 million in total fee that was 
available for fiscal year 2014. DOE and the NNSA greatly reduced the 
award fee for the Los Alamos National Laboratory (LANL) contractor, Los 
Alamos National Security LLC (LANS) for fiscal year 2014. Of a possible 
award fee of $63.4 million, LANS received $6.2 million. The $6.2 
million was earned by LANS for work performed for non-DOE agencies.

    26. Senator Donnelly. The Plutonium Disposition Red Team Report 
from August 2015 assessed the options of disposing of 34 metric tons of 
weapons-grade plutonium, currently planned to be processed through 
DOE's Mixed Oxide Fuel Fabrication Facility. The Red Team found that 
DOE could implement the relatively simple dilute-and-dispose approach 
with reasonable confidence that the political and regulatory risks 
could be successfully managed. However, the Red Team noted that, 
according to DOE's WIPP inventory--divided between ``WIPP-bound'' 
quantities and ``potential'' quantities--the unsubscribed capacity at 
WIPP is approximately 19,000 cubic meters, but that significant 
uncertainty exists regarding this remaining capacity because it is 
derived from a potentially incomplete portrayal of future waste 
generating activities. The Red Team provided examples of future sources 
of TRU waste that are not yet shown in the WIPP inventory numbers, such 
as large-scale actinide processing facilities or a legacy facility that 
has not yet been transferred into EM's cleanup baseline that will 
eventually generate TRU waste during decommissioning and 
decontamination. Likewise, the U.S. will not cease all TRU waste 
generation once legacy TRU waste has been disposed of at WIPP and it is 
not clear that the lifecycle of newly-generated TRU waste from around 
the complex has been taken into account in the calculation of 
unsubscribed capacity at WIPP. In addition, while WIPP is only allowed 
to accept TRU waste originating from defense activities, DOE recently 
proposed to dispose of non-defense TRU waste at WIPP, which would add 
further volumes of TRU waste to the inventory of WIPP-bound material. 
To what extent has DOE taken into account the types of waste streams 
noted in the Red Team report--TRU waste that will be generated from 
facilities during D&D and newly-generated TRU waste--in calculating the 
unsubscribed capacity at WIPP? How much of this material exists across 
the DOE complex and has any of these quantities of waste has already 
been added to the WIPP inventory, either as WIPP-bound quantities or 
potential quantities.
    Dr. Regalbuto. The current unsubscribed capacity at WIPP is 23,652 
cubic meters (m\3\), after taking into account the reported volume of 
transuranic (TRU) waste disposed at WIPP and the volume of WIPP-bound 
TRU waste identified in the 2015 Annual Transuranic Waste Inventory 
Report. DOE has taken into account all TRU waste identified by the 
waste generators as complying with the following criteria, and hence 
determined to be WIPP-bound: (1) meets the Land Withdrawal Act 
definition of TRU waste; (2) resulting from atomic energy defense 
activities; (3) no regulatory restrictions (e.g., meets limits on dose 
rates, does not contain prohibited Resource Conservation and Recovery 
Act hazardous waste, etc.); and (4) complete data (e.g., contains 
adequately described radionuclide activities, final form container 
data, waste stream information, etc.). All TRU waste meeting these 
criteria have been included in the WIPP-bound inventory of waste (see 
part (b) for inventory discussion). If one or more of these criteria 
are not met, the waste is considered ``potential'' TRU waste (see part 
(b) for inventory discussion). Potential TRU waste will reduce the 
unsubscribed capacity, assuming all criteria are eventually met.
    On March 29, 2016, NNSA announced a decision to implement its 
preferred alternative for the disposition of 6 metric tons (MT) of 
surplus non-pit plutonium. When this waste is diluted and packaged to 
meet the WIPP waste acceptance criteria, the 6MT of surplus Plutonium 
from SRS is expected to take the form of approximately 20,000 55-gallon 
drums, which will occupy about 4,000 cubic meters. This volume would be 
counted against the unsubscribed capacity.
    Currently, the 2015 Annual Transuranic Waste Inventory Report 
identifies both WIPP-bound and potential quantities of TRU waste as 
follow below. It should be noted that this report is current as of data 
reported by generator sites as of December 31, 2014.

     1. 61,000 cubic meters of WIPP-bound TRU waste:
        a.  Hanford (21,900 m\3\)
        b.  Idaho National Laboratory (20,800 m\3\)
        c.  Los Alamos National Laboratory (6,210 m\3\)
        d.  Oak Ridge National Laboratory (1,630 m\3\)
        e.  Savannah River Site (8,250 m\3\)
        f.  Small Quantity Sites (2,160 m\3\)
     2. 7,596.1 m\3\ of ``potential'' TRU waste.

    27. Senator Donnelly. What statutory changes would be needed to 
dispose of non-defense origin TRU waste, and what are origins and 
estimated volumes of this waste from around the DOE complex?
    Dr. Regalbuto. A change to the Land Withdrawal Act would be 
necessary to accept transuranic waste that is not a result of atomic 
energy defense activities.
    Of the 7,596.1 m\3\ of ``potential'' TRU waste, some or all of 
those waste streams may have to go through a process to determine if it 
was generated from atomic energy defense activities (i.e., a defense 
determination). Future waste streams that may be included in the 
``potential'' TRU waste category would go through the defense 
determination process as the annual inventory process continues every 
year moving forward. Approximately 4,000 m\3\ of the potential TRU 
waste identified in Appendix B of the 2015 Annual Transuranic Waste 
Inventory Report is identified as not having a final defense 
determination. This includes primarily West Valley waste.

    28. Senator Donnelly. Related to ``potential'' TRU waste volumes, 
who is responsible for determining whether these potential wastes will 
become WIPP bound wastes, what is the process for making these 
determinations, and what is the specific schedule and end dates for 
making determinations for each of the ``potential'' volumes listed in 
the current inventory?
    Dr. Regalbuto. The transuranic (TRU) waste generator is responsible 
for determining if ``potential'' TRU waste meets the requirements for 
WIPP, and changing that waste to ``WIPP-bound'' waste, providing 
justification and documentation that the waste complies with the 
applicable criteria: (1) meets the Land Withdrawal Act definition of 
TRU waste; (2) resulting from atomic energy defense activities; (3) no 
regulatory restrictions (e.g., meets limits on dose rates, does not 
contain prohibited Resource Conservation and Recovery Act hazardous 
waste, etc.); and (4) complete data (e.g., contains adequately 
described radionuclide activities, final form container data, waste 
stream information, etc.). A determination is made in consultation with 
the waste generator site management, CBFO Manager, DOE's Office of 
Environmental Management, and the Office of the General Counsel, as 
appropriate. There is no defined schedule or end dates for making 
determinations for specific wastes listed in the potential TRU waste 
inventory. The schedules are dependent on waste generator sites' needs 
to disposition the wastes.
                          handford tank waste
    29. Senator Donnelly. The Waste Treatment and Immobilization Plant 
(WTP), intended to treat high level waste and part of the low-activity 
waste at the Hanford tank farms, has experienced cost and schedule 
overruns as well as ongoing technical and management challenges, and 
the resulting delays have resulted in ongoing legal activity between 
DOE and the state of Washington. While continuing construction of WTP's 
Low-Activity Waste Facility, DOE is working to resolve technical 
challenges associated with the High-Level Waste Facility and the 
Pretreatment Facility. Even when complete, the WTP as currently planned 
will only treat about 40 percent of the low-activity waste in the 
Hanford tanks. DOE has yet to make a final determination on the course 
of action to treat and dispose of the remaining low-activity waste, 
referred to as supplemental treatment. What is the status of DOE's 
acquisition of an owner's agent to assist in oversight of the WTP 
contractor?
    Dr. Regalbuto. DOE selected and has been utilizing Parsons 
Government Services, Inc. as the Owner's Representative to assist with 
the oversight of the Waste Treatment and Immobilization Plant Project 
(WTP).

    30. Senator Donnelly. How does DOE plan to proceed in determining a 
course of action for supplemental treatment?
    Dr. Regalbuto. DOE continues to evaluate supplemental treatment 
technologies to support WTP operations. These technologies span a broad 
spectrum of possibilities including process flow sheet enhancements, 
glass loading and future technology development programs. These 
programs are being developed in consort with National Labs, our tank 
operations contractor, and under on-going complex-wide technology 
initiatives with EM Headquarters.

    31. Senator Donnelly. DOE's proposal to modify the consent decree 
with Washington state adds 17 years to the WTP's schedule, for an 
estimated completion date of 2039. DOE annually receives about $690 for 
the WTP, meaning that at this annual funding level it will cost about 
$16 billion to complete the WTP. Is $16 billion a reasonable ``to go'' 
cost for the WTP, or can the committee expect a lower or higher number 
when the cost re-baseline is completed? If $16 billion is a reasonable 
``to go'' cost for the WTP, has DOE explored different waste treatment 
options that could lessen the costs? Other sites, both nationally and 
internationally, have been able to treat radioactive waste for less 
than $16 billion.
    Dr. Regalbuto. At this time it is too soon to provide an estimate 
of the total project cost of WTP due to a number of uncertainties and 
technical and programmatic issues surrounding the WTP Project, 
including resolution of technical issues with the Pretreatment and to a 
lesser extent, the High Level Waste facilities. Note that on March 11, 
2016, the United States District Court, Eastern District of Washington, 
issued an Amended Consent Decree between DOE and the States of 
Washington and Oregon regarding treatment of tank waste at Hanford.

    32. Senator Donnelly. The WTP contractor's earned value management 
system has been suspended for several years, meaning that DOE cannot 
use this standard tool to measure cost and schedule performance. During 
these years, there has been substantial cost growth and schedule 
delays. How is DOE measuring cost and schedule performance at the WTP?
    Dr. Regalbuto. EM has been using alternate Earned Value Management 
System tools to continue to measure the Waste Treatment and 
Immobilization Plant's cost and schedule performance for the near-term 
work that has been scheduled.
    This provides us with comparable performance measurement for 
scheduled work, but cannot provide the estimates to complete the 
project.

    33. Senator Donnelly. Both GAO and the DOE IG have recently 
reported on the failure of the WTP contractor's corrective management 
program to ensure that technical, quality, and management issues are 
appropriately addressed and resolved in a timely manner. How can DOE be 
assured that the contractor will be able to address the serious 
technical and quality issues with WTP's three major processing 
facilities that have, in some cases, remained unresolved for at least a 
decade?
    Dr. Regalbuto. EM's Office of River Protection directed Bechtel to 
develop corrective action plans for each of two Priority Level 1 
findings, and an integrated comprehensive Managed Improvement Plan 
(MIP) to address all systemic quality assurance program and 
implementation issues.
    EM staff have and will continue to monitor Bechtel's actions to 
implement both the Priority Level 1 finding corrective action plans and 
the MIP. Assessment reports have been and will continue to be issued 
documenting implementation of the Priority Level 1 finding corrective 
action plans.
                     risk-informed decision-making
    34. Senator Donnelly. The recent CRESP report, commissioned by DOE 
under direction from the Consolidated Appropriations Act of 2014, found 
that DOE has been slow to implement industry-standard quantitative 
methods, such as probabilistic risk assessment (PRA), to characterize 
nuclear safety risk and support risk-informed decision-making. fiscal 
year 2013 NDAA Section 3161 directed increased used of probabilistic or 
quantitative risk assessment. This CRESP report also noted that site-
to-site cleanup efforts are inconsistent, with risks at some sites 
being addressed through remedies significantly more costly, but with 
potentially little additional reduction in risk, than those used at 
other sites. What are DOE's plans, if any, to respond to the 
recommendations contained in this report? What factors does DOE 
consider when prioritizing cleanup activities across its sites?
    Dr. Regalbuto. EM continues to pursue its cleanup objectives safely 
within a framework of regulatory compliance commitments and best 
business practices. The rationale for cleanup prioritization is based 
on achieving the highest risk reduction per radioactive content 
(activities focused on wastes that contain the highest concentrations 
of radionuclides and sites with the highest radionuclide 
contamination). EM has used probabilistic risk assessments for a number 
of cleanup projects across the complex. Taking many variables into 
account, EM has generally prioritized its cleanup activities as 
follows:

    <bullet>  Activities to maintain a safe, secure, and compliant 
posture in the EM complex
    <bullet>  Radioactive tank waste stabilization, treatment, and 
disposition
    <bullet>  Spent (used) nuclear fuel receipt and storage
    <bullet>  Special nuclear material consolidation, stabilization, 
and disposition
    <bullet>  Transuranic and mixed/low-level waste disposition
    <bullet>  Soil and groundwater remediation
    <bullet>  Excess facilities deactivation and decommissioning.

    Most importantly, EM continues to discharge its responsibilities by 
conducting cleanup within a ``Safety First'' culture that integrates 
environmental, safety, and health requirements and controls into all 
work activities. This ensures protection for the workers, public, and 
the environment.

    35. Senator Donnelly. What are the primary drivers behind DOE's 
decisions to select its cleanup approaches at different sites? To what 
extent are EM's annual and long-term cleanup decisions driven by 
reducing environmental risks in the most cost effective manner?
    Dr. Regalbuto. EM must pursue its cleanup objectives safely within 
a framework of regulatory compliance commitments and best business 
practices.
    The rationale for cleanup prioritization is based on achieving the 
highest risk reduction benefit per radioactive content (activities 
focused on wastes that contain the highest concentrations of 
radionuclides and sites with the highest radionuclide contamination) 
while meeting regulatory compliance commitments.

    36. Senator Donnelly. What are DOE's plans to improve the use of 
probabilistic risk assessment techniques for environmental cleanup 
planning? How does DOE's long-term cleanup strategy account for the 
various uncertainties that cleanup activities sometimes encounter, and 
how does EM incorporate new scientific information which may suggest 
alternative approaches?
    Dr. Regalbuto. DOE has taken steps to integrate Probabilistic Risk 
Assessments (PRAs) into its decision-making. From a nuclear safety 
perspective, the Department issued DOE-STD1628-2013, ``Development of 
Probabilistic Risk Assessments for Nuclear Safety Applications,'' in 
November 2013. EM will continue to investigate ways PRAs and risk-
informed decision-making can be further integrated into decision-making 
and identify potential benefits such integration may provide. It is 
worth noting that while PRAs may find routine application at commercial 
facilities, their applicability in the waste-management/cleanup context 
is less than straightforward given the unique characteristics of the 
waste and diverse conditions in which EM operates.
    EM recognizes and understands that uncertainties exist in all 
facets of its cleanup--soil and groundwater, deactivation and 
decommissioning and waste treatment and disposal. The sequential 
critical decision process used by EM is based on moving through a 
number of steps aimed at reducing uncertainties--from conceptual to 
final designs for each project. Within each of these steps, uncertainty 
is reduced and cost estimates and plans mature. In addition, EM employs 
conservative assumptions and contingencies based on experience and 
modeling of known cleanup and waste management challenges.
    EM is committed to new scientific information and technologies that 
may help accelerate cleanup schedules. The EM technology development 
and deployment program funds innovative technologies that help identify 
new ways to accelerate cleanup at reduced costs and improved safety. 
Technology readiness assessments, independent project reviews, and 
external independent reviews are devices employed by DOE to integrate 
new scientific information and technologies into EM's operations in a 
way that is effective, cost efficient, and safe for workers, the public 
and the environment.
                   separate defense waste repository
    37. Senator Donnelly. The Nuclear Waste Policy Act (NWPA) of 1982 
directed DOE to work to identify sites for a repository for high-level 
waste and spent nuclear fuel. In 1985, President Reagan made a 
determination that a separate defense waste repository is not needed, 
resulting in DOE work on a single repository to receive both commercial 
spent fuel and defense-origin waste, resulting in the NWPA being 
amended to identify Yucca Mountain as the site of the common 
repository, to be paid for by a mix of industry and federal defense 
spending. However, in 2015 President Obama found that a separate 
repository for defense waste is required, and DOE intends to pursue two 
repositories--one of which, a defense high level waste (HLW) 
repository, would be fully funded by defense appropriations. Did DOE's 
Office of Nuclear Energy (NE) consult with NNSA and the Navy regarding 
its new plan to separately dispose of defense high-level radioactive 
waste, particularly regarding whether the plan would meet disposal 
plans for defense HLW or Navy SNF?
    General Klotz and Dr. Regalbuto. Yes, the Office of Nuclear Energy 
held discussions with the Office of Naval Reactors prior to completion 
of the October 2014 report, entitled Assessment of Disposal Options for 
DOE-Managed High-Level Radioactive Waste and Spent Nuclear Fuel, and 
more broadly with the National Nuclear Security Administration prior to 
the March 2015 finding by the President related to high-level 
radioactive waste from atomic energy defense activities.

    38. Senator Donnelly. Have you had discussions with Colorado, 
Idaho, South Carolina, or Washington regarding DOE's plans to 
separately dispose of defense HLW? What is their reaction to the plan 
and what effects do they think the plan will have on defense clean up 
milestones and costs?
    Dr. Regalbuto. Following publication of the October 2014 report 
entitled Assessment of Disposal Options for DOE-Managed High-Level 
Radioactive Waste and Spent Nuclear Fuel, the Department sought comment 
and reaction from a broad range of state and local government 
officials, industry representatives, environmental organizations, and 
other stakeholder groups. The feedback collected in response to the 
Assessment informed the March 2015 Report on Separate Disposal of 
Defense High-Level Radioactive Waste and the President's finding that a 
defense high-level radioactive waste repository is required. Section 8 
of the Nuclear Waste Policy Act allows the Secretary of Energy to 
develop a defense high-level waste repository using existing authority 
under the Atomic Energy Act if the President finds that a defense high-
level waste repository is required. In March 2015, the President 
accepted a recommendation of the Secretary of Energy to go forward on 
this path, which allows the Department to develop a defense-only 
repository.
    In fiscal year 2016 and fiscal year 2017, along with developing a 
consent-based siting process, the Office of Nuclear Energy is 
performing planning activities to evaluate a defense high-level 
radioactive waste repository, including organizing information on waste 
forms and repository concepts, identifying and completing reference 
cases for selected geologic media, and assessing the feasibility of 
engineered barrier system concepts in select geologic media.

    39. Senator Donnelly. DOE concluded this approach would cost more 
than a single repository, yet stated in its March 2015 report that cost 
efficiency favors develop of a defense waste repository. Please explain 
why a more expensive option is cost efficient--why pursue a two 
repository approach when DOE has stated this approach will cost 
billions more?
    Dr. Regalbuto. The cost for disposal of radioactive waste in a 
geologic repository is influenced by numerous variables including the 
geologic medium, the quantity of waste, the emplacement method and 
configuration, how heat-dissipation is managed, and the depth of the 
repository. Since we are in the early stages of planning and evaluating 
alternatives for this concept, definitive plans and risk analyses have 
not yet been finalized.
    A defense waste repository could be less expensive and easier to 
design and build than a comparably sized repository for commercial 
spent fuel. The defense waste inventory is colder, easier to handle, 
finite, and suitable for disposal in various geologies. Depending on 
the geologic media selected, there is a significant range of estimated 
costs. Life cycle cost efficiencies could potentially result from 
accelerating site closure by removing radioactive waste that currently 
has no disposition path and avoiding the cost to build additional 
storage facilities. Moreover, a defense waste repository would provide 
experience in repository design, siting, development, and operation 
that may reduce the cost of developing future repositories.

    40. Senator Donnelly. What is known about the costs and 
uncertainties of DOE's plans for a defense waste repository and how do 
they compare to alternatives? What are the key factors that could 
affect cost and schedule? When will the Department produce an estimate 
that includes a full range of costs--including storage, transportation, 
siting, and other tasks--for disposing of defense nuclear waste under 
this approach?
    Dr. Regalbuto. As the DOE moves forward, cost efficiency will 
continue to be examined to ensure that resources are being spent in the 
most effective way. Since we are in the early stages of planning and 
evaluating alternatives for this concept, definitive plans and risk 
analyses have not yet been finalized. As we go forward with the 
planning for a defense repository, more precise cost estimates will be 
developed. The cost for disposal of radioactive waste in a geologic 
repository is influenced by numerous variables including the geologic 
medium, the quantity of waste, the emplacement method and 
configuration, how heat-dissipation is managed, and the depth of the 
repository.
    Another uncertainty for locating any repository is achieving local 
and state consent to host the site. DOE has initiated developing a 
consent-based process that builds a partnership with interested host 
communities. This process will apply to interim storage facilities, as 
well as a repository for defense radioactive waste and a common 
repository, and possible deep borehole disposal.
    We are committed to keeping the Committee informed as we move 
forward.

    41. Senator Donnelly. In its publicly released report on its plan 
to separately dispose of defense HLW, DOE stated that two repositories 
will be more expensive than one. DOE has also stated that it plans to 
pursue both its repositories at the same time, as well as develop 
centralized interim storage facilities and borehole disposal R&D. Do 
you have any concerns regarding sufficient budgetary resources or DOE's 
human resources to pursue defense cleanup and defense repository 
activities simultaneously? Do you have concerns regarding human 
resources or the will of the American people to support defense clean 
up and the various facets of DOE's disposal plans? Are there any long-
term implications that we need to consider now before DOE embarks on 
its ambitious disposal effort?
    General Klotz. and Dr. Regalbuto. As we move forward, cost 
efficiency will continue to be examined to ensure that resources are 
being spent in the most effective way. We believe that a key element 
for success is to build a partnership with interested host communities. 
DOE envisions developing a consent-based process that builds a 
partnership with interested host communities. DOE recently began its 
consent based siting efforts to gather public input on how to design a 
process that results in consent. This process will apply to interim 
storage facilities, as well as a repository for defense radioactive 
waste and a common repository.

    42. Senator Donnelly. Over successive administrations, the 
Department has had great difficulty in selecting a site for the 
permanent disposal of nuclear waste. Has DOE developed firm plans for 
how it will proceed with consent-based siting? Other countries' 
consent-based siting approaches have taken about 35 years, on average, 
to select a site. Does DOE anticipate a similar length of time for 
siting its defense and commercial repositories? How is this complicated 
by the need to provide siting for two repositories?
    Dr. Regalbuto. DOE recently launched its efforts to establish a 
consent-based siting process that is built on collaboration with the 
public, stakeholders, and government entities at the local, state, and 
tribal levels. DOE believes that a key element for a durable solution 
is to build a partnership with interested, informed, and willing host 
communities. The first phase of this effort involves engaging with the 
public and interested groups to learn what elements are important to 
consider when designing a consent-based siting process. The next phase 
will focus on creating a consent-based siting process to serve as a 
framework for collaborating with potentially interested host 
communities. Finally, DOE will use the resulting consent-based process 
to work closely with interested, informed, and willing communities and 
ultimately site disposal facilities.
    This process will apply to interim storage facilities, as well as a 
repository for defense radioactive waste and a common repository, and 
possible deep borehole disposal.
    In December 2015, DOE published an Invitation for Public Comment in 
the Federal Register to solicit input on important considerations in 
designing a fair and effective process for siting. In 2016, a series of 
public meetings will be hosted by DOE around the country to hear from 
the public and stakeholders on important principles, values, and 
considerations that should guide the development of a consent-based 
siting process.
                         plutonium disposition
    43. Senator Donnelly. The Conference Report for the fiscal year 
2016 NDAA specified that NNSA prepare an analysis of the downblending 
option that includes the answers to several questions, including (1) 
what is the overall lifecycle cost of the downblending option? (2) to 
what extent would WIPP accommodate the downblended material from the 34 
metric tons that was destined for the MOX facility? (3) would the Land 
Withdrawal Act need to be amended to accommodate this additional 
volume? What is the status of completing this analysis and when does 
the department plan to send the results to the committee?
    Dr. Regalbuto. DOE is preparing a Report in response to the Joint 
Explanatory Statement accompanying S. 1356, the National Defense 
Authorization Act for fiscal year 2016 that will address these 
questions and is planned to be submitted in late fiscal year 2016.
         management of doe's office of environmental management
    44. Senator Donnelly. DOE's Office of Environmental Management (EM) 
manages the cleanup work that is critical to the nuclear security 
enterprise and is responsible for $6.2 billion of the $29.6 billion the 
Department received in fiscal year 2016. However, despite playing such 
an important role, EM's top official is an Assistant Secretary while 
other offices that manage a similar level of funding and 
responsibility, such as the Office of Science ($5.3 billion), are led 
by an Under Secretary. DOE has struggled to find the proper place 
within its management hierarchy for EM, moving it under the Under 
Secretary for Nuclear Security in 2011 and moving it yet again only two 
years later under the newly created Under Secretary for Management and 
Performance. Given the significance of EM's role and the amount of 
money involved in EM's environmental liability of at least $240 
billion, does DOE have the right/necessary structure to support the 
environmental liability cleanup efforts? In addition, would you provide 
to the committee any examples of how the Under Secretary for Management 
and Performance has interacted with EM to improve EM's Management and 
Performance?
    Dr. Regalbuto. Yes, DOE feels that placing EM under the purview of 
the Under Secretary for Management and Performance is the appropriate 
structure because it combines, under one organization, DOE's strongest 
project management capabilities, resident in the Office of Project 
Management Oversight and Assessments (PM), directly to bear on EM's 
project management challenges.
    The Secretary's project management reforms have repositioned the 
project review function that EM previously performed through its Office 
of Project Assessments and folded that function into PM. This structure 
assures the independence of the review teams. The project management 
executive for projects $400 million to $750 million is the Deputy Under 
Secretary for Management and Performance and the project management 
executive for projects over $750 million is the Deputy Secretary.
    Also, the fiscal year 2017 Budget proposes to establish a 
statutory, DOE-wide Office of Cost Estimating and Program Evaluation 
(CEPE-DOE) in recognition of a gap in DOE's capacity to independently 
determine accurate costs of programs and acquisitions within DOE.
    This proposal advances the Secretary's ongoing efforts to improve 
DOE project management, a key component of which is to adopt best 
practices equivalent to those implemented by the Department of Defense.
    CEPE-DOE will provide independent analytic advice on all aspects of 
DOE programs, including cost-effectiveness, and the development and 
evaluation of program alternatives. CEPE-DOE will develop cost 
estimating policy and practices, provide timely and unbiased analysis 
and perform independent cost estimation for the Department. CEPE-DOE 
will ensure that the DOE's cost estimation and cost analysis processes 
provide accurate information and realistic estimates of cost for DOE's 
programs and acquisitions.
    This new function would report to the Office of the Secretary to 
ensure consistent policy, procedures and practices across DOE, 
formalize program management practices for cost estimation and review 
to improve outcomes, accountability and efficiency.
    The Under Secretary for Management and Performance has served a key 
role in:

    <bullet>  Developing and implementing the resumption of waste 
emplacement operations at WIPP; and
    <bullet>  Strengthening the project review and assessment function, 
which brings greater focus and discipline to the major projects in the 
EM program, including the WTP project at Hanford, the Salt Waste 
Processing Facility project at Savannah River, as well as numerous 
smaller cleanup projects across the complex.

    The Office of the Under Secretary for Management and Performance, 
as a member of DOE senior cross-departmental boards, councils and 
committees represents the interests of EM in the development of DOE 
policy on cyber security, physical security and employee engagement, as 
well as on the Energy Systems Acquisition Advisory Board (ESAAB), Cyber 
Council and other such bodies.

    45. Senator Donnelly. My understanding is that the Office of 
Environmental Management working with Urenco's Louisiana Enrichment 
Services facility to re-enrich tails in order to support continued 
clean-up at the Portsmouth, Ohio Gaseous Diffusion Plant. Does the 
Department intend to continue this arrangement in order to re-enrich 
the Department's depleted uranium inventory? Are you aware of any other 
cost-effective alternatives beyond this operational facility?
    Dr. Regalbuto. Currently, DOE has no agreement with URENCO to re-
enrich the Department's depleted uranium inventory, or to do so to 
support clean-up at the Portsmouth Gaseous Diffusion Plant.
    No, URENCO's Louisiana Enrichment Services facility is the only 
operating enrichment plant in the United States.
                               __________
             Questions Submitted by Senator Martin Heinrich
                   transition of lanl's em management
    46. Senator Heinrich. Regarding EM's cleanup effort at Los Alamos 
National Lab, I continue to have concerns about the upcoming transition 
in program management to a new contractor(s) and the potential impacts 
on the community and local small businesses. I am pleased EM's bridge 
contract incorporated all of LANS's required community support and 
subcontracting incentives. As EM prepares an RFP for management of the 
cleanup at Los Alamos, can I be assured that both the regional and 
community support and the Regional Purchasing programs from LANS's 
contract will continue to be required in the RFP for the new 
contract(s)?
    Dr. Regalbuto. The RFP will focus on accomplishing the 
Environmental Management (EM) program's mission to protect human health 
and the environment. The RFP will address other policy objectives as 
required and to the extent that they ensure the program is executed in 
a safe and cost-effective manner.
              laboratory-directed research and development
    47. Senator Heinrich. The recent report of the Commission on the 
Effectiveness of the National Energy Laboratories (CRENEL) recommended 
that Congress restore the cap on LDRD to 6 percent unburdened, or its 
equivalent, noting that this will have the largest impact on LDRD at 
the NNSA laboratories. The recently-enacted fiscal year 2016 National 
Defense Authorization Act increased funding for LDRD with a minimum 
rate of 5 percent and a maximum of 7 percent of the NNSA laboratories' 
operating budgets, which DOE noted is a level more consistent with 
historic NNSA levels. What is NNSA's plan for implementing the new 7 
percent maximum set aside for LDRD at the NNSA labs?
    General Klotz. Currently there is conflicting guidance between the 
fiscal year 2016 National Defense Authorization Act and the fiscal year 
2015 Consolidated Appropriations Act which limits the maximum 
Laboratory Directed Research and Development (LDRD) rate to 6 percent. 
The DOE General Counsel in coordination with the NNSA General Counsel 
is still examining the conflicting provisions. Once that is resolved, 
NNSA will work to implement the resulting program.
      revised life cycle baseline and budget plan for lanl cleanup
    48. Senator Heinrich. I continue to hear concerns over the lack of 
progress of cleanup at Los Alamos. I note your written testimony today 
lists EM's recent accomplishments, but none at Los Alamos. The local 
community is also concerned that the budget request for fiscal year 
2017 for LANL is inadequate and requests $66 million in additional 
funding above EM's budget request to make significant headway on all 
cleanup activities, including characterizing sites. In addition, I 
understand a revised Life Cycle Baseline for cleanup at Los Alamos 
still has not been approved. The revised baseline is needed to guide 
near-term planning for cleanup activities and future budget requests. 
What is the current status and timeline for the new Life Cycle Baseline 
to be approved?
    Dr. Regalbuto. Addressing the legacy contamination and wastes at 
Los Alamos National Laboratory is among EM's high priority activities. 
As you know, the New Mexico Environment Department recently released a 
Draft Consent Order for public comment. Once the Consent Order 
revisions are completed, we will update the life cycle cost estimate 
accordingly.
            the technology transfer mission of the nnsa labs
    49. Senator Heinrich. I continue to be a champion of efforts to 
improve technology transfer from the NNSA labs as an engine for local 
economic development and to ensure taxpayers get the full benefit of 
the extraordinary innovations in technology being developed with 
federal funding. The Commission to Review the Effectiveness of the 
National Energy Laboratories released its final report last October. 
One of the commission's recommendations is that all DOE programs and 
laboratories fully embrace the technology transition mission and 
continue improving the speed and effectiveness of collaborations with 
the private sector. Do you agree that technology transfer is part of 
the overall mission of NNSA's National Laboratories?
    General Klotz. Yes. NNSA's primary mission is national security, 
but technology commercialization and transfer is a vital mission 
activity that improves the overall strength and capabilities of the 
laboratories, plants and sites, as well as NNSA as a whole.

    50. Senator Heinrich. How do you suggest NNSA and the labs address 
the difficulties small business have in engaging with the labs to 
commercialize innovative technologies?
    General Klotz. NNSA's Strategic Partnerships Program is developing 
initiatives to facilitate engagement with partners, including small 
businesses. Examples of these engagements include the entrepreneurial 
leave and technologist-in-residence programs which allow laboratory 
personnel to exchange with industry or leave the lab for a period to 
support an existing business or ``spin off'' their own small business.
    In some cases, states that host the labs have programs in 
conjunction with the labs to support small businesses directly. An 
example is the New Mexico Small Business Assistance (NMSBA) Program, 
which grants access to the unique expertise and capabilities of Los 
Alamos and Sandia National Laboratories free of charge to small 
businesses that are facing technical challenges.

    51. Senator Heinrich. With new M&O contracts coming up soon for 
both Sandia and Los Alamos, what are your thoughts on incorporating 
technology transfer as an explicit mission of the labs and including it 
as an evaluation factor in each lab's annual performance evaluation?
    General Klotz. Technology transfer is, and will continue to be, a 
mission activity of all NNSA laboratories. Similarly, technology 
transfer has long been a part of each laboratory's annual performance 
evaluation. NNSA M&O contractors' ability to establish industrial 
partnerships that transfer new technologies from the laboratory to 
private industry and make the laboratory's unique capabilities 
available to private industry, enhance the laboratory's ability to meet 
mission requirements and improve the industrial competitiveness and 
national security of the United States.
                         microlab pilot program
    52. Senator Heinrich. Section 3120 of the NDAA for fiscal year 2016 
established a microlab pilot program to help stimulate open 
collaboration with the NNSA labs and the commercialization of lab-
developed technologies. I am pleased Sandia National Laboratories has 
proposed a new Center for Collaboration and Commercialization (C3) in 
Albuquerque, in part to meet the goals of section 3120. Is NNSA 
supportive of the C3 and what is the current status and timeline for 
the project?
    General Klotz. NNSA supports commercialization and technology 
transfer efforts and recognizes that technology commercialization and 
transfer is a vital mission activity that improves the overall strength 
and capabilities of the laboratories, plants, and sites, as well as 
NNSA as a whole.
    However, NNSA's national security mission demands a stringent 
security posture that can at times be challenging to those efforts. 
NNSA is working to establish more direct and agile interaction 
pathways, including through ``commercialization campuses.''
    NNSA has been proceeding with the Livermore Valley Open Campus in 
support of Lawrence Livermore and Sandia National Laboratories. NNSA 
intends to employ the lessons learned and best practices while working 
through the required process of mission need and analysis of 
alternatives for a similar effort (the Center for Collaboration and 
Commercialization, or ``C3'') at Sandia National Laboratories. It is 
anticipated that the process could take 6 to 12 months.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Inhofe, Sessions, 
Fischer, Sullivan, Lee, Manchin, Donnelly, King, and Heinrich.

           OPENING STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. The committee will come to order.
    Senator Donnelly is on the way and will be here in a few 
minutes, but I will go ahead and start with some of my opening 
comments. I do not think there will be anything particularly 
controversial.
    The Strategic Forces Subcommittee meets today to receive 
testimony on ballistic missile defense policies and programs in 
review of the defense authorization request--there he is--for 
fiscal year 2017 and the future years defense program.
    We are joined today by Mr. Brian McKeon, Principal Deputy 
Under Secretary of Defense for Policy, to provide the policy 
and strategy foundation for our missile defense programs.
    As Commander of U.S. Northern Command, Admiral William 
Gortney is the principal military officer responsible for 
conducting the defense of the Homeland against ballistic 
missile strikes and has done a good job in that, Admiral. Thank 
you for your service. I do not know. Maybe you can tell us if 
you are going to be leaving us, but we appreciate your service. 
It has been tremendous for the United States of America.
    Vice Admiral James Syring has been the Director of the 
Missile Defense Agency [MDA] for the past two and one-half 
years and has done a remarkable job improving the reliability 
and effectiveness of our Homeland and regional missile defense 
systems.
    Finally, we are joined by Lieutenant General David Mann, 
the Commanding General of the U.S. Army Space and Missile 
Defense Command and the head of the Strategic Command's Joint 
Functional Component Command for Integrated Missile Defense.
    Today the United States and its deployed forces enjoy a 
good measure of protection against ballistic missiles of all 
ranges. However, the Army and Navy Service Chiefs warned in 
2014 in a letter to the Secretary of Defense that, quote, the 
growing challenges associated with ballistic missile threats 
that are increasingly capable continue to outpace our Active 
defense systems and exceed our Services' capacity to meet 
combatant commanders' demand. Close quote.
    Likewise, Mr. McKeon, you told Congress that, quote, as 
North Korea and potentially Iran makes progress on ICBM 
[intercontinental ballistic missile] class missile 
technologies, we must be prepared to address new, more complex 
threats in the next decade. Close quote.
    In other words, despite considerable progress, there is 
still more to do with respect to both Homeland and regional 
missile defense systems. Yet, while the military need for 
missile defense continues to increase, funding for the Missile 
Defense Agency has been on the decline and is projected under 
this budget request to decline further over the next five 
years.
    In fiscal year 2008, MDA funding was $8.8 billion. I 
believe that is reflected in this chart here that is up with 
the jagged green line. We were at $8.8 billion, whereas in 
fiscal year 2017, the request for MDA is $7.5 billion. All 
told, MDA funding has declined 14 percent over the past ten 
years. I believe that is in constant dollars not inflation-
adjusted dollars.
    Let us see the next chart. This I think gives a visual, 
colleagues, if you see it there, of the fact that we are seeing 
a real reduction.
    The next chart, please. The share of MDA funding going to 
research and development has decreased by 28 percent from 
fiscal year 2008 through 2016, with a rising share of the 
funding devoted to procurement and operations and support. This 
means there is less funding available for advanced research.
    Colleagues, if you all would look at this chart. I think 
you may have a copy. If you would pull it out, I think it is 
worth taking the time to take a look at it.
    What we are seeing is not only has the budget declined 14 
percent, but the blue, yellow, and red represent funding items 
that MDA is now paying for they did not used to pay for. In 
2008, their entire budget virtually was research, development, 
test, and evaluation. You can see the erosion of MDA's research 
and development budget is more significant than I had realized, 
frankly. I would note I am not prepared to criticize, Secretary 
McKeon, the fact that MDA is now doing procurement and other 
things. It might be good. However, it seems to be coming 
straight out of their research budget, which I think is 
something we need to be aware of as we go forward.
    The future years request continues the overall trend of 
reducing both MDA funding and the research and development 
[R&D] share of that funding. MDA top line for the year 2021 is 
8 percent below the fiscal year 2016, another 8 percent drop, 
and the R&D share of that funding declines to under 70 percent 
for the first time.
    I hope to explore with the witnesses the implication of 
these trends and what they mean for addressing ballistic 
missile threats in the next decade and beyond. Without 
sufficient funding for the advanced technologies and new 
approaches to missile defense, I am afraid the United States 
may not stay ahead ballistic missile threats, at least not in a 
cost-effective manner, which in this budget environment is 
certainly critical.
    In any event, these are issues that the next administration 
will have to address in its review of ballistic missile defense 
policy and funding.
    I turn to Ranking Member Donnelly for his remarks. Thank 
you, Senator Donnelly, for your good work on this committee and 
the interest and extra time you have taken to stay on top of 
the many issues we deal with.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman. I want to thank 
Senator Sessions for holding this hearing.
    Let me also thank today's witnesses for testifying. We very 
much appreciate your time and the work you do in the service of 
our Nation.
    Protecting our country, our forward-deployed troops, and 
our allies around the world is of the utmost importance. I 
spent a week in the Middle East last month visiting Israel, the 
UAE, Bahrain, Iraq, and Spain to discuss the threat posed by 
Iran's ballistic missile program and to review United States 
and allied missile defense systems in the region. In light of 
the provocative behavior we have seen from both Iran and North 
Korea in the past six months, I believe our investments in this 
area are as important today as they have ever been.
    I am pleased at the improvements we are making in the 
reliability and effectiveness of our missile defense systems. I 
credit that in large part to both the bipartisan support in 
Congress for robust missile defense funding and MDA's committed 
ability to prioritize investments where they are most needed.
    That needs to continue. We need investment in things like 
the redesigned kill vehicle and improved sensor and 
discrimination capabilities to improve the ability of our 
systems to defeat incoming threats. While we must proceed with 
urgency, we have to learn from the mistakes of the past and be 
sure we are conducting smart simulation and testing on these 
systems before we commit to buying and fielding new 
technologies.
    If there is one message that I carried back with me from 
the Middle East last month, it is that while we continue to 
improve our Homeland defense systems, we cannot take our eye 
off the ball when it comes to protecting our deployed troops 
and reassuring our allies and partners overseas. Our Aegis 
ships and THAAD [Terminal High Altitude Area Defense] and 
Patriot batteries are in high demand from our combatant 
commanders and our allies. We need to consider how best to 
allocate these systems and effectively train the warfighters 
who will operate them to provide the protection that is needed 
in today's budget constrained environment. The critical part of 
that calculus will be how to best build the capabilities and 
capacity of our allies, particularly Israel, and maximize the 
integration and interoperability of our missile defenses with 
partner nation forces.
    Again, thanks for coming today, and we look forward to this 
dialogue.
    Senator Sessions. Very good.
    Secretary McKeon, if you have a statement and your 
colleagues, we would be prepared to hear them at this time.

STATEMENT OF HONORABLE BRIAN P. McKEON, PRINCIPAL DEPUTY UNDER 
     SECRETARY OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Mr. McKeon. Thank you very much, Mr. Chairman, Senator 
Donnelly, and other members of the subcommittee. I appreciate 
this opportunity to testify on the fiscal year 2017 budget 
request for missile defense and the Department's continuing 
efforts to sustain and modernize our Homeland missile defense 
capabilities.
    Let me begin by briefly discussing two key threats that are 
driving our investments. My longer statement for the record 
includes a description of the trends such as a return to great 
power competition with Russia and China that are more broadly 
driving the focus of our planning and budgeting.
    North Korea's weapons and missile programs pose a growing 
threat to the United States and to our allies in East Asia. 
North Korea is seeking to develop longer-range ballistic 
missiles capable of delivering nuclear weapons to the United 
States and continues its efforts to bring its KN08 road-mobile 
ICBM to operational capacity. Although the reliability of an 
untested North Korean ICBM is likely to be very low, North 
Korea has used its Taepo-Dong-2 launch vehicle to put a 
satellite into orbit, thus demonstrating technologies 
applicable to a long-range missile.
    Iran has the largest inventory of ballistic missiles in the 
Middle East and today can potentially reach targets throughout 
the region and into southeastern Europe. Iran is seeking to 
enhance the lethality and the effectiveness of existing systems 
with improvements in accuracy and warhead designs. Iran also 
has an anti-ship ballistic missile that can potentially 
threaten maritime activity in the Persian Gulf and the Strait 
of Hormuz. Although we judge that Iran does not yet possess an 
ICBM, its progress on space launch vehicles provides Iran with 
the potential means and potential motivation to develop longer-
range missiles, including an ICBM.
    Currently the United States Homeland is protected against 
potential ICBM attacks from states like North Korea and Iran, 
were either to develop an ICBM that could reach the United 
States. To ensure that we stay ahead of the threat, we are 
continuing to strengthen our Homeland defense posture and 
invest in technologies to enable us to address emerging threats 
more effectively over the next decade.
    Our 2017 budget request also continues to deploy missile 
defenses that are tailored to the security circumstances in 
Europe, the Middle East, and the Asia-Pacific region. We are 
continuing to implement the European phased adaptive approach, 
and we have reached technical capability of phase II, which 
includes the Aegis Ashore site in Romania last December. Our 
focus is on developing and fielding missile defense 
capabilities that are mobile and relocatable, which allows us 
to address crises as they emerge. Systems such as Patriot, 
THAAD, and our Aegis Ballistic Missile Defense [BMD] ships 
allow us to have flexible layered missile defense capabilities.
    Additionally, we are seeking to invest in our cruise 
missile defense architecture, especially as it relates to the 
National Capital Region.
    Given the threat facing the United States Homeland, we 
require persistent surveillance and detection of cruise 
missiles. To that end, we are working with the North American 
Aerospace Defense Command headed by Admiral Gortney and others 
to identify technologies that give us this persistent 
surveillance and detection.
    We are also working closely with our Canadian partners to 
examine future technologies to cover the northern approaches.
    Thank you very much for having us, and we appreciate and 
urge your support for our President's budget.
    [The prepared statement of Mr. McKeon follows:]

               Prepared Statement by Mr. Brian P. McKeon
    Chairman Sessions, Ranking Member Donnelly, members of the 
Subcommittee, thank you for the opportunity to testify on the fiscal 
year (FY) 2017 budget request for ballistic missile defense and the 
Defense Department's continuing efforts to sustain and modernize our 
Homeland missile defense capability so that we remain ahead of the 
threat while providing effective, integrated, and interoperable 
regional ballistic missile defense (BMD) capability. I am grateful for 
your consistent attention to, and continuing support of, the critical 
mission of defending the Homeland, our allies and partners, and our 
deployed forces from a growing ballistic missile threat.
    I will begin with a discussion of ballistic missile threats and 
trends, and then focus on several key policy priorities: defending the 
United States against limited long-range ballistic missile attacks, 
strengthening defense against regional missile threats, fostering 
defense cooperation with allies and partners, and examining how to 
advance the missile defense technology base in a cost-effective manner. 
I will also briefly address issues associated with other non-BMD tools 
the Department is examining to assist in the broader effort to defeat 
ballistic missiles.
                       ballistic missile threats
    Ballistic missiles continue to pose a significant security 
challenge as nations pursue efforts to make them more survivable, 
reliable, mobile, and accurate at greater ranges.
North Korea
    North Korea's weapons and missile programs pose a growing threat to 
the United States and to our allies in East Asia. North Korea has 
conducted four nuclear tests. It is also seeking to develop longer-
range ballistic missiles capable of delivering nuclear weapons to the 
United States, and continues efforts to bring its KN08 road-mobile ICBM 
to operational capacity. Although the reliability of an untested North 
Korean ICBM is likely to be very low, North Korea has used its Taepo-
Dong-2 launch vehicle to put a satellite in orbit, thus successfully 
demonstrating technologies applicable to a long-range missile.
Iran
    The Joint Comprehensive Plan of Action reached by the P5+1, the EU 
and Iran last summer effectively cuts off all of Iran's potential 
pathways to developing a nuclear warhead, thereby removing the greatest 
danger previously posed by Iran's ballistic missile program. At the 
same time, Iran already has the largest inventory of ballistic missiles 
in the Middle East and today can potentially reach targets throughout 
the region and into southeastern Europe. Iran is seeking to enhance the 
lethality and effectiveness of existing systems with improvements in 
accuracy and warhead designs. Iran also has an anti-ship ballistic 
missile that can potentially threaten maritime activity in the Persian 
Gulf and the Strait of Hormuz. Although Iran does not yet possess an 
intercontinental ballistic missile (ICBM), its progress on space launch 
vehicles (SLV)--along with its desire to deter the United States and 
its allies and partners--provides Iran with the potential means and 
potential motivation to develop longer-range missiles, including an 
ICBM. Iran has stated publicly that it intends to launch the Simorgh 
SLV this year, which would be capable of ICBM ranges if Iran chose to 
configure it as a ballistic missile.
Syria
    Although Syria does not pose a ballistic missile threat to the 
United States Homeland, the Assad regime does possess short-range 
ballistic missiles, and has shown a willingness to use them repeatedly 
against its own people. Syria has several hundred short-range ballistic 
missiles, all of which are mobile and can reach much of Israel and 
large portions of Iraq, Jordan, and Turkey from launch sites well 
within Syria.
                other trends, including cruise missiles
    As Secretary Carter noted in his posture hearing before this 
committee, the Department confronts evolving challenges--China, Russia, 
North Korea, Iran, and countering terrorism--that are now driving the 
focus of the Department's planning and budgeting. The first two of 
these challenges reflect a return to great power competition, and both 
China and Russia are investing in anti-access/area denial capabilities. 
China is introducing qualitative advances into its nuclear and 
conventional military capabilities as it continues its rise in the 
Asia-Pacific region, and is making significant investments in anti-ship 
ballistic and cruise missiles, which will improve China's ability to 
strike regional targets at greater ranges.
    Russia is making significant investments in cruise missiles, 
including a cruise missile that violates the Intermediate-Range Nuclear 
Forces (INF) Treaty, which eliminated an entire class of United States 
and Russian missiles nearly three decades ago. In light of Russia's INF 
Treaty violation and overall aggressive behavior, we are developing and 
implementing a strategy to address Russian military actions that 
includes modifying and expanding air defense systems to deny Russia 
offensive capabilities; placing an increased emphasis on working with 
allies and partners to improve our collective capability to counter 
complex cruise missile threats; working with other departments and 
agencies to encourage and facilitate allied acquisition of advanced 
capabilities by those most concerned with Russian behavior; and 
investing in the technologies that are most relevant to Russia's 
provocations.
                        homeland missile defense
    The United States Homeland is currently protected against potential 
ICBM attacks from States like North Korea and Iran if it was to develop 
an ICBM in the future. To ensure that we stay ahead of the threat, we 
are continuing to strengthen our Homeland defense posture and invest in 
technologies to enable us to address emerging threats more effectively 
in the next decade. This requires continued improvement to the Ground-
based Midcourse Defense (GMD) system, including enhanced performance of 
the Ground-Based Interceptor (GBI) and the deployment of new sensors.
    We remain on track to deploy 14 additional interceptors in Alaska 
by the end of 2017. These interceptors, along with the 30 that are 
currently deployed, will provide protection against both North Korean 
and potential Iranian ICBM threats as they emerge and evolve. This 
year's budget request also reflects Department of Defense's (DOD's) 
commitment to modernizing the GMD system. It will move us towards a 
more reliable and effective defense of the United States. It includes 
funding for development of a new Long-Range Discrimination Radar (LRDR) 
being installed in Alaska. The LRDR will provide persistent sensor 
coverage and improve discrimination capabilities against North Korea. 
It also continues funding for the redesign of the kill vehicle known as 
Redesigned Kill Vehicles (RKV) for the GBI. Although we have addressed 
the causes of past failures in the GBI related to the Exoatmospheric 
Kill Vehicle, the RKV will have greater performance and discrimination 
capability.
    As directed by statute, the Missile Defense Agency (MDA) is also 
preparing environmental impact statements (EIS) for sites in the 
eastern United States that could host an additional GBI missile field. 
The EISs will be completed later this year. No decision has been made 
to deploy an additional missile field in the United States. The highest 
priorities for the protection of the Homeland are improving the 
reliability and effectiveness of the GBI and improving the GMD sensor 
architecture, which yield the greatest benefit against existing 
threats. The current GMD system provides coverage of the entire United 
States from North Korean and potential Iranian ICBMs. If an ICBM threat 
were to emerge in numbers that necessitated the deployment of 
additional interceptors, the steps being taken now, including 
conducting EISs, will shorten the construction timelines associated 
with deployment of a new missile defense site.
                            regional defense
    The Department's fiscal year 2017 budget request also continues to 
deploy missile defenses that are tailored to the security circumstances 
in Europe, the Middle East, and the Asia-Pacific region. Our focus is 
on developing and fielding missile defense capabilities that are mobile 
and relocatable, which allows us to address crises as they emerge. 
Systems such as Patriot, Terminal High-Altitude Air Defense (THAAD), 
and our Aegis BMD ships allow us to have flexible, layered missile 
defense capabilities tailored to specific regional threats. We are also 
encouraging our allies and partners to acquire missile defense 
capabilities, and to strengthen operational missile defense 
cooperation. In a regional context, we know that we will not be able to 
purchase enough interceptors to rely purely on missile defense for the 
duration of a conflict. In such a situation, we must protect our most 
valuable assets while also drawing on our other capabilities to provide 
a comprehensive military approach to defeating the threat from 
ballistic missiles.
Europe
    We are continuing to implement the European Phased Adaptive 
Approach (EPAA), and we are working in close collaboration with our 
North Atlantic Treaty Organization (NATO) Allies to develop an advanced 
network of sensors and interceptors--on land and at sea--to protect 
NATO European territory and our military forces and facilities.
    Technical capability of EPAA Phase II, which includes the Aegis 
Ashore site in Romania, was declared in December 2015. The site is 
undergoing operational readiness testing for integration into the NATO 
BMD architecture. The President's budget request also supports the 
Aegis Ashore site that will be deployed in Poland in the 2018 timeframe 
and the development of the SM-3 Block IIA interceptor that will be 
deployed on land and at sea later this decade. As these capabilities 
become operationally available, they will increase BMD coverage of NATO 
European territory.
    The United States conducts exercises designed to hone our Alliance 
missile defense capabilities and integration. U.S. European Command is 
engaged with NATO in the development of a biennial NATO-led BMD 
exercise event that serves to reinforce and expand upon other, routine 
BMD training evolutions that take place on a quarterly and semi-annual 
basis.
    Many NATO Allies also participate in the Nimble Titan exercise, an 
unclassified, two-year, multinational, BMD campaign. The overarching 
purpose of Nimble Titan is to serve as a venue for collaboration, 
exchange of views, and coordination of BMD policy and operational 
development among participating nations and organizations, along with 
U.S. Government departments, agencies, and military organizations. 
Nimble Titan has 25 participating nations and organizations, including 
NATO.
    Since 2011, the United States has operated a forward-based radar in 
Turkey and maintained a sea-based missile defense presence in Europe. 
We now have a total of four U.S. Aegis BMD capable destroyers forward-
deployed to the naval facility at Rota, Spain. These multi-mission 
ships support the missile defense mission, as well as other maritime 
missions.
    Spain and Germany have committed Patriot PAC-3 systems to NATO 
missile defense as demonstrated through the ongoing NATO deployment in 
defense of Turkey. Spain recently replaced the Netherlands in the 
defense of Turkey mission through its deployment of a Patriot system, 
and is strengthening its air and missile defense capabilities by 
acquiring additional Patriot systems from Germany.
    France is planning to provide its Spirale satellite detection 
system and a long-range radar for NATO territorial missile defense and 
has offered the SAMP/T air and missile defense system, which was 
fielded in 2013, to NATO BMD.
    Several Allies have modern surface combatant ships that could be 
equipped with BMD sensor or interceptor capability upgrades. The 
Netherlands and Denmark have committed to upgrading the SMART-L radars 
on their frigates to contribute to NATO BMD.
    Beyond hosting the second Aegis Ashore site in Europe, Poland has 
also announced its intention to spend up to $8 billion to acquire 
advanced air and missile defense capabilities.
    The United States will continue to encourage its NATO Allies to do 
more to cooperate and invest in missile defenses that will contribute 
to Alliance security.
Asia-Pacific
    In the Asia-Pacific region, our force posture includes Aegis BMD-
capable ships, along with Patriot batteries deployed in Japan and South 
Korea. We have also maintained the THAAD battery deployment to Guam in 
response to North Korean provocations.
    The cornerstone of our security and diplomacy in the region has 
been our strong bilateral alliances, including with South Korea, Japan, 
and Australia. All three of these nations play an important role in our 
regional efforts to achieve effective missile defense.
    South Korea has an immediate, proximate stake in preventing missile 
strikes from North Korea. We have worked closely with South Korea to 
ensure that our alliance maintains the capacity to do just that. The 
United States deploys Patriot PAC-3 batteries in South Korea to defend 
United States and South Korean forces. In addition, South Korea is 
taking steps to enhance its own air and missile defense systems, which 
include sea- and land-based sensors and Patriot PAC-2 batteries. DOD 
has been consulting with South Korea about how it can upgrade its 
missile defense capabilities as part of an Alliance response to the 
growing North Korean missile threat. On February 7, 2016, in response 
to the evolving threat posed by North Korea, the United States and 
South Korea made an Alliance decision to begin formal consultations 
regarding improvements to the alliance missile defense posture, 
specifically exploring the viability of deploying to South Korea a 
THAAD system to be operated by United States Forces Korea.
    Japan has its own layered missile defense system, which includes 
Aegis BMD ships with Standard Missile-3 interceptors, PAC-3 batteries, 
early-warning radars, and sophisticated command-and-control systems. 
Japan is upgrading two ATAGO-class Aegis destroyers to BMD capability 
with certification scheduled for Japan fiscal year 2018 and Japan 
fiscal year 2019, and plans to build two additional Aegis BMD ships, 
which would increase its inventory to a total of eight BMD-capable 
ships. Japan also hosts two United States missile defense radars.
    Additionally, Japan is a critical international partner for BMD 
development. One of our most significant cooperative efforts is the co-
development of an advanced version of the SM-3 interceptor, the SM-3 
Block IIA.
    The United States and Australia have forged a longstanding 
partnership on missile defense research and development--most notably 
with regard to sensors. In addition, Australia is involved in a 
trilateral discussion on missile defense in the Pacific involving the 
United States, Australia, and Japan.
    We will continue to emphasize the importance of developing a 
regional ballistic missile defense system that includes the sharing of 
sensor data among allies to take full advantage of the benefits of 
system interoperability and integration.
Middle East
    We also maintain a robust missile defense presence in the Middle 
East, including land- and sea-based assets deployed in defense of our 
forward-deployed forces, and our allies and partners. This is in 
addition to our efforts to build the capacity of those allies and 
partners that will ultimately contribute to their ability to defend 
themselves.
    The United States maintains a strong defense relationship with 
Israel, and our cooperation on missile defense has resulted in one of 
the most sophisticated missile defense systems in the world. Since 
2009, the United States has provided more than $3 billion in missile 
defense assistance to Israel, which has supported the joint development 
and production of David's Sling and the Arrow Weapon System as well as 
joint production of Iron Dome. This support, in conjunction with 
operational cooperation, gives Israel the ability to respond to 
simultaneous missile and rocket attacks from Hamas or Hezbollah, and 
from the longer-range ballistic missiles being developed by Iran. 
During the summer conflict in 2014, Iron Dome had a 90 percent success 
rate and saved countless Israeli lives. Missile defense was also the 
central focus of the Juniper Cobra exercise conducted in Israel last 
month--which is an important United States-Israeli military exercise 
that allows us to work through key interoperability challenges in 
responding to a potential missile crisis with Israel.
    The United States is also working with a number of Gulf Cooperation 
Council (GCC) countries on missile defense, including supporting the 
purchase of missile defense systems through the Foreign Military Sales 
program. The United Arab Emirates (UAE) is procuring the THAAD system. 
This is in addition to the UAE's earlier purchase of Patriot systems. 
Saudi Arabia is in the process of upgrading its existing Patriot PAC-2 
batteries to the PAC-3 configuration. Kuwait is also purchasing Patriot 
PAC-3 batteries. Qatar also joined the group of United States Patriot 
partners late last year, a group that includes Kuwait.
    U.S. Air Forces Central Command maintains a series of regular 
exchanges between United States and GCC air defense officers at the 
Combined Air Operations Center located at Al Udeid Air Base in Qatar. 
These exchanges provide an opportunity for increased situational 
awareness of missile threats in the region as well as the potential for 
future BMD planning and operational cooperation.
    As the GCC States begin to field more capable systems, the United 
States and its Gulf partners must work toward greater integration of 
those capabilities across the region. Following the Camp David Summit 
in 2015, the United States and GCC States agreed to study Ballistic 
Missile Early Warning System (BMEWS) requirements, including sensor and 
command and control architectures. The study will inform potential GCC-
wide BMEWS acquisition plans. MDA has been working on the BMEWS 
architecture study since September--and is in the process of presenting 
results of the study to the GCC. The desired end-state is a regional 
missile defense architecture in which GCC Member States participate and 
contribute to the extent practical, leading to a networked, layered 
defense of key strategic centers that strengthens deterrence and 
increases our collective ability to defeat a ballistic missile attack.
                         technology development
    We must continue to look ahead. This means ensuring that our 
investment strategy and priorities balance the needs of addressing the 
most dangerous threats we confront today while positioning us to 
respond to threat developments in the next decade. Areas for priority 
technology investment include persistent discrimination in the current 
and future Ballistic Missile Defense System sensor architecture; high-
power lasers for multiple BMD applications; common kill vehicle 
technology leading to a multi-object kill vehicle; advanced technology 
for high-risk/high-pay-off breakthroughs; and a rail gun to lower the 
cost per kill.
    Additionally, we are looking to invest in our cruise missile 
defense architecture--especially as it relates to the National Capital 
Region. Given the threat facing the United States Homeland, we require 
persistent surveillance and detection of cruise missiles. To that end, 
we are working with North American Aerospace Defense Command and others 
to identify technologies that give us this persistent surveillance and 
detection. We are also working closely with our Canadian partners to 
examine future technologies to cover the northern approaches.
    As we confront the growing complexity and size of ballistic and 
cruise missile threats in the next decade, the Department will continue 
to fund investments in new technologies as well as adapting current 
technologies to new purposes. As Secretary Carter stated in his 
testimony in February on the President's Budget request for fiscal year 
2017, the Department remains committed to continued investments 
directly supporting efforts to defeat missiles by using innovative 
technologies and operational concepts to lower the cost-per-round. This 
includes investments in directed energy/high-powered lasers, rail and 
powder guns, and enhanced munitions as well as employing systems like 
the Navy's SM-6 interceptor that can operate not only against a range 
of tactical missiles (air and ballistic), but can support anti-surface 
ship capacity as well.
    This leads to a larger point the Secretary has made--that today's 
security environment is dramatically different than the one in which we 
have been engaged over the last 25 years. It requires new ways of 
thinking and acting. It also requires new ways of acquiring and 
employing capabilities. Given this new security environment, we must 
also look at new ways to support our U.S. defense strategy. In the case 
of defeating ballistic missiles, we need to develop a wider range of 
tools and that includes the efforts underway to address such threats 
before they are launched, or ``left of launch.'' The development of 
left-of-launch capabilities will provide U.S. decision-makers 
additional tools and opportunities to defeat missiles. This will in 
turn reduce the burden on our ``right-of-launch'' ballistic missile 
defense capabilities. Taken together, left-of-launch and right-of-
launch will lead to more effective and resilient capabilities to defeat 
adversary ballistic missile threats.
                               conclusion
    The President's fiscal year 2017 budget request supports our 
strategies for protecting vital U.S. interests. It continues funding 
missile defense capabilities to ensure we remain well ahead of 
adversary ballistic and cruise missile defense developments and lays 
the foundation for investment in innovative programs to lower the cost-
per-intercept and defeat emerging ballistic and cruise missile threats.
    We request the Committee's support for this budget.
    Thank you for the opportunity to appear before you today. I look 
forward to your questions.

    Senator Sessions. Admiral Gortney?

 STATEMENT OF ADMIRAL WILLIAM E. GORTNEY, USN, COMMANDER, U.S. 
   NORTHERN COMMAND, AND COMMANDER, NORTH AMERICAN AEROSPACE 
                        DEFENSE COMMAND

    Admiral Gortney. Senator Sessions, Ranking Member Donnelly, 
and distinguished members of the committee, it is an honor to 
be with you here today.
    North America is increasingly vulnerable to a vast array of 
evolving threats to include highly capable national powers. 
This complexity and volatility of our strategic environment 
demands that we advance and sustain the capabilities to protect 
our Homeland.
    At NORAD and NORTHCOM, we look at threats to the Homeland 
from those most dangerous to most likely. On the most 
dangerous, the nation states, Russia, China, North Korea, where 
on North Korea, the peninsula is more unstable than it has ever 
been since the armistice, and of course, Iran.
    Many of our potential adversaries are pursuing advanced 
weapons development not seen in decades. Individually they pose 
serious threats to our national security and the international 
community. Collectively they represent a vast spectrum of 
complex and volatile threats that I believe will only continue 
to grow and threaten the Homeland if we hesitate to act 
decisively.
    Our BMD architecture is designed primarily to defend 
against limited long-range ballistic missiles from North Korea 
and Iran. In light of an evolving threat and the increasingly 
unpredictable nature of North Korea's dictator, I believe it is 
imperative that the United States continue to develop more 
capable forces and broader options for effective ballistic 
missile defense.
    I agree with and support the modernization priorities set 
by Vice Admiral Syring and his team at MDA, including 
improvement of our discrimination sensors, lethality of our 
kill vehicles, sustainment of the BMD architecture, and 
development of our kinetic and non-kinetic options.
    In addition, I believe investments in new technologies for 
the BMDS architecture such as directed energy should remain a 
priority to help us stay ahead of the advancing threats. The 
laser technology that Vice Admiral Syring and his team are 
pursuing will enhance our boost phase capability against both 
theater and ballistic missile defense against the Homeland.
    Thank you for giving me the opportunity to speak, and I 
look forward to your questions.
    [The prepared statement of Admiral Gortney follows:]

         Prepared Statement by Admiral William E. Gortney, USN
                              introduction
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
members of the Committee, I appreciate the opportunity to appear before 
you today to discuss the posture of United States Northern Command 
(USNORTHCOM) and North American Aerospace Defense Command (NORAD). I am 
here representing the Commands' soldiers, sailors, airmen, marines, 
coast guardsmen, national guardsmen, reservists, and civilians 
safeguarding our nation amidst the most diverse and challenging 
security atmosphere in our history. Brave men and women are confronting 
this rapidly changing defense environment head-on. It is an honor and a 
privilege to serve alongside them and I am grateful to the Committee 
for the support you provide.
    North America is increasingly vulnerable to a vast array of 
evolving threats--from highly capable, national powers to disaffected 
individuals who act in response to extremist propaganda. These threats 
are growing and becoming much more diffuse and less attributable. 
Moreover, I believe that many of the crises originating as regional 
conflicts elsewhere in the world are rapidly manifesting themselves 
here at home and they continue to challenge our ability to warn and 
defend.
    The complexity and volatility of our strategic environment demands 
that we advance and sustain the capabilities to protect our Homelands. 
I believe the President's fiscal year 2017 budget represents a balanced 
approach to maintaining our strategic advantage within the realities of 
a fiscally-constrained environment. We are still feeling the impacts of 
sequestration, primarily because the majority of the Services' cuts 
were from the operations and maintenance accounts, which directly 
impedes their ability to provide trained and equipped servicemembers to 
combatant commands. I thank the Committee for your support in passing 
the Bipartisan Budget Act of 2015, which represents another important 
step toward permanent relief from the sequestration caps in the Budget 
Control Act of 2011.
    We are resolute in our commitment to deter, prevent, and defeat 
attacks against the United States and Canada. We stand ready to provide 
rapid and robust support to the primary lead agencies responding to 
domestic disasters and the law enforcement agencies (LEAs) charged with 
combating transnational organized crime. We continue to strengthen our 
regional and Homeland partnerships; they are our center of gravity.
                         strategic environment
    The expansive complexity of the contemporary security environment 
makes defending the Homeland a continual challenge. The spectrum of 
threats to our national security ranges from traditional nation-state 
military capabilities to individuals with access to increasingly 
destructive technologies. The diffusion of capability, the inexact art 
of predicting intent, and the complications of attribution all 
contribute to a blurring of lines between traditional military threats 
and asymmetric threats that trigger military support or response. 
Technological advances and proliferation coupled with pockets of 
instability will generate a growing array of potential threats against 
which we must posture ourselves. Many of our potential adversaries are 
pursuing advanced weapons development not seen in decades. 
Individually, they pose serious concerns to our national security and 
the international community. Collectively, they represent a vast 
spectrum of complex and volatile threats that I believe will only 
continue to grow and threaten the Homeland if we hesitate to act 
decisively.
Russia
    A resurgent Russia continues to assert itself on the world stage. 
No longer content merely to pursue primacy within its near abroad, 
Russia's forays into Syria highlight Vladimir Putin's willingness to 
employ military power to advance his agenda outside Russia's near 
abroad. Last year I stated that Russia is progressing toward its goal 
of deploying long-range, conventionally armed cruise missiles 
comparable to Western systems. In 2015 these efforts came to fruition, 
as Russia employed heavy bombers, surface vessels, and a submarine to 
launch advanced conventional cruise missiles at targets in Syria. These 
operations served as a proof-of-concept for weapons systems and tactics 
ultimately intended to provide flexible deterrent options in a future 
crisis.
    Russia's strategic nuclear forces remain the only foreign military 
threat that could imperil our nation's existence, and Moscow continues 
to spend significant resources to modernize its nuclear arsenal and 
delivery systems. While Russia seeks to avoid a strategic conflict with 
the United States, Moscow perceives itself to be threatened by a 
coordinated Western effort to erode its sovereignty, weaken its 
economy, and undermine its regime. I am concerned these threat 
perceptions could prompt Russia's leaders to misinterpret our 
intentions in a crisis, leading to inadvertent escalation.
China
    As part of its long-term, comprehensive military modernization 
program, China continues to modernize and expand its strategic forces 
with a focus on improving its ability to survive a first strike and 
penetrate United States' missile defenses. Concerned that that United 
States precision strike and missile defense capabilities undermine its 
strategic deterrent, Beijing is working to improve the survivability of 
its nuclear force to ensure a credible second-strike capability.
    China continues to supplement its modest silo-based 
intercontinental ballistic missile (ICBM) force with a growing number 
of road-mobile ICBMs and is now in the process of operationalizing its 
first viable class of ballistic missile submarines, which, if 
successful, would be China's first sea-based strategic nuclear 
deterrent. China is also developing a range of anti-access and area-
denial weapons which, along with its cyber, counter-space, and 
strategic nuclear capabilities, are designed to discourage United 
States intervention in a regional crisis. Meanwhile, Beijing's 
diplomatic strategy appears to be focused on limiting United States 
options by denying physical and political access in key regions around 
the globe.
North Korea
    North Korea's recent hostile cyberspace activity, nuclear testing, 
and continued ballistic missile development represent a dangerous 
threat to our national security. North Korea's recent nuclear test and 
satellite launch demonstrate Kim Jong-un's commitment to developing 
strategic capabilities, as well as his disregard for United Nations 
Security Council resolutions. The regime's efforts to develop and 
deploy the road-mobile KN08 ICBM have profound implications for 
Homeland missile defense, primarily because the missile obviates most 
of the pre-launch indicators on which we have traditionally relied to 
posture our defenses. While the KN08 remains untested, modeling 
suggests it could deliver a nuclear payload to much of the Continental 
United States. We assess Kim Jong-un is unlikely to attack our Homeland 
unless he perceives an imminent threat to his regime's survival. 
However, we are concerned the possession of a nuclear ICBM could 
embolden the regime's intransigence below the nuclear threshold and 
complicate our response to a crisis on the peninsula. While I do not 
believe that North Korea's efforts to develop a submarine-launched 
ballistic missile represent a near-term threat to the United States 
Homeland, the program underscores the level of effort and resources the 
regime is willing to devote to developing advanced weapon systems. As 
the combatant commander charged with defending the Homeland, I take 
this threat very seriously, particularly in light of North Korea's 
unpredictable leadership.
Iran
    Iran poses multiple significant security concerns to the United 
States, and I remain wary of its strategic trajectory. Last year's 
conclusion of the Joint Comprehensive Plan of Action was a welcome 
development, but, Iran's continuing pursuit of long-range missile 
capabilities and ballistic missile and space launch programs, in 
defiance of United Nations Security Council resolutions, remains a 
serious concern. Iran has successfully orbited satellites using a 
first-generation space launch vehicle and announced plans to orbit a 
larger satellite using its ICBM-class booster as early as this year. In 
light of these advances, we assess Iran may be able to deploy an 
operational ICBM by 2020 if the regime choses to do so. Additionally, 
Iran has invested in developing advanced offensive cyberspace 
capability and has demonstrated cyberspace operations that could 
threaten our critical civil infrastructure.
                           lines of operation
    In my statement last year, I described the unique aspects of 
USNORTHCOM as the nation's Homeland geographic combatant command (GCC) 
and NORAD as the nation's oldest bi-national command. I explained the 
importance of prioritizing our complementary and individual functions 
with a focus on our shared end states. Our key Lines of Operation are 
more critical than ever to our mission success. We map all of our 
activities to these Lines of Operation, which shape our activities and 
effort.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                          USNORTHCOM and NORAD Lines of Operation
 
                          <bullet> Defense of our Homelands
                          <bullet> Defense Support of Civil Authorities
                          <bullet> Homeland Partnerships
                          <bullet> Regional Partnerships
                          <bullet> The Arctic
                          <bullet> Professionalism and Excellence
                          <bullet> Warfighters and Families
----------------------------------------------------------------------------------------------------------------

                        defense of our homelands
    As the Commander of USNORTHCOM and NORAD, my primary task is to 
defend the Homelands. Defense of our Homelands is our dominant line of 
operation, and it is the core focus of USNORTHCOM and NORAD primary 
missions. We are ever mindful of the supreme responsibility we have of 
defending the security of the United States, our citizens, and our 
allies and partners. In 2015, we celebrated NORAD's 57th year defending 
North America against attack through our no-fail aerospace warning and 
aerospace control missions. NORAD was born in the Cold War and expanded 
to an internal threat focus after 9/11. By contrast, USNORTHCOM was 
born in the aftermath of 9/11 and shaped by the seminal nature of those 
attacks. Both Commands are ever-adapting within the strategic 
environment, and we work hard to develop our capabilities to outpace 
threats.
                            missile defense
    USNORTHCOM's most prominent Homeland defense mission is Ballistic 
Missile Defense (BMD). Currently, our BMD architecture is designed 
primarily to defend against limited long range ballistic missile 
attacks from North Korea and Iran. In light of an evolving threat and 
the increasingly enigmatic and unpredictable nature of North Korea's 
dictator, Kim Jong-un, I believe it is imperative that the United 
States continue to develop more capable forces and broader options for 
effective ballistic missile defense. Our BMD architecture is comprised 
of a group of independent, yet interrelated components that form a 
complex and unified defensive network. This system of systems cannot be 
modernized and maintained sequentially; each component must be improved 
concurrently to outpace the evolving threat. I agree with and support 
the modernization priorities set by Vice Admiral Jim Syring and his 
team at the Missile Defense Agency (MDA), including improvement in our 
discrimination sensors, lethality of our kill vehicles, sustainment of 
the BMD architecture, and development of our kinetic and non-kinetic 
options. I am grateful to this committee for your support and 
commitment to modernizing our Ballistic Missile Defense System (BMDS).
    We are on the right path to improving our sensors through the 
development and deployment of the new Long Range Discrimination Radar 
(LRDR). This critical midcourse sensor is expected to provide 
persistent sensor coverage and vastly improve our target tracking and 
discrimination capability. The LRDR will help us evaluate our 
countermeasure options and increase the capability of our Ground-based 
Midcourse Defense (GMD) interceptors.
    We remain on track to deploy the final 14 interceptors in Alaska, 
which will give us 44 missiles in the ground by the end of 2017. 
Finishing the inventory is a big step toward the robust BMDS of the 
future, but it is critical that we not stop there. We need to continue 
working on enhancements to the current Exo-atmospheric Kill Vehicle 
(EKV), and investments in the future Redesigned Kill Vehicle (RKV). We 
need to invest in the lethality of our kill vehicles, and in ways to 
get us to the right side of the cost curve. Our adversaries are 
developing relatively inexpensive technologies, which we assess can 
reach the Homeland. By contrast, our interceptors are vastly more 
expensive. Today, our BMDS is investing in new technologies and 
adapting current technologies to new purposes which will enable us to 
meet the advancing threat and lower the cost per round.
    I believe that Homeland defense is fundamentally an ``away game'', 
and missile defense is no exception. Today's GMD system is designed to 
intercept incoming threats after the launch is initiated. While that 
approach offers us sufficient decision space, we need to augment our 
defensive posture with one that is designed to defeat ballistic missile 
threats in the boost phase as well as before they are launched, known 
as ``left of launch.'' In concert with our public and private 
stakeholders, MDA is working on an emerging technology that will enable 
us to employ non-kinetic methods to defeat ballistic missile threats 
when we receive indications that a launch is imminent. I believe this 
technology will reduce the overall cost of engagement-based missile 
defense and provide us options to defeat ballistic missiles that 
continue to proliferate around the world.
    We work closely with other GCCs, functional combatant commands, and 
partner nations to leverage capabilities that enable us to protect the 
Homeland. Thanks to agreements with the government of Japan, United 
States Pacific Command (USPACOM) was able to deploy a second Army Navy/
Transportable Radar Surveillance and Control Model 2, or AN/TPY-2 to 
Japan, which dramatically improved our ability to ``defend forward.''
    In addition to the proliferation of ballistic missile threats, I am 
deeply troubled by the development of advanced long-range cruise 
missiles and the growing threat they represent to North America. Russia 
possesses both conventional and nuclear cruise missiles with the range 
to reach North America and it has proliferated some advanced cruise 
missile technologies to other actors. This threat is real and it is 
imperative that we develop effective response options to outpace the 
threat and enhance our deterrence. We are working with the Joint 
Integrated Air and Missile Defense Organization (JIAMDO), MDA, and 
other stakeholders to improve our Cruise Missile Defense (CMD) 
capabilities.
    Effectively countering and defeating cruise missiles requires a 
layered and integrated architecture that can defend across the full 
spectrum of the engagement sequence. Cruise missiles represent a real 
operational challenge because of their increased standoff capability, 
low altitude and small radar signatures. Although no single system can 
counter all cruise missiles, we have confidence in our layered 
architecture to defend the Homeland. To defeat this more capable 
threat, we are working on enhancements to each of the individual 
systems, including our Indications and Warnings capabilities, wide-
area-surveillance, and advanced fire control infrastructure.
    We are in the first segment of our three-phase Homeland Defense 
Design (HDD) effort, which will improve our capability to find, fix, 
track, target, and engage growing air threats, such as those posed by 
cruise missiles, low-slow aircraft, and long-range aviation. In this 
first phase, we are testing and evaluating advanced sensors as well as 
integrated command and control capabilities. In addition to the new 
STateside Affordable Radar System (STARS), we had begun a three-year 
operational exercise of the Joint Land Attack Cruise Missile Defense 
Elevated Netted Sensor System (JLENS). This exercise had been an 
opportunity for us to see how well JLENS can fit into the existing 
Integrated Air Defense System (IADS) of the National Capital Region 
(NCR), including deployment of a JLENS Fire Control System aerostat, 
which is designed to work in tandem with the surveillance aerostat.
    Unfortunately, on October 28, 2015, the JLENS Fire Control System 
aerostat detached from its mooring station on Aberdeen Proving Ground, 
Maryland, and eventually grounded in a wooded area in northeast 
Pennsylvania. The Army is now finishing up the last of their 
investigations to determine the root causes of the incident. However, 
with the recent congressional disapproval of the fiscal year 2016 
above-threshold-reprogramming request, termination of the JLENS 
operational exercise is now underway and the Department is working to 
determine the way ahead.
                               conclusion
    We are very fortunate to be able to depend on the brave men and 
women who choose to wear the cloth of their nation and defend their 
fellow citizens, despite what is likely to be an onerous fight against 
increasingly diffuse threats. We embrace our no-fail mission at a time 
when our unique capabilities are needed most, and with your support, 
together with the exceptional men and women of USNORTHCOM and NORAD and 
our trusted partners, we will remain the greatest force for freedom, 
safety, and security for North America. I look forward to your 
questions.

    Senator Sessions. Next, Admiral Syring.

   STATEMENT OF VICE ADMIRAL JAMES D. SYRING, USN, DIRECTOR, 
         MISSILE DEFENSE AGENCY, DEPARTMENT OF DEFENSE

    Admiral Syring. Thank you, Chairman Sessions, Ranking 
Member Donnelly, distinguished members of the subcommittee. It 
is an honor again to testify before you today.
    We request support of our fiscal year 2017 budget which is 
necessary, as I will speak to in detail, to increase the 
capacity and capability of fielded Homeland and regional 
defense systems.
    With the escalation of the threat from North Korea and 
Iran, to include increasingly aggressive ballistic missile 
testing, we are working hard to find more cost-effective ways 
to do the missile defense mission. We need your continued 
strong support to improve the reliability of our Homeland 
defense systems and modernize our ground systems.
    We are moving forward with the redesigned kill vehicle 
program. All the ground-based interceptor upgrades and 
emplacements remain on track to achieve 44 interceptors by 
2017. In fiscal year 2017, we plan to conduct two intercept 
flight tests to more fully demonstrate performance of the 
Ground-Based Midcourse Defense [GMD] system against ICBMs.
    Among our planned Homeland defense improvements to identify 
and track lethal objects, we will begin construction in 2017 of 
the long-range discrimination radar in Alaska. To stay on 
schedule, it is critical that we receive full funding for the 
phase 1 of the military construction in fiscal year 2017 for 
the radar equipment shelter.
    On the regional defense side, in fiscal year 2017, we 
continue to enhance the capability of the Aegis BD [Ballistic 
Defense] system and deliver additional SM-3 IBs. We delivered 
Romania to the warfighter at the end of 2015, and we remain on 
track to deliver the Aegis Ashore site in Poland by the end of 
2018 to improve European NATO [North Atlantic Treaty 
Organization] defenses against medium and intermediate range 
missiles.
    Finally, on the advanced technology front, we need to stay 
ahead of the threat by discriminating and killing reentry 
vehicles with a higher degree of confidence in all phases of 
flight.
    Today we are focusing on directed energy, which I believe 
is a game-changer. Our work on laser scaling to achieve greater 
efficiency and lighter weight will enable a low-power laser 
demonstrator in 2021 to determine the feasibility of destroying 
enemy missiles in the boost phase of flight.
    Finally, equal to any threat we face around the world, we 
are very aware of the growing cyber threat and working 
aggressively to ensure the Nation's missile defenses are 
resilient and able to operate in this highly contested 
environment. We are taking steps to ensure the cybersecurity 
infrastructure and the latest security upgrades and everything 
else that needs to happen with the system, supplier level and 
our acquisition processes, is accounted for. We have rigorous 
cyber and supply chain risk management inspection programs. We 
have red team efforts ongoing to examine everything about our 
system from the trusted supply chain to the fielded operational 
capability. I cannot underscore the importance of this more.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    [The prepared statement of Admiral Syring follows:]

          Prepared Statement by Vice Admiral J.D. Syring, USN
    Good afternoon, Chairman Sessions, Ranking Member Donnelly, 
distinguished Members of the subcommittee. I appreciate this 
opportunity to testify before you today. Our current budget request of 
$7.5 billion for fiscal year (FY) 2017 will continue the development of 
defenses for our Nation, deployed forces, allies, and international 
partners against increasingly capable ballistic missiles. The fiscal 
year 2017 missile defense program will continue to support the 
Warfighter and needs of the combatant commanders with the development, 
testing, deployment, and integration of interceptors, sensors, and the 
command, control, battle management and communications (C2BMC) system 
for the Ballistic Missile Defense System (BMDS).
                        ballistic missile threat
    The threat continues to grow as potential adversaries acquire a 
greater number of ballistic missiles, increasing their range, 
incorporating BMD countermeasures, and making them more complex, 
survivable, reliable, and accurate. Space-launch activities involve 
multistage systems that further the development of technologies for 
intercontinental ballistic missiles (ICBMs). In addition to the Taepo 
Dong 2 space launch vehicle/ICBM, North Korea is developing and has 
paraded the KN08 road-mobile ICBM and an intermediate-range ballistic 
missile (IRBM) with a range greater than 3,000 km. Last October North 
Korea paraded a previously unseen, new, or modified road-mobile ICBM. 
North Korea has recently assumed an aggressive posture, having 
conducted rocket and ballistic missile launches in addition to the 
launch of the Taepo Dong 2 space launch vehicle/ICBM this past 
February. Today it fields hundreds of Scud and No Dong missiles that 
can reach United States forces forward deployed to the Republic of 
Korea and Japan.
    Iran has successfully orbited satellites and announced plans to 
orbit a larger satellite using a space launch vehicle (the Simorgh) 
that could be capable of intercontinental ballistic missile ranges if 
configured as such. Iran also has steadily increased its ballistic 
missile force, deploying next-generation short- and medium-range 
ballistic missiles (SRBMs and MRBMs) with increasing accuracy and new 
submunition payloads. Tehran's overall defense strategy relies on a 
substantial inventory of theater ballistic missiles capable of striking 
targets in southeastern Europe and the Middle East, including Israel. 
Iran continues to develop more sophisticated missiles and improve the 
range and accuracy of current missile systems, and it has publicly 
demonstrated the ability to launch simultaneous salvos of multiple 
rockets and missiles. Demonstrating it is capable of modifying 
currently deployed ballistic missile systems, Iran has flight-tested a 
Fateh110 ballistic missile in an anti-ship role. By adding a seeker to 
improve the missile's accuracy against sea-based targets, Iran could 
threaten maritime activity throughout the Persian Gulf and Strait of 
Hormuz.
                       support for the warfighter
    Our priority is to continue to deliver greater missile defense 
capability and capacity to the Warfighter for employment in support of 
Combatant Command priorities. This budget maintains the commitment to 
build out Homeland defenses to 44 Ground Based Interceptors (GBIs) by 
the end of 2017 and enhance GBI reliability. To strengthen regional 
defenses, we plan to deliver a total of 39 SM-3 Block IBs to the Navy 
in fiscal year 2017 for use on Aegis BMD ships and at the Aegis Ashore 
site, for a total of 146 delivered since December 2013. MDA also will 
deliver in fiscal year 2017 61 additional Terminal High Altitude Area 
Defense (THAAD) interceptors to the Army, for a total of 205 delivered 
since May 2011.
    On 18 December last year, we delivered the Aegis Ashore system in 
Romania in support of Phase 2 of the European Phased Adaptive Approach 
(EPAA). The technical capability declaration included the Aegis Ashore 
Romania missile defense complex, Aegis BMD 5.0 (Capability Upgrade, or 
CU) weapon system, as an integrated component of Aegis Baseline 9, and 
Standard Missile (SM)-3 Block IB (with a Threat Upgrade). This is the 
first EPAA land-based interceptor component, and it is mission capable 
today. On 30 December 2015, the United States Navy accepted ownership 
of the Aegis Ashore site in Romania. United States Warfighter 
acceptance is expected in May 2016. MDA will continue to support the 
Navy and NATO through the operation of the system. Also, plans remain 
on track to deliver a second Aegis Ashore site in Poland along with an 
upgraded missile defense system and the initial Standard Missile-3 (SM-
3) Block IIA missiles by the end of 2018 to support EPAA Phase 3.
    MDA routinely provides Warfighter operational support by performing 
the mission essential functions of BMDS configuration control, asset 
management, and operational readiness reporting and by providing an 
operational-level interface to United States Northern Command 
(USNORTHCOM), European Command (USEUCOM), Central Command (USCENTCOM), 
and Pacific Command (USPACOM) and facilitating increased Warfighter 
participation in development of future missile defense capabilities. 
MDA will continue to lead the integration of evolving MDA, Service, and 
COCOM command and control capabilities through systems engineering 
analysis and development of technical integration requirements and 
interface control documents to address the continued fielding by U.S. 
adversaries of air, missile, and rocket capabilities.
    MDA executes a fully integrated test program that synchronizes the 
system with the Warfighters trained to operate the system under varying 
wartime conditions against current and emerging threats. This ensures 
that BMDS capabilities are credibly demonstrated and validated prior to 
delivery to the Warfighter. We continue to work closely with 
independent testers within DOD--the Director, Operational Test and 
Evaluation; Deputy Assistant Secretary of Defense, Developmental Test & 
Evaluation; Service Operational Test Agencies; and Combatant Commands, 
represented by the Joint Forces Component Commands Integrated Missile 
Defense--to develop an Integrated Master Test Plan to execute a robust, 
cost-effective flight test program. Our flight tests feature 
operationally realistic conditions and integrate U.S. Government 
stakeholders--to include soldiers, sailors, airmen, and marines--and 
allies to prove BMD capabilities before they are fielded. From October 
2014 to the present, we have executed 25 flight tests. For the 
remainder of fiscal year 2016 we will conduct six more flight tests, 
and in fiscal year 2017 16 flight tests. In addition to 22 element 
level ground tests, we conducted 11 developmental and operational 
system-level ground tests from October 2014 to the present. There are 
three more system-level ground tests scheduled for this fiscal year, 
and four more planned for fiscal year 2017. Last year we also conducted 
or participated in more than 20 multi-event exercises and wargames, 
which are critical to the Warfighter and the intensive engineering 
efforts across the Agency.
          increasing reliability and confidence in the system
    Before I review our fiscal year 2017 program, I want to give you a 
brief overview of what we are doing within the current program to 
increase reliability and confidence in the system and how we are 
developing technologies to get ahead of what is sometimes referred to 
as the kinetic (hit-to-kill) cost curve.
    We are working hard to find more cost-effective ways to do the 
missile defense mission. There are challenging scenarios where 
adversaries will be able to launch large numbers of relatively cheap 
and increasingly complex missiles and our only option is to intercept 
them with very expensive weapon systems. MDA is making critical 
investments in future system development that we believe will 
significantly improve system performance and effectiveness. By 
improving reliability, enhancing discrimination, and expanding battle 
space to make possible a re-engagement firing strategy, I believe we 
can reduce the cost per kill. We also need to investigate solutions 
that help reduce reliance on expensive kinetic intercept solutions.
    Reliability is paramount and a critical part of how the warfighter 
decides upon a shot doctrine, that is, the estimation of how many shots 
it will take to defeat a credible threat. With a highly reliable 
interceptor, fewer shots would be required. As we are able to decrease 
the number of shots we must take against each threatening missile, we 
can increase overall warfighter confidence in the effectiveness of the 
system. The work we are doing to improve GBI reliability and develop 
the Redesigned Kill Vehicle (RKV) will help us reach this objective. We 
can also improve the missile defense cost curve by increasing the 
number of kill vehicles we place on a single interceptor. This is the 
rationale behind the Multi-Object Kill Vehicle (MOKV) program--the more 
kill vehicles we can put on an interceptor, the greater raid capacity 
our Ground-based Midcourse Defense system will have. I will address 
both of these efforts in more detail below.
    We must also take steps to improve the discrimination and 
assessment capabilities of the system. The better Warfighters are able 
to determine the lethal payload in a target cluster and assess whether 
it has been actually hit, the fewer interceptors they will need to 
expend. With our investments in radars while developing advanced 
electro-optical sensors, we are striving for a diverse sensor 
architecture that eventually will provide highly accurate midcourse 
tracking and discrimination. Development of the Long Range 
Discrimination Radar and our advanced discrimination sensor technology 
and space-based kill assessment programs will improve system target 
discrimination and assessment capabilities. Improved sensor coverage 
and interceptor capabilities will help the warfighter expand the battle 
space in order to reengage threats as needed.
    The development of non-kinetic technologies, such as directed 
energy, and new concepts of operation, such as boost-phase intercept 
and left-of-launch missile defeat, are game-changing and would have a 
dramatic effect on the need to rely exclusively on expensive 
interceptors.
    I will address all of these development efforts and initiatives 
below.
                            homeland defense
    MDA remains committed to operating, sustaining, and expanding our 
nation's Homeland missile defenses and requests $1.32 billion in fiscal 
year 2017 for the Ground-based Midcourse Defense (GMD) program, or $440 
million below what we requested in PB 16. The fiscal year 2017 budget 
request is lower than the fiscal year 2016 budget due to the fact that 
the fiscal year 2016 budget provided a significant increase to 
historical funding to improve overall reliability and performance and 
extend the service life of the GMD system. Last year's larger request 
was driven by the developmental content required to reach 44 GBIs by 
the end of 2017, the first full year of the RKV program, ground system 
modernization, completion of Capability Enhancement (CE)-II Block 1 
design and full-rate manufacturing as well as CE-II upgrades, 
development, and procurement. This year we will continue efforts to 
expand the GBI fleet to 44 by the end of 2017 for Enhanced Homeland 
Defense, continue flight and system ground testing, undertake RKV and 
C3 Booster development, enhance the Stockpile Reliability Program, 
expand the battle space to enable later GBI engagements, upgrade the 
GMD ground system, and deploy upgraded GMD fire control software to 
enhance our ability to use land-based sensor discrimination data. We 
will continue to add precision and confidence in our reliability 
assessments by performing failure modes and process analyses, 
reliability testing, short-circuit and grounding analyses, and 
verification of our on-going development efforts.
Increasing GBI Capacity
    We resumed interceptor manufacturing following the successful 
intercept in the June 2014 FTG-06b flight test. Since October 2014 we 
have delivered eight GBIs equipped with the CE-II Exo-atmospheric Kill 
Vehicle (EKV) identical to the configuration flown in that test. We 
have also removed eight previously delivered CE-II GBIs and are 
modifying them to match the FTG-06b configuration. These upgraded GBIs 
began delivery in March 2016. We are completing development of the CE-
II Block 1 EKV and Configuration 2 (C2)/Consolidated Booster Avionics 
Unit (CBAU) for the Integrated Boost Vehicle (IBV) to address parts 
obsolescence and eliminate several reliability concerns found in the 
older GBIs. Our confidence in the CE-II Block 1 IKV design changes was 
enhanced by the results of the GM Controlled Test Vehicle flight test 
(GM CTV-02+) earlier this year. We expect the FTG-15 intercept test 
planned for the end of this calendar year using a CE-II Block 1 EKV and 
C2/CBAU IBVto boost that confidence level even further. Upon a 
successful FTG-15 flight test, we plan to deliver ten GBIs configured 
with CE-II Block 1 EKV and C2/CBAU IBV.
GMD Testing
    This past January we successfully executed GM CTV-02+, a non-
intercept flight test involving the launch of a GBI from Vandenberg Air 
Force Base and an air-launched IRBM target over the Pacific Ocean. We 
were able to exercise fully the new Alternate Divert Thruster in the 
CE-II EKV in a flight environment and undertake an early evaluation of 
near term discrimination improvements for Homeland defense. The EKV 
used SPY-1, SBX, and AN/TPY-2 data for target selection.
    The next intercept flight test of the GMD system will take place 
later this calendar year. FTG-15 will be the first intercept flight 
test for the CE-II Block 1 EKV and the C2/CBAU IBV. It also will be the 
first intercept of an ICBM range target by the GMD system or any other 
BMDS element. A successful test will allow MDA to meet the commitment 
to deliver 44 GBIs by the end of 2017. Following FTG-15, MDA, in 
collaboration with DOT&E, plans to conduct the FTG-11 operational 
intercept flight test in the first quarter of fiscal year 2018, which 
will demonstrate the full capability of the GMD system with a two GBI 
salvo for an engagement of an ICBM.
Redesigned Kill Vehicle
    The primary objective for the RKV is to improve reliability. Its 
development will make Homeland defenses more robust. We plan to employ 
a modular design made up of mature subsystems and components to improve 
producibility, maintainability, and reduce unit cost. The RKV program 
will strive for performance improvements by incorporating on-demand 
communications between the kill vehicle and the ground, a wide field of 
view seeker, improved data processing and discrimination algorithms, 
and enhanced survivability. We established a cross-industry team to 
develop the RKV. We will then compete the production of an RKV-equipped 
GBI all-up round. The program schedule includes a controlled test 
vehicle flight test of the RKV in 2018 (GM CTV-03) and first intercept 
flight test in 2019 (FTG-17) to demonstrate the RKV, with a second 
intercept flight test in 2020 (FTG-18). We plan initial deliveries of 
the RKV in the 2020 time frame.
    In order to achieve full capability of the RKV, improvements are 
needed in other areas of the GMD program. We will modify the booster so 
that it can fly in either a selectable two-stage or three-stage mode 
and match survivability of the RKV. Additionally, we will upgrade the 
GMD fire control software to enable mixed engagements with RKV and EKV 
capabilities, utilize improved sensor data for on-demand 
communications, and provide improved situational awareness information 
to the Warfighter. We will modify components of the In-Flight 
Interceptor Communications System Data Terminals (IDT) to enable on-
demand communications.
Ground System Upgrades
    The Ground System hardware at Fort Greely and Vandenberg Air Force 
Base is 1990s technology installed in the early 2000s. We have parts 
obsolescence challenges and the operating systems are no longer 
supported by the original manufacturers. Without an upgrade, ground 
system reliability would decay and impact GBI availability to the 
Warfighter.
    Plans include the refurbishment of Missile Field 1 at Fort Greely, 
upgrades to the GMD ground system hardware, improvements to the fire 
control software, and substantial reliability testing and assessments 
to characterize the reliability and performance of the system. The work 
on Missile Field 1 began last year. We will complete the refurbishment 
and reactivation of Missile Field 1 in 2016 to provide sufficient silos 
for 44 GBIs. We have cleaned out the rust and mold in the utilidor and 
upgraded the climate control system to match what we have in Missile 
Field 2 and Missile Field 3. (A utilidor is an underground man-made 
structure used in extreme cold climates to run utilities lines between 
facilities. If the utilities--communications lines, power, heating and 
ventilation (HVAC)--were buried into the ground the freeze and thawing 
of the ground would crush the plastic casings.) The old Mechanical 
Electrical Building (MEB) was demolished and the new MEB completed in 
March 2016. We will complete replacement of Command and Launch 
Equipment, GMD Fire Control (GFC) equipment, and IDT equipment by 2017. 
The Fort Drum, New York IDT construction is complete and now 
operationally available to the Warfighter. This new IDT will enable 
communication with GBIs launched from Fort Greely, Alaska and 
Vandenberg Air Force Base in California over longer distances and 
improve defenses for the eastern United States.
    We are also initiating a longer term effort to replace the GMD 
Communications Network equipment by 2019. We will deliver two 
significant upgrades to the GFC software. The first, GFC 6B3, provides 
the Warfighter the capability to operate with 44 GBIs, improves 
discrimination capability, and adds several warfighter requested 
upgrades to improve operational capability. The second, GFC 7A, 
improves fail-over between redundant systems and system availability by 
removing the aging Command and Launch Equipment and streamlining the 
GMD fire control system architecture. Ground Systems Build 7B is also 
underway and will be in full development in 2017. The 7B build includes 
upgrades for two- or three-stage selectable boosters and associated 
flyouts, improved nuclear weapons effects planning, improved battle 
management, additional target discrimination capabilities, and the new 
RKV On-Demand Communications.
Homeland Defense Sensors
    Last year we integrated, tested, and delivered the capability for 
the Warfighter to manage the second PACOM AN/TPY-2 radar in Japan and 
introduced the boost phase cue capability of that radar site into the 
BMDS. This radar and the new C2BMC capability will enhance the overall 
performance of the two Japan radar sites when operating in a mutually 
supporting AN/TPY-2 dual radar mode, providing improved tracking 
coverage for all ballistic missile launches out of North Korea.
    The Cobra Dane Early Warning Radar is now operating new software to 
enhance object classification for the Discrimination Improvement for 
Homeland Defense (DIHD)-Near Term capability. We will continue missile 
defense upgrades of the Early Warning Radars in Clear, Alaska and Cape 
Cod, Massachusetts. We completed Cape Cod UEWR facilities design in 
August 2015 and began facility modifications in September 2015. We 
expect to complete the Clear radar upgrade in second quarter fiscal 
year 2017 and the Cape Cod upgrade in the fourth quarter of fiscal year 
2017.
    With our budget request of $68.8 million in fiscal year 2017 for 
the Sea Based X-band (SBX) radar, we will continue to support flight 
testing with SBX to demonstrate improvements to discrimination and 
debris mitigation and be available for contingency operations. SBX will 
continue development of Discrimination Improvements for Homeland 
Defense. This past year the U.S. Coast Guard and American Bureau of 
Shipping five-year recertification of SBX vessel was completed. SBX 
also completed significant industrial work, including overhaul of two 
thrusters and three diesel generators, hull preservation, upgrade of 
the radar cooling system, and replacement of obsolete computer 
components.
    In fiscal year 2017 we request $162.0 million to continue the 
development of the Long Range Discrimination Radar (LRDR), the new 
midcourse tracking radar that will improve discrimination capabilities 
against threats to the Homeland from the Pacific theater. LRDR will 
provide larger hit assessment coverage enabling improved warfighting 
capability to manage GBI inventory and improving the capacity of the 
BMDS. The Deputy Secretary of Defense approved designation of the U.S. 
Air Force as the Lead Service for the LRDR this past August. Supported 
by system trade studies and with concurrence from the USSTRATCOM, 
USNORTHCOM and USPACOM commanders, the Clear Air Force Station, Alaska 
was selected as the future site of the LRDR. We are also requesting 
$155.0 million MILCON in 2017 for construction of the LRDR System 
Complex at Clear AFS, to include the mission control facility, the 
radar foundation, site infrastructure and security, along with the 
necessary utilities to provide initial operations of the radar. We 
request the MILCON be fully funded to ensure an on-time delivery of the 
facilities, which in turn allows the Radar Prime contractor to erect 
the radar equipment shelter and install the radar components to meet 
the 2020 operational requirement. The LRDR System Complex Phase 2 
project is planned in 2019 to provide a permanent shielded power plant 
for the radar system.
Homeland Defense C2BMC
    We request $439.6 million in fiscal year 2017 for Command, Control, 
Battle Management and Communications (C2BMC). We are fielding C2BMC 
Spiral 8.2-1 capabilities to NORTHCOM and PACOM in the 4th quarter of 
fiscal year 2017 to support an enhanced Homeland defense capability. 
This will allow C2BMC to integrate data from multiple TPY-2 radars, 
SBX, UEWRs, Cobra Dane, and space sensors to increase system raid size 
and tracking capacity by a factor of five. It will also improve the 
system information security posture. We also are developing C2BMC 
Spiral 8.2-5 to support LRDR sensor management and enhanced engage-on-
remote and support a more robust Homeland defense by December 2020.
                           regional defenses
    Our fiscal year 2017 budget request continues to prioritize 
deployment of regional defenses to protect our deployed forces, allies 
and international partners against SRBMs, MRBMs, and IRBMs in support 
of combatant commanders' near-term and future priorities.
Terminal High Altitude Area Defense
    We have delivered and started training for the fifth Terminal High 
Altitude Area Defense (THAAD) Weapon System Battery and completed 
training on the fourth battery now under Army control. To meet the 
demand for THAAD, MDA recently delivered 12 THAAD interceptors for U.S. 
batteries and 24 for THAAD batteries operated by the United Arab 
Emirates (UAE). This past year we also delivered the latest evolution 
in THAAD software, SW B2.2.1 Debris Mitigation Phase I capability and 
flight-tested SWB2.7.0. MDA continued to provide maintenance and supply 
support of the first deployed THAAD battery (comprising the THAAD 
system and AN/TPY-2 radar) in Guam.
    This past fall THAAD added two more successful intercepts, 
improving its hit-to-kill record since 2006 to 13 for 13. FTO-02 Event 
2a was our first operational test of integrated regional BMD 
capabilities, with the THAAD and Aegis BMD weapon systems sharing 
common defended areas. Two air-launched ballistic missile targets and 
one cruise missile target were launched in this scenario. The THAAD 
battery destroyed the first ballistic missile target, demonstrating its 
advanced algorithm capability and satisfying a condition for the Army's 
materiel release of the THAAD weapon system. Following receipt of the 
remote cue, the Aegis BMD ship, USS John Paul Jones, operating in the 
Integrated Air Missile Defense mode, launched to engage the second 
target, but the SM-3 Block IB Threat Upgrade missile experienced an 
anomaly early in flight. The THAAD battery crew, which also had 
launched a second THAAD interceptor at the medium-range ballistic 
missile, located this second target and destroyed it. The crew of the 
USS John Paul Jones then used the SM-2 Block IIIA guided missile to 
destroy a cruise missile target. The test, conducted at Wake Island, 
also involved the THAAD Terminal Mode AN/TPY-2 Radar, the Forward Based 
AN/TPY-2 Radar, and Aegis BMD Spy-1 Radar, and the C2BMC 
infrastructure, as well as space sensor assets. Warfighters 
representing the entire chain of command operated the BMDS system while 
using tactics, techniques and procedures and successfully defended 
against air and missile attacks. This test was a valuable demonstration 
of the benefits of layered, integrated missile defenses.
    In fiscal year 2017 THAAD will participate in two flight tests, 
FTT-18 and FTT-15. In FTT-18 THAAD will demonstrate an intercept of a 
separating IRBM target using the THAAD radar, launcher, fire control 
and communication, interceptor operations and engagement operations. 
Turbulent weather in the Pacific Ocean precluded the timely execution 
of FTO-02 E2, which forced the delay of FTO-02 E2a. The turbulent 
weather forced the delay of FTO-02 E2 into the FTT-18 window in late 
fourth quarter fiscal year 2015, effectively forcing the re-planning of 
FTT-18 into fiscal year 2017. In fiscal year 2017, we will conduct FTT-
15 to demonstrate the capability of the system to do an endo-
atmospheric intercept against an MRBM target with associated objects.
    For fiscal year 2017, MDA is requesting $369.6 million for THAAD 
procurement, which includes the purchase of 24 THAAD interceptors. By 
the end of fiscal year 2017, MDA will deliver an additional 61 THAAD 
interceptors to the U.S. Army, for a total of 197 interceptors in 
inventory (this total does not include interceptors expended in flight-
testing including two we plan to expend in FTT-18 and FTT-15). We will 
deliver and initiate training for the 7th THAAD Battery and complete 
training for the 6th THAAD Battery and turn it over to the Army by the 
end of fiscal year 2017. We will also complete the training of the 2nd 
UAE THAAD Battery and continue to support the forward deployed THAAD 
battery in Guam.
    We are requesting $270.3 million in RDT&E funding in fiscal year 
2017 as part of the continued development and testing of THAAD baseline 
2.0 capabilities. THAAD will continue activities to explore and mature 
the design concept of expanding THAAD system interoperability with air 
and missile defense systems and expanding the battlespace and defended 
area of the current baseline THAAD Weapon System. We are also 
requesting $72.1 million for THAAD operations and maintenance for 
delivered batteries.
Aegis Ballistic Missile Defense
    Aegis BMD continues to be the backbone of the Nation's regional 
defense for our deployed forces, allies, partners and friends, and 
directly supports and expands our Homeland defenses with long range 
surveillance and track capability. The fiscal year 2017 budget request 
supports continued advancement of the system to counter the growing 
threats.
    In fiscal year 2015, MDA expanded global BMD capability for the 
Aegis Fleet. Together with the U.S. Navy, we completed four BMD Weapons 
System upgrades on Aegis ships--two Aegis BMD 3.6 to 4.0 ships (ships 
with 4.0 can cover a wider threat set compared to the initial weapon 
system), and two Aegis BMD 3.6 to Aegis Baseline 9.C1 (BMD 5.0 
Capability Upgrade (CU)) ships (ships with Baseline 9 and 5.0 CU can 
conduct the anti-air warfare and ballistic missile defense missions 
concurrently). We also commenced four additional upgrades, one from 3.6 
to 4.0 and three from 3.6 to Aegis Baseline 9.C1 (BMD 5.0 CU). All 
upgrades were done to the existing BMD fleet of 33 BMD-capable Aegis 
ships. To meet an ever-growing demand by the combatant commanders, we 
continued delivery of Standard Missile-3s, including eight Block IAs 
and 20 Block IBs. fiscal year 2015 also marked the end of manufacturing 
for SM-3 Block IA rounds. We completed 26 Block IA recertifications and 
will continue to support maintenance for the deployed SM-3 Block IA 
rounds. In 2016, we expect to complete analysis that would support the 
extension of service life of the SM-3 Block IAs from 8 to 12 years, 
leaving these critically needed assets in the Fleet 50 percent longer.
    MDA conducted several critical flight tests this past year to prove 
the operational effectiveness of Aegis BMD and support certification of 
the at-sea and ashore versions of Aegis Baseline 9 (BMD 5.0 CU) Weapon 
System. Starting with FTM-25 on November 6, 2014, we successfully 
executed integrated air and missile defense (IAMD) by intercepting one 
short-range ballistic missile target with an SM-3 Block IB, while 
simultaneously engaging two air-breathing threats with SM-2 Block 
IIIAs. For this test, the Aegis Baseline 9 ship, USS John Paul Jones, 
was configured in IAMD mode, which provides the ship the ability to 
manage SPY-1 radar resources to conduct both anti-air warfare and 
ballistic missile defense concurrently. All three targets were 
successfully intercepted, and we met all primary and secondary 
objectives.
    In FTX-19, conducted in February 2015 off the coast of Virginia at 
NASA's Wallops Island facility, MDA successfully simulated engagements 
against a raid of three short-range targets using the Aegis BMD 4.0 
Weapons System, demonstrating coordinated SM-3 engagements between two 
Aegis BMD ships utilizing the Distributed Weighted Engagement Schema 
between two Aegis ships coordinating engagements. This weapon system 
functionality will be used, particularly in raid scenarios, when more 
than one ship is able to engage inbound threat missiles, and it 
determines a Preferred Shooter solution for SM-3 engagements. During 
this test, an Aegis Baseline 9 (BMD 5.0 CU) ship also participated, 
performing IAMD by simultaneously conducting simulated engagements of 
the three SRBM targets and four simulated anti-air warfare targets.
    In July MDA and the Navy conducted a series of four flight test 
events to verify the Sea-Based Terminal capability. The Sea Based 
Terminal program delivers an added layer of defense for Aegis BMD to 
engage short range threats in the terminal phase of flight and defend 
the sea base and high value assets ashore. During this series, the USS 
John Paul Jones used Aegis Baseline 9 (BMD 5.0 CU) to search, detect, 
track, and discriminate two short-range ballistic missile targets and 
two cruise missile targets. In four separate flight test events we 
verified the Sea Based Terminal capability using the SM-6 Dual I and 
the SM-2 Block IV missiles, successfully destroying the short-range 
ballistic missile and cruise missile targets and demonstrating the 
ability of Aegis Baseline 9 (BMD 5.0 CU) and the SM-6 to conduct both 
terminal ballistic missile defense and anti-air warfare. This campaign 
marked the first flight of the SM-6 Dual I missile, and it was the 
first demonstration of the tactical interface between the Aegis 
Baseline 9.C1 Weapons System and the SM-6 and SM-2 Block IV guided 
missiles. The SM-6 is a dual-use (anti-air warfare and BMD) missile 
that provides an accurate and highly capable BMD capability. It will 
replace the legacy SM-2 Block IV for terminal defense as those missiles 
reach the end of their service life. We are planning additional flight 
tests in 2016 for SM-6 Dual I missiles, which will enter the fleet 
inventory this spring.
    This past December we successfully conducted the Standard Missile-3 
(SM-3) Block IB Threat Upgrade (TU) controlled test vehicle (CTV) test, 
which we launched to engage a simulated ballistic missile target. The 
simulated engagement was controlled by the Aegis Ashore Missile Defense 
Test Complex with Aegis Baseline 9 (BMD 5.0 CU) to verify G-switch 
operation of the SM-3 Block IB TU. This test put us in a confident 
position later in the day to conduct the operationally realistic FTO-02 
E1a intercept test. The Aegis Ashore missile defense test complex at 
the Pacific Missile Range Facility in Hawaii fired the SM-3 Block IB 
interceptor for the first time to collide with and destroy an air-
launched MRBM target. This operational flight test was the first to 
demonstrate an intercept using the Aegis Ashore test complex and 
demonstrated important modernization updates to the Aegis Weapon 
System.
    In fiscal year 2017, we will continue our commitment to develop, 
test, and deliver global naval capability to the Warfighter and support 
defense of our deployed forces and European NATO allies through 
supporting operational readiness of EPAA Phase 2 and delivery of Phase 
3. In fiscal year 2016, following successful flight testing of the 
redesigned SM-3 Third Stage Rocket Motor nozzle to increase overall 
missile reliability, MDA anticipates a full-rate production decision 
for the SM-3 Block IB. Anticipating that authorization, we request 
$463.8 million in fiscal year 2017 to procure 35 SM-3 Block IBs and 
supporting material, for a total of 256 procured (235 Defense Wide 
Procurement plus 21 RDT&E) and 146 delivered by the end of fiscal year 
2017. To recertify SM-3 rounds that have been previously delivered and 
deployed to the Fleet, MDA requests $38.9 million in fiscal year 2017 
for sustainment of SM-3 assets.
    We request $106.0 million for the SM-3 Block IIA Cooperative 
Development (SCD) effort with the Japan Ministry of Defense. In fiscal 
year 2015, the SM-3 Block IIA executed a controlled test vehicle, in 
which controlled first-stage flight through nosecone separation was 
successfully demonstrated. In December of 2015, a second controlled 
flight test was conducted to further test the Kinetic Warhead and 
Throttleable Divert and Attitude Control System. We will complete 
flight testing for the SCD Project with two intercept tests scheduled 
for the fourth quarter in fiscal year 2016 and second quarter in fiscal 
year 2017. In fiscal year 2017, we will begin transition to testing the 
SM-3 Block IIA within the U. S. BMDS architecture with the upgraded 
Aegis Baseline 9 weapon system and BMD 5.1, for at sea and ashore 
deployment, and we request $254.7 million in RDT&E funding to continue 
manufacturing rounds to support flight testing and EPAA Phase 3.
    MDA is strongly committed to further enhancing capability of the 
Aegis BMD weapon system to give sailors the tools needed to 
successfully execute their mission. In fiscal year 2015, we delivered 
the BMD 4.0.3 weapon system, which further enhances Aegis BMD's 
Homeland defense role by improving long range surveillance and tracking 
capability to provide data to the GMD system for longer range and more 
sophisticated threats. MDA requests $28.3 million in fiscal year 2017 
for the BMD 4 series weapon systems to bring advanced threat and raid 
scenario capability to the legacy Aegis BMD fleet. Having certified the 
Aegis Baseline 9.C1 (BMD 5.0 CU) weapon system in November of 2015, MDA 
is shifting focus towards delivering BMD 5.1 capability on schedule and 
requests $92.4 million to continue software development and testing to 
certify in fiscal year 2018 and meet the delivery timeline of the SM-3 
Block IIA for deployment on ships and at Aegis Ashore sites. In 
addition to weapon system development, MDA requests $50.1 million to 
procure weapon system equipment for installation and upgrade to the BMD 
Fleet and $19.9 million to sustain BMD specific equipment on the 
existing Fleet.
    Adding an additional layer to the Aegis BMD weapon system, we are 
using an incremental development approach integrated within the Navy's 
Baseline 9 architecture to develop and deliver a Sea Based Terminal 
capability. By expanding the capability of the SM-6 guided missile and 
BMD 5 series weapon systems, we are delivering capability to protect 
maritime forces against anti-ship ballistic missiles and provide 
layered defense for forces ashore. We will further test the first 
increment of Sea Based Terminal with follow-on performance testing in 
fiscal year 2016 during FTX-21. Sea Based Terminal Increment 2 is on 
schedule to be certified and operational in the 2018-2019 timeframe.
European Phased Adaptive Approach
    We will continue to support the EPAA as a United States 
contribution to NATO BMD to provide full coverage and protection of 
NATO European territory, populations, and forces from the increasing 
threat of ballistic missile proliferation from outside of the Euro-
Atlantic area by investing resources for EPAA development, testing and 
deployment. It is important to emphasize that this capability is not 
capable of threatening, nor is it intended to threaten, Russia's 
strategic nuclear deterrent. EPAA Phase 1 was implemented in 2011 with 
the fielding of an AN/TPY-2 radar in Turkey and stationing of an Aegis 
BMD ship in the Eastern Mediterranean. EPAA Phase 2 achieved technical 
capability declaration in 2015, which enhances United States and NATO 
capabilities with the addition of Aegis Ashore in Romania, additional 
deployment of Aegis BMD ships home-ported in Rota, Spain, more capable 
Aegis BMD SM-3 Block IBs, and an upgraded Baseline 9 weapon system with 
BMD 5.0 CU. With Aegis Ashore Romania turned over to the Navy for 
operations, in fiscal year 2017 we have requested $13.9 million for 
sustainment of the system. To augment needed ship stationing 
requirements of EPAA Phase 2, MDA is providing sustainment support for 
BMD specific equipment to the four ships that shifted home ports to 
Rota, Spain.
    Although not directly in support of the BMDS architecture for EPAA 
Phase 2, MDA assisted the Maritime Theater Missile Defense Forum and U. 
S. Navy in a multi-national, two month long event. At-Sea-Demonstration 
15 (ASD-15) met its objective to prove multi-national interoperability 
for air and ballistic missile defenses. During the seven weeks of live 
fire events, four IAMD scenarios were exercised. The capstone IAMD 
event was an SM-3 Block IA intercept of a short range threat by the USS 
Ross cued by Netherlands' HNLMS de Zeven Provincien, with simultaneous 
engagements of air breathing targets by the USS The Sullivans and 
Canada's HMCS Montreal. United Kingdom and Spanish ships sent track 
data for analysis back to Dahlgren, Virginia. In all, ASD-15 
demonstrated the power of a multinational maritime task force to share 
information and work cooperatively in a complex integrated air and 
missile defense environment.
    EPAA Phase 3 will improve defensive coverage against medium- and 
intermediate-range threats with the deployment of a second operational 
Aegis Ashore site in Poland, equipped with the upgraded Aegis Baseline 
9 weapon system with BMD 5.1 and capability to launch SM-3 Block IIAs. 
These Aegis Weapon System upgrades are further enhanced by spiral 
upgrades to the C2BMC network enabling Engage on Remote capability and 
extended defensive coverage for NATO Europe. In fiscal year 2016 we 
requested $169.2 million for the construction of the Aegis Ashore site 
in Poland. The MDA MILCON contract for the Redzikowo, Poland Aegis 
Ashore site was awarded on February 10, 2016, and construction start 
was March 2016. We request $57.5 million in fiscal year 2017 for 
procurement of Aegis Ashore equipment. We plan to complete this site by 
the end of 2018 and will upgrade the Aegis Ashore Romania site to BMD 
5.1 when operationally feasible.
Command, Control, Battle Management, and Communications and Sensors
    C2BMC provides persistent tracking, cueing, discrimination, and 
fire control quality data to Aegis BMD, GMD, THAAD, and coalition 
partners to support Homeland and regional defense objectives. We 
continue to support Warfighter command, control and battle management 
needs across the globe by providing the strategic BMD planner, which 
provides combatant commanders situational awareness tools to support 
weapons release authority for Homeland defense and control and tasking 
of forward-based AN/TPY-2 radars. C2BMC operators and maintainers are 
deployed forward in some of the world's highest threat spots and 
continue to provide around-the-clock support to the local commanders.
    As the BMDS integrating element, C2BMC has demonstrated proven 
interoperability across regional BMD architectures. Of note this past 
year in the regional defense area, we integrated with Aegis Ashore to 
support Aegis Launch on Remote capability required for EPAA Phase 2 
declaration in December 2015. MDA also fielded Cross-Area of 
Responsibility capability to USEUCOM and USCENTCOM C2BMC, allowing each 
Combatant Command to take advantage of the other's BMD assets. We also 
supported enhancements to the BMDS to keep pace with emerging threats 
worldwide by investing in the development, integration, and testing of 
advanced algorithms to improve discrimination capabilities and enhance 
the use of space-based sensor data using the BMDS Overhead Persistent 
InfraRed (OPIR) Architecture (BOA). MDA's C2BMC engineers continued to 
make progress in the Simultaneous Correlation of Unambiguous Tracks 
(SCOUT) algorithms and Aggregated Discrimination. SCOUT is a multiphase 
activity to develop a physics-based capability to identify the lethal 
object(s) of a threat complex in a moderately complex countermeasure 
environment.
    We will field C2BMC Spiral 8.2-1 to USNORTHCOM and USPACOM in the 
fourth quarter of fiscal year 2017 in support of enhanced Homeland 
defense. Spiral 8.2-1 is a complete hardware update to the C2BMC System 
that will allow C2BMC to integrate data from multiple TPY-2 radars, 
SBX, UEWR, Upgraded Cobra Dane, and BMDS OPIR architecture. It will 
increase system raid size and tracking capacity by a factor of five and 
will improve the system Information Assurance/Cyber security posture. 
Continued development, integration and testing of C2BMC Spiral 8.2-3 
(Engage on Remote) will support the EPAA Phase 3 capability declaration 
in December 2018. Development of C2BMC Spiral 8.2-5 (LRDR Sensor 
Management and Enhanced Engage on Remote) will enable us by December 
2020 to reach a robust Homeland defense capability. Finally, we will 
continue to support incremental improvements to the BMDS to keep pace 
with emerging threats world-wide by investing in the development, 
integration and testing of advanced algorithms to improve 
discrimination capabilities and to enhance the use of space based 
sensor data using the BMDS OPIR architecture.
    We request $32.1 million for continued operation of the Space 
Tracking and Surveillance System (STSS) in fiscal year 2017. STSS 
satellites operate in low earth orbit and continue to collect valuable 
test data. STSS collected data on the most complex scenes to date 
during the FTX-20 test event in October 2014. (FTX-20 involved the 
launch of a separating MRBM and the simulation of an exo-atmospheric 
engagement by an Aegis Baseline 9.C1 configured destroyer. GM CTV-02+ 
involved a non-intercept test of a Ground Based Interceptor against a 
complex target scene presented by an air launched IRBM.) STSS also 
successfully tracked and collected data during Glory Trips 215 and 212, 
and participated in two other Air Force Global Strike Command flight 
tests of the Minuteman III.
    In fiscal year 2015, we began the process of decommissioning the 
Near-Field Infrared Experiment (NFIRE) satellite that MDA launched in 
April 2007. This satellite captured high resolution phenomenology data 
from the exhaust plumes of boosting ballistic missiles. The NFIRE 
satellite was decommissioned in August 2015 and safely deorbited this 
past November. Looking to the future, we completed the Critical Design 
Review for the Spacebased Kill Assessment (SKA) in January 2015 and the 
SKA Flight Model Manufacturing Review in April 2015; delivered the 
first shipset of flight models to the payload integrator in November 
2015 and the second shipset in January 2016. The SKA experiment is 
comprised of a network of sensors hosted on commercial satellites to 
collect data on missile intercepts, make an independent kill 
assessment, and pass that information on to the BMDS to support a 
multi-sensor kill assessment of the target. In fiscal year 2017 we will 
complete the integration and testing of SKA payloads onto hosted 
payload modules and satellites and conduct on-orbit deployment, 
checkout, calibration and commissioning of the SKA sensor network.
    The Services and COCOMs, with logistical support from MDA, are 
operating forward based X-band radars (AN/TPY-2(FBM)) in Japan, Israel, 
Turkey, and United States Central Command. All of these radars 
contribute to regional defense, and some also provide a significant 
contribution to the defense of the United States Homeland. Last year we 
completed the integration and performance characterization testing of 
the 2nd AN/TPY-2 radar to Japan, located at Kyogamisaki (Site KCS). In 
order to reduce noise levels at a seaside community near the KCS site, 
we completed muffler installation on Mobile Electric Power (MEP)-810 
power generators in March 2015. MDA increased environmental protection 
for the radar equipment by coordinating and receiving approval for 
construction and modification of the Prime Mission Equipment/Rubb 
structure at Site KCS. In fiscal year 2015 we delivered new operational 
mission profiles that provided cooperative coverage/capability for 
USEUCOM and USCENTCOM sensors and successfully completed operational 
flight testing of new capabilities in operational flight tests (FTO-02 
events) and ground test campaigns, improving cross-Area Of 
Responsibility operational mission profiles, debris mitigation logic 
and increases operational availability. Last year we completed the 
THAAD Reliability Growth Test and critical maintenance periods on 
Radars #2, #3 and #5 at Guam. We also delivered Radar #11 to THAAD 
Battery #6 and continued production of Radar #12 (the final United 
States production AN/TPY-2).
    We request $653.4 million in fiscal year 2017 to develop, deploy, 
test, and sustain BMDS sensors (this includes $162.0 million for the 
continued development of the Long Range Discrimination Radar), and 
$172.6 million to sustain the twelve (terminal mode and forward-based 
mode) AN/TPY-2 radars and support the UEWRs and Cobra Dane radar. We 
expect to complete development efforts for the next incremental 
software build (CX3.0), which will expand electronic protection 
functionality and further improve discrimination and debris mitigation 
capabilities to handle more advanced threat set requirements. We will 
also develop common U.S. and FMS software architecture for AN/TPY-2 to 
improve synergy and achieve cost savings for future software builds. In 
fiscal year 2017 we also will deliver the operational Float Antenna 
Equipment Unit (AEU) to improve Warfighter operational/maintenance 
flexibility; continue fleet-wide depot maintenance to retrofit 
Electronics Equipment Units with new signal data processors; and 
retrofit a product redesign for AN/TPY-2 AEU transformers with upgraded 
reliability improvements across the fleet. AN/TPY-2 radars will 
participate in three BMDS flight tests (FTG-11, FTG-15, and FTT-18).
    Developing New Capabilities
    MDA is developing technology to address gaps in the BMDS and drive 
the cost of defending the Homeland down dramatically. MDA's goal for 
these investments is to deploy a future BMDS architecture more capable 
and cost-effective that instills warfighter confidence in the ability 
of the BMDS to defeat missile attacks. Our vision is to shift the 
calculus of our potential adversaries by introducing directed energy 
into the BMDS architecture. This would revolutionize missile defense by 
dramatically reducing, if not eliminating, the role of very expensive 
interceptors. Our long-term goal is to deploy lasers on high altitude, 
long endurance Unmanned Aerial Vehicle (UAV) platforms to destroy ICBMs 
in the boost phase. To achieve this vision we must demonstrate two key 
elements: laser scaling with high efficiency and excellent beam 
quality, and high altitude, long endurance aircraft to carry the laser 
system.
    We request $71.8 million in Weapons Technology to continue 
development and test of our high-powered directed energy program to 
build the foundation for the next-generation UAV-borne laser system. A 
UAV-borne laser would be capable of acquiring, tracking and eventually 
destroying an enemy missile at a much lower cost than the existing 
BMDS. Within the Directed Energy project, we will collaborate with our 
Air Force and DARPA partners to develop and demonstrate the technology 
necessary to scale laser power to a level required for speed-of-light 
missile defense. In fiscal year 2015, the Massachusetts Institute of 
Technology's Lincoln Laboratory (MIT/LL) Fiber Combining Laser achieved 
44 kilowatts (kW) continuous power with near perfect beam quality, a 
record for fiber combined lasers. In 2017, MIT/LL will demonstrate a 30 
kW, low Size Weight and Power (87 kg/kW) fully packaged fiber laser. 
They also will demonstrate a flight qualified 1 kg/kW fiber amplifier 
traceable to BMDS high energy laser system requirements. The Lawrence 
Livermore National Laboratory (LLNL) achieved similar success with 
their Diode Pumped Alkali Laser (DPAL) system, reaching 14 kW, a record 
for the DPAL system. In fiscal year 2017, LLNL will demonstrate a DPAL 
system at 30 kilowatts average power, more than double the power ever 
achieved by a hybrid laser. The Agency also will make technology 
investments in Divert and Attitude Control Systems for future BMD 
interceptors and kill vehicles.
    In our effort to mature laser technology for missile defense, we 
awarded five contracts with key aerospace partners to produce concepts 
for an airborne low power laser demonstrator. We will use these 
concepts to guide our requirements for the follow-on competitive design 
contracts in fiscal year 2017 under our Technology Maturation 
Initiatives program element. MDA requests $90.3 million in fiscal year 
2017 for Technology Maturation Initiatives to build on the successes in 
weapons technology and discrimination sensor technology. Our vision is 
to add high altitude airborne or space-based electro-optical sensors 
into the BMDS architecture that can acquire, track, and discriminate 
ballistic missile targets.
    One of the goals of the Discrimination Sensor Technology flight 
test development program is to demonstrate that the Aegis Weapon System 
can launch an SM-3, engage and destroy a ballistic missile solely on 
tracks from remote airborne sensors. Test campaigns exercise the test 
analog of the BMDS architecture using operationally proven 
Multispectral Targeting System sensors aboard MQ-9 Reapers as the 
tracking element. During FTX-20, FTM-25, and GM CTV-02+, the Reapers 
received cues, acquired and tracked the target and transmitted these 
tracks to the BMDS C2BMC laboratory at Schriever Air Force Base. C2BMC 
fused the tracks and transmitted them via Link 16 to the Aegis 
Ballistic Missile Test Bed at Space and Naval Warfare Systems Command 
(SPAWAR) in San Diego, CA where the engagements were simulated in real-
time. During GM CTV-02+ the Aegis Weapon System authorized Remote 
Engage Doctrine within 30 seconds of target burnout.
    Over the next two years, we will incrementally demonstrate the 
value of increasingly more capable electro-optical/infrared sensors 
while developing tactics and procedures for future operational use. 
This work will culminate in a real time Aegis SM-3 engagement using 
tracking information from airborne sensor data in 2017 and again using 
higher precision, advanced sensor data in 2019. These tests are a 
crucial step in developing persistent sensor technology to defeat the 
evolving ballistic missile threat first from aircraft and eventually 
from space. Finally, MDA will contract with industry to begin the 
design of an airborne laser demonstrator to quantify the target 
acquisition, tracking, and handover performance required for boost 
phase missile defense.
    MDA requests $71.5 million for the MOKV effort. We have made 
considerable progress on the development strategy for the next 
generation exo-atmospheric kill vehicles. In fiscal year 2015, we 
awarded three contracts with industry to define concepts for deploying 
multiple kill vehicles from a single booster. In fiscal year 2016, 
industry delivered their MOKV concepts, and we are evaluating those 
concepts. The next step will be to focus on reducing component 
technical risk in critical areas identified by industry, which is 
necessary to make this revolutionary concept a reality. By 2017 we will 
develop and test MOKV command and control strategies in both digital 
and Hardware-in-the-Loop venues that will prove we can manage the 
engagements of many kill vehicles on many targets from a single 
interceptor. We will also invest in the communication architectures and 
guidance technology that support this game changing approach. 
Ultimately, MOKVs may revolutionize our missile defense architecture.
    MDA requests $23.4 million for Advanced Research and development 
that capitalizes on the creativity and innovation of the Nation's small 
business community and academia to enhance the BMDS. We are also 
fostering research between U.S. and foreign universities of allied 
nations through international cooperative science and technology 
projects. We awarded nine new contracts and exercised continuation 
options on ten additional contracts for innovative new research that 
can transition onto the BMDS.
    MDA also requests $17.9 million for the Advanced Concepts & 
Performance Assessment effort, which models the capability of advanced 
BMD technology to address evolving threats to the warfighter. The 
request will fund the digital simulation and hardware-in-the-loop 
framework and models required for testing of the Airborne Advanced 
Sensor, Kill Vehicle Modular Open Architecture test bed, and maturing 
sensor fusion algorithms.
                       international cooperation
    The fiscal year 2017 budget request includes funding for regional 
missile defense capabilities to protect deployed U.S. forces, reassure 
allies and partners, and build cooperative regional security 
architectures. MDA is engaged with over twenty countries and 
international organizations, such as NATO and the Gulf Cooperation 
Council (GCC). MDA is committed to expanding work with our 
international partners, to include conducting joint analyses to support 
partner missile defense acquisition decisions, cooperative research and 
development projects, deploying BMD assets, Foreign Military Sales 
(FMS), and co-production efforts. Our major international efforts 
reflect the Department's goals in the Asia-Pacific, Middle East, and 
European Areas of Responsibility and will enable implementation of 
EPAA, build partner capacity, and support the strategic shift to Asia-
Pacific.
    The investments of our allies and partners in their own missile 
defense capabilities allow us to build more effective regional security 
architectures that complement U.S. regional missile defense 
capabilities. MDA is currently executing an FMS case with the United 
Arab Emirates for two THAAD batteries and accompanying launchers, 
radars, and interceptors. MDA is actively engaged with several nations, 
particularly those in the Arabian Gulf region, to provide program 
information and cost data that may inform future decisions to procure 
THAAD and other missile defense systems. We are currently conducting a 
Ballistic Missile Early Warning Study for the GCC, analyzing sensor and 
C4I architecture options for defense of the region.
    We continue to have a very strong cooperative missile defense 
partnership with Israel. Over the past year, the Israel Missile Defense 
Organization (IMDO) and MDA successfully completed the third and fourth 
series of tests of the Stunner Interceptor for the David's Sling Weapon 
System (DSWS). IMDO and MDA also achieved the successful first 
engagement of a ballistic missile target with the Arrow-3 interceptor 
in December 2015. This was a major milestone in the development of the 
Arrow Weapon System and provides confidence in future Israeli 
capabilities to defeat developing threats. The Department continues to 
support the critical Iron Dome Program to defeat short-range rockets 
and artillery through co-production efforts.
    We are making significant progress with our Japanese counterparts 
on the SM-3 Block IIA, our largest co-development effort. The 
development work, which remains on track for first delivery in the 2018 
time frame, will expand extended deterrence to our friends and allies 
and establish an important vehicle for closer defense cooperation ties. 
Once deployed at the Aegis Ashore site in support of EPAA Phase 3 and 
on ships, the SM-3 Block IIA will improve and expand defenses against 
MRBM and IRBM threats.
    We continue to work on meeting our EPAA commitments with our NATO 
Allies. In December 2015, we completed major weapon system construction 
and achieved Technical Capability Declaration of the Aegis Ashore site 
in Romania. We anticipate declaring Initial Operating Capability of 
EPAA Phase 2 as well as beginning work on the Aegis Ashore site in 
Poland in support of EPAA Phase 3 this year. In addition to our 
interoperability activities with NATO, MDA continues to work with our 
European allies collectively as we build upon the synergy and lessons 
learned from ASD-15 as well as bilaterally to further individual 
national progress with missile defenses.
              cybersecurity/ supply chain risk management
    We are very cognizant of the growing cyber threat and aggressively 
working to ensure the Nation's missile defenses are resilient and able 
to operate in a highly contested cyber environment. Potential 
adversaries are developing cyber forces as part of their military 
structure and integrating them into their overall strategy. We are 
working very closely with the Armed Services, the Combatant Commands, 
especially Strategic Command's USCYBERCOM, and other agencies in DOD 
and the Federal Government to counter this growing threat.
    We are improving the cyber hygiene of our missile defense 
capabilities by ensuring our cybersecurity infrastructure has the 
latest security upgrades and patches. We are assessing our systems, our 
suppliers, and our overall acquisition processes. We are ensuring 
robust and secure configurations of our critical software and hardware 
to reduce the risk of malicious activities. We also have a rigorous 
cyber and supply chain risk management inspection program to examine 
everything about our systems from the trusted supply chain to the 
fielded capability. This helps us ensure the highest possible levels of 
compliance.
    In support of the DOD Cybersecurity Culture and Compliance 
Initiative signed out by the Secretary of Defense on September 28, 
2015, we are developing a cybersecurity program that focuses on the 
five operational excellence principles: Integrity, Level of Knowledge, 
Procedural Compliance, Formality and Backup, and Questioning Attitude. 
These principles are fundamental to the DOD cyber enterprise.
    We are also instituting the DOD Cybersecurity Discipline 
Implementation Plan to mitigate risks for the information systems we 
own and manage. Our program implements the DOD campaign four lines of 
effort: 1) Strong Authentication, to degrade the adversaries' ability 
to maneuver on DOD information networks; 2) Device Hardening to reduce 
internal and external attack vectors into DOD information networks; 3) 
Reducing the Attack Surface, to lessen external attack vectors into MDA 
information networks; and 4) Alignment to Cybersecurity / Computer 
Network Defense Service Providers, to improve detection of and response 
to adversary activity. These efforts run across all facets of MDA and 
the BMDS mission systems and general services infrastructures. We also 
created five additional Lines of Effort critical to MDA and the BMDS 
including: 1) Safeguarding BMD information in the defense industrial 
base; 2) Positioning, Navigation, and Timing; 3) Transitioning to Risk 
Management Framework; 4) Cybersecurity Testing and 5) Cybersecurity 
Workforce Management (training and certification).
    We are also increasing efforts to establish additional 
cybersecurity awareness training in support of the DOD Cybersecurity 
Culture and Compliance Initiative to improve the individual human 
performance and accountability within the DOD cyber enterprise. This 
applies to our leaders, service providers, cyber warriors, and all of 
our general users. Our efforts align to the DOD Cyber Strategy program 
and are meant to enable and augment the existing mandated cyber 
training efforts. Our training reinforces DOD training and exists to 
shift cybersecurity cultural norms at all levels to increase 
cybersecurity situational awareness across all personnel and inculcate 
a high level of personal responsibility.
    MDA has established an insider threat program in accordance with 
the DOD Directive 205.16, ``The DOD Insider Threat Program.'' We are 
leveraging computer network defense capabilities, in addition to other 
information streams to proactively detect, mitigate and defeat 
potential insider threats. This program also ensures that only trusted 
individuals have access to MDA program information and systems.
    The MDA Computer Emergency Response Team (CERT) continues to 
provide Computer Network Defense (CND) services as an accredited Tier 
II CND service provider to MDA programs of record. The MDA CERT 
executes a battle rhythm that includes daily monitoring and 
collaboration with USCYBERCOM, Joint Forces Headquarters DOD 
Information Networks, and other sources for latest threats to DOD and 
the MDA. As a result, the MDA CERT tracked and managed 109 cyber 
taskings in fiscal year 2015, contributing to the overall cybersecurity 
posture of MDA networks and resources. From August to November 2015, 
the Information Security Oversight Office (ISOO) inspected MDA. The 
ISOO is responsible to the President for policy and oversight of the 
Government-wide security classification and the National Industrial 
Security Program and is a component of the National Archives and 
Records Administration. In addition to security classification and 
Industrial Security, the ISOO reviewed MDA's cybersecurity program. 
ISOO's review confirmed that the MDA operates a robust CNSI program, 
one that enjoys leadership support and utilizes numerous best 
practices. Nearly all of the program elements are very strong, and the 
personnel who implement the program are dedicated and innovative. The 
Agency's Security Classification Guides are developed and updated 
utilizing a sound process and those that ISOO reviewed were current, 
very well prepared, and included all of the elements required by 
Executive Order 13526 and ISOO Directive 1. As with any program, there 
are areas for improvement. MDA is working those areas for improvement 
based on the findings and recommendations.
    Over the last year we also conducted two Enterprise Cyber Range 
Environment (ECRE) experiments with independent, DOT&E red team 
penetration testing on the Joint Information Operations Range (JIOR). 
The purpose of these experiments is to determine the BMDS cyber 
robustness to both external and insider threats. We are planning an 
additional ECRE for the GMD program in May 2016. MDA also completed 85 
cybersecurity inspections worldwide to ensure compliance with DOD and 
MDA cybersecurity standards. We follow up on these inspections to 
ensure remediation of all identified cybersecurity risks.
    We must build resilient cyber defenses that are capable of 
detecting and mitigating threats without impeding operations in order 
to ``fight through'' the cyber threat. MDA collaborates with the 
Director of Operational Test and Evaluation to conduct cyber 
penetration testing on key missile defense capabilities. We then use 
the results of those tests to conduct risk assessments to prioritize 
cybersecurity improvements, develop mitigation strategies, and improve 
cyber training. We are also working to develop better cyber concept of 
operations to ensure every network defender in every location knows how 
to react to cyber challenges.
    MDA is working hard to incorporate cybersecurity requirements early 
into our acquisition lifecycle. We are focused on ensuring we are 
designing and building cybersecurity into missile defenses, rather than 
adding it after the fact. In addition, we are working closely with our 
industry partners in the defense industrial base to ensure they can 
protect both classified and unclassified information they are 
processing on their systems to ensure that it will not be exposed to 
potential adversaries. We know that malicious cyber actors are 
constantly attempting to exfiltrate information from U.S. Industry. We 
will continue to work with the defense industrial base, the FBI, and 
other partners to identify these issues and raise the costs of this 
behavior to those responsible, in coordination with national 
authorities and in accordance with national policy.
    We are working diligently with the COCOMs, Services, and other 
agencies in the Federal Government to ensure the missile defense 
capabilities we field will operate successfully in a highly contested 
cyber environment. We have structured and continue to improve an 
ongoing robust cybersecurity program to protect information about 
current and future missile defense capabilities and ensure a persistent 
state of enterprise cybersecurity readiness. This ensures that the 
Agency remains a strong mission partner, protects and defends MDA 
information systems and networks, and optimizes cybersecurity 
management and processes at a level commensurate with our critical 
national defense mission.
                           program oversight
    There continues to be significant interest in MDA's development and 
deployment of the BMDS and management of the missile defense program. 
MDA is highly visible and one of the most scrutinized agencies within 
the Department of Defense. Each year, throughout the budget hearing 
cycle and congressional mark-ups and floor debates of the defense 
authorization and appropriations bills, there is intense congressional 
oversight of the missile defense program. MDA is also subjected on an 
annual basis to numerous Government Accountability Office audits, the 
support of which has required MDA to expend significant time and 
enormous resources. Dozens of MDA personnel are engaged in supporting 
21 GAO audits and answering more than 750 inquiries. Just within the 
past year MDA has provided nearly 11,000 pages of internal documents 
and prepared responses. MDA has concurred or partially concurred with 
all 21 GAO recommendations in their annual Mandate Report since 2011.
    In addition, the National Defense Authorization Act for Fiscal Year 
2010 requires that Defense Department financial statements be validated 
as ready for audit no later than September 30, 2017. The Office of the 
Under Secretary of Defense (Comptroller), Financial Improvement and 
Audit Readiness (FIAR) Directorate, initiated the Statement of 
Budgetary Activity (SBA) Examination for the MDA in April 2015 to 
evaluate the Agency's readiness for audit. In December 2015, the audit 
firm conducting the SBA reported that MDA management's assertion is 
fairly stated, which is a successful audit opinion. The Missile Defense 
Agency continues to make significant progress with FIAR initiatives and 
new Department policies. The successful SBA examination confirmed the 
Agency is on track to meet financial statement requirements and full 
auditability by the end of fiscal year 2017.
    MDA also annually delivers the congressionally mandated Baseline 
Acquisition Review (BAR) reports to Congress and GAO. We released the 
latest BAR in early March. MDA and the Department also continue to 
produce and deliver, as required by the annual defense bills, on 
average, over 30 reports to congress on missile defense.
                               conclusion
    Mr. Chairman and Members of the Subcommittee, in closing, I want to 
assure Congress that MDA programs are cost-effective, efficient, and 
managed in accordance with the Missile Defense Executive Board process 
set up by the Department to ensure all missile defense programs and 
operational requirements are validated, adhere to sound acquisition 
practices, and can meet warfighter demand in a cost effective manner. 
Our budget request for fiscal year 2017 will continue to increase the 
capability and capacity of fielded Homeland and regional missile 
defense systems and make measured investments in advanced technology to 
reverse the adversary's numerical advantage. I look forward to 
answering the committee's questions. Thank you.

    Senator Sessions. Thank you.
    General Mann, thank you. You will be leaving us before long 
too. This may be your last day here. Thank you so much for your 
work. It would please me if Alabama came home.
    General Mann. Yes, sir.
    Senator Sessions. Good.
    Senator Donnelly. I will vote for Indiana.
    [Laughter.]

STATEMENT OF LIEUTENANT GENERAL DAVID L. MANN, USA, COMMANDING 
   GENERAL, U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/ARMY 
FORCES STRATEGIC COMMAND AND JOINT FUNCTIONAL COMPONENT COMMAND 
                 FOR INTEGRATED MISSILE DEFENSE

    General Mann. Well, good afternoon, Chairman Sessions, 
Ranking Member Donnelly, and the other members of the 
subcommittee. Thank you for your continued support of our 
soldiers, our civilians, and our families.
    This is again my third appearance before the subcommittee, 
and it is indeed an honor to testify before you today to 
discuss the importance of missile defense to our Nation and the 
need to maintain these capabilities in the face of a threat 
that continues to grow both in complexity and unpredictability.
    Today I wanted to briefly discuss global missile defense 
operations and how Space Missile Defense Command, Army Forces 
Strategic Command executes its role as a force provider in 
support of our Nation and our combatant commands.
    We have three core tasks: number one, to provide trained 
and ready global missile defense forces today; secondly, to 
build future missile defense forces and capabilities for 
tomorrow; and third, to evaluate emerging technologies to 
address future requirements.
    Today we have approximately 300 full-time National Guard 
soldiers located at Fort Greely, Alaska and at Vandenberg Air 
Force Base who operate our ground-based midcourse defense 
system. As you know, this is the Nation's only defense against 
a limited intercontinental ballistic missile attack. These 
trained and ready soldiers fully understand the importance of 
the mission that they execute, and in fact, they like to refer 
to themselves as the 300 protecting the 300 million plus.
    I also represent the Joint Functional Component Command for 
Integrated Missile Defense in support of U.S. Strategic 
Command. Specifically, this component command synchronizes 
operational level planning, supports ongoing operation, 
integrates training exercises and testing globally. It also 
provides recommendations on the allocation of our limited 
missile defense assets in support of our combatant commands. 
Finally, it evaluates future missile defense requirements.
    This committee's continued support of missile defense and 
of our soldiers, sailors, marines, airmen, and civilians who 
develop, deploy, and operate our systems is essential.
    Again, I appreciate the opportunity to speak on the value 
of integrated missile defense for our Nation, and I look 
forward to addressing any questions that you may have. Thank 
you.
    [The prepared statement of General Mann follows:]

      Prepared Statement by Lieutenant General David L. Mann, USA
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
Members of the Subcommittee, thank you for your continued support of 
our Service Members, Civilians, and Families. In the same capacity as 
my previous appearances before this subcommittee, I appear before you 
today bringing both a Joint and Army perspective on effective missile 
defense capabilities. Let me again express my appreciation to this 
Subcommittee for its continued support of the Army, the U.S. Strategic 
Command, the Department of Defense, and the missile defense community. 
I am honored to again testify before this Subcommittee along with these 
distinguished witnesses who provide missile defense capabilities to our 
Nation, forward deployed forces, partners, and allies.
    As previously outlined during appearances before this subcommittee 
the last two years, my responsibilities encompass several main areas. 
First, as the Commander of the U.S. Army Space and Missile Defense 
Command (USASMDC), I have title 10 responsibilities to man, train, 
maintain, and equip space and global ballistic missile defense forces 
for the Army. As Commander of USASMDC, I also serve as the Army's force 
modernization proponent for space, global ballistic missile defense, 
and high altitude forces and capabilities. Second, as the Commander, 
Army Forces Strategic Command (ARSTRAT), I am the Army Service 
Component Commander (ASCC) to the U.S. Strategic Command (USSTRATCOM). 
I am responsible for planning, integrating, coordinating, and providing 
all Army space and missile defense forces and capabilities in support 
of USSTRATCOM missions. Third, as the Commander of USSTRATCOM's Joint 
Functional Component Command for Integrated Missile Defense (JFCC IMD), 
I am responsible for synchronizing missile defense planning, supporting 
ballistic missile defense operations, recommending allocation of 
missile defense assets, and advocating for missile defense capabilities 
on behalf of the combatant commanders.
    Lastly, I serve as the Army's Air and Missile Defense (AMD) 
Enterprise Integrator. My responsibility is to synchronize the balanced 
implementation of the Army's AMD strategy across the functions of force 
planning and sourcing requirements, combat and materiel development, 
AMD acquisition and life cycle management, and to orchestrate 
consistent strategic communication messaging themes.
    In accordance with these responsibilities, my intent today is to 
again highlight the most significant missile defense asset--our great 
people; to briefly outline the strategic environment; to emphasize 
USASMDC/ARSTRAT's missile defense force provider responsibilities with 
respect to the Army and the geographic combatant commanders (GCCs); to 
outline JFCC IMD's role as an operational integrator of Joint missile 
defense for USSTRATCOM; and finally to summarize a few of the key Army 
air and ballistic missile defense activities and developments in the 
context of a comprehensive approach to addressing an evolving ballistic 
missile threat.
      the workforce--recognizing and protecting our greatest asset
    The challenges that we face cannot be mitigated without the 
dedication of our greatest asset--our people. Just as I outlined during 
my previous appearances, I feel it important to highlight our workforce 
and my concern of potential out-year sequestration on our workforce. At 
USASMDC/ARSTRAT and JFCC IMD, our people remain our most enduring 
strength. The Service Members, Civilians, and Contractors support the 
Army and Joint Warfighter each and every day, both those stationed in 
the Homeland and those globally deployed. We remain committed to 
providing trained and ready Service Members and Civilians to operate 
and pursue enhanced capabilities for the Nation's ballistic missile 
defense system (BMDS).
    While the 2015 Bipartisan Budget Agreement provides some short term 
relief and stability, the potential future return of sequestration 
causes great concern--especially with regards to its impact on the 
workforce and our overall readiness. Within my commands, any future 
year sequestration will negatively impact the space and missile defense 
enablers our soldiers and civilians provide to the combatant 
commanders. Specifically, readiness, training, and enhancements to 
space and missile defense capabilities will be degraded. Also, a return 
of sequestration will negatively impact the morale of our workforce. As 
stated last year, I believe that a more prudent course of action should 
be identified and implemented to ensure that we can continue to meet 
our current global responsibilities and those of tomorrow.
                          the evolving threat
    Current global trends indicate ballistic and cruise missiles are 
becoming more complex, due in part to the increase in proliferation of 
advanced technologies, resulting in systems with greater ranges and 
accuracy. Additionally, many foreign ballistic and cruise missile 
systems are progressively incorporating advanced countermeasures 
including maneuverable reentry vehicles, multiple independent reentry 
vehicles, electromagnetic jamming, and hypersonics, with the purpose of 
challenging our ballistic missile defense systems. Moreover, ballistic 
and cruise missile platforms are increasing quantitatively, and as most 
are mobile field-based systems, is decreasing our ability to detect and 
track these systems before they are launched.
    Numerous countries are developing ground-, sea-, and air-launched 
land-attack cruise missiles utilizing an assortment of unconventional 
and inexpensive launch platforms. Presently, nearly 30 countries 
possess ballistic missile capability. Together, these countries have 
approximately 50 different variants of ballistic missiles. 
Additionally, there are currently 13 new intermediate-range and eight 
intercontinental ballistic missiles (IRBM and ICBM) variants under 
development. As an example, North Korea, has probably tested ICBM 
capabilities in recent space launches and continues to develop the KN-
08 road-mobile ICBM and an IRBM variant capable of reaching Guam and 
the Aleutian Islands.
    In the future, our BMD systems will encounter more complex advanced 
electronic and cyber-attacks and will also need to combat directed 
energy capabilities that could significantly degrade U.S. missile 
defense operations. It should also be expected that cyber- and 
electronic-attacks will increasingly be part of an adversary's anti 
access/area-denial (A2/AD) approach.

        ``Maintaining the capability to deter and defeat attacks on the 
        United States is the Department's first priority''
                                    --Quadrennial Defense Review
                                                     March 2014

    To meet the objectives of the current Quadrennial Defense Strategic 
Guidance, USSTRATCOM and the Army continue to provide and enhance 
Homeland and regional missile defense. In accordance with the 
Department's strategy to rebalance to the Asia-Pacific region, we have 
worked with partners in U.S. Pacific Command (USPACOM), U.S. Northern 
Command (USNORTHCOM), and USSTRATCOM to review and improve our 
capabilities in the USPACOM area of responsibility. In addition to the 
deployment of a Terminal High Altitude Area Defense (THAAD) battery in 
Guam, we have deployed an additional forward-based sensor in Japan to 
bolster our regional and Homeland defense capabilities. The Army is 
presently working to forward station a THAAD battery on Guam to reduce 
the deployment turbulence and create more strategic flexibility in the 
THAAD force. We have completed the final environmental protection 
submission for the Fish and Wildlife Service and expect to have a long-
term solution in place this year.
    The emplacement of 14 additional Ground-Based Interceptors at Fort 
Greely, Alaska, scheduled for completion in 2017 and an Inflight 
Interceptor Communications System Data Terminal at Fort Drum, New York, 
will provide improved capability and capacity to defend the Nation 
against a limited ICBM attack. In addition, we continue to work with 
regional partners and allies to increase our information and data 
sharing and develop a global AMD force posture that leverages ever 
growing partner nations' capabilities. This will result in reduced 
strain on our force and enable more timely modernization of our AMD 
assets.

        ``Effective missile defense is an essential element of the U.S. 
        commitment to strengthen strategic and regional deterrence 
        against states of concern''

                                    --USSTRATCOM Posture Statement
                                                         February 2016

    The Quadrennial Defense Review also establishes a priority to 
maintain a strong commitment to security and stability in Europe, the 
Asia Pacific region, and the Middle East. In conjunction with our 
allies and partners, the DOD continues to maintain forward committed 
PATRIOT, THAAD, and Counter Rocket, Artillery and Mortar (C-RAM) air 
and missile defense forces in order to enhance our current AMD posture 
while sending a strategic deterrence message to potential adversaries. 
The scope and quantity of these deployments result in a highly deployed 
and stressed Army AMD force. We must seek to balance today's 
operational requirements with shaping the force to counter future 
challenges. Our efforts must also include the critical modernization of 
our AMD force over the next five years.
    In summary, enemy air and missile threats continue to develop in 
complexity, quantity and capacity. The evolution of multiple 
sophisticated capabilities requires a holistic approach that 
effectively integrates offensive and defensive, passive, kinetic and 
non-kinetic, and alternative capabilities to defeat air and missile 
threats. The growing complexity of the strategic environment based on 
technological advances of the threat and fiscal realities requires cost 
effective methods to integrate current and future capabilities. We 
continue to prioritize integrated air and missile defense resources to 
optimize all our capabilities in support of the Warfighter, 
particularly in light of the expense associated with traditional 
approaches. We continue to partner with the Missile Defense Agency 
(MDA), Combatant Commands, and Services to pursue a fiscally 
responsible path to keep pace with evolving threats by identifying and 
prioritizing capabilities that provide the greatest operational value.
          providing and enhancing missile defense capabilities
    USASMDC/ARSTRAT, a force provider of missile defense capabilities, 
is manned by multi-component soldiers, civilians, and contractors. 
Commands around the world, including USSTRATCOM, USNORTHCOM, and the 
GCCs, leverage our capabilities. Our title 10 responsibilities include 
operations, planning, integration, control, and coordination of Army 
forces and capabilities in support of USSTRATCOM's missile defense 
mission. USASMDC/ARSTRAT also serves as the Army's global operational 
integrator for missile defense, the Army's proponent for global 
ballistic missile defense force modernization, and the Army's technical 
center lead to conduct air and missile defense related research and 
development in support of Army title 10 responsibilities. As the Army 
AMD Enterprise Integrator, our tasks include working across the AMD 
community of interest to balance priorities, informing resourcing 
decisions, and pursuing innovative approaches in order to enhance our 
strategic flexibility. The AMD Enterprise remains focused on meeting 
operational demands and AMD modernization initiatives. Achieving a 
balance of fiscal resources and force structure between operational 
requirements and timely development and implementation of the AMD 
modernization priorities is imperative. Collectively, the conduct and 
integration of these roles help to set conditions for the protection of 
GCCs and Joint Warfighters while maintaining their freedom of action, 
provide the ability to build and project combat power, and assure 
access to the global commons.
    Our operational function is to provide trained and ready missile 
defense forces and capabilities to the GCCs and the Warfighter--in 
other words, to address the requirements of today. For example, 
USASMDC/ARSTRAT soldiers serving in the Homeland and in remote and 
austere forward deployed locations operate the Ground-based Midcourse 
Defense (GMD) system and the Army-Navy/Transportable Radar Surveillance 
Forward-Based Mode (AN/TPY-2 FBM) radars. Highlights of the missile 
defense capabilities provided by our missile defense professionals 
include:
    Support to Global Ballistic Missile Defense: Soldiers from the 
100th Missile Defense Brigade, headquartered in Colorado Springs, 
Colorado, and the 49th Missile Defense Battalion, headquartered at Fort 
Greely, Alaska, remain ready, 24/7/365, to defend our Nation and its 
territories from a limited intercontinental ballistic missile attack. 
Under the operational control of USNORTHCOM, Army National Guard and 
Active component soldiers operate the Ground-based Midcourse Defense 
Fire Control Systems located at the Fire Direction Center in Alaska, 
the Missile Defense Element in Colorado, and the GMD Command Launch 
Element at Vandenberg Air Force Base, California. These soldiers, in 
conjunction with USNORTHCOM, also oversee the maintenance of GMD 
interceptors and ground system components. At the Missile Defense 
Complex at the Fort Greely site, 49th Missile Defense Battalion 
military police secure the interceptors and communications capabilities 
from physical threats.

        ``. . . will remain ready to deter and defeat threats to the 
        Homeland. . .''

                                    --National Security Strategy
                                                         February 2015

    Recently, MDA completed the fielding of an additional Inflight 
Interceptor Communications System Data Terminal (IDT) at Fort Drum, New 
York. Just last month, the Army completed its title 10 responsibilities 
and, in conjunction with USNORTHCOM, declared the IDT operational. In 
addition to increasing the overall effectiveness of the entire 
inventory of ground-based interceptors, the Nation's only Active 
defense against an ICBM attack, the IDT will also greatly enhance the 
coverage and protection of the Eastern U.S.
    GMD System Test and Development: Soldiers from the 100th Missile 
Defense Brigade actively participate in GMD test activities and 
continue to work with MDA developers on future improvements to the GMD 
system. The rigorous testing regime of MDA, conducted through their 
series of operational flight as well as ground-based tests, emphasizes 
operational realism during test design and execution. Therefore, in 
addition to gaining test data and insight, Soldiers of the 100th 
Missile Defense Brigade gain tremendous training value by executing 
their actual responsibilities while providing Warfighters with 
confidence the system will perform as planned in support of their Joint 
campaigns.
    Support to Regional Capabilities: The 100th Missile Defense Brigade 
also provides GCCs with trained and certified AN/TPY-2 FBM radar 
detachments. These operational capabilities are present today at five 
strategic locations around the globe where they contribute to the early 
warning, cueing, tracking, and discrimination of threats to our friends 
and allies. These forward-based radars also represent a tangible 
contribution to regional defense that is the centerpiece of the 
Administration's Phased Adaptive Approach (PAA). In several instances, 
these soldiers, deployed to remote and austere locations, are the only 
persistent demonstration of our national commitment and resolve to the 
PAA.
    Ballistic Missile Early Warning: Space enabled capabilities are 
essential for missile defense operations. Everything from 
communications, precision navigation and timing, intelligence, 
surveillance, reconnaissance, and early warning are dependent on space 
enabled capabilities. Through the Joint Space Operations Center, we 
routinely coordinate and collaborate with the Joint Functional 
Component Command for Space (USSTRATCOM) to ensure resilience of the 
space architecture that forms the backbone of the missile defense joint 
kill chain.
    In support of the Joint Force Commander, USASMDC/ARSTRAT continues 
to provide ballistic missile early warning within various theaters of 
operations. The 1st Space Brigade's Joint Tactical Ground Station 
(JTAGS) Detachments, under the tactical control of USSTRATCOM's Joint 
Functional Component Command for Space, are operated by USASMDC/ARSTRAT 
space-professional soldiers who monitor launch activity and other 
infrared events. They provide essential information to members of the 
air, missile defense, and operational communities. Our JTAGS 
Detachments are forward deployed around the globe, providing 24/7/365, 
dedicated, assured missile warning to USSTRATCOM and GCCs in support of 
deployed and forward-based forces. We continue to optimize this 
capability and this year we gained support from the Government of Italy 
to relocate the JTAGS in Europe to Sigonella Naval Air Station.
    Our second major task is to build and mature future missile defense 
forces--our capability development function. These are the missile 
defense capabilities we will provide tomorrow. A major component of our 
capability development function is to provide relevant and updated 
training on our global missile defense systems. During the past fiscal 
year, USASMDC/ARSTRAT trained 185 soldiers and was recertified as an 
Army Learning Institution of Excellence for missile defense training.
    The Army uses established and emerging processes to document its 
missile defense needs and pursue Joint and Army validation of its 
requirements. As a recognized Army Center for Analysis, USASMDC/ARSTRAT 
conducts studies to determine how to best meet the Army's assigned 
missile defense responsibilities. With these insights, we develop and 
operationalize the Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel, Facilities, and Policy (DOTMLPF-P) 
domains to address evolving threats and potential vulnerabilities to 
the GMD and AN/TPY-2 FBM missile defense systems. This disciplined 
approach helps to ensure limited resources are applied where Warfighter 
operational utility can be most effectively served.
    Our third major missile defense task provides critical technologies 
to address future needs that will enhance Warfighter effectiveness--our 
materiel development function. In USASMDC/ARSTRAT, our technology 
development function is primarily focused on the space and high 
altitude domains. However, while MDA is the principal materiel 
developer for ballistic missile defense capabilities, USASMDC/ARSTRAT 
has a number of supporting missile defense related materiel development 
efforts, to include supporting research and development of an OSD-
sponsored conventional prompt global strike capability. These technical 
capabilities are at the forefront of developing holistic, cost-
effective approaches to address the missile defense challenge. 
Following is a brief summary of two of our research and development 
efforts, as well as an overview of the capabilities of an essential 
Army testing range.
    High Energy Laser Technology Development and Demonstration: The 
objective of the Army's high energy laser science and technology 
project is to develop laser system components, ruggedize and integrate 
them onto an Army vehicle, conduct demonstrations to characterize 
performance capability, and transition the technology to a Program 
Executive Office. A solid-state laser weapon system has potential to be 
a low cost, effective complement to kinetic energy capabilities in 
countering rockets, artillery, and mortars (RAM); unmanned aerial 
vehicles (UAVs); and other threats. The project is building upon 
pathfinder demonstrations with a 10 kilowatt-class laser system in 2013 
and 2014, by continuing to develop and integrate technology at higher 
power and technology maturity levels. The next major demonstration will 
occur in 2018 following integration of a 50 kilowatt-class laser system 
onto a High Energy Laser Mobile Test Truck (HEL MTT). In 2015, the Army 
Science and Technology Working Group approved changes to the laser 
project to better align with the Army's Indirect Fire Protection 
Capability Increment 2 Block 1 (IFPC Inc 2-1) program. These changes 
will result in a pre-prototype laser weapon system demonstration, on a 
family of medium tactical vehicles variant, in the early 2020s designed 
to meet counter RAM requirements in the draft IFPC (IFPC Inc 2-1) 
Capability Development Document.

        Providing Future Warfighters with Innovative Missile Defense 
        Capabilities

    Low-Cost Target Development: The Army continues to pursue a 
technology effort to develop a suite of low-cost targets for the 
Patriot testing program. The intent is to design threat-representative 
targets at a substantially reduced cost for short-range ballistic 
missile testing. Over the past year, we completed detailed designs for 
three new short range ballistic missile targets leveraging existing 
excess solid rocket motors. The first risk reduction flight of these 
targets is planned for May 2016. The Army will realize significant 
savings conducting operational test events using these new targets 
beginning in fiscal year 2017. We will continue to leverage existing 
missile inventory and technology advancements to develop less expensive 
targets that are representative of real world threats.
    Missile Defense Testing: USASMDC/ARSTRAT operates the Ronald Reagan 
Ballistic Missile Test Site (RTS). RTS, located on the U.S. Army 
Garrison--Kwajalein Atoll in the Republic of the Marshall Islands, is 
critical to both offensive and defensive missile testing requirements, 
such as the GMD system and the U.S. Air Force strategic ballistic 
missile systems. Including the recent successful MDA Warfighter and 
Homeland defense tests, FTO-02E2 and CTV-02 respectively, these tests 
have grown ever more challenging and complex over the last few years, 
providing a means to replicate theater missile defense architectures 
superimposed over these Pacific test sites. Through shrewd and 
efficient resource investments, RTS retains preeminent missile defense 
testing capabilities and personnel to continue to provide critical 
testing support. In concert with its testing mission, Reagan Test Site 
conducts continuous deep space surveillance and space object 
identification operations to further increase national capabilities and 
reduce expenditures for both mission sets. During the past month, the 
U.S. Air Force began construction of their most advanced surveillance 
system--the Space Fence. In a few years, this improved surveillance 
capability will enable proactive space situational awareness while 
complementing existing systems at Reagan Test Site.
  joint functional component command for integrated missile defense--
 synchronizing global missile defense planning, force management, and 
                           operations support
    The Joint Functional Component Command for Integrated Missile 
Defense, or JFCC IMD, is USSTRATCOM's missile defense integrating 
element. Like the other Joint Functional Component Commands, JFCC IMD 
was formed to operationalize USSTRATCOM missions and allow the 
headquarters to focus on integration and advocacy. Headquartered at 
Schriever Air Force Base in Colorado Springs, Colorado, the JFCC IMD is 
manned by professional Army, Navy, Air Force, Marine Corps, Civilian, 
and Contractor personnel.
    As the Secretary of Defense and various combatant commanders have 
previously testified, the Warfighter remains confident in our ability 
to protect the Nation against a limited intercontinental ballistic 
missile attack, even in the face of the changing fiscal environment. 
While resources remain constrained, we continue to increase regional 
and Homeland defense capabilities. We remain partnered with the GCCs 
and MDA to initiate development of future capabilities in the Long 
Range Discrimination Radar in Alaska, development of the Redesigned 
Kill Vehicle (RKV) for the next GBI upgrade, and various other 
improvements in the global missile defense capability.

        Defense of the Homeland Priority Requires Exectuion of a 
        Holistic Global Missile Defense Plan

    On behalf of USSTRATCOM, JFCC IMD is working across the DOD 
enterprise to improve the integration of existing capabilities in order 
to maximize our efficiency and effectiveness to protect the Homeland, 
deployed forces, partners, and allies. The key force multiplier is 
``integration,'' which is a critically important mission area for JFCC 
IMD and directly supports USSTRATCOM's assigned Unified Command Plan 
(UCP) responsibilities for missile defense.
    As an operational and functional component command of USSTRATCOM, 
JFCC IMD has seven priorities for this year in support of USSTRATCOM 
UCP responsibilities:

    <bullet>  Remain postured to provide operational support during all 
missile events of interest and conduct BMDS asset management.
    <bullet>  Incorporate the Global Missile Defense CONOPS (GMDC) 
elements into policy, doctrine, and practice.
    <bullet>  Ensure operational realism and Warfighter priorities in 
tests to support operational acceptance of new capabilities.
    <bullet>  Conduct a holistic operational assessment through the 
Global Integrated Air and Missile Defense Assessment (GIAMDA) for 
advocacy of critical operational requirements to influence the missile 
defense investments.
    <bullet>  Recommend, through USSTRATCOM, the allocation of missile 
defense assets in support of geographic combatant command requirements 
and priorities.
    <bullet>  Evolve Joint BMD training to reflect technical and 
operational changes and improvements and to increase efficiency.
    <bullet>  Strengthen integration with USSTRATCOM subordinates and 
other organizations to improve cross-mission synergies.

    To accomplish these priorities, we maintain close collaborative 
relationships with the GCCs, MDA, the Services, the Office of the 
Secretary of Defense (OSD), the Joint Staff, and our allies. We 
continually enhance our deployed capabilities while gaining operational 
experience and confidence in our collective ability to defend the 
Nation, deployed forces, partners, and allies. Some of our key efforts 
to enhance missile defense planning and capabilities for both the 
Homeland and regional architectures follow.
    Expansion and Integration of the Missile Defense Architecture: In 
response to the evolving strategic environment, we continue to bolster 
Homeland and regional missile defense capabilities. Over the past year, 
we have deployed an additional AN/TPY-2 FBM radar to Japan, expanded 
the existing European Phased Adaptive Approach (EPAA) by 
operationalizing the Aegis Ashore capability in Romania, started 
construction of a second Aegis Ashore capability in Poland, upgraded Ft 
Greely, Alaska's existing GBI capability and inventory, and initiated 
key future capability developments in the Long Range Discrimination 
Radar and the RKV. Given many of the challenges associated with 
implementation of these architectures, JFCC IMD, in support of 
USSTRATCOM's global synchronizer role for missile defense, is 
collaborating with the GCCs to assess and address the cross-regional 
gaps in the areas of planning, policy, capabilities, and operations.

        We will maintain ``a robust missile defense capability to 
        defend the Homeland against a limited ballistic missile 
        attack.''

                                    --Quadrennial Defense Review
                                                     March 2014

    Global Planning and Assessment: Regional and global missile threats 
continue to increase in numbers and complexity. This year, after 
successfully completing a revision to the Global Missile Defense 
Concept of Operations, JFCC IMD operationalized many of the emerging 
processes identified in this seminal document. We led the missile 
defense community in an objective analysis of missile defense looking 
at risk from the lens of impacts across multiple GCC plans given a 
crisis with a single adversary problem set. This assessment will 
identify systemic risk, inform recommendations for shortfall 
mitigation, and improve effectiveness in missile defense planning. The 
output of this analysis directly informs the GIAMDA which serves to 
shape recommendations for global force management and advocacy efforts 
for future capability investments. We have completed the 2015 GIAMDA 
and its findings further underscores the holistic missile defense 
strategy that the Department is undertaking in technology development, 
allied integration, left-of-launch options, and cyber operations.
    Global Force Management: USSTRATCOM, as the designated Joint 
Functional Manager for missile defense, relies upon JFCC IMD to 
evaluate and recommend sourcing of BMD requirements based on assessed 
risk. Due to the high demand, low-density nature of missile defense 
assets, all sourcing decisions have a direct and significant impact to 
other combatant commanders' campaign and contingency plans. This year, 
JFCC IMD participated in a Joint Staff led effort to develop a 
prioritization schema for global assets. This global Prioritized 
Defended List will categorize GCC critical assets based on global risk 
to inform the Global Force Management process and enable senior leaders 
to make more informed decisions on the allocation of low density 
missile defense forces.
    Multi-Regional BMD Asset Management: JFCC IMD, in coordination with 
USSTRATCOM and the GCCs, manages the availability of missile defense 
assets to balance operational readiness postures, scheduled and 
unscheduled maintenance activities, and the MDA and Services' test 
requirements. This important process allows us to continually assess 
our readiness to defend against a ballistic missile attack and to 
recommend adjustments to optimize the overall BMD architecture.
    Allied Ballistic Missile Defense Integration: JFCC IMD continues to 
focus on the integration of allies into regional missile defense 
architectures, enhanced security cooperation between missile defense 
capable nations, and shared regional deterrence and defense 
responsibilities across partner nations. One tool employed to promote 
cooperation is the Nimble Titan campaign, a biennial series of multi-
national missile defense experiments designed to explore policy and 
operational concepts required for coalition missile defense. The Nimble 
Titan campaign provides a unique venue to advance U.S. missile defense 
policies and combatant command regional security objectives. The Nimble 
Titan community of interest consists of 23 nations and 3 international 
organizations.
    Nimble Titan 16 includes Ministry of Foreign Affairs and Ministry 
of Defense representatives from North America, Europe, Middle East, and 
Asia-Pacific regions, along with Department of State, OSD, Joint Staff, 
MDA, and combatant command representatives. While past Nimble Titan 
campaigns have focused only on Ballistic Missile Defense, Nimble Titan 
16 is the first campaign that expands the focus to Integrated Air and 
Missile Defense (IAMD), a growing area of concern for both the United 
States and many of our partner nations and allies. Other discussion 
topics include national policies and the need for increased regional 
and cross-regional coordination, sensor integration, and multinational 
MD planning solutions.
    As the premier strategic/policy level focused missile defense event 
in the world, this campaign provides participating nations with 
critical opportunities for multi-national discussions and experience in 
information-sharing as well as command and control procedures that 
enhance synchronized missile defense capabilities. Conclusions derived 
from this campaign continue to inform real world policy decisions and 
multinational BMD planning
    Joint BMD Training: In coordination with USSTRATCOM, the Joint 
Staff, Combatant Commands, and the Services, we have developed a 
comprehensive and innovative training program to close gaps between 
Service, Joint, and regional BMD training and education. This past 
September, we declared Final Operational Capability for the Joint BMD 
Training and Education mission. Nine new mission oriented courses have 
been developed and fielded to enhance combatant command and warfighter 
training needs. Online, distant learning courseware offerings are under 
development to improve efficiency in delivery and reduce costs. Over 
the past year, JFCC IMD provided 199 courses to over 3444 students 
worldwide via the Joint BMD Training and Education Center and Mobile 
Training Teams. Additionally, in keeping with Joint Vision 2020, JFCC 
IMD provided training courses to ally and partner nations using both 
Military-to-Military and Foreign Military Sales Training venues. We 
developed and launched our Community of Practice, an interactive 
knowledge portal for the missile defense mission, providing virtual 
problem solving, idea sharing, standards-setting, relationship 
improvement, collaboration, and joint, cross-domain awareness. Over the 
next two years our primary goal is to establish and gain Joint Staff 
accreditation as a Joint Training Center of Excellence.

        ``. . .I believe it is imperative that the United States 
        continue to develop more capable forces and broader options for 
        effective missile defense.''

                                    --USNORTHCOM Posture Statement
                                                     March 2016
    Warfighter Acceptance and Integrated Master Test Plan: As the 
missile defense architectures mature, Warfighters require a credible, 
comprehensive assessment of new capabilities to inform operational 
acceptance of emerging capabilities into the global BMDS. In 2015, we 
jointly conducted FTO-02 E1a to test the Aegis Ashore system with the 
SM-3 IB interceptor and, with FTO-02 E2a, performed an integrated BMDS 
test with Aegis BMD, THAAD, and AN/TPY-2 FBM simultaneously engaging 
SRBM, MRBM, and cruise missile targets in a layer defense to support 
the operational acceptance of the EPAA Phase II capability. For 
Homeland defense capability, we participated in the January 2016 GMD 
CTV-02, demonstrating the Exo-atmospheric Kill Vehicle alternate divert 
thruster in support of GBI upgrade efforts and key discrimination 
capabilities for future sensor network improvements. In the coming 
year, the focus of our BMD tests is to begin demonstrating the 
operational capability of the SM-3 IIA interceptor capability for Phase 
III of the EPAA architecture and to test the GMD system's GBI 
Capability Enhancement-II Block I. The Warfighter relies on a robust 
and operationally relevant test campaign to confidently field and 
integrate new capabilities into their existing Integrated Air and 
Missile Defense architectures.
    In summary, JFCC IMD continues to expand our nation's global 
missile defense architecture and explore future capabilities to 
maintain operational advantage against current and future threats. Our 
competitive edge is maintained through our deliberate investments in 
our capability developments by MDA and the Services, investments in our 
warfighters through education and training, and expansion of our 
collaboration with allies and partners.
    army contributions to the nation's missile defense capabilities
    As we transition from an Army at war to one of deterrence, air and 
missile defense (AMD) units have become a key strategic enabler. AMD is 
an enduring Army core function and an essential component of the Army 
mission to provide wide area security and support Joint campaigns. In 
addition to defense against ballistic missiles, the current AMD 
strategy seeks to develop a more comprehensive portfolio of IAMD 
capabilities to provide protection against cruise missiles, unmanned 
aerial systems, and long-range precision rocket, artillery, and mortar 
attacks.
    The Army works closely with MDA and continually supports its 
materiel development efforts to develop and field systems that are 
integral to our Nation's air and missile defense capabilities. To 
ensure the mission of providing trained and ready Army AMD forces, we 
continue to refine and implement the strategic direction of the Army's 
AMD strategy. A summary of the Army's major air and missile defense 
ongoing strategic direction and programs, both specified and implied, 
follows.
    Air and Missile Defense Readiness: Readiness remains the Army's top 
priority and the challenges to sustain the readiness of the total Army 
AMD forces requires constant vigilance and senior leader focus. The 
operational demand on the Army AMD force to meet the requirements of 
the Joint Warfighters continues to stress the force, impacting both 
current and future readiness, as well as modernization initiatives. 
With over 50 percent of the AMD force either forward assigned or 
deployed, the Army has taken steps to mitigate this stress and restore 
strategic flexibility. Implementation of a Sustainable Readiness Model, 
an Army Campaign Plan strategic effort, supported the characterization 
of the challenge. A recent study on striking a balance between 
operational demand and modernization led to the activation of an AMD 
test detachment in fiscal year 2018. This same study supported 
normalization of AMD rotations to nine months vice the current 12 month 
cycle.
    Mission Command: Closely linked to the challenge of sustaining AMD 
readiness is the ability to provide low density/high demand AMD command 
and control elements. The command and control elements are especially 
critical to enable the integration of total Army AMD forces into Joint 
operational and technical architectures. Operationally, the Army 
recently activated a third Air Defense Brigade Headquarters within the 
South Carolina Army National Guard to support command and control 
rotations for the integrated air defense mission of the National 
Capital Region. Additionally, a sixth Active Duty air defense brigade 
headquarters will soon be activated. Beginning next fiscal year, the 
Army will begin fielding five Dismounted PATRIOT Information 
Coordination Centrals (DPICC) to the Army Air and Missile Defense 
Commands (AAMDC), which will mitigate the requirement to deploy a 
Patriot Headquarters element with each 1-2 battery deployment. These 
operational measures are being conducted in concert with technical 
measures, specifically the development of the Army IAMD Battle Command 
System (IBCS), which will facilitate the optimal pairing and provide 
additional time to prosecute tracks to enhance selective target 
engagement and improve combat identification. The Army PATRIOT force 
remains the cornerstone of AMD protection for our deployed forces, 
friends, and allies.
    Army Integrated Air and Missile Defense (IAMD): As we continue to 
transition from an Army at war to one of deterrence, AMD units remain a 
key strategic enabler. AMD is an enduring Army core function and an 
essential component of our mission to provide wide-area security. In 
addition to providing defense against ballistic missiles, the current 
AMD strategy continues to develop a more comprehensive portfolio of 
IAMD capabilities to provide protection against cruise missiles, 
unmanned aerial systems, fixed and rotary wing aircraft, and long-range 
precision RAM attacks.
    The IBCS remains an Army priority effort and serves as the 
foundation for Army AMD modernization. Modernization is critical to 
stay ahead of the advancement of the threat. The program will field a 
common mission command system to all echelons of Army AMD forces in 
order to defend against cruise missiles, manned and unmanned aircraft, 
air-to-ground missiles, tactical ballistic missiles, and RAM attacks. 
The IBCS network will be capable of coordinating air surveillance and 
fire control across Services and with coalition partners, enabling 
over-the-horizon engagements that provide Joint Warfighters with more 
decision space and time. In 2015, the IBCS successfully executed two 
flight tests. During the March test, the IBCS coordinated the 
engagement of a surrogate tactical ballistic missile utilizing a 
PATRIOT radar and interceptor on the Integrated Fire Control Network. 
In the November test, the IBCS coordinated the engagement of a 
surrogate cruise missile utilizing Sentinel radar data and a PATRIOT 
interceptor. This was a first of its kind engagement with a PATRIOT 
engaging a target using Sentinel radar data. When fielded, in 2019, 
IBCS will componentize the AMD force, breaking the current system-
centric control paradigm, which will dramatically increase capability 
and also facilitate open industry competition in support of the AMD 
community. Additional efforts are currently underway to integrate the 
Army's IBCS and MDA's BMD System Command, Control, Battle Management, 
and Communications (C2BMC) in order to fully support integrated air and 
missile defense interoperability with the ballistic missile defense 
system.
    The IBCS and inherent integrated fire protection efforts will 
provide the future force with a means to defend against cruise 
missiles, unmanned aerial systems, and long-range precision rockets, 
artillery, and mortars. However, the Army must also be trained and 
ready to fight tonight. Recent conflicts, for example in the Ukraine 
and Israel, have highlighted the growing threat of UAS in support of 
tactical operations. This poses an increasing risk to the Army's 
combined arms team who are operating where the strategic and 
operational advantage of highly technical stand-off weapons have 
limited utility. A coordinated effort involving the Army Staff, the 
Fires Center, PEO M&S, and select ASCCs is underway now to investigate 
holistic approaches to enable the Army to fight tonight against these 
emerging threats. The technical options under consideration run the 
gamut from assessing pre-PAC-3 missiles to leveraging older generation 
interceptors in the inventory to opportunities for the acceleration of 
existing AMD modernization plans. Operationally, the team is assessing 
the ability to leverage capabilities of the other Services, as well as 
the integration of allied contributions. Senior Army leaders 
acknowledge that these options may require reprogramming within the 
current Defense plan and await the team's report this summer.
    PATRIOT/PATRIOT Advanced Capability-3 (PAC-3): In support of the 
GCCs increasing air and missile defense demands, operational tempo and 
stress remain high. To meet these demands, reduce stress, and avoid 
adversary overmatch, the Army has implemented a comprehensive 
modernization strategy that replaces PATRIOT's command and control 
hardware while upgrading the radar, launcher, and interceptor 
components through competitive development and procurement. The 
strategy's aim is to increase reliability, drive down operational and 
sustainment costs, in light of an evolving threat. The three 
significant facets of this strategy--the development of IBCS, radar and 
launcher modernization, and the PAC-3 Missile Segment Enhancement 
(MSE), are critical to our Nation's ability to provide GCCs with 
greater strategic flexibility and enhanced capabilities.
    A number of significant PATRIOT/PAC-3 capability enhancements have 
been accomplished over the past year. Among the accomplishments were 
the completion of the Army's planned fielding of Post Deployment Build 
(PDB) 7 software and the modern adjunct processor to all fifteen 
PATRIOT battalions and achievement of first unit equipped with the next 
generation PAC-3 missile, the MSE, two months ahead of schedule. The 
PAC-3 MSE Initial Operational Capability (IOC) is planned for next 
year.
    PATRIOT must continually modernize through PDBs software and 
hardware upgrades to avoid obsolescence and provide initial launch 
capability of the PAC-3 MSE interceptor. As part of this continuing 
modernization strategy, the Army is in the process of delivering the 
next software build, PDB-8. The PDB-8 software upgrade has successfully 
completed three live fire test events, the most current occurring last 
month, and is on schedule to complete developmental testing this year. 
The PDB-8 software IOC is planned for fiscal year 2018, which when 
fielded, will exploit the expanded kinematic capabilities of the PAC-3 
MSE interceptor. The Army continues to move forward with the next 
generation sensor for the PATRIOT system. An analysis of alternatives 
has been completed for the Lower Tier Air and Missile Defense Sensor 
and an Army Requirements Oversight Council review will occur soon.
    Finally, while these Patriot modernization efforts are an 
imperative to retaining an operationally relevant capability and not 
risking obsolescence as threat capabilities seek to outpace the 
Patriot, we still remain committed to balancing modernization with 
operational demand and strategic flexibility requirements. We can point 
to the Army's recent, no-notice, deployment, integration, and 
redeployment of Global Response Force Patriot forces from Ft Bliss, 
Texas to South Korea as evidence of this commitment, and of the 
readiness of the force.
    Terminal High Altitude Area Defense System: THAAD, a key component 
of the BMDS architecture, is designed to defend deployed and allied 
forces, population centers, and critical infrastructure against short 
and medium-range ballistic missiles. THAAD is a high demand, low-
density asset that is mobile and globally transportable. A fully 
operational THAAD battery consists of 95 soldiers, an AN/TPY-2 radar, 
six launchers, a fire control and communications element, a battery 
support center, and a support element. THAAD has a unique intercept 
capability in both the endo- and exo-atmosphere using proven hit-to-
kill technology. There are now four available THAAD batteries. 
Equipment training and fielding is on-going for a fifth unit and it 
will be operationally available next fiscal year. In April 2013, one of 
these batteries conducted the first-ever operational deployment of 
THAAD in response to the escalation of tensions in the Pacific region. 
By 2019, the THAAD force is scheduled to consist of seven batteries. A 
new training facility, which enables virtual training for the soldiers 
who will operate the THAAD system, is operating at Fort Sill, Oklahoma. 
The addition of THAAD capabilities to the Army's air and missile 
defense portfolio brings an unprecedented level of protection against 
missile attacks to deployed U.S. forces, partners, and allies.
    Integrated Fire Control Capability Increment 2 Block 1 (IFPC Inc 2-
1): As the operational life cycle of short-range AMD capabilities such 
as Avenger draw to a close, the Army is developing capabilities to 
defeat cruise missile, UAS, and RAM threats. The IFPC Inc 2-1, 
currently under development, is a mobile, ground-based weapon system 
designed to provide 360-degree protection capability for these threats. 
A block acquisition approach is being used to provide this essential 
capability. The Block 1 System will consist of an existing interceptor, 
sensor, utilize the IBCS for command and control, and the development 
of technical fire control and a multi-mission launcher to support the 
counter UAS and cruise missile defense missions. The Block 2 System 
will develop interceptors, sensors, and technical fire control to 
support the counter RAM mission. The IFPC Inc 2-1 System will be 
compatible with the Army IAMD command and control architecture. The 
IFPC Inc 2-1 System will be transportable by Army common mobile 
platforms and is scheduled to provide IOC capabilities against cruise 
missile and UAS threats in fiscal year 2020.
                               conclusion
    Mr. Chairman and Ranking Member Donnelly, as a member of the Joint 
missile defense community, the Army continues to pursue enhancements to 
the Nation's missile defense system, both at the strategic and tactical 
levels. As a Service, the Army has lead responsibility for GMD, AN/TPY-
2 FBM, IFPC Inc 2-1, IBCS, PATRIOT, and THAAD. Our trained and ready 
soldiers operating GMD elements in Colorado, Alaska, New York, 
California, and from remote, globally deployed locations, remain on 
point to defend the Homeland against a limited intercontinental 
ballistic missile attack. As a force provider to the GCCs, our soldiers 
provide essential regional sensor capabilities and ballistic missile 
early warning. Our regional forces continue to leverage ally 
collaboration and planning efforts in developing integrated and 
interoperable defenses against the various threat sets. USSTRATCOM, 
through the JFCC IMD, continues to integrate BMDS capabilities to 
counter global ballistic missile threats and to protect our Nation, 
deployed forces, partners, and allies.
    While the operational, doctrine, and materiel development 
enhancements of the BMDS are essential, our most essential assets are 
the soldiers, sailors, airmen, marines, civilians, and contractors who 
develop, deploy, and operate our missile defense system. I appreciate 
having the opportunity to address missile defense matters and look 
forward to addressing your questions.

    Senator Sessions. Thank you.
    I believe in order here--let us see. I think Senator 
Donnelly was first on this side. Because he is ranking, he 
would be next. Senator Inhofe and Fischer, Lee--I think you 
were at the beginning of the hearing--and Senator Sullivan. But 
Senator Lee has a conflict, so I am going to yield my time to 
him and we will otherwise be on the same path unless there is 
some suggestion of a change. I know he has got something he has 
got to go to. Thank you for being with us, Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman. Thanks to 
all of you for being here. We are honored by your presence and 
grateful for all you do for us to keep us safe.
    As we look across the array of threats that we face around 
the world, there are two threats that stand out and that cause 
a lot of us to worry. One is ballistic missile attacks and the 
other one is cybersecurity-related threats.
    I am glad all of you are here because you do a lot of work 
in this area, and I am grateful for that.
    Secretary McKeon and Admiral Gortney, I would like to ask 
the two of you some questions about the cost, the cost-benefit 
analysis that we have in this area.
    The United States has spent many tens of billions of 
dollars over the last three decades on missile defenses. It is 
a large sum. It is a sum that has drawn some criticism, and it 
is a sum that, regardless of how you feel about that criticism, 
is one that we have to pay attention to.
    But in much the same way that other technologies like, for 
example, drone technology cost us a lot of money to develop--it 
cost us a lot of money to develop at the outset, but in the end 
has saved us and has even more potential to save us down the 
road a lot of money because compared to other aircraft systems, 
manned aircraft systems, for example, in the long run, we can 
actually save money.
    In the same respect, how and in what respect, to what 
extent could having a reliable missile defense system help us 
save money, save money for the military and for the Government 
over the long haul?
    Admiral Gortney. I guess when you look at the ballistic 
missile threat, there are actually two types of ballistic 
missile threats. It is the theater ballistic missile threat 
that we have servicemembers and servicemembers' families that 
live underneath that threat today. Then we have the ballistic 
missile threat, limited ballistic missile threat, that we have 
designed for the Homeland.
    I think what is important where MDA is moving on the 
technologies is where is there efficiencies to get us on the 
correct side of the cost curve, not just engage in midcourse 
for both those threats, but keeping them on the ground, left of 
launch, having a surveillance to be able to strike them, 
provided we have the rules of engagement to do that, killing 
them in boost phase and then through the midcourse phase. A lot 
of those technologies that you all have provided the funding 
for for the research and development MDA is using. A lot of it 
we will be able to apply to both those particular threats. I 
think that is where we have to really view that is where the 
savings will be because they are different. They differentiate 
by range of a threat, but the technologies to counter them can 
be the same or the necessary technologies can be.
    Senator Lee. Thank you.
    Mr. Secretary?
    Mr. McKeon. The only thing I would add, Senator, I think 
the way we would think about missile defense in a very broad 
sense, both regionally and our Homeland missile defense is it 
is a deterrent against rogue states or nations engaged in 
activity that we disagree with. In addition to our own missile 
defenses, we are encouraging a lot of partners in the Middle 
East and in Asia to acquire missile defenses in the theater.
    For example, in Iran, we are working to counter Iran and 
its missile capabilities. We are working very closely with our 
partners in the Gulf to encourage their acquisition of missile 
defense systems, as well as knitting them together in terms of 
the early warning. That is a deterrent that over the long term 
will save, we believe, money in other respects.
    Senator Lee. Thank you.
    Admiral Gortney, let us talk about North Korea for a 
minute. I would love to get your assessment of where North 
Korea's ballistic missile technology is headed in the next few 
years and then evaluate our ability to keep up with it and 
respond to that.
    Admiral Gortney. The intel community assesses North Korea's 
ability to successfully shoot an ICBM with a nuclear weapon in 
range of the Homeland is low. But as the commander in charge 
that is responsible for defending that Homeland who owns the 
trigger to shoot that down, we do not base our readiness levels 
upon that low probability. We assess--it is the prudent course 
of action as the commander. We assess that he has the ability 
to do that, and we are prepared to engage that particular 
threat today and in the future 24 hours a day, 365 days out of 
the year.
    Eventually we assess that his low probability will 
increase, and that is why the investments to have us outpace 
that technology, his ability to field that capability is 
absolutely critical.
    Senator Lee. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman, and thank you 
all for your service.
    Admiral Syring, based on the current and anticipated threat 
to the Homeland, how would you prioritize where to locate 
additional sensor capabilities to enhance the GMD system?
    Admiral Syring. Sir, we have an ongoing AOA [Analysis of 
Alternatives] in the Department that is looking around the 
world on exactly that question. We will look at areas like 
Hawaii. We will look at areas like the east coast or the 
Atlantic region has gaps that we see in the future based on 
where the threat goes with both Iran and North Korea. But I 
have testified to this committee that sensoring is where we 
need to be, and certainly there are gaps not in tracking and 
classification, but where I see the need for discrimination in 
the future against the much more complex threat that may come.
    Senator Donnelly. Thank you.
    Admiral Gortney, in regards to the prioritization in this 
area, how do you see the threat picture and where do you see 
the necessity for this?
    Admiral Gortney. I am completely in line with my shipmate 
on the other end of the table. You know, we need to make that 
which we have the best we can possibly make it. We need 
improvements in our sensors. We need to continue to test so 
that we have confidence in our weapon system, that the 
operators have confidence in their weapon system, and our 
leadership has confidence in the weapon system. Then we need to 
make those necessary investments to get us on the correct side 
of the cost curve so that we get the best value for it, not 
just the very expensive midcourse solution. That is where MDA 
is moving, and we appreciate your support on that.
    Senator Donnelly. Admiral Gortney, in your view why is it 
important that NORTHCOM have the responsibility for providing 
ballistic missile defense for our country?
    Admiral Gortney. Because I am assigned as the commander to 
defend the Homeland, and with that, that comes with the job.
    Senator Donnelly. Okay.
    Secretary McKeon and Admiral Syring, over the past 10 years 
we have made significant investments in United States-Israeli 
cooperative missile defense programs, including Iron Dome, 
David's Sling, Arrow. I was in Israel last month to review a 
number of these, and I was wondering--and we will start with 
you, Secretary McKeon--how you assess the importance of these 
programs and what benefits we gain from our cooperation with 
Israel on these systems.
    Admiral Syring. Senator Donnelly, our cooperation with 
Israel is part and parcel of a very broad and deep security 
relationship with the state of Israel, and our administration, 
like many before it, has stood with Israel in providing the 
necessary security assistance so that it can protect itself 
against--in a pretty dangerous neighborhood.
    With the R&D work that we do together with them, we 
obviously get some benefit that I think Admiral Syring can 
speak to in a little bit more detail. But we think it has been 
essential--our cooperation with them, and we have seen the 
success of the Iron Dome in some recent conflicts that has 
protected the Israeli people.
    Senator Donnelly. Has it been the concept of this effort 
with the three different system, in effect, layering? Admiral, 
if you would just discuss that for a second.
    Admiral Syring. Senator, thank you.
    I will just pile on to what the Secretary said. The 
importance of those systems, the protection of Israel every day 
just with Iron Dome, and then the fielding soon of David's 
Sling and then Arrow after that will provide them an umbrella 
that I think will be unparalleled in the region and absolutely 
necessary.
    We have had a close partnership and relation with them on 
all their programs with missile defense over the last really--
you know, beyond several years, way back to Arrow 2 in terms of 
the relationship that we have had with Israel and MDA 
specifically.
    I will, if I can, just transfer now to the maturity of the 
programs. We have worked very closely with them on David's 
Sling in particular. This is the mid-tier level. They were very 
successful. We were very successful together in testing last 
year, and we fully support their readiness for production this 
year. Arrow 3, which is the exosystem, similar to where we are 
with that and Aegis in the upper tier, successfully intercepted 
as well last year. They are progressing at a great pace with 
high success rates.
    What benefit do we get as the United States? We get 
tremendous benefit. In terms of the Iron Dome procurement 
dollars that we and you have appropriated, we have asked for 
and you have appropriated and then added to even, have resulted 
in significant work share for U.S. companies. Thirtyfive 
percent of the procurement in 2014, 55 percent of the 
procurement dollars in 2015 go to U.S. companies. To me that is 
of great value to them.
    We also learn a lot from what they have done in terms of 
choosing components and the engineering they have done on their 
interceptors. They have done a fantastic job of achieving good 
performance.
    Senator Donnelly. Are we picking up tips, in effect----
    Admiral Syring. Yes, sir.
    Senator Donnelly.--of better defense of our country from 
the challenges they face?
    Admiral Syring. We absolutely are in the regional area and 
have learned a lot from the performance and the design of their 
interceptors, which is critically important for why you hear us 
say we need the technical data package, for example, for 
David's Sling so we can take that information and use it to our 
advantage for our systems and our interceptors.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Inhofe?
    Senator Inhofe. Admiral Syring, I think that is a great 
answer. I am glad that we are--there are so many people out 
there and they think that we are just--that Israel is always 
the beneficiary of everything that goes on. That is not true at 
all. We have ourselves benefited a great deal, along with where 
would we be in that part of the world if we did not have 
Israel? I am glad we are talking about that, and I think it is 
necessary for all of us to do that continuously.
    Senator Donnelly asked the question, Admiral Gortney, about 
why NORTHCOM--now, your answer is accurate. You said we are 
assigned that and we will get it done. I think the thrust of 
his question was there are a lot of options out there to 
protect the United States. NORTHCOM is one. Is that the best 
one? The question was, I think, you know, why NORTHCOM.
    Admiral Gortney. Because it is attached to a longstanding 
NORAD mission, which is ITW/AA [Integrated Tactical Warning and 
Attack Assessment], which is from the Soviet Union days, make a 
declaration of an attack from the Homeland from an ICBM 
against, in this case, the Soviet threat. We still make that 
assessment today and use that architecture to help assess 
against the rogue nation for the ballistic missile defense of 
the Homeland.
    It nests very well with the headquarters for us to make 
those assessments and to be able to hold the trigger, and we 
are manned, trained, and equipped to do it. We do not have the 
personnel. Soldiers, guardsmen predominantly, run those 
particular things, but they answer to me for the shot decision.
    Senator Inhofe. I was not saying it critically. I just 
wanted to hear so I can answer the question when I am asked.
    Admiral Gortney. Yes, sir.
    Senator Inhofe. Admiral Gortney, you wrote in your 
statement that, quote, our potential adversaries are pursuing 
advanced weapons development not seen in decades. I agree with 
that. We can go on and quote James Clapper and Admiral Stewart 
on their assessments of the threat. It is greater than any 
threat that we have faced before. We have had them countless 
times in our committee hearing.
    But at the last one, when General Stewart ended up 
assessing the threat that we have, General Stewart called it 
the new normal. That bothered me when I heard that. I kind of 
put the interpretation of that on there that do not expect 
anything better. What is your interpretation of it being the 
new normal?
    Admiral Gortney. I think we live in the world we live in, 
not the world we would like to live in. With return to great 
power competition, as described by the Secretary, the 
resurgence of Russia, the evolvement of China, the capabilities 
that both are developing--in the case of Russia, advanced, very 
accurate cruise missiles that can be either conventional or 
nuclear warheads that they have employed conventional from 
aircraft into Syria and from ships and submarines TLAM 
[Tomahawk Land Attack Missile]-like weapons from ships and 
submarines into Syria, when they had no operational or tactical 
utility on the battlefield, according to General Austin. They 
were messaging us that they are fielding these capabilities. 
They are weapons that we have been successfully employing for 
the last 20-25 years. They see great value in them. It changes 
the dynamics. Russia today, if they chose--and I think a very 
low likelihood. Whereas before they developed these weapons for 
long-range aviation, they had to come into our battle space in 
order to employ their weapons.
    Senator Inhofe. They are catching up or in some areas even 
passing us. I got the interpretation of that, we better get 
used to it because that is still happening.
    Now, due to the proliferation of technology and the number 
of countries possessing the ballistic missile capability, it 
continues to increase.
    Admiral Gortney. That is correct.
    Senator Inhofe. We know that. Yet, while that is 
increasing, our budget from 2007 to, I think--here, I have got 
it down here--has declined 14 percent between fiscal year 2008 
and 2017. With the threat that is increasing like that, can all 
of you say that this is adequate? We need to be doing a better 
job in terms of the budget. That is kind of what we are talking 
about in this hearing.
    Admiral Gortney. Clearly, sir. There are tradeoffs between 
the near-term threat and the long-term threat, current threat, 
future threat. That is the choices that we have been forced to 
make given the size of the budget.
    Senator Inhofe. We do not need to elaborate on that. I was 
going to get into something else, but I want to at least do 
this.
    When we were initially starting, the first Obama budget in 
2009, it cut missile defense by $1.4 billion. Now, that was 
when they actually addressed the Czech Republic, which had the 
radar, and Poland in terms of the equipment. I can remember 
being with Vaclav Klaus during that time, and I remember prior 
to that--it would have been the year before this new 
administration--he said, you know, we are willing to do all 
this, but if we do, we are taking a lot of risk in terms of 
alienating even further Russia. He said can you tell me that 
you are not going to pull the rug out from under you. I said 
absolutely, and of course, that is what happened.
    Now we are looking at a new setup. Now, something had to 
replace what we had that down for, which was to protect Western 
Europe and eastern United States, along with increasing from 30 
to 44, I understand, ground-based interceptors. What else is 
being done particularly to take the place of what that was 
designed to protect at the time before it was pulled away?
    Mr. McKeon. Senator Inhofe, you are correct that that 
decision was made in 2009, but the context was that we were 
seeing that the Iranian ICBM threat had not materialized in the 
way that people had anticipated. The near-term threat to Europe 
and our European partners and our deployed forces was an 
expansion of their medium-range ballistic missile programs.
    Secretary Gates has spoken to some of this in his book, his 
own skepticism that the Czechs and the Pols were going to be 
able to--at least the Czechs--carry it forward in their own 
government. We replaced it, as you know, with the European 
phased adaptive approach with a radar in Turkey, some ships 
that are home-ported in Rota, Spain, and then two Aegis Ashore 
sites, one in Romania and one in Poland. The one in Romania, as 
Admiral Syring said, is essentially technically capable and 
will be fully operational this year, and the site in Poland we 
are going to break ground on. We have kept the commitment that 
we made to our European partners.
    Senator Inhofe. Mr. Secretary, my time has expired some 
time ago. I am not going to ask you a question except for the 
record from the three uniforms that are here. Do you feel that 
we adequately replaced what we were attempting to do before the 
change was made in Poland and the Czech Republic? For the 
record, all right? Later, not now.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Sessions. Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chair.
    Admiral Syring, to follow up on the question from Senator 
Donnelly and talk a little bit more about our efforts with our 
partner in Israel, we have made significant investments to 
protect our ally Israel from ballistic missile threats in the 
region. When you look back at the last decade, I think our 
contribution has been over $3 billion to those efforts.
    I was very pleased to see a co-production agreement signed 
for Iron Dome. That is allowing American companies here in the 
U.S. to help manufacture that very important capability. I was 
wondering what the status is of the co-production arrangement 
on Iron Dome and what progress might be being made to 
potentially co-produce other systems in the future, for 
example, David's Sling.
    Admiral Syring. The co-production agreement is in place 
with Iron Dome, and we are achieving the savings that were laid 
out in that agreement. I am confident that any additional 
dollars like the Iron Dome request that we have this year and 
2017 will follow that agreement.
    David's Sling is--those negotiations and drafts are 
ongoing, discussions ongoing with Israel. Our objective is to 
achieve the similar outcome with Iron Dome production.
    Senator Heinrich. Great. Glad to hear that.
    Admiral Syring. I am sorry. With David's Sling production. 
Correction.
    Senator Heinrich. I understood what you meant, not what you 
said.
    Moving on to another issue that I know that Senator Inhofe 
cares a lot about--I do as well--directed energy. Last year, we 
saw the appropriators cut technology maturation funding to MDA, 
effectively delaying further progress of a laser demonstrator 
which would have finally gotten the work out of the lab and 
into flight test of that technology. How important is it that 
that funding be restored in this upcoming year's 
appropriations?
    Admiral Syring. Sir, the critical issue that I have spoken 
privately and publicly to members about over the last few 
months is the support for that demonstration. The ability for 
us to get a low-power laser at, we are thinking, in the 100-
kilowatt range up at altitude to prove the coherency and the 
physics part of the problem, as you are well aware, and to see 
if there is a feasible design, a feasible material solution for 
a boost phase intercept capability.
    We are asking for $278 million, if you look at the out-year 
budget, for that demonstrator between now and 2021. We are not 
asking for a $5.5 billion airborne laser program. We are asking 
for a prototype to go prove the feasibility to give confidence 
to the warfighter that they believe it is feasible and to the 
Department that we believe it is fiscally affordable.
    Senator Heinrich. Well, I think as we see the ballistic 
missile threats that we have all heard talked about here today, 
multiply the number of potential missiles that we could face 
either in theater or intercontinentally continue to increase, I 
think it is going to be more and more important that we look at 
long-term solutions that are actual game-changers like directed 
energy to solve some of those issues.
    Admiral Syring. I agree, sir.
    Senator Heinrich. One last question. This can be either for 
Admiral Gortney or you, Admiral Syring. Two of our foremost 
military leaders, former Chief of Naval Operations, Admiral 
Greenert, former Army Chief of Staff, General Odierno, said in 
a memo that our missile defense strategy was, quote/unquote, 
unsustainable and that ballistic missile threats, quote, 
continue to outpace our Active defense systems, unquote.
    Do you agree with that assessment? What do you make of it? 
What needs to either change or what has changed in our 
capabilities, if you do not agree with that?
    Admiral Gortney. Senator, I was in the meeting that 
generated that particular article. At the time, I was the force 
provider for the United States Navy at Fleet Forces Command 
down in Norfolk.
    The fundamental issue is because of our current strategy, 
we are wearing out our Patriot, soon to be THAAD, and our Aegis 
capable platforms, low-density, high-demand. The threat is 
increasing, and we are on an unaffordable path. Very expensive 
rockets to shoot down maybe not so expensive rockets. That is 
why the necessary investments, the laser being one of those, to 
get us on the correct side of the cost curve, not just relying 
on midcourse kinetic engagement. The whole trying to knock down 
the threats throughout the entire spectrum is absolutely 
critical.
    Senator Heinrich. That is very helpful. Thank you very 
much.
    Senator Sessions. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    If I could follow up a little on what the Senator was just 
asking about specifically with the R&D [research and 
development]. As we look at the R&D budget, it continues to 
decrease. Yet, I think all of us realize the need we have for 
these capabilities in the future. If you are going to look 
long-term, the next 20 years, we are going to need these 
capabilities. Yet, we continue to cut back on that R&D budget.
    Admiral Syring, I would ask you how do we get on the right 
side of this? You are saying, well, it is in the budget for 
this. It is in the budget for that. But looking ahead 20 years, 
you and I both have to say it is not in the budget. What do you 
propose to us? Do we stay headed in this direction? How much do 
you really need?
    Admiral Syring. Ma'am, it is a great question. If I can, 
can I point back to the chart that the chairman showed on MDA 
top line?
    Senator Fischer. Of course.
    Admiral Syring. I came into this job in fiscal year 2012/
fiscal year 2013 time frame. I have been here almost four years 
now.
    If I can just talk about what--let us lift up just a 
second, if we can, in terms of what the R&D is being budgeted 
to and requested for and what we are not doing. I think that is 
the point, Mr. Chairman, of what you are after here in this 
discussion, if I may.
    We came in and everybody knows the sequestration reduction 
that happened, and that is annotated on the chart. But what is 
not shown on the chart in words here is that we made the 
decision in the 2013 time frame to pivot back to the GMD 
program and increase the capacity and capability really of that 
program that had already been fielded several years before. The 
investment here that you see ramping up over these years, 
ma'am, is to that point in terms of improving the GMD 
reliability, getting the radar going in Alaska, improving our 
discrimination capability, and redesigning the kill vehicle, 
which we are not satisfied with its reliability today. That is 
that increase of capability here.
    There was a big, nonrecurring investment actually in 2016 
to add money into the GMD program that had been cut from 
before. I think I have talked to you about this in the past in 
terms of modeling, reliability, stockpile reliability programs, 
things like that that needed to be done to increase the 
warfighters' confidence in the system. All of that got going in 
2016.
    Now let us go to 2017. We actually requested in 2016 $7.8 
billion. When the budget agreement was signed late last year, 
the Department was shorted--not short--it was down $22 billion 
from the top line. My share of that was $300 million. That is 
why you see a request of 7.5.
    Ma'am, if I can just make the point. The last point is, 
okay, what are you not doing? I am continuing essentially four 
new start programs here under this top line and will field them 
in 2020. Now, does that mean that we are done? Absolutely not. 
There are gaps in the system still with radars, sensors, 
directed energy, R&D programs that we are trying to feed at a 
much lower level of funding to go prove whether they are 
feasible or not. I think once we prove that, you will see a 
ramp-up in the request for R&D if we can make the case that it 
is feasible and affordable.
    It is a much different way of looking at it, as let us go 
prove it first and prove to the warfighter, prove to the 
community, prove to the Department that it can be done, prove 
to you that it is feasible before we come forward with a big 
R&D program. There was not one POM 18 [Program Objective 
Memorandum] issue, meaning above the line, that I--I am sorry--
POM 17 issue above the line that I submitted to the Department. 
Not one. To me, that is us being good stewards of the taxpayer 
dollar and being careful on how far we lean into advanced 
technology if it is truly not ready to go.
    Senator Fischer. As we look at our adversaries, if we look 
at China, if we look at Russia and the arsenals that they have, 
if we look at the developing capabilities of the Iranians and 
the North Koreans, how are we going to stack up against them 
when we look out in 20 years?
    Admiral Syring. Do you want me to take that or maybe 
Admiral Gortney from the warfighter standpoint?
    Senator Fischer. That would be good. Admiral Gortney?
    Admiral Gortney. We are designed against the rogue nation 
right now, ma'am, limited capability against North Korea today, 
Iran, should Iran have the capability today. That is what we 
are designed against. I see the investments designed to outpace 
that particular threat. It is not targeted at Russia. It is not 
targeted to China.
    Senator Fischer. Should it be?
    Admiral Gortney. I will defer to the policy----
    Senator Fischer. I knew you would say that. Thank you, sir.
    I see my time is up. Thank you, Mr. Chairman.
    Senator Sessions. Thank you. Good questions.
    Let us see. It is now Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    I thank all of you for your service and thank you for being 
here.
    To General Mann, I am a strong supporter of the National 
Guard and its versatile role in supporting national Homeland 
security especially in the area of missile defense. Knowing 
that one of your responsibilities is missile defense, what is 
your assessment of the National Guard's performance in the 
missile defense operations for the Pacific theater? How are 
they performing?
    General Mann. Sir, you are referring to Fort Greely and 
from Vandenberg, the GBI support that we are providing?
    Senator Manchin. Correct.
    General Mann. Quite frankly, I am extremely pleased. Those 
soldiers who have been doing that mission now for many, many 
years are extremely competent and confident. They take this 
mission very, very seriously. Quite frankly, when we talk about 
the ground-based midcourse defense program, that is different 
from THAAD and Patriot. That is a unique system.
    Senator Manchin. Right.
    General Mann. They bring to the table a unique skill set 
that they have been able to develop over time, and they are 
constantly raising the bar in terms of the level of 
sophistication, the difficulty of the scenarios that they train 
against every day. I am very, very pleased with what the 
National Guard is doing.
    I would also like to say that we are very, very pleased 
with the way the National Guard is supporting a lot of other 
activities in terms of air missile defense over in Europe, a 
lot of different rotations, training rotations that are taking 
place over there, as well as throughout the Pacific. I am very, 
very pleased with them.
    Senator Manchin. I would follow up by saying what is your 
assessment of the future missile defense needs for the east 
coast.
    General Mann. I agree with Admiral Syring very clearly that 
I think what is really key is that we maintain a level of 
predictability in terms of our resources, whether it is this 
administration or going into the future. I think the level of 
predictability is extremely important and making sure that we 
maximize that current capability.
    It is more than just how many arrows that we have in our 
quiver. It really is, at the end of the day, making sure that 
we maximize current capabilities, increasing the reliability of 
those current capabilities as we look into the future. The 
sensor piece is critically important to making sure that the 
numbers that we have, 30 going to 44 GBIs, that we maximize 
that capability to the fullest extent possible. That is what 
that sensor will do for us.
    Senator Manchin. Admiral Gortney, you previously assessed 
that North Korea has the ability to miniaturize a nuclear 
weapon and put it in a KN08, intercontinental ballistic 
missile, and shoot it to the Homeland.
    Based on recent reporting, the South Korean government has 
assessed that North Korea is capable also of mounting a nuclear 
warhead on a medium-range Rodong ballistic missile, which could 
reach all South Korea and most of Japan. Do you share the South 
Korean government's views on North Korea's capabilities?
    Admiral Gortney. Yes, sir, I do.
    Senator Manchin. That is a threat that you said that we are 
prepared to deal with?
    Admiral Gortney. That is correct. Yes, sir, it is.
    I would also like to reinforce the General's comment about 
the great work that the Guard are doing in defense of the 
mission and also the guardsmen who are protecting up at Fort 
Greely. It is the Puerto Rican National Guard that has the 
security force up there.
    Senator Manchin. Are you constricted at all by using the 
Guard or asking for that Guard to----
    Admiral Gortney. No, sir. We have worked through those 
authorities. It works seamless.
    Senator Manchin. It is all seamless now?
    Admiral Gortney. Yes, sir.
    Senator Manchin. Thank you. That is all my questions.
    Senator Sessions. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chair.
    Gentlemen, thank you for all the hard work that you are 
doing for our Nation.
    Admiral Gortney, I just want to follow up and commend you 
on the way you are laying out the threat with regard to North 
Korea. You mentioned low probability with regard to the ability 
to miniaturize a nuclear weapon and hit the continental United 
States. But it is prudent and smart to make to sure that as the 
warfighter, you are ready.
    Let me ask two questions on that. Is it low probability to 
be able to range Alaska or Hawaii, or is it a higher 
probability from the threat assessment? Do you know if there is 
a difference there?
    Admiral Gortney. We do not treat it any differently. They 
are all States. I am accountable to defend them, and we have 
the ability to defend them.
    Senator Sullivan. Great. I am glad that we do not treat the 
noncontiguous States different from the lower 48 States.
    But you mentioned the low probability right now. But in 
your assessment that is unlikely to stay low. Is that not 
correct? It seems like almost every day we are seeing a news 
story about ICBM engines and other things being developed. Is 
it not prudent to assume that that low probability is going to 
morph into moderate or maybe even high within the next 5 to 10 
years?
    Admiral Gortney. Yes, sir. The reason the intel community 
assesses this as low probability of success is they have not 
seen the tests occurring. However, as the Secretary talked 
about, the TD-2 shows that they have the capability. You put 
that capability with a road-mobile capability with the right 
engines with designing a reentry vehicle with a nuclear weapon 
and a miniaturization, it is only a matter of time before they 
put it together. That is why we watch their test efforts so 
closely because although they have not done the end-to-end 
test, which we would do, they may not be compelled to wait for 
that end-to-end test.
    Senator Sullivan. Let me ask actually, since you brought up 
the issue of testing, with regard to the GMD, Admiral Syring, 
General Mann. In your testimony, you actually emphasized the 
importance of testing our system. How often do we test our 
system, and what are the benefits? Do we need to budget more 
resources to testing our system?
    Admiral Syring. Sir, we are on about an annual test 
cadence, and that can be 10 months. That could be 14 or 15 
months depending when the range is available and when it fits 
in. More importantly, when do we need to test to field a 
capability? A GMD test is very expensive, very intrusive. We 
take up the entire Pacific with the targets that we need to 
launch and the interceptor that is launched from Vandenberg. We 
are testing at a rate that----
    Senator Sullivan. Given importance, though, I think most 
Americans would recognize that a little bit of inconvenience in 
that regard is okay.
    Admiral Syring. Yes, sir, and they do. We are never 
hindered by that.
    But there is a lot of engineering and analysis that you do 
before a test, and then you execute the test and then there is 
post-analysis.
    The test sequence and cadence that we have in our test plan 
that will be signed and has been signed in the past by me and 
Dr. Gilmore has this very detailed mapping to what requirements 
do we need to test and when. We will test against an ICBM this 
year. We will actually salvo test against an ICBM next year, 
and then we will start testing the new kill vehicle in a 
controlled flight and then an intercept flight the following 
year. Given the development that is going on specifically with 
RKV, we are absolutely at the right cadence for that testing 
between now and 2020.
    Senator Sullivan. Do you agree with that, General Mann?
    General Mann. Yes, Senator. We work very, very closely with 
MDA. In fact, the master test plan is coordinated with all the 
services to make sure that we are in agreement. We feel that 
the test cadence right now is appropriate. I would like to 
commend MDA for the fact that we are really looking at 
opportunities where we can test out multiple platforms, whether 
it is Aegis or THAAD or Patriot. There is a lot of very, very 
close coordination that goes on between the services, as well 
as with MDA.
    Senator Sullivan. Thank you.
    Admiral Syring, you know, I have often talked about my 
state being the cornerstone of America's missile defense. I 
know you were recently up in Alaska, and I apologize for not 
having the opportunity to accompany you. But I am wondering if 
you could provide any insights or observations from your time 
at Clear and Fort Greely and some other locations. I would love 
to, in another setting, get a download from you on your trip. 
But any that you care to offer the committee and educate all of 
us on Alaska would be welcome right now.
    Admiral Syring. Yes, sir. We went to all three. We went to 
three areas. We went to Kodiak. We went to Clear and we went to 
Fort Greely. I talked to the community about the radar that is 
coming to Clear, which will be fielded by 2020, took their 
questions. Very supportive of what we are doing.
    But more importantly for me and the military and Admiral 
Gortney is the strategic importance of that radar in the middle 
of the state and what it will provide him in the future for 
this discrimination capability that is absolutely required to 
stay ahead and keep our advantage against the threat that we 
see coming. The strategic location of Alaska is why we are 
there. Very important.
    I think General Mann talked about Fort Greely. I am a 
material developer, support part of that with Admiral Gortney 
and General Mann. Great work going on there.
    Then finally, down at Kodiak we visited the range facility 
down there for future test opportunities that we might see 
coming and is there a way to more affordably test in the future 
there, for example.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Very briefly, Admiral Syring, for Senator Sullivan's 
benefit perhaps, but why is geographically Alaska a special 
place for missile defense?
    Admiral Syring. Sir, I will try to keep it unclassified, if 
I can. I will get kicked under the table. But the trajectories 
that we are concerned about make it an ideal spot for the 
threats to Alaska and to the United States and to Hawaii.
    Senator Sessions. Thank you.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Admiral Syring and perhaps for the Secretary as well, would 
we be adding capabilities that would be significant by 
deploying THAAD in South Korea and/or Aegis? Mr. Secretary, the 
policy implication is how would China react to such?
    Mr. McKeon. Senator King, as I think you probably know, we 
have announced that we have opened consultations with our 
Korean partners about deploying THAAD to the peninsula. We will 
engage in discussions about a possible site before we reach an 
announcement. The purpose of the THAAD battery would be to 
protect our deployed forces in Korea and our partners in Korea. 
It is not about China. It is not a threat to China, and we have 
made that plain to them and offered to explain it to them.
    Senator King. Have we had any reaction from China?
    Mr. McKeon. They are not happy about it, but we have tried 
to reinforce the point that it is not about them. It is about 
our deployed forces.
    Senator King. I wanted to go back. We have talked about 
directed energy. I am really disappointed that that seems to be 
falling off the budget table when to me it is pennywise and 
pound foolish. Directed energy would be a lot cheaper, if it 
works, than sending a rocket up every time. You are nodding.
    Admiral Syring. We have been trying to get the directed 
energy program ramped up in past budget requests, and I just 
ask for the support this year.
    Senator King. Well, you will certainly have it from myself 
and I think others because that is the next technological 
development, and it would be a lot less expensive and perhaps 
even more effective.
    What about sensors? When we have had these meetings before, 
that has been a high priority. Is that on track? Do we have 
sufficient sensor technology, and is it placed in the right 
place? Is that something that needs to be upgraded?
    Admiral Syring. The first step in that discussion was what 
we did in Alaska, Senator, in terms of your support for that 
and that radar and its strategic importance for the threat from 
North Korea and a much more complex threat than they even have 
today that we are planning for.
    There are other gaps in the sensor architecture that we are 
looking at, and the Department has looked at many different 
alternatives for both radar sensor locations and space sensor 
options. It is both radars and space that will be required for 
the future.
    Senator King. I cannot help but notice. The reason I was 
late to this hearing, we had a Seapower Subcommittee going on 
in the next room where I am sure if Senator Wicker were here, 
he would also want to point out that the Aegis is one of the 
key elements of this whole system, which happen to be--we are 
very proud--built in Maine and Mississippi. Do you see more 
deployment of the Aegis Ashore capabilities, or where does that 
stand? We are sort of testing it in several places. Is that 
right, Mr. Secretary?
    Mr. McKeon. Senator, we have just completed the site for 
Aegis Ashore in Deveselu, Romania, and that will be operational 
later this year. We are going to break ground in Poland and 
finish that by the end of 2018. We do not have any other plans 
or requirements for Aegis Ashore at the moment, nor have we had 
any requests for it from foreign partners.
    Senator King. But it is a nice capability.
    Mr. McKeon. It is a nice capability and it is advancing. We 
will put a more advanced missile in the site in Poland that is 
still under co-development with our partners in the Government 
of Japan.
    Senator King. You mentioned the Government of Japan and 
Poland. How are our allies contributing to this process, much 
of which is designed to defend them? Are we getting cooperation 
and money from our allies on these systems?
    Mr. McKeon. Well, in Japan, they are investing quite a bit 
on the co-development of the standard missile 3-2-A, and they 
have got their own Aegis capable ships. We have put a couple of 
radars there, the TPY-2 radars. In Europe, Romania and Poland 
are, obviously, offering and contributing the sites. Turkey is 
hosting a TPY-2 radar. The Spanish Government is hosting our 
Aegis BMD ships in Rota. Then other governments are 
contributing in different ways. The French have their own 
system. Other NATO partners have Patriots and have deployed 
them in Turkey. I cannot say that all 28 NATO partners are 
contributing to NATO missile defense, but many of them are.
    Senator King. Admiral Syring, I could not hear the full 
exchange with Senator Heinrich. Is the Iron Dome completely 
built here or is it partially? What is the deal with Israel on 
Iron Dome and David's Sling?
    Admiral Syring. The co-production agreement had 35 percent 
work share for the United States in fiscal year 2014 and 55 
percent in 2015.
    Senator King. A growing share of the work is to be done 
here.
    Admiral Syring. That is correct, sir.
    Senator King. That system has been effective. Has it not?
    Admiral Syring. Very effective. I will not go to the 
percentage, but very effective.
    Senator King. Yes. I had a son in Israel during the war two 
summers ago, and I appreciate the effectiveness. He was in 
Ashkelon right adjacent to where those rockets were coming 
from. I know from his observation that it was an effective 
system. I congratulate you and thank you for that.
    Admiral Syring. Yes, sir. As will David's Sling and Arrow 
as well, the follow-on systems after Iron Dome. Their testing 
has been extremely successful.
    Senator King. Is it fair to say that we are gaining 
important insights and experience from that relationship on 
those weapon systems?
    Admiral Syring. Yes, sir, absolutely, not just the weapon 
interceptor itself, but we have learned a lot on what they are 
doing with targets as well.
    Senator King. Thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator King.
    On the Israel question, what was the President's request 
this year? What did we do last year? How many million? What was 
the President's request this year and the President's request 
last year?
    Admiral Syring. Sir, I will talk about numbers I think from 
the top of my head. I asked for--if I am not right, I will 
correct it for the record. But last year, it was roughly $150 
million we requested. What was appropriated and enacted was 
$488 million.
    This year, we requested just under $150 million, and there 
are requests on the Hill that total almost $600 million.
    Senator Sessions. Well, that is quite a contribution to the 
effort. I hope we are working together to gain benefit from 
that. I know we are some.
    With regard to the question of--Secretary McKeon, I think 
it was a good question about contributions of Japan. They have 
got a big economy. The European economy is bigger than ours, 
and their population is bigger than ours. In Rota, Spain, they 
host our ships but it is quite an advantage to them 
economically. I would like to have that fort in Alabama. It 
would be good for our economy.
    There is no doubt about it. There is a growing feeling that 
our allies need to contribute more to the mutual defense of 
what used to be called, I guess, the free world. How do you 
think about that?
    Mr. McKeon. Senator, in a broad sense, we certainly agree 
with you. Our NATO partners have made new commitments to 
increase their defense spending at the Wales Summit in 2014 and 
set targets on both percentage of GDP [Gross Domestic Product] 
that they are supposed to try to hit and investments in R&D. 
Many of them are lagging. That is a fact. I am not going to try 
to sugar-coat it. There is only a handful that have reached the 
two percent of GDP target. The important thing is the trend 
lines are going in the right direction in terms of NATO 
spending by countries, although the financial stress is hitting 
many of them because different countries, particularly in 
southern Europe, have been undergoing significant economic 
disruption like Greece and Italy.
    I should have also said in response to Senator King's 
question, there are a lot of countries in the Middle East that 
are investing in missile defense, the Saudis, the Emiratis, the 
Kuwaitis. They are doing their share in contributing to the 
regional missile defense. We are working to try to encourage 
both them acquiring systems but also cooperating together, and 
that will be the topic of a meeting next week in the Middle 
East. The President is convening a second round of what he 
called the Camp David Summit last year. Secretary Carter will 
have a meeting with his counterparts the day before, and 
missile defense will be one of the issues on the docket.
    Senator Sessions. Well, just to summarize that, we have 
heard this song before. When I have asked questions for the 
last decade and others have, they say the Europeans are getting 
better and they are going to do better. But basically the trend 
line has been negative. Germany is at 1.1 percent I think of 
GDP. They have the strongest economy in Europe. It is a very 
problematic thing.
    It goes beyond even money. It goes beyond how do you have a 
right to demand that we defend Europe when Russia is not on our 
border? You want us to pay two-three times as much as you do.
    Anyway, we have discussed that with the NATO leader last 
week, and I thought it was a healthy discussion and exchange. 
But it is not a little matter, and it is not going to go away 
anytime soon.
    Let me ask you maybe, Admiral Syring--any others that would 
like to comment. The President's budget includes money to build 
a long-range discrimination radar in Alaska.
    The Missile Defense Agency analyst also concludes that, 
quote, additional missile defense sensor discrimination 
capabilities are needed to enhance the protection of the United 
States Homeland against the potential long-range ballistic 
missiles from Iran. Close quote.
    Congress in 2016 directed deployment by December 31st, 2020 
of a long-range discrimination radar or other appropriate 
sensor to support the defense of the Homeland against Iran. 
That is in a mandate.
    While MDA is examining locations best suited for future 
deployment of this advanced discrimination radar, there is no 
funding in that whole five-year spending plan budgeted for such 
a development and deployment, nor has Congress received a plan 
from MDA to meet the deployment deadline as directed in section 
1684 of the act.
    The administration opposed an east coast ground-based 
interceptor site, and we had a big discussion about that and 
acquiesced in that determination. I think it was your 
recommendation we did not need another site. But we did, I 
think, agree that we needed an increased discrimination on the 
east. If we need it for Alaska, do we not need it for the east 
coast?
    How would you respond to that?
    Admiral Syring. Sir, I will respond that we are, obviously, 
very well aware of language that came in the NDAA [National 
Defense Authorization Act] last year. We have started the work 
on siting and looking at the options in terms of where SBX 
[Sea-based X Band Radar], for example, can be home-ported. In 
the follow-on analysis, where are the sites on the east coast 
that could help in terms of sensor capability? Sir, that work 
is going on in parallel with the Department's work that has 
gone on the sensor AOA [Analysis of Alternatives] worldwide, 
and I can tell you this point of what are we going to do with 
an Atlantic radar is part of that discussion.
    It is true today that there is no money in the 2017 budget, 
but I think you will see the Department come through this 
question before 2018 comes over on what are we going to do to 
meet the intent of the language to include a discussion, sir--I 
will let Admiral Gortney jump in here--on what is his ability 
to surge SBX if the Iranian threat did escalate.
    Senator Sessions. It is problematic that there is no money 
in the whole five-year plan. Admiral Gortney?
    Admiral Gortney. Yes, sir. We have the ability to move SBX 
if we need it. But the higher priority right----
    Senator Sessions. Now, the move of SBX--this is not the 
Alaska----
    Admiral Gortney. No, sir.
    Senator Sessions. This will be a new system. This will be 
the one that was in Hawaii.
    Admiral Gortney. This is what is on a very large oil 
platform that was built in Texas and we moved on a heavy-lift 
ship to Hawaii. Should we need, if the threat demanded that we 
needed a site before the study is completed and we put a site 
in, we would be able to maneuver--move SBX to the other coast. 
But right now, the priority is to keep it where it is focused 
on North Korea today.
    Senator Sessions. Senator King, you wanted to follow up.
    Senator King. Yes. We have learned in hearings over the 
past year of a growing anti-satellite capability. I guess the 
question I wanted to ask is to what extent do all these systems 
rely upon satellites because in a war or a hostility situation, 
one of the first things that is going to happen is there is 
going to be a diminution of our satellite capability. You 
understand the question is if satellite capability is 
compromised, does that compromise the underlying effectiveness 
of these various systems or are there alternatives? Admiral 
Gortney, do you want to take a crack at that?
    Admiral Gortney. Sir, I am afraid to do it in this forum. I 
need to come to you in a classified forum and talk to that.
    Senator King. That is fine. Thank you.
    Mr. McKeon. Senator King, the one thing I would say about 
that is, as you may recall, in last year's budget we 
significantly increased our investment in protection of our 
satellites and other investments in the space domain. We are 
very focused--the Secretary and the Deputy--in a big way about 
these investments, and we have sustained them in fiscal year 
2017. We are well aware of the issues that you are raising and 
making the right investments for it.
    Senator King. I am aware of what you are talking about. I 
just want to be sure--for want of a nail, the shoe was lost. 
For want of a shoe, the horse was lost. You know where that 
ends. We will discuss that in another setting. Thank you.
    Senator Sessions. Thank you, Senator King. I think that is 
critical.
    I believe we have got Senator Donnelly and Sullivan. We 
will not go in a full round, just ask questions as you feel 
appropriate.
    Senator Donnelly. Two real quick questions.
    Admiral Syring, are you comfortable with the level of risk 
MDA is balancing in order to meet deadlines set in law for 
programs like MOKV [Multi-Object Kill Vehicle] or an additional 
sensor to deploy off the east coast?
    Admiral Syring. Sir, an MOKV--we are putting those gates 
together in terms of where do we think the knowledge points are 
over the next year to prove where we need to be for a full 
program. We do not have a full program requested for an MOKV 
yet. Until I work through that and see where the companies are 
at level of maturity over the next 12 to 18 months, that will 
help me get my mind around when are we ready and what is the 
schedule for it.
    Senator Donnelly. Then lastly, Admiral Gortney, when I 
talked to the Chinese, they talked about how little influence 
they have over North Korea, that it seems to be getting less in 
their mind. I am wondering how much of that is fluff and how 
much of that is real. I was wondering if you could fill us in a 
little bit.
    Admiral Gortney. I think it is safe to say that the 
influence that China used to have they no longer have with the 
current leader. At this level, I would like to leave it at 
that.
    Senator Donnelly. Thank you.
    Senator Sessions. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chair. Just two quick 
follow-up questions.
    One is kind of a broader on really education for the 
committee and those watching. We talk a lot in acronyms and 
technology.
    Admiral Syring or Admiral Gortney, can you describe, 
particularly given the North Korean evolving threat and even 
the [ICBM] intercontinental ballistic missile pursued by the 
Iranians, why the LRDR [Long Range Discrimination Radar] makes 
sense and why that is so important strategically for the 
country, what that is doing in really kind of a follow-up to 
the chairman's question on that issue? That is one.
    Then I will ask a final one after that.
    Admiral Gortney. It is absolutely critical, and it is why 
Admiral Syring's investments in sensors is so important. One of 
the ways we are going to achieve getting on the correct side of 
the cost curve is to drive our effectiveness up. With better 
sensor discrimination, I may have the ability to shoot fewer 
missiles, or as the threat evolves, I will have a better idea 
to discriminate what the threat is doing, what a maneuvering 
warhead is doing to then drive the probability of kill of our 
existing warheads. You cannot kill what you cannot see, and we 
need to see better.
    Senator Sullivan. It drives up our ability to kill any 
incoming missile?
    Admiral Syring. Both simple and complex.
    Senator Sullivan. Looking at the budget request, from what 
I can see, there seems to be about a $74 million shortfall in 
the BMD midcourse defense account where last year, the 
President's budget was expected and where PB-17 is today. Am I 
reading that correctly? If so, what accounts for that 
shortfall?
    Admiral Syring. The request was down slightly from last 
year from what we were expecting in 2017. Part of that was 
driven by part of the share of the $300 million cut that flowed 
down. It took part of that in that line.
    Also, I would say, sir, there were refined estimates from 
the companies on what it would take to do what they are going 
to do. Obviously, we do not do 100 percent of everything that 
is offered. This is a matter of what do we need to do to do the 
mission-critical work that is important for the program.
    Senator Sullivan. That budget shortfall is not something 
that you or we as the oversight committee should be concerned 
about?
    Admiral Syring. No, sir. We and you have adequately funded 
the GMD program with a big nonrecurring spike last year, and 
all of those efforts are ongoing this year. I am comfortable 
with where we are.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Sessions. Mr. Secretary, so the first chart again 
shows a 14 percent overall decline in funding for MDA.
    If you will put back the second chart there. This chart 
reflects an additional troubling trend in that in 2008, 98-99 
percent of the budget went to R&D, whereas in 2016, that number 
had dropped--2015 it went up a little in 2016 and begins to 
drop again in the five-year submission we got this year. It 
dropped down to 19 to a little over $5 billion there, which is 
a little more than half. You drop about 40-45 percent of your 
R&D spending.
    Tell us what is happening. First of all, MDA originally, 
Admiral Syring, was not designed to be a procurement agency. It 
was designed to produce the technology that would be paid for 
by the services who would use it. Is that correct?
    Admiral Syring. That is correct.
    Senator Sessions. Now you are purchasing some of it.
    What I had not ascertained fully was a lot of that is 
coming out of your R&D budget. That is a pretty troubling 
thing. What does that put us on track for for the next several 
years, the next five years?
    Admiral Syring. Mr. Chairman, I was just thinking the 
answer. Let me just provide, I think, some context because I 
have studied the exact problem in terms of we are absolutely 
spending more on procurement than R&D, and there is certainly 
much less than there used to be.
    What I have done, for historical context, is gone back and 
looked at the 2005-2010 time frame when everything in MDA was 
R&D, including the fielding of the entire ground-based 
midcourse defense system. What we have done with that and Aegis 
in particular is done the R&D and now shifted those to 
procurement. That is why you see----
    Senator Sessions. Now you would say that you probably 
incorrectly included the deployment on the system in Alaska as 
R&D when it really was procurement?
    Admiral Syring. Sir, I was not here. We had a mandate and 
had the charter to deliver capability as soon as possible from 
the President to get this in the ground at light speed.
    Senator Sessions. I remember that. The deal was, Senator 
Sullivan, that North Korea proposed a threat, and we decided to 
accelerate the process to actually get these things in the 
ground. We believed they would work and we would prove it as 
time went by. I think it would have worked had we had to use it 
at that time. I think it is probably more effective today than 
then.
    But anyway, so how do you explain this now?
    Admiral Syring. There was also a big airborne laser program 
in that R&D as well that never fielded. It did its mission. It 
proved that we could shoot down a ballistic missile with a 
laser. But that did not become a program. That was R&D.
    There are some big drivers here in terms of where that R&D 
went prior to when you start seeing the blue. What you see here 
is you see us finishing the design, finishing the testing of 
the SM-3 and now procuring it quickly because there is a 
regional combatant commander requirement that they need ships, 
they need missiles, they need batteries, they need missiles for 
THAAD. That is what has happened. Certainly the programs that I 
spoke about are going to be negotiated with the services on 
when do I transfer--which is the question. When do I transfer 
these programs to the services similar to what I did with 
Patriot? That is the question.
    General Mann. Senator, I would like to add, speaking for 
the Army, we are in consultation with MDA on the transfer of 
some of these different programs just to make sure that MDA is 
able to get after exactly the emphasis that you alluded to. We 
are working closely with MDA on how we can transfer some of 
this, when appropriate, to the Army.
    Senator Sessions. Briefly before I go to Senator Sullivan, 
what programs are on track to be transferred from MDA to the 
Army or other services?
    General Mann. Right off the top, THAAD is one of the 
programs that we are looking at and also----
    Senator Sessions. THAAD is included in the MDA budget now?
    Admiral Syring. That is correct.
    General Mann. Yes, sir. As well as the TPY-2, those sensors 
that we have globally we are looking at. Right now, some of 
those are manned by contractors, and as we put in place life 
support capabilities, we will transfer that to soldier-run. 
That will also be assumed by the Army.
    Senator Sessions. Senator Sullivan?
    Senator Sullivan. Let me just ask one more follow-up 
question related to the chairman's question. In that chart, 
very simple, which is should our missile defense budgets be 
flat or really going down when there is no doubt that the 
threat is going up. I will pose that to all four of you. It 
seems to me we have no doubt the threat is increasing. I 
appreciate what the administration was focused on with kind of 
a rapid deployment. But right there, you are looking at either 
a declining budget or at best a flat budget, which does not 
seem to make sense.
    You know, Admiral Gortney, your testimony, which I really 
appreciate--you were talking about staying in front of the 
curve. But I am not sure that is staying in front of the curve 
when we know the threat side is going like this.
    Senator Sessions. Could I just follow up with that? The 
fiscal year 2017 MDA budget request is $300 million below what 
the President anticipated last year in the 2016 5-year budget. 
This is about $300 million, Secretary McKeon, less I believe 
than what we anticipated last year would be the President's 
request.
    Admiral Gortney, I will let you answer that question.
    Admiral Gortney. I am out of my lane a little here since I 
am lucky enough to only own the trigger.
    But I think what you are seeing up there is reluctance of 
investing dollars against the capability using the current 
technology that we are using, that even though we are investing 
in it and we are investing dollars, capability, platforms, 
burning up OPTEMPO, PERSTEMPO of the low-density, high-demand, 
it is not able to outpace the threat.
    Senator Sullivan. But if that were the case, would we not 
still want an increased budget and maybe have you weighted 
towards R&D? Right there, that is just all----
    Admiral Gortney. I am in vehement agreement with you, sir. 
But I am just trying to explain why I think we are seeing what 
we are seeing because on our current process, our current 
strategy, the current technology lacking the R&D investments 
that MDA is making to see if we can get on the correct side of 
the cost curve, reliability, better sensors, multi-object kill 
vehicle, an airborne laser that really works would make those 
dollars more effective. I am just saying I think reluctance to 
fund a program correctly, given the technology that we are 
using. I am not sure if I am articulating it clearly.
    General Mann. Senator, if I could just add to this. In 
addition to new technologies in R&D investments and whatnot, I 
think it is important that we note that we are also looking at 
current capabilities and what can we do to maximize the current 
fleet that we have on the team, whether it is Patriot, the 
Patriot modernization plan. It is more than just leap-ahead 
technologies. Yes, we are focused on that, but we are also 
trying to make sure that we are looking at the current 
capabilities and how can we make that even more effective. We 
talked about the sensors, the sensor upgrades, the 
discrimination side of the equation. I think it is important 
that we recognize the fact that it is more than just new R&D 
programs. It is also how can we be more effective with what we 
have already.
    Senator Sullivan. Mr. Secretary, Admiral, any final 
thoughts on a declining or flat budget and a clear, increasing 
threat?
    Mr. McKeon. I would say a few things, Senator Sullivan.
    First, stepping back and looking at the overall DOD budget 
over the last six to eight years, there has been a decline due 
to the change in the fiscal environment and the limits of the 
Budget Control Act [BCA]. I do not know the number off the top 
of my head, but I think the last budget Secretary Gates 
submitted around 2011 or 2012 projected an over $600 billion 
budget for the Pentagon in fiscal year 2016. Our base budget 
last year was $520 billion.
    Senator Sullivan. I think there is no doubt that the 
Congress and the BCA were part of the issue. But I do not think 
that is what is driving that chart right there.
    Mr. McKeon. Well, sir, in terms of the overall top line, I 
think across the Department, every program has suffered a 
little bit because of the BCA limits and we are still staring 
at them out in the out-years of our current FYDP. You all have 
given us a couple years of relief under last year's agreement, 
but in 2018 to 2021, we have got $100 billion in our program 
that is $100 billion above the BCA limits. We are very worried 
about that in a broad sense.
    Senator Sullivan. Some of us are as well too.
    Mr. McKeon. Yes. No, I appreciate that.
    Secondly, I would say we are not only thinking about 
terminal defense of our ground-based midcourse systems or 
Terminal High Altitude Area Defense [THAAD], as we have talked 
about, we are looking at new technologies and other 
capabilities militarily in addition to missile defense to deal 
with the threat of missiles from either North Korea or Iran. 
Some of that we would have to talk to you in a different venue 
about.
    Then the last thing on the procurement I would talk about a 
little is MDA has different procurement authorities to buy 
things faster than the services. Now, you could obviously give 
the services acquisition authority for missile defense that 
would speed things up if we were to shift procurement to the 
services, but I think part of the reason you see a lot of that 
procurement that MDA has done is because they have got this 
faster acquisition authority that was a demand signal from both 
the President and the Congress.
    Admiral Syring. Senator, I would just reiterate that this 
is today, and we are into some very important concept studies 
right now with directed energy in particular and the importance 
of that demonstrator to get going to inform a much wider, more 
expansive R&D program. That is one example. MOKV, the multiple-
object kill vehicle, is very important for us to get through 
the next 12 months on feasibility from the contractors, and 
then the R&D requests will go up. There are things here on the 
technology side that you will see come. The last one would be a 
space-based system of some sort to help us with tracking and 
discrimination worldwide.
    There are R&D programs that are not shown here yet that we 
will, through the Department, work and come forward with as 
they compete with everything else in the Department. But this 
is not the end. I do see the R&D requests for the future of MDA 
ramping up once I am to the point of proposing mature concepts 
that I know will deliver on time and within the budget that we 
have.
    Sir, I think it is a shift for us in terms of--Mr. 
Chairman, you made the point of deliver a capability very fast 
with what we were given back in the 2000-2005 time frame, and 
we did that. They put interceptors into the ground.
    Today I do not--and I endorse entirely the threat on where 
it is going. At the same time, we as the program executors must 
be very careful about just throwing money at the problem and 
must be very deliberate on maturity of the technology and the 
progression of the system engineering and the architecture and 
the component testing and analysis that supports a program 
before I bring it forward and ask for billions of dollars. That 
is where we are at. It is not decades away, sir. It is in this 
FYDP that we will be to the point to make the case to the 
Department and make the case over here on the next technology 
in many of the areas that we talked about.
    Senator Sessions. All right. Well, thank you.
    One more question on the airborne laser system. Will you 
have sufficient money this year to do what you would like to do 
with regard to advancing that program?
    Admiral Syring. Sir, the request that we have on the low-
power laser demonstrator, if supported, will get us started 
down that path to do a competition for that platform in 2017. 
Then some partner will win. Two partners will win. We will 
down-select one eventually, and we will get to a flight in 2020 
with a final demonstration in 2021.
    Senator Sessions. All right.
    Thank you very much. It has been an excellent afternoon, 
and we value your insight and professionalism.
    We are adjourned.
    [Whereupon, at 4:07 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe
                        directed energy weapons
    1. Senator Inhofe. How can directed energy weapon systems be used 
to improve our missile defense capabilities?
    Mr. McKeon. The Missile Defense Agency is working to deploy lasers 
on high altitude, long endurance unmanned aerial vehicles (UAV) to 
acquire, track, and eventually destroy threat ballistic missiles in 
boost phase of flight. When successfully demonstrated and fielded, in 
many operational scenarios, a UAV-borne laser would be able to engage 
an enemy missile at a much lower cost than existing Ballistic Missile 
Defense System interceptors.
    Admiral Gortney. Directed energy weapon systems could help enhance 
our layered approach to missile defense and increase our overall level 
of effectiveness. Equally important, these systems could help get us on 
the right side of the cost curve.
    VADM Syring. MDA's overall vision is to shift the calculus of our 
potential adversaries by introducing directed energy into the BMDS 
architecture. This could revolutionize missile defense by dramatically 
reducing the role of interceptors. Our vision is to add high altitude 
airborne and/or space-based sensors into the BMDS architecture that can 
acquire, track, and discriminate ballistic missile targets.
    In our effort to mature laser technology for missile defense, we 
awarded five contracts with key aerospace partners to produce concepts 
for an airborne low power laser demonstrator. We will use these 
concepts to guide our requirements for the follow-on competitive design 
contracts in fiscal year 2017. The airborne low power laser 
demonstrator supports demonstrating the concept of a UAV-borne solid 
state laser in realistic flight environments in the 2021 timeframe 
capable of acquiring, tracking, and eventually destroying an enemy 
missile at a lower cost than the existing BMDS.
    Additionally, the Agency is exploring two promising high-energy 
laser candidates for a potential future operational capability--the 
Diode Pumped Alkali Laser system and the Fiber Combining Laser system--
using a system of engineering knowledge points to measure progress. In 
the 2025 timeframe, our goal is to integrate a compact, efficient, high 
power laser into a high altitude, long endurance aircraft to engage 
targets in the boost phase.
    LTG Mann. Within a regional theater of operations, a mobile, 
ground-based high energy laser weapon system capable of acquiring, 
tracking, and destroying low-cost, highly-proliferated rockets, 
artillery, and mortars and unmanned aerial systems is a recognized 
necessary capability. The Army is developing a High Energy Laser 
Tactical Vehicle Demonstrator that employs precision application of 
energy to deliver a low-cost-per-kill capability against these common 
threats. A tactical platform vehicle is being considered for inclusion 
into the Indirect Fire Protection Capability (IFPC) program.
    Regarding intercontinental ballistic missile threats, a directed 
energy weapon system could provide intercept capabilities during boost 
phase, while complementing kinetic energy capabilities and potentially 
reduce the cost of intercepting ballistic missiles. A directed energy 
weapon system for ballistic missile defense applications will require 
significantly greater power levels and high altitude platforms. The 
Missile Defense Agency is pursuing directed energy development 
activities against long range missile threats.

    2. Senator Inhofe. Are current funding levels sufficient to develop 
and rapidly field these weapons systems in support of our missile 
defense requirements?
    Mr. McKeon. Yes. In the fiscal year (FY) 2017 Budget, the Missile 
Defense Agency (MDA) requested $71.8 million in Weapons Technology to 
continue development and testing of the high-powered directed-energy 
program to build the foundation for the next-generation unmanned aerial 
vehicle (UAV)-borne laser system. In its effort to mature laser 
technology for missile defense, MDA continues to partner with industry 
to produce concepts for an airborne low-power laser demonstrator. MDA 
will use these concepts to guide requirements for the follow-on 
competitive design contracts in fiscal year 2017 under the Technology 
Maturation Initiatives program element.
    Admiral Gortney. It is my understanding that development of 
directed energy capability remains a priority for the Missile Defense 
Agency (MDA). MDA is leading this effort and I recommend contacting 
VADM Syring for a detailed explanation of directed energy capability 
development and funding plans.
    VADM Syring. MDA's PB17 request provides adequate funding for 
directed energy weapon research and technology maturation. MDA is 
working to lay the technological foundation for the next generation 
laser system integrated into a high-altitude platform capable of 
defeating advanced threats and raids at a much lower cost per kill than 
existing missile interceptors. MDA's research and development of 
directed energy is structured to incrementally demonstrate required 
components through disciplined technology maturation. It is critical to 
achieve size, weight and power knowledge points in our laser research 
and development to inform future investment and planning. Just as 
importantly, we must work with industry to integrate and test laser 
systems beam control technology on a high altitude, long endurance 
airborne platform
    LTG Mann. Current funding is sufficient to develop and demonstrate 
laser weapon technology capabilities to complement kinetic energy 
capabilities in countering rockets, artillery, and mortars and unmanned 
aerial systems. The highest visibility effort is the High Energy Laser 
Tactical Vehicle Demonstrator (HEL TVD). The Army is developing the HEL 
TVD, a 100 kilowatt-class laser system on a family of Medium Tactical 
Vehicles to demonstrate the means to defeat these common threats in a 
cost effective manner. The current funding level in fiscal years 2017-
2022 is sufficient to achieve the scheduled fiscal year 2022 HEL TVD 
demonstration and keeps the Army on path for a scheduled milestone 
decision in fiscal year 2024.
    I defer funding level sufficiency to the Missile Defense Agency 
regarding their technology development effort for a UAV-borne laser 
system.

    3. Senator Inhofe. Have we set estimated costs and a timeline to 
fully develop or field this type of weapon system?
    Mr. McKeon. As directed by the fiscal year (FY) 2016 National 
Defense Authorization Act, section 1680(b), the Missile Defense Agency 
(MDA) is preparing a report on the funding constraints, schedule 
aggressiveness, and technical risks of developing a directed energy 
boost phase intercept capability. They expect to complete their report 
in the near future.
    MDA has requested $71.8 million in the fiscal year 2017 budget in 
Weapons Technology to continue development and testing of its high-
powered directed-energy program to build the foundation for the next-
generation unmanned aerial vehicle (UAV)-borne laser system. I defer 
any further specific questions on this to MDA.
    Admiral Gortney. I believe the Missile Defense Agency (MDA) is 
adequately resourced for developing directed energy capabilities. For a 
detailed explanation of directed energy capability development, to 
include funding and timelines, I recommend contacting the Missile 
Defense Agency.
    VADM Syring. The Missile Defense Agency's PB17 request for directed 
energy includes $278 million over the Future Years Defense Plan (FYDP) 
to support a low power laser demonstrator for boost phase missile 
defense. This will result in a fully integrated laser demonstrator 
capable of engaging a ballistic missile in flight with directed energy. 
The request also includes $291 million over the FYDP to develop high-
powered laser technology that will be needed to achieve size, weight 
and power levels for a future operationally effective capability. These 
investments are essential to maturing the needed technology that is 
required to achieve an operational capability.
    LTG Mann. The Army has developed and is executing a program 
schedule, with specified milestones, to demonstrate a 100 kilowatt 
tactical laser capability in fiscal year 2022. However, the Army has 
not yet developed a detailed cost estimate to field a final 
configuration capability that will best align with the Army's Indirect 
Fire Protection Capability Increment 2 Block 1 program.

    4. Senator Inhofe. I understand these weapons still face 
technological challenges to include power, beam control, lethality, and 
platform development. Is the main limiting factor to fielding these 
weapons funding, technology or something else?
    Mr. McKeon. The main limiting factors to fielding these directed-
energy weapons are related to miniaturization of subsystems, 
specifically power and cooling requirements, while ensuring beam 
coherence and efficiency. I would defer any further questions on the 
specifics of this advanced technology development to the Missile 
Defense Agency.
    Admiral Gortney. My understanding is there are technological 
challenges with the directed energy program, primarily in terms of 
miniaturization of components and power.
    VADM Syring. We assess all of these factors as important. Our 
strategy to address technology challenges is to divide the system into 
components and compete different approaches from industry and national 
laboratories. We will then combine the components into subsystems for 
testing on the ground first and then in the air. Our PB17 budget 
submittal reflects our best assessment as to the proper funding levels 
necessary to move this technology forward. We respectfully request you 
support for PB17.
    LTG Mann. The major limiting factor to fielding directed energy 
weapons is the present maturity of the technology and the ability to 
operationalize this capability in support of the warfighter.
                 ballistic missile threats and defense
    5. Senator Inhofe. Are the threats outpacing our missile defense 
capability given current and projected budgets?
    Mr. McKeon. The President's fiscal year 2017 budget request 
continues funding missile defense capabilities to ensure we remain well 
ahead of adversary ballistic missile threats, and lays the foundation 
for investment in innovative programs to lower the cost-per-intercept 
and defeat emerging ballistic missile threats.
    With regard to Homeland defense, we continue to strengthen our 
Homeland defense posture and invest in technologies to enable us to 
address emerging threats more effectively in the next decade. This 
requires continued improvement to the Ground-based Midcourse Defense 
(GMD) system, including enhanced performance of the Ground-Based 
Interceptor (GBI) and the deployment of new sensors. We remain on track 
to deploy 14 additional interceptors in Alaska by the end of 2017. 
These interceptors, along with the 30 that are currently deployed, will 
provide protection against both North Korean and potential Iranian 
intercontinental ballistic missile (ICBM) threats as they emerge and 
evolve. This year's budget request also reflects the Department of 
Defense's (DOD's) commitment to modernizing the GMD system. It will 
move us towards a more reliable and effective defense of the United 
States. It includes funding for development of a new Long-Range 
Discrimination Radar (LRDR) being installed in Alaska. The LRDR will 
provide persistent sensor coverage and improve discrimination 
capabilities against North Korea. It also continues funding for the 
redesign of the kill vehicle for the GBI.
    Regarding regional missile defense, DOD's fiscal year (FY) 2017 
budget request continues deploying missile defense systems that are 
tailored to the security circumstances in the Asia-Pacific region, 
Europe, and the Middle East. Our focus is on developing and fielding 
missile defense capabilities that are mobile and relocatable, which 
allow us to address regional crises as they emerge. Patriot, Terminal 
High-Altitude Air Defense (THAAD), and our Aegis ballistic missile 
defense (BMD) ships allow us to have flexible, layered missile defense 
capabilities tailored to specific regional threats. We are also 
encouraging our allies and partners to acquire and develop 
interoperable missile defense capabilities. We recognize the need to 
protect our most valuable assets while also drawing on our other 
capabilities to provide a comprehensive military approach to defeating 
the threat from ballistic missiles.
    Admiral Gortney. No, but the ballistic missile threats from North 
Korea and Iran continue to mature. Both countries have demonstrated 
progress in their ballistic missile capabilities in recent years, but 
each country would need to achieve several additional milestones before 
being capable of fielding a reliable ICBM that could target the United 
States. I believe that continued funding of programs such as the Re-
designed Kill Vehicle, Long Range Discrimination Radar, two-/three-
stage selectable Ground-based Interceptor, and the Space-based Kill 
Assessment experiment is necessary to maintain our strategic advantage.
    VADM Syring. The Missile Defense Agency's (MDA) President's Budget 
2017 budget request addresses keeping pace with the current and 
projected long-range ballistic missile threat from North Korea and 
Iran. Overall, we continue to work hard to find more cost-effective 
ways to do the missile defense mission. In regional contexts, there are 
challenging scenarios where adversaries will be able to launch large 
numbers of relatively cheap and increasingly complex missiles and our 
only option is to intercept them with very expensive weapon systems. 
MDA is making critical investments in future system development that we 
believe will significantly improve system performance and 
effectiveness. By improving reliability, enhancing discrimination, and 
expanding battle space to make possible a reengagement firing strategy, 
I believe we can reduce the cost per kill. We are also investigating 
solutions that help reduce reliance on expensive kinetic intercept 
solutions.
    LTG Mann. While the ballistic missile threats continue to evolve 
and grow more complex, I believe we are postured to defeat the near-
term threat. However, the regional threat is becoming more challenging 
and ubiquitous. Continued and predictable funding to improve 
interceptor capacity, reliability, and performance; persistent sensor 
tracking and discrimination; and expansion of Warfighter battlespace 
are necessary to maintain pace with the threat. Additionally, we need 
to continually invest in all pillars of missile defense (passive 
defense, offensive operations, and command & control) to holistically 
address the evolving ballistic missile threats.

    6. Senator Inhofe. Is Iran and North Korea sharing ballistic 
missile technology?
    Mr. McKeon. As Director of National Intelligence (DNI) Clapper 
noted in his testimony to the Senate Armed Services Committee (SASC) on 
February 9, 2016, ``North Korea's export of ballistic missiles and 
associated materials to several countries, including Iran . . . 
illustrate its willingness to proliferate dangerous technologies.'' I 
would defer any further questions on the specifics of adversary 
technology sharing to the Intelligence Community.
    Admiral Gortney. There is ample evidence that North Korea and Iran 
have shared ballistic missile technologies in the past. While we 
believe this relationship continues, the extent of Active cooperation 
between the two countries' missile programs is unclear.
    VADM Syring. As Director of National Intelligence James Clapper 
noted in his testimony to the United States Senate Committee on Armed 
Services on February 9, 2016, ``North Korea's export of ballistic 
missiles and associated materials to several countries, including Iran 
. . . illustrate its willingness to proliferate dangerous 
technologies.'' I would defer any further questions on the specifics of 
adversary technology sharing to the Defense Intelligence Agency.
    LTG Mann. Yes, it is the Intelligence Community's assessment that 
Iran and North Korea have collaborated on missile defense technology. 
Dating back to the 1980s, Iran and North Korea developed a close 
working relationship on many ballistic missile programs. During the 
1990s, various Intelligence Community assessments continued to note 
several recurring trends between the two nations. Technical exchanges, 
as well as the transfer of missile-related components, has 
significantly supported Iran's ability to become more self-sufficient 
while improving the quality of their systems. More recent Intelligence 
Community assessments indicate ballistic missile technology development 
cooperation between the two countries has continued during recent 
years.

    7. Senator Inhofe. What North Korea and Iran current and projected 
capability to strike the United States with a conventional ICBM? A 
nuclear ICBM?
    Mr. McKeon. I would defer questions on the specifics of the 
Department's assessment of North Korean and Iranian capabilities to the 
Intelligence Community. I know that Director Clapper provided updates 
on both North Korea and Iran's ballistic missile capabilities in his 
statement to the Senate Armed Services Committee on February 9, 2016.
    Admiral Gortney. North Korea has test-detonated four nuclear 
devices and, through its space program, has demonstrated many of the 
technologies required for an ICBM that could target the continental 
United States. Meanwhile, North Korean military parades have showcased 
road-mobile ICBMs which, if deployed, could complicate our ability to 
provide warning of an attack. However, North Korea's road-mobile ICBMs 
have not been flight-tested and are assessed to have low reliability.
    Iran has likewise committed considerable resources to enhancing its 
ballistic missile capabilities and has begun testing a new booster that 
could serve as a demonstrator for ICBM technologies. However, we have 
no reporting to suggest Iran's leaders plan to field that system as a 
weapon, and we assess Iran is unlikely to deploy an operational ICBM--
regardless of payload--until at least 2020.
    VADM Syring. As Director of National Intelligence James Clapper 
noted in his statement to the United States Senate Committee on Armed 
Services on February 9, 2016:
    ``North Korea has also expanded the size and sophistication of its 
ballistic missile forces--from close-range ballistic missiles to 
intercontinental ballistic missiles (ICBMs)--and continues to conduct 
test launches. In May 2015, North Korea claimed that it successfully 
tested a ballistic missile from a submarine. Pyongyang is also 
committed to developing a long-range, nuclear-armed missile that is 
capable of posing a direct threat to the United States; it has publicly 
displayed its KN08 road-mobile ICBM on multiple occasions. We assess 
that North Korea has already taken initial steps toward fielding this 
system, although the system has not been flight-tested.
    We judge that Tehran would choose ballistic missiles as its 
preferred method of delivering nuclear weapons, if it builds them. 
Iran's ballistic missiles are inherently capable of delivering WMD, and 
Tehran already has the largest inventory of ballistic missiles in the 
Middle East. Iran's progress on space launch vehicles--along with its 
desire to deter the United States and its allies--provides Tehran with 
the means and motivation to develop longer-range missiles, including 
ICBMs.''
    I would defer any further questions on the specifics of the 
Department's assessment of North Korean and Iranian capabilities to the 
Defense Intelligence Agency.
    LTG Mann. The Intelligence Community assesses that neither North 
Korea nor Iran presently possess current capability to reach any 
portion of the United States with an intercontinental ballistic missile 
(IBCM). However, as many in the Intelligence and Missile Defense 
Communities do, I believe that, left unabated, both countries will soon 
possess the capability to successfully strike the Homeland with a 
conventional ICBM.
    Regarding a nuclear intercontinental ballistic missile, recent 
claims of successful nuclear tests, the stockpiling of weapons grade 
fissile materials, and continued ballistic missile development indicate 
a future North Korean nuclear capability. The Intelligence Community is 
presently not aware of Iran's intent to develop nuclear weapons.

    8. Senator Inhofe. What are we doing to protect our missile defense 
capabilities against a cyber-attack?
    Mr. McKeon. The Missile Defense Agency (MDA) is very aware of the 
growing cyber threat to our missile defense capabilities. MDA is 
working very closely with the Services, Combatant Commands, especially 
U.S. Strategic Command's U.S. Cyber Command (USCYBERCOM), and other 
agencies in DOD and the Federal Government to counter this growing 
threat.
    I would defer any other questions on specific efforts MDA is taking 
with regard to cybersecurity to MDA.
    Admiral Gortney. My assigned cyber protections teams work close 
with the Missile Defense Agency to ensure the vulnerabilities to the 
Ballistic Missile Defense System are identified and mitigated. For 
specific details on cyber protection, I recommend contacting the 
Missile Defense Agency.
    VADM Syring. The Missile Defense Agency (MDA) remains cognizant of 
the growing cyber threat and aggressively works to ensure the Nation's 
missile defenses are able to operate in a highly contested cyber 
environment. Key goals are to protect MDA program and technical 
information for both government and supporting Defense Industrial Base 
(DIB) networks and systems from our potential adversaries.
    MDA has implemented a comprehensive layered cyber defense strategy, 
which includes key partnering efforts with USSTRATCOM, USCYBERCOM, 
Multiple National, Service and COCOM Cyber Protect Teams (CPT), Defense 
Security Service (DSS), JFHQ DODIN, AT&L, FBI and our missile defense 
industry partners in the Defense Industrial Base. In addition, MDA Co-
chairs the Global Missile Defense Cybersecurity Integration Steering 
Group (GCSG) which is chartered by CDR USSTRATCOM and Director MDA. 
This group unites RDT&E and operational BMD stakeholders as mandated by 
CJCSI 3295.01, Policy Guidance for BMD Operations. The GCSG takes 
actions and tracks status in four areas: cyber threat, cyber 
assessments, network operations/defense, and certification and 
accreditation.
    MDA has also placed special emphasis on incorporating evolving 
Federal and DOD cybersecurity requirements early in the acquisition 
life-cycle, to include improvements in supply chain risk management and 
bolstering program protection into the BMD specifications. These 
efforts increase our cybersecurity robustness of fielded BMD 
capabilities in fielded systems and supporting networks.
    Finally, we have implemented Active monitoring and are building 
resilient cyber defenses that are capable of detecting and mitigating 
threats without impeding operations in order to ``fight through'' the 
cyber threat. MDA collaborates with the Director of Operational Test 
and Evaluation (DOT&E) to conduct cyber penetration testing on key 
missile defense capabilities. We then use the results of those tests to 
conduct risk assessments to prioritize cybersecurity improvements, 
develop mitigation strategies, and improve cyber training. We are also 
working to develop better cyber Concept of Operations (CONOPS) to 
ensure every network defender in every location knows how to react to 
cyber challenges.
    LTG Mann. Within the Army, as well as the Department's missile 
defense community, we continuously assess technology gaps and potential 
vulnerabilities in our missile defense capabilities. These assessments 
include testing and exercising cyber-attack related scenarios to our 
intrusion detection and protection systems within the integrated fire 
control networks, sensors, shooters, and command and control systems. 
We continuously perform security activities to reduce cyber threats 
introduced through the supply chain, such as malicious tampering of 
commercial hardware or software. We also routinely perform audits of 
our defense industrial base to ensure that they are properly 
safeguarding our critical intellectual property. In conjunction with 
multiple organizations and commands within the Department, we are 
continuing to enhance our cyber-attack defense posture.
    Within the Ballistic Missile Defense System (BMDS), we continue to 
collaborate with others to enhance the cyber defense posture of our 
missile defense capabilities. The Joint Functional Component Command 
for Integrated Missile Defense, in coordination with U.S. Strategic 
Command and the Missile Defense Agency conduct the Computer Network 
Defense mission for the BMDS ensuring cyber defenses and operations are 
planned and executed in a coordinated effort.
                        homeland missile defense
    9. Senator Inhofe. What is the status of MDA's efforts on the 
Multiple Object Kill Vehicle? I understand it is currently underfunded 
by approximately $55 million. How does that effect the program?
    VADM Syring. We are on track to establish the technological 
foundation to engage and destroy multiple, credible lethal objects from 
a single Ground Based Interceptor through our (MOKV) program. We are 
currently investing in developing concepts and reducing technological 
risk. In fiscal year 2015 (FY15), we awarded contracts to three major 
kill vehicle primes--Boeing, Lockheed Martin, and Raytheon--to define 
concepts and identify key areas of technical risk. In the next several 
years, we will invest in reducing the risk so that each of these 
concepts can enter prototype development at a high technology readiness 
level and then progress to flight testing.
    MDA's fiscal year 2017 requested funding is sufficient to support 
this effort at this time.

    10. Senator Inhofe. Do we have enough Ground Based Interceptors 
given the growing threat? If no, will development of the Multiple 
Object Kill Vehicle mitigate any shortage or do we need more GBIs?
    VADM Syring. Yes we currently have enough Ground Based 
Interceptors. In 2013, the Secretary of Defense directed MDA to 
increase the number of emplaced GBIs from 30 to 44 by the end of 2017, 
upgrade Missile Field #1 at Fort Greely, Alaska, and deploy the second 
AN/TPY-2 to Japan, which is already operational.
    In addition, we are currently making critical development 
investments to significantly improve Ballistic Missile Defense System 
(BMDS) performance to counter the growing threat. The Redesigned Kill 
Vehicle and Configuration 3 booster will improve GBI reliability and 
survivability, which will provide greater flexibility for combatant 
commanders when determining BMDS engagement tactics. A highly reliable 
interceptor provides greater confidence for the warfighter when 
determining the number of interceptors required for an engagement 
scenario.
    The MDA is also working to further influence shot doctrine and 
improve the missile defense cost curve by increasing the number of kill 
vehicles delivered by a single boost vehicle, which is the goal of the 
MOKV effort. The more kill vehicles we can deploy per booster, the 
greater capability our Ground-based Midcourse Defense system will have 
in the future to defeat complex threats.
    MDA's current investments in increasing the number of GBIs from 30 
to 44 by 2017, our efforts on the RKV and our plans for MOKV, along 
with other BMDS-wide improvements are planned and funded appropriately 
to pace current threat projections.

    11. Senator Inhofe. What is the status of the new Long Range 
Discrimination Radar in Alaska--funding, planning and timeline? How 
does this radar improve our missile defense capabilities?
    VADM Syring. As a component of the 2020 Ballistic Missile Defense 
System (BMDS), the Long Range Discrimination Radar (LRDR) is designed 
to address both discrimination and operational readiness challenges. 
The LRDR will provide persistent long-range midcourse discrimination, 
precision tracking and hit assessment against complex long-range 
missile threats for Homeland Defense. The increased discrimination 
capability of the LRDR improves Ground Based Interceptor shot doctrine 
and preserves inventory for the BMDS. Additionally, the LRDR can 
support the Space Situational Awareness mission as directed.
    The LRDR funding profile is as follows:
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The LRDR contract was awarded in October 2015 to Lockheed Martin. 
Sensors Directorate completed a Systems Requirements Review with the 
prime contractor in February 2016 and system development is underway. 
Initial fielding at Clear Air Force Station in Alaska will occur in 
first quarter fiscal year 2021 (FY21) and transition/transfer to the 
Air Force will occur in fiscal year 2022. Attached is a detailed 
schedule outlining prime contractor radar development activities, 
MILCON Facilities construction, and integration and testing.
    Attachment:
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    12. Senator Inhofe. The fiscal year 2016 NDAA directed deployment 
of a long-range discrimination radar or other appropriate sensor 
capability to support the defense of the Homeland against Iran by 31 
Dec 2020. Without this sensor, the GBIs deployed in Alaska will have a 
difficult time defending against an Iranian ICBM. Are we on track to 
have this sensor in place by 31 Dec 2020? Can you provide this 
committee a detailed planning, funding and operational capability 
timeline?
    VADM Syring. Atlantic Radar options are still under evaluation. In 
section 236 of the fiscal year (FY) 2014 National Defense Authorization 
Act (NDAA), Congress directed the Secretary of Defense and U.S. 
Strategic Command to conduct an evaluation of options and alternatives 
for future sensor architectures for ballistic missile defense in a cost 
and operationally effective and timely manner as part of section 236 of 
the 2014 NDAA.
    In response to the 2014 NDAA language, the Missile Defense Agency 
(MDA) is collaborating with the Department to include U.S. Northern 
Command, U.S. Strategic Command, U.S. Pacific Command, U.S. European 
Command, the Office of the Under Secretary of Defense (Acquisition, 
Technology, and Logistics), and the Office of Cost Assessment and 
Program Evaluation, on a Global Sensor Ballistic Missile Defense (BMD) 
Architecture Analysis of Alternatives (AoA) to define the future sensor 
architecture to meet the evolving BMD threat, ``Sensor AoA''.
    The Sensor AoA efforts focus on current and potential future threat 
capabilities from both North Korea and Iran. The AoA will provide an 
analytical comparison of the technical feasibility, operational 
effectiveness, operational suitability, military utility, risk, cost 
and developmental schedule for future Ballistic Missile Defense System 
sensor architecture options.
    Planning, funding, and operational capability options are being 
analyzed within the sensor AoA study that is described above. 
Completion of the Sensors AoA study is anticipated in summer 2016. 
Decisions by the Department will be made after completion of the AoA.
    Progress on addressing the potential future Iranian threat has 
begun. In November 2015, MDA commenced a siting study to identify 
candidate East Coast homeports for SBX. We expect to complete the study 
by December 2016. Working with the Navy's Military Sealift Command and 
other Navy and Combatant Command stakeholders, MDA expects this study 
to identify environmental assessments or impact statements required by 
the National Environmental Policy Act, inform homeport agreement, 
identify pier or other infrastructure modifications, and define 
communications support and other requirements for a potential future 
move of SBX to an East Coast homeport.
    In March 2016, MDA completed an operational area analysis that 
identified potential sensor locations best suited for added 
discrimination capability against potential future long range threats 
from Iran. This analysis supports the siting study for potential 
reassignment of the Sea-Based X-band radar (SBX) as required by section 
1684(b) and the siting study for additional sensor sites for defense 
against Iran as required by section 1684(c) of the fiscal year 2016 
NDAA.
    In fiscal year 2017, data from these efforts will inform siting and 
necessary engineering studies for future Department consideration of 
these and other program options to address the potential future Iranian 
threat.
                               __________
              Questions Submitted by Senator Dan Sullivan
             ground-based missile defense (gmd) priorities
    13. Senator Sullivan. Within the GMD missile defense budget, there 
are a number of needs, both near- and long-term. Within the categories 
of 1) Imminent Near-Term Needs; 2) Critical Mid-Term Needs; 3) 
Important Long-Term Investments; and 4) Long-Term Wish List, how would 
you categorize the following priorities and any additional MDA 
priorities within GMD: 44 GBIs, LRDR, new 2-stage GBI Boosters, East 
Coast LRDR-type radar, new Kill Vehicles (RKV/MOKV), Fort Greely ground 
system upgrades, investment in ``left of launch'' capabilities, and an 
East Coast missile site?
    VADM Syring. Our imminent near-term priorities for enhancing 
Homeland Defense are increasing the Ground Based Interceptor (GBI) 
fleet from 30 to 44 by the end of 2017 and upgrading the GMD Ground 
System. MDA's highest priority investments to address emerging threats 
in the mid-term period includes deploying the LRDR at Clear AFB, 
Alaska, developing and testing of the Redesigned Kill Vehicle, 
developing software to permit a 2-Stage mode for our 3-Stage GBI, and 
completing Fort Greeley ground system upgrade.
    The Multi-Object Kill Vehicle (MOKV) and consideration of a 
potential future (Atlantic) East Coast LRDR type radar could address 
the anticipated evolving threat. MDA's fiscal year 2017 funding request 
is sufficient to support concept development and technology risk 
reduction for MOKV. Investment in discrimination and sensor 
capabilities will yield more cost-effective near-term improvements to 
U.S. Homeland missile defense than deployment of an additional 
Continental United States Interceptor Site.
    I defer to the Office of the Secretary of Defense (OSD) on Left-of-
Launch investments and capabilities.
                               __________
               Questions Submitted by Senator Joe Manchin
   utility of west virginia mountain reclamation areas for the u.s. 
                         missile defense system
    14. Senator Manchin. The state of West Virginia has conducted strip 
mine land reclamation projects in the state's mountains. These mountain 
sites offer high altitude flat terrain useful for military operations 
such as the Alpha Natural Resources C-130 airstrip in Logan County. 
During the April 13, 2016 hearing, you indicated the need to improve 
missile defense sensors and sensor operations. Has the Missile Defense 
Agency considered reclaimed mountain sites in West Virginia as useful 
for sensor operations in support of ICBM, SLBM, and cruise missile 
defense for the National Capital Region?
    VADM Syring. The Missile Defense Agency (MDA) has not looked at 
strip mine reclamation sites for missile defense systems. The MDA 
interceptor siting study initiated in January 2013 used the Department 
of Defense Base Structure Report (BSR) as directed with 457 properties 
in the 28-state area of consideration. West Virginia had 10 properties 
on the BSR list. Application of the ``Parcel Size'' exclusionary 
criterion eliminated nine of the West Virginia properties and the last 
property was eliminated based on the ``Useable Land/Space'' 
exclusionary criterion. ICBM and SLBM threat trajectories flying toward 
the United States fly over or near the North Pole. Interceptor and 
sensor locations in northern most Continental U.S. provide the best 
system performance. MDA has not examined cruise missile defense for the 
National Capital Region. That mission typically is allocated to Army or 
Air Force air defense systems.

                                 <all>
</pre></body></html>
